<html>
<title> - STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR FISCAL YEAR 2018</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]






 
  STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                            FISCAL YEAR 2018

                              ----------                              


                         TUESDAY, JUNE 13, 2017

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    The subcommittee met at 2:48 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Lindsey Graham (chairman) 
presiding.
    Present: Senators Graham, Leahy, Moran, Shaheen, Boozman, 
Durbin, Van Hollen, Coons, Daines, and Murphy.

                          DEPARTMENT OF STATE

STATEMENT OF THE HON. REX TILLERSON, SECRETARY

              OPENING STATEMENT OF SENATOR LINDSEY GRAHAM

    Senator Graham. The subcommittee hearing will come to 
order. Our hearing today is on the President's fiscal year 2018 
budget request and justification for the Department of State. I 
would like to welcome our witness, Secretary of State Rex 
Tillerson. After opening statements from myself and the ranking 
member, we'll hear from the Secretary.
    We will accept your written testimony and anything you 
would like to tell us personally.
    This is going to be a little bit longer than normal. This 
is a very important issue for the country, and a passion of 
mine.
    Number one, Secretary Tillerson, I like the way you 
represent our country. You have a style that's pretty good for 
the world as it is today. You're a man of few words, but when 
you talk people listen. Your view of Qatar, I share. What 
you're doing in North Korea is beginning to penetrate. I just 
met with the Chinese. I think they get your message. And I 
think you're looking for ways for people to get to yes and 
always leaving backdoors to hard situations. So in terms of 
your style and your attitude toward the job, I very much 
appreciate it.
    As to the budget, we need to increase defense spending, but 
once you do that, if you're not going to deal with 
entitlements, you have to go to non-defense discretionary 
spending to find the offsets, and this account gets pretty much 
devastated. I'm not blaming you, I'm not blaming anybody, I 
just want the country to know this budget request is in many 
ways radical and reckless when it comes to soft power, and I 
look forward to working with you, Mr. Secretary, to find a 
better budget, but also to find a better State Department.
    You've just gotten there, you've been there a few months. A 
year from now I think you'll have a better understanding of how 
the State Department can be reformed, and I intend to be your 
partner and champion for reforming the State Department. Let's 
give it a good once-over, see what works, what doesn't. How 
many people do we actually need? All of that is long overdue.
    I welcome that kind of analysis, but what we have today is 
a number basically driven by the requirement to balance the 
budget, increase defense spending, and this account gets hit 
pretty hard. I don't think it's a result of the scrutiny of how 
the State Department works as much budget pressure given from 
increased military spending.
    So the first chart I have is to my right. General Mattis 
said: ``If you don't fund the State Department fully, then I 
need to buy more ammunition''. Sixteen retired four-star 
generals and admirals submitted testimony for this hearing that 
``Cutting the International Affairs budget unilaterally will 
have the effect of disarming our country's capability to stop 
new conflicts from forming, and will place our interests, 
values, and the lives of our men and women in uniform at 
risk''.
    So here's the point. I believe after 42 trips to Iraq and 
Afghanistan, we are never going to win this war by killing 
terrorists alone, that there has to be a soft power connection 
that the day after you have to hold, and the terrorists offer a 
glorious death, and we must offer a hopeful life. That's where 
your people come in, Mr. Secretary, along with the United 
States Agency for International Development (USAID) to give the 
capability the day after to form a better life for those who 
are having to choose between terrorism and modern thought.
    I believe, as the generals do--if you don't believe me, 
listen to the generals--that the State Department's role in the 
war on terror is very important, to me just as important as any 
military power we have.
    Now, how much do we spend on soft power? We spend 1.4 
percent of our gross domestic product (GDP). A lot of people 
think foreign aid is about 25 percent of what we spend, but 
compared to hard power, which is about 20 percent of what we 
spend, we spend a very small amount on soft power, and that 1.4 
percent includes things beyond just traditional soft power.
    I want the country to know that if you eliminated the State 
Department, you would not even begin to move the debt needle. 
The question is if you cripple the State Department, it's not 
about debt to me, it's about security and American values being 
impeded.
    Let's look at GDP on defense and non-defense. GDP on hard 
power is about 3 percent of GDP. On soft power, it's a rounding 
error, and this chart shows you that we're going downward 
dramatically on soft power and upward on hard power.
    A comparison of DoD-State Department workforce. How many 
people do we have in the hard power world and soft power world? 
Okay. You see in this chart over here the numbers of State 
USAID, which is a very small percentage, and we have well over 
a million people in uniform.
    If you believe soft power is important, and the generals 
tell me you do, look at the balance. Here is what I would 
suggest. We do need more hard power because sequestration has 
hurt hard power, but you're going to have a hard time 
convincing me that soft power can stand a 29 percent cut, and 
we'll talk about that more. So that's the comparability of the 
workforce basically.
    For the International Affairs Budget historically, look at 
the big drop in 2018, plus-up in 2017, and the world has gone 
to hell in a handcart. Now, our response is to increase hard 
power, which I agree with, but a 29 percent reduction in soft 
power in 2018 doesn't make a whole lot of sense to me. Just 
look at that drop and say given the world as we know it, and 
the role that soft power plays, according to the generals, not 
Lindsey Graham, is this wise? I really don't think so.
    Embassy security funding. We all remember Benghazi. Look at 
this reduction in funding for security of our embassies. All I 
can say, given the threats that I see, now is not the time to 
decrease Embassy security funding unless you're going to close 
a lot of embassies, and I'm not so sure now is the time to be 
closing a lot of embassies.
    Here's what the Benghazi Accountability Review Board told 
us. It is imperative for the State Department to be mission-
driven rather than resource-constrained. So here's the 
question: the mission of the State Department in a world 
falling apart, is it greater or smaller? And if you think it's 
greater, then the budget should follow the need, not just some 
artificial number.
    All right. Let's go to HIV/AIDS. As a Republican, I am 
proud of President George W. Bush 43, who came up with a 
program called the U.S. President's Emergency Plan for AIDS 
Relief (PEPFAR), supported by almost every Democrat. President 
Obama continued this. And as you can see, in the return on the 
dollar for the PEPFAR program has been absolutely astounding. 
Millions of young Africans are alive today because of the 
PEPFAR program. Mother-to-child AIDS transmissions has gone 
down by 75 percent. Every American taxpayer should be pleased 
that your hard-earned dollars went to a continent being 
consumed by a vicious disease called AIDS, and we're beginning 
to turn the corner. We're not there yet, but there are five 
countries that are going to be self-sufficient, and this budget 
cuts it by a billion dollars when we're inside the 10-yard 
line. I could give you the numbers of what it means to the 
programs, but there are a lot. Hundreds of thousands of people 
will not be treated because of this budget cut. I think it's 
penny-wise and pound-foolish.
    Humanitarian assistance. There are currently 65.3 million 
people forcefully displaced worldwide. That's the highest level 
in modern history. Now, what role does the State Department 
play in this? Twenty million people are currently at risk of 
famine. So you have famine and you have manmade wars and 
disasters. Look what we're doing with assistance. We're cutting 
it at a time when disaster assistance needs are at an all-time 
high.
    The President's fiscal year 2018 budget cuts international 
disaster assistance and food aid by $3.4 billion, 77 percent 
below the 2017 numbers. The terrorists love this. The 
terrorists hate the idea that America shows up with some food 
and education. From a terrorist point of view, this is really a 
recruiting tool. From an American point of view, we've got to 
fix this problem because if we cut back, other people will 
follow, and you're going to pay now or pay later. You're going 
to deal with these people now while they can still be helped or 
wind up killing them later when the young people become 
terrorists. So I've got a real problem with that one.
    Georgia, not my neighbor Georgia, the country. For the 
record, I like the people in Georgia. [Laughter.]
    Georgia is fighting in Afghanistan without any caveats. 
They're one of the few countries that go to Afghanistan to 
partner with our soldiers and do whatever we ask them to do. 
They've died in large numbers. They have absolutely no 
restrictions on their force. They help us win a war in 
Afghanistan we can't afford to lose. Their neighbor is a pretty 
bad hombre, the Russians.
    I'm not going to bore you with telling you about what 
Russia has been doing to their friends in the region, 
particularly Georgia, but it's not good. What signal are we 
sending to Georgia when we cut their assistance 66 percent at a 
time when Russia is on the prowl and we need more help in 
Afghanistan, not less? This is the wrong message to our friends 
and certainly the wrong message to Russia. I am at a loss of 
why we would cut aid to Georgia given what Russia is doing in 
the region now, and I'm at loss of why we would want to send 
this signal to a people who are sending their troops to 
Afghanistan without any conditions.
    Sri Lanka. Small place. It's within 20 miles of sea lanes 
that carry over two-thirds of the world's oil shipments and 
half the world's container cargo. China is a big player there. 
They just ended a 26-year conflict; democratic progress is in 
our interest to have a democracy that is close to the world's 
shipping lanes. China is a competitor. And, unfortunately, 
we're reducing our assistance to Sri Lanka as China is going 
all in. Not a wise move.
    Now, this is to you, Mr. Secretary. You ran one of the best 
businesses in the world. You're a really smart guy. But here's 
what's on your plate that I could think of: ISIS. You're going 
to beat them militarily, but if you don't have a plan for the 
day after, we're going to lose again. What do you do with Iraq? 
What do you do with Mosul? What do you do with Anbar Province? 
How do you hold it? So defeating ISIS permanently has to have a 
hold-and-build strategy. That's where USAID and all your really 
smart people come into play.
    Qatar. If you read the op-ed piece today by the United Arab 
Emirates ambassador, things are not going well. You've got 
Qatar right from our point of view. We've got 10,000 airmen and 
soldiers there. We can't let this get out of hand, so you're 
going to be pretty busy with Qatar.
    Russia. Don't have time to talk about what's on your plate 
with Russia, it's just a lot.
    Syria. If we can ever find a way to end the war, it will be 
in Geneva, and you'll be at the table trying to find a way to 
put Syria back together to make sure that the war doesn't start 
again and Lebanon and Jordan don't fall because of endless war. 
The resources necessary to repair the damage in Syria makes 
Iraq look like a walk in the park, and part of those resources 
will be you and your talented people who will go in there and 
help the Syrian people deal with the devastation.
    North Korea. I like what you're doing in North Korea. I 
don't think we're out of the woods yet.
    So you're going to be a busy guy. Sixty-five million people 
displaced on your watch. By the way, the war in Afghanistan, we 
need more soldiers, and I think the President is going to give 
the generals what they want, but we also need to make sure that 
the soldiers' sacrifice is not forsaken because you better have 
a plan to rebuild those areas we've lost from the Taliban once 
we take it back or we're going to lose them again. So that's 
where your people come in.
    The President said the Iranian nuclear agreement is 
terrible, and he wants to replace it. If you had nothing else 
to do but that, that would be a full-time job. Good luck.
    Ukraine. It doesn't seem to be getting better to me.
    China. I really like what you're doing with China regarding 
North Korea. I think you're making it real to the Chinese they 
better change their game because President Trump is not going 
to allow them to get a missile to hit our homeland, and you've 
got a pretty good approach, but China is tough.
    Twenty million people impacted by famine, and they tell me 
we're going to start the Mideast peace process all over again.
    You're the man. You're going to do all that and cut the 
budget by 29 percent. Thank you for coming.
    Senator Leahy.

                 STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. Well, I was going to be tough, but I'll---- 
[Laughter.]
    I agree with Senator Graham. We've worked together on this 
subcommittee for a long time, part of the time he's been 
chairman, part of the time I've been chairman, but usually the 
bills we've brought out of here have gotten a virtual unanimous 
vote, Republicans and Democrats, because we care about it.
    I want to read a few passages from a May 25 guest column in 
the ``New York Times'' by Colin Powell, who served as Chairman 
of the Joint Chiefs of Staff under President George H.W. Bush 
and President Clinton, and as Secretary of State under 
President George W. Bush. He wrote, and I quote, At our best, 
being a great nation has always been a commitment to building a 
better, safer world, not just for ourselves, but for our 
children and our grandchildren. This has meant leading the 
world and advancing a cause of peace, responding when disease 
and disaster strike, lifting millions out of poverty, and 
inspiring those yearning for freedom. This calling is under 
threat. The administration's proposal to slash approximately 30 
percent from the State Department and foreign assistance budget 
signals an American retreat, leaving a vacuum and making us far 
less safe, proposing to bring resources for our civilian forces 
to a third of what we spent at the height of Ronald Reagan's 
``peace through strength'' years. It would be internationally 
irresponsible, distressing our friends and encouraging our 
enemies and undermining our own economic and national security 
interests. The idea that putting America first requires 
withdrawal from the world is simply wrongheaded.
    And he goes on to speak of his own experience, that many 
thought that the end of the Cold War would allow us to retreat. 
Well, it has not. Do we really want to slash the State 
Department and USAID at such a perilous moment? No.
    What we're saying when we talk about making America great, 
what we're talking about, we're stepping aside, we're letting 
other countries fill the vacuum, and making the United States 
less great. I'd like to think our values are the ones that set 
the example for other countries.
    Obviously you disagree with Secretary Powell. Why do you 
believe that eliminating thousands of personnel positions, 
cutting billions of dollars from programs administered by the 
Department of State and USAID is in our best interest? I would 
ask the chairman to put the Powell article in the record.
    Senator Graham. Without objection.
    [The information follows:]

                [From The New York Times, May 24, 2017]

_______________________________________________________________________

Opinion  <rm-bond>  op-ed contributor

       COLIN POWELL: AMERICAN LEADERSHIP--WE CAN'T DO IT FOR FREE

                           (By Colin Powell)

    At our best, being a great nation has always meant a commitment to 
building a better, safer world--not just for ourselves, but for our 
children and grandchildren. This has meant leading the world in 
advancing the cause of peace, responding when disease and disaster 
strike, lifting millions out of poverty and inspiring those yearning 
for freedom.
    This calling is under threat.
    The administration's proposal, announced Tuesday, to slash 
approximately 30 percent from the State Department and foreign 
assistance budget signals an American retreat, leaving a vacuum that 
would make us far less safe and prosperous. While it may sound penny-
wise, it is pound-foolish.
    This proposal would bring resources for our civilian forces to a 
third of what we spent at the height of Ronald Reagan's ``peace through 
strength'' years, as a percentage of the gross domestic product. It 
would be internationally irresponsible, distressing our friends, 
encouraging our enemies and undermining our own economic and national 
security interests.
    The idea that putting Americans ``first'' requires a withdrawal 
from the world is simply wrongheaded, because a retreat would achieve 
exactly the opposite for our citizens. I learned that lesson the hard 
way when I became Secretary of State after a decade of budget cuts that 
hollowed out our civilian foreign policy tools.
    Many had assumed the Cold War's end would allow us to retreat from 
the world, but cuts that may have looked logical at the time came back 
to haunt us as tensions rose in the Middle East, Africa, the Korean 
Peninsula and elsewhere. Confronting such challenges requires not just 
a military that is second to none, but also well-resourced, effective 
and empowered diplomats and aid workers.
    Indeed, we're strongest when the face of America isn't only a 
soldier carrying a gun but also a diplomat negotiating peace, a Peace 
Corps volunteer bringing clean water to a village or a relief worker 
stepping off a cargo plane as floodwaters rise. While I am all for 
reviewing, reforming and strengthening the State Department and the 
United States Agency for International Development, proposals to zero 
out economic and development assistance in more than 35 countries would 
effectively lower our flag at our outposts around the world and make us 
far less safe.
    Today, the world is witnessing some of the most significant 
humanitarian crises in living memory. With more than 65 million people 
displaced, there have never been more people fleeing war and 
instability since World War II. The famines engulfing families in South 
Sudan, Yemen, Nigeria and Somalia put more than 20 million people at 
risk of starvation--further destabilizing regions already under threat 
from the Islamic State, Al Qaeda, Boko Haram and Al-Shabaab.
    Do we really want to slash the State Department and the U.S.A.I.D. 
at such a perilous moment? The American answer has always been no. Yet 
this budget proposal has forced us to ask what America's role in the 
world is and what kind of nation we seek to be. The President's budget 
director, Mick Mulvaney, has described these cuts as ``not a reflection 
of the President's policies regarding an attitude toward State.'' But 
how is a 32 percent cut to our civilian programs overseas anything but 
a clear expression of policy?
    True, many in Congress have effectively declared the 
administration's budget proposal ``dead on arrival,'' but they also 
acknowledge that it will set the tone for the coming budget debate. 
That's the wrong conversation. Our diplomacy and development budget is 
not just about reducing spending and finding efficiencies. We need a 
frank conversation about what we stand for as that ``shining city on a 
hill.'' And that conversation begins by acknowledging that we can't do 
it on the cheap.
    Diplomacy and aid aren't the only self-defeating cuts in the 
administration's proposal. A call to all but eliminate two key export-
promotion agencies--the Overseas Private Investment Corporation and the 
Trade and Development Agency--would harm thousands of American workers 
and actually add to the deficit. And any cuts to our economic 
development investments in Africa and elsewhere would undermine our 
ability to build new customer bases in the world's fastest-growing 
markets.
    With 95 percent of the world's consumers outside our borders, it's 
not ``America first'' to surrender the field to an ambitious China 
rapidly expanding its influence, building highways and railroads across 
Africa and Asia. China is far from slashing its development budget. 
Instead, it's growing--by more than 780 percent in Africa alone since 
2003.
    Since the release of its initial budget request in March, the 
administration has started to demonstrate a more strategic foreign 
policy approach. This is welcome, but it will take far more than a 
strike against Syria, a harder line on Russia, increased pressure on 
North Korea and deeper engagement with China to steer American foreign 
policy. It also takes the resources to underwrite it.
    America is great when we're the country that the world admires, a 
beacon of hope and a principled people who are generous, fair and 
caring. That's the American way. If we're still that nation, then we 
must continue to devote this small but strategic 1 percent of our 
Federal budget to this mission.
    Throughout my career, I learned plenty about war on the 
battlefield, but I learned even more about the importance of finding 
peace. And that is what the State Department and U.S.A.I.D. do: prevent 
the wars that we can avoid, so that we fight only the ones we must. For 
our servicemembers and citizens, it's an investment we must make.

Colin Powell was the Secretary of State from 2001 to 2005.

A version of this op-ed appears in print on May 25, 2017, on Page A27 
of the New York edition with the headline: Leadership Isn't Free.

    Senator Leahy. Secretary Powell also said that many had 
assumed the Cold War's end would allow us to withdraw from the 
world, but cuts that may have looked logical at the time came 
back to haunt us as tensions rose in the Middle East, Africa, 
the Korean Peninsula, and elsewhere. Confronting such 
challenges requires not just a military that's second to none, 
but also the resources for effective, empowered diplomats and 
aid workers.
    I think what General Powell was saying and others have 
said, is that much of the world has looked to the United States 
for leadership. We're walking away from that leadership. We 
spend a little over 1 percent of our budget on foreign aid, and 
on a per capita basis a lot of countries spend more. Why would 
we give up that influence? Does that make us safer? Why do we 
want to let some of these totalitarian regimes expand their 
influence versus American influence? Does it make us safer if 
we allow epidemics to spread around the world? Does it make us 
safer if we don't do our part to help with the flood of 
refugees that's overwhelming allies like Jordan? Does it make 
us any safer if we pretend that we can be Fortress America? I 
remember how well that worked in 9/11 when Saudi Arabia sent 
people to fly airplanes into the Twin Towers.
    We can't be Fortress America. We face problems at home, of 
course. We face problems abroad.
    I want you to know that I agree with the chairman, and we 
have very strong views on this.
    Senator Graham. Mr. Secretary, the floor is yours. Thank 
you for coming.

                SUMMARY STATEMENT OF HON. REX TILLERSON

    Secretary Tillerson. Thank you, Chairman Graham, Ranking 
Member Leahy, and distinguished Members of the subcommittee. I 
appreciate the opportunity to discuss the administration's 
State Department and USAID budget request for fiscal year 2018.
    As we all know, America's global competitive advantages and 
standing as a leader are under constant challenge. The 
dedicated men and women of the State Department and USAID carry 
out the important and often perilous work of advancing 
America's interest every single day, 24 hours a day, and 365 
days a year. That mission is unchanged. However, the State 
Department and USAID, like many other institutions here at home 
and around the world, have not evolved in their responsiveness 
as quickly as new challenges and threats to our national 
security have changed and are changing. We are challenged to 
respond to a post-Cold War world that set in motion new global 
dynamics and a post-9/11 world characterized by historic 
threats that present themselves in ways never seen before 
enabled by technological tools that we have been ill-prepared 
to engage.
    The 21st century has already presented many evolving 
challenges to the U.S. national security and economic 
prosperity. We must develop proactive responses to protect and 
advance the interests of the American people. With such a broad 
array of threats facing the United States, the fiscal year 2018 
budget request of $37.6 billion aligns with the 
administration's objective of making America's security our top 
priority. The first responsibility of government is the 
security of its own citizens, and we will orient our diplomatic 
efforts toward fulfilling that commitment.
    While our mission will also be focused on advancing the 
economic interests of the American people, the State 
Department's primary focus will be to protect our citizens at 
home and abroad.
    Our mission is at all times guided by our longstanding 
values of freedom, democracy, individual liberty, and human 
dignity. The conviction of our country's founders is enduring, 
that all men are endowed by their creator with certain 
unalienable rights. As a Nation, we hold high the aspiration 
that all will one day experience the freedoms we have known.
    In our young administration's foreign policy, we are 
motivated by the conviction that the more we engage with other 
nations on issues of security and prosperity, the more we will 
have opportunities to shape the human rights conditions in 
those nations. History has shown that the United States leaves 
a footprint of freedom wherever it goes.
    Ensuring the security and prosperity of the American people 
and advancing our values has necessitated difficult decisions 
in areas of our budget. The fiscal year 2018 budget request 
includes substantial funding for many foreign assistance 
programs under the auspices of USAID and the State Department, 
but we have made hard choices to reduce funding for other 
initiatives. But even with the reductions in funding, we will 
continue to be the leader in international development, global 
health, democracy and good governance initiatives, and 
humanitarian efforts. If natural disasters or epidemics strike 
overseas, America will respond with care and support. I am 
convinced we can maximize the effectiveness of these programs 
and continue to offer America's helping hand to the world.
    This budget request also reflects a commitment to ensure 
every tax dollar that is spent is aligned with the Department's 
and USAID's mission-critical objectives. The request focuses 
the State Department and USAID's efforts on missions which 
deliver the greatest value and opportunity of success for the 
American people.
    The State Department and USAID budget increased over 60 
percent from fiscal year 2007, reaching an all-time high of 
$55.6 billion in fiscal year 2017. Recognizing that this rate 
of increase in funding is not sustainable, the fiscal year 2018 
budget request seeks to align the core missions of the State 
Department with historic funding levels. We believe this budget 
also represents the interests of the American people, including 
responsible stewardship of the public's money.
    I know there is intense interest in prospective State 
Department and USAID redesign efforts. We have just completed 
collecting information on our organizational processes and 
culture through a survey that was made available to every one 
of our State and USAID colleagues. Over 35,000 surveys were 
completed. And we also held in-person listening sessions with 
approximately 300 individuals to obtain their perspective on 
what we do and how we do it. I met personally with dozens of 
team members who spoke candidly about their experiences. From 
this feedback, we have been able to get a clearer overall view 
of our organization. We have no preconceived outcomes, and our 
discussions of the goals, priorities, and direction of the 
State Department and USAID are not token exercises.
    The principles of our listening sessions and subsequent 
evaluation of our organization are the same as those which I 
stated in my confirmation hearing for foreign policy. We will 
see the world for what it is, be honest with ourselves and the 
American people, follow the facts where they lead us, and hold 
ourselves and others accountable. We are still analyzing the 
feedback we received, and we expect to release the findings of 
the survey soon.
    From all of this, one thing is certain, I am listening to 
what my people tell me are the challenges facing them and how 
we can produce a more efficient and effective State Department 
and USAID. And we will work as a team and with the Congress to 
improve both organizations.
    Throughout my career, I have never believed nor have I 
experienced that the level of funding devoted to a goal is the 
most important factor in achieving it. Our budget will never 
determine our ability to be effective, our people will.
    My colleagues at the State Department and USAID are a deep 
source of inspiration, and their patriotism, professionalism, 
and willingness to make sacrifices for our country are our 
greatest resource. I am confident the U.S. State Department and 
USAID will continue to deliver results for the American people.
    I thank you for your time and I'm happy to answer your 
questions.
    [The statement follows:]
                Prepared Statement of Hon. Rex Tillerson
    Chairman Graham, Ranking Member Leahy, and distinguished Members of 
the Committee:

    Thank you for the opportunity to discuss this administration's 
State Department and USAID budget request for fiscal year 2018.
    As we all know, America's global competitive advantages and 
standing as a leader are under constant challenge. The dedicated men 
and women of the State Department and USAID carry out the important and 
often perilous work of advancing America's interests every single day. 
That mission is unchanged. However, the State Department and USAID, 
like many other institutions here and around the world, have not 
evolved in their responsiveness as quickly as new challenges and 
threats to our national security have changed and are changing. We are 
challenged to respond to a post-Cold War world that set in motion new 
global dynamics, and a post-9/11 world characterized by historic new 
threats that present themselves in ways never seen before, enabled by 
technological tools that we have been ill-prepared to engage. The 21st 
century has already presented many evolving challenges to U.S. national 
security and economic prosperity. We must develop proactive responses 
to protect and advance the interests of the American people.
    In Syria and Iraq, ISIS has been greatly diminished on the ground, 
but there is still a substantial fight ahead to complete the job and 
eliminate it from the region. But the battle to ensure that ISIS and 
other terrorist organizations do not gain or grow footholds in other 
countries will continue. The fight against Islamist extremism extends 
to the digital world. The battle to prevent terrorists' use of the 
Internet and other digital tools will continue to challenge us from a 
security and diplomatic perspective.
    The regime in Iran continues activities and interventions that 
destabilize the Middle East: support for the brutal Assad regime, 
funding militias and foreign fighters in Iraq and Yemen that undermine 
legitimate governments, and arming terrorist organizations like 
Hezbollah, which threaten our ally Israel. We and our allies must 
counter Iran's aspirations of hegemony in the region.
    Thoughtful development and implementation of policies to ensure 
Afghanistan never again becomes a platform for terrorism, Pakistan does 
not become a proliferator of nuclear weapons, and the region is 
positioned for stable economic growth.
    On our southern border, illegal migration from countries in the 
Western Hemisphere presents a risk to our security, with criminal 
cartels exporting drugs and violence into our communities. Almost 
20,000 Americans died from overdoses of heroin or synthetic opioids in 
2015, and between 90 and 94 percent of all heroin consumed in the 
United States comes from or passes through Mexico. While we, as 
Americans, must take responsibility for being the largest demand center 
in the world for the drug trade, stopping the cross-border flow of 
drugs is an essential step in protecting American lives from the 
catastrophic effects of drugs and the violence that follows them.
    While we seek a constructive relationship with China, and in many 
cases are seeing signs of shared interests, their artificial island 
construction and militarization of facilities on features in 
international waters is a threat to regional stability and the economic 
livelihood of the United States and our allies. As a nation dependent 
on the free flow of commerce across the globe, we, and all other 
nations, have a legitimate interest in the peaceful use of 
international waters, and we must assert our lawful right to the use of 
the South China Sea and other bodies of water.
    Both state and non-state actors' malicious cyber capabilities 
present a threat to U.S. national security, and complicate our 
diplomatic efforts with a surge of misinformation and interference in 
sovereign countries' internal governments.
    With such a broad array of threats facing the United States, the 
fiscal year 2018 budget request of $37.6 billion dollars aligns with 
the administration's objective of making America's security our top 
priority. The first responsibility of government is the security of its 
own citizens, and we will orient our diplomatic efforts toward 
fulfilling that commitment. Within the fiscal year 2018 request level, 
funding for Diplomatic Security operations will increase by 
approximately 11 percent over fiscal year 2016. While our mission will 
also be focused on advancing the economic interests of the American 
people, the State Department's primary focus will be to protect our 
citizens at home and abroad.
    Our mission is at all times guided by our longstanding values of 
freedom, democracy, individual liberty, and human dignity. The 
conviction of our country's Founders is enduring, that ``all men are 
endowed by their Creator with certain unalienable rights.'' As a 
nation, we hold high the aspiration that all will one day experience 
the freedoms we have known. In our young administration's foreign 
policy, we are motivated by the conviction that the more we engage with 
other nations on issues of security and prosperity, the more we will 
have opportunities to shape the human rights conditions in those 
nations. History has shown that the United States leaves a footprint of 
freedom wherever it goes.
    Ensuring the security and prosperity of the American people and 
advancing our values has necessitated difficult decisions in other 
areas of our budget. The fiscal year 2018 budget request includes 
substantial funding for many foreign assistance programs under the 
auspices of USAID and the State Department, but we have made hard 
choices to reduce funding for other initiatives. But even with 
reductions in funding, we will continue to be the leader in 
international development, global health, democracy and good governance 
initiatives, and humanitarian efforts. If natural disasters or 
epidemics strike overseas, America will respond with care and support. 
I am convinced we can maximize the effectiveness of these programs and 
continue to offer America's helping hand to the world. Despite 
necessary reductions from fiscal year 2017 levels, we are still 
devoting $25.3 billion to foreign assistance, which accounts for over 
\2/3\ of the State and USAID budget. This entails $7.1 billion in 
security assistance programs, and $5.6 billion, including our 
diplomatic engagement, to defeat ISIS and other terrorist 
organizations. In several other areas where we have chosen to make 
reductions, we will ask other donors and private sector partners to 
increase their support.
    This budget request also reflects a commitment to ensure every tax 
dollar spent is aligned with the Department's and USAID's mission-
critical objectives. The request focuses the State Department and 
USAID's efforts on missions which deliver the greatest value and 
opportunity of success for the American people. The State Department 
and USAID budget increased over 60 percent from fiscal year 2007, 
reaching a record high $55.6 billion in fiscal year 2017. Recognizing 
that this rate of increase in funding is not sustainable, the fiscal 
year 2018 budget request seeks to align the core missions of the State 
Department with historic funding levels. We believe this budget also 
represents the interests of the American people, including responsible 
stewardship of the public's money.
    I know there is intense interest in prospective State Department 
and USAID redesign efforts. We have just completed collecting 
information on our organizational processes and culture through a 
survey that was made available to every one of our State and USAID 
colleagues. Over 35,000 surveys were completed, and we also held in-
person listening sessions with approximately 300 individuals to obtain 
their perspective on what we do and how we do it. I met personally with 
dozens of team members who spoke candidly about their experiences. From 
this feedback we have been able to get a clearer overall view of our 
organization. We had no preconceived outcomes, and our discussions of 
the goals, priorities, and direction of the State Department and USAID 
were not token exercises. The principles for our listening sessions and 
subsequent evaluation of our organization are the same as those which I 
stated in my confirmation hearing for our foreign policy: we will see 
the world for what it is, be honest with ourselves and the American 
people, follow facts where they lead us, and hold ourselves and others 
accountable. We are still analyzing the feedback we have received, and 
we expect to release the findings of the survey soon. From all of this, 
one thing is certain: I am listening to what my people tell me are the 
challenges facing them and how we can produce a more efficient and 
effective State Department and USAID. And we will work as a team and 
with Congress to improve both organizations.
    Throughout my career, I have never believed, or experienced, that 
the level of funding devoted to a goal is the most important factor in 
achieving it. Our budget will never determine our ability to be 
effective--our people will. My colleagues at the State Department and 
USAID are a deep source of inspiration, and their patriotism, 
professionalism, and willingness to make sacrifices for our country are 
our greatest resources. I am confident that the U.S. State Department 
and USAID will continue to deliver results for the American people.
    I thank you for your time, and I am happy to answer your questions.

       FAMINE ASSISTANCE, SOFT POWER, AND THREAT-BASED BUDGETING

    Senator Graham. Thank you. We'll do 7-minute rounds of 
questions and answers. I look forward to your effort to reform 
the State Department, get the feedback, come to us, and say, 
``This is what we can do without. This is what we need more 
of.'' I think you've got the right attitude, but we've got to 
live with this budget until you get there. It's unacceptable 
for me.
    Between 2007 and 2017, would you say the world is more 
dangerous or less?
    Secretary Tillerson. The world is changing.
    Senator Graham. Yes.
    Secretary Tillerson. And it is in a very difficult place 
today.
    Senator Graham. Right. So if we've been spending more in 
the last 10 years, there is probably a good reason. And I would 
say that increasing military defense spending by 10 percent is 
absolutely long overdue. Do you support the President's budget 
to increase hard power by 10 percent?
    Secretary Tillerson. I do.
    Senator Graham. Do you believe, as General Mattis and other 
generals, that soft power is an integral part of our national 
security strategy?
    Secretary Tillerson. Without question.
    Senator Graham. Okay. So we've got the general construct 
that soft power and hard power are important. I can understand 
increasing hard power, given the threats. I don't understand 
reducing soft power by 29 percent, but we'll work through this, 
Mr. Secretary.
    In terms of addressing famines as they may emerge--let's 
put the chart back up--there are currently 65.3 forcefully 
displaced people worldwide, four countries. More than 20 
million are currently at risk of famine. Why would we reduce 
spending in this area given the threats we face?
    Secretary Tillerson. Senator, I think the way we're 
addressing the challenge in these areas, and talk about why 
people are displaced, and then why people are in need of relief 
from famine, and the two are not unrelated because many of the 
areas of severe famine are related to conflict areas.
    What we have done in this budget is put the emphasis of the 
funds that we do have available on where the problems lie. And 
so in terms of our resources for the Defeat ISIS campaign and 
how we put in place zones of stability and restore areas to 
some level of normalcy, which would allow people who have been 
forced to leave these areas by the advent of ISIS and by the 
conflict to find the conditions such that they will want to 
return home.
    Senator Graham. Right.
    Secretary Tillerson. So a lot of our de-ISIS effort is 
directed at really creating conditions for the return of 
refugees that have fled.
    In areas of famine relief, we do appreciate the significant 
plus-up in money that the Congress authorized in the food aid 
programs in 2017. We're delivering that money to where it is 
needed, or the food, in the most effective and efficient way we 
can. Places like Yemen, which has severe famine problems, 
obviously because of the ongoing conflict, that presents 
significant challenges. So how we attack the famine need in 
Yemen is we have to find the solution to Yemen that allows us 
to deliver the aid to those.
    Senator Graham. Yes.
    Secretary Tillerson. So I look at these as an integrated 
problem, not as simply one item here or one item there.
    Senator Graham. And I look at it as threat-based budgeting. 
I agree that it shouldn't be a number picked out of the air, it 
should be based on threats we face. I just don't see how, given 
the displacement of this many people and no end in sight, that 
77 percent reduction in disaster assistance is consistent with 
the threats we face from the disasters that are going on all 
over the world. We'll just agree to disagree.

                         ASSISTANCE FOR GEORGIA

    Georgia. What do we tell our friends in Georgia about 
reducing their aid by 66 percent given the threats they face 
and the importance of Georgia's democracy to overall stability 
and our national security interests?
    Secretary Tillerson. Well, I've had two bilateral meetings 
with the Georgians already, and the President had an 
opportunity to meet them as well. When I talk to the Georgians 
about what they would like for us to do in the way of expanding 
our relationship, what they'd like to see is more economic 
trade activity between our countries. They are making 
significant investments in their country to make it more 
attractive in terms of deepwater port facilities.
    Senator Graham. Do they agree with these reductions?
    Secretary Tillerson. Their concern over these reductions 
did not come up in our conversations. I think what I would 
convey to you, Senator, is that at some point, as we have 
helped these countries get on their feet and become successful, 
we would expect for their requirements of our aid to be 
reduced.
    And I think Georgia would be the first to tell you they're 
very proud of how far they have developed their economy and 
have developed the ability to secure themselves against threats 
from Russia. Having said that, we're not abandoning them. We're 
going to focus the aid we have to help them in the areas where 
they feel it is most useful.
    Senator Graham. Well, I've been contacted by the people in 
Georgia, and they're just absolutely floored. They say, ``What 
more do you want us to do? We're fighting and dying with you in 
Afghanistan without caveats.'' And maybe the threats coming 
from Georgia to Russia justify reductions of 66 percent, but I 
just don't agree with you. It's the worst signal to send to a 
good ally, the worst signal to send to the Russians. But, 
again, we'll work through this.

                          HIV/AIDS ASSISTANCE

    HIV/AIDS. Do you agree that PEPFAR has been a very 
successful program for the American taxpayer?
    Secretary Tillerson. It's a model health program for the 
world to follow.
    Senator Graham. Why are we cutting it by a billion dollars?
    Secretary Tillerson. The program monies that are available 
are to sustain the HIV/AIDS treatments in 11 countries, to 
continue to take those to a conclusion, and as patients roll 
off of those rolls, new treatments can be made available.
    Senator Graham. Right. I agree with you, that there may be 
five or six countries that could be self-sufficient. I just 
think the billion dollars cut now affects the countries who are 
not going to be self-sufficient, and it's just penny-wise and 
pound-foolish.
    The bottom line here is a threat-based budget on the soft 
power side would not resemble what is being presented in my 
view. I humbly disagree with you. Just look at what you've got 
to do here. The money we're reducing to disaster relief is 
going to show up with more terrorists. Pulling back from 
Georgia at a time when they're still under siege by the 
Russians is going to reward Russia and punish allies, it's 
going to create a perception I don't want to create. The 
billion dollars coming out of HIV means less treatment for more 
people at a time when we're actually turning the corner.
    So from 2007 to 2017, if we've spent more, it's because the 
threats to this country require us to spend more. 1.4 percent 
of the budget is still real money, but at the end of the day, 
it's a small amount of money given the return. And let's agree 
with you on this, that the people who work for you are 
incredibly brave, they serve us as well as anybody in uniform, 
and I'm a pretty hawkish military kind of guy. The USAID 
workers and the State Department people out there in the fight, 
God bless you all. I just really worry about cuts in Embassy 
security.
    I'm not going to beat you up. I know that we can do better 
than this, and we're constrained by artificial spending numbers 
that are going to change. So thank you for representing our 
country and taking this job, leaving a comfortable life to do 
what's on this board.
    Senator Leahy.

                 ASSURANCES ON CONGRESSIONAL RESPONSES

    Senator Leahy. Thank you, Mr. Chairman. We only have a few 
minutes here, so I think you can assume there will be other 
questions that will be sent to you in written form. Do we have 
your assurances they'll be answered?
    Secretary Tillerson. Yes, sir.
    Senator Leahy. Whether they come from Republicans or 
Democrats.
    Secretary Tillerson. I'm happy to answer any questions of 
anyone. I'm happy to take a phone call from anyone at any time.

                     DIMINISHMENT OF U.S. INFLUENCE

    Senator Leahy. Thank you. You've sought to--and Senator 
Graham alluded to this--you have sought to reassure our allies 
that the U.S. will remain a global leader. With this budget, 
cutting money for diplomacy and development by an average of 30 
percent, China and Russia are expanding in those areas. Does 
that increase our influence?
    Secretary Tillerson. Well, Senator, I think we have to 
devise new ways to respond to a rising China and respond to a 
troubling Russia, and that long list of challenges on that 
board over there have been around for a while. The level of 
spending we've been carrying out hasn't solved them. I go back 
to my view that I don't think the money we spend is necessarily 
an indicator of our commitment, I think it's how we go about 
it. And we've got to take some new approaches to begin to 
address some of these very daunting challenges.
    The aid and the support and what we can bring to the issue 
is important. I'm not in any way diminishing that, but I think 
if we equate the budget level to have some level of commitment 
or some level of expected success, I think we're really 
undercutting and selling short people's intellectual capacity 
to bring different approaches to these problems.
    Senator Leahy. Well, I know when Secretary Mattis talks 
about cutting our budget, your budget, that we should buy him 
more bullets. That kind of got our attention. You talk about 
money we've spent. Is every program going to work? Of course 
not. But I've worked with Presidents of both parties, both 
Presidents Bush, for example, to increase funding in different 
parts of the world. Many of those programs have been very 
successful. We've talked about PEPFAR and others. The War 
Victims Fund has been very successful.

                      DEPARTMENT OF STATE REDESIGN

    You want to eliminate more than 600 positions from the 
State Department, the buyouts. Reduce more than twice that 
number through attrition. What are you going to do if suddenly 
you find that we made a mistake, we're going to need more, not 
less?
    Secretary Tillerson. Well, that's what the entire redesign 
exercise is about--understanding better how the work gets done. 
What we've learned out of this listening exercise is our 
colleagues in the State Department and USAID can already 
identify a number of obstacles to them getting their work done 
efficiently and effectively. If we eliminate some of those 
obstacles, it's like getting another half a person because they 
have their time available now to direct it at delivery on 
mission as opposed to managing some internal process that's not 
directly delivering on mission. I just use that as an example.
    I think when this is all said and done, our objective is to 
enable the people, our foreign service officers, our civil 
servants, our people in our missions, foreign nationals, to 
deliver on mission with greater efficiency and effectiveness, 
and, in effect, we're going to get an uplift in effort to 
deliver to mission.
    Senator Leahy. But if you've got 600 people that are gone, 
they're obviously not going to be there to help. Here it sounds 
to me almost like you're spending more time figuring out who 
you can fire than who you're going to have out there doing 
things.
    Secretary Tillerson. We're not going to have to fire 
anyone. This is all being done through the hiring freeze, 
normal attrition, with a very limited, if needed, because we 
haven't determined whether we'll even need it, a very limited 
buyout program between the end of this year and next. So there 
is no firing program planned.

                                  CUBA

    Senator Leahy. The President has gone out of his way to 
praise the leaders of very repressive regimes in Saudi Arabia, 
Egypt, Russia, Turkey, the Philippines, but now it seems that 
the White House wants to change our relations, which have 
finally begun to improve, with Cuba, this despite the progress 
we've made that has benefited Cuban entrepreneurs and our 
businesses. How does this help?
    You know, after a recent trip to Saudi Arabia, where women 
are jailed and flogged for driving a car or leaving the house 
without permission of a male relative, they get a $100 billion 
sale of U.S. weapons, but somehow we have to step on Cuba. Does 
that make sense?
    Secretary Tillerson. Well, with respect to Cuba, we are 
evaluating that policy and what our posture should be. I think 
our view is that the steps that were taken over the past few 
years to improve relations with Cuba, to open it up to greater 
economic participation by U.S. companies and American citizens, 
did not deliver a reciprocal change in policy or behavior by 
the Cuban government towards human rights. There is still 
political opposition to the----
    Senator Leahy. You don't think so? You don't think that the 
people who now have jobs in Cuba and actually have some 
economic stability, they don't think it's better? As the ``Wall 
Street Journal'' pointed out last week, because of our 
restrictions on trade Cubans are going to Russia to get the 
parts they need for their trucks and their cars and other 
things. They spend the money in Russia.
    I've gone to Cuba and criticized the repression. I don't 
just sit here in an easy place and say, ``Oh, this is what's 
happening.'' I've actually gone there. But, you know, our 
President goes to Saudi Arabia to do a sword dance, we actually 
have some Americans that might want to learn to salsa in Cuba. 
And I don't mean that to be as flip as it might sound. The fact 
is you and I can go to any country that will let us in, but 
there is only one country in the world we need permission from 
our own government to go to, and that's Cuba, right off our 
shore, as though it's still a threat to us. We can go to Iraq 
or Iran or anywhere else if they'll let us in, but not Cuba.
    We'll talk more about this. My time is up. But good lord, 
let's deal with reality, not ideology.
    Senator Graham. Senator Moran.
    I didn't think that was a question, so---- [Laughter.]
    Senator Leahy. Well, I don't want to cut the--if the 
Secretary wants to respond to that, out of fairness, feel free.
    Secretary Tillerson. Well, I think somewhere in there, 
there was a Cuba question. And as I began to----
    Senator Leahy. Would you roll back what we're doing in 
Cuba? What would you roll back what we're doing?
    Secretary Tillerson. I think what we are examining in the 
policy discussion on Cuba is there is existing law that's still 
in place, Helms-Burton, that says we are not to allow or 
facilitate people to allow financial support, revenue, to the 
regime. As the process to open up Cuba has unfolded, it is our 
view that that is happening.
    If Cuban people are able to conduct business activities 
with Americans and others and there is no revenue directly in 
terms of ownership in these entities back to the regime, then, 
you know, we think that's great. But we have a law existing 
today that we feel has to be respected because that law was 
intended to put pressure on the regime to address these 
oppressive issues that they still have. If the Congress doesn't 
want that pressure to be continued, then certainly the law can 
be revisited, but our view is we're looking at, what were the 
tools that were there to deal with all the four corners of 
Cuba's behavior and our relationship with them?
    There are some things that we and Cuba could do together 
probably quite productively, and we're interested in engaging 
with them, but we can't take that just in isolation. And so the 
policy review is looking at all aspects of this.
    Senator Graham. Senator Moran.
    Senator Moran. Thank you, Mr. Chairman.

                          DIPLOMATIC SECURITY

    Mr. Secretary, thank you for joining us. Thank you for the 
conversation that we had earlier this week. I want to focus at 
least initially on the security of our diplomats and the 
facilities around the globe in which they work. The budget sees 
a decrease in worldwide security protection account of about 
$562 million from last year. First of all, I would say I heard 
you in response I think to Senator Leahy indicate that we can't 
judge our priorities necessarily by the levels of spending.
    I think that's an indicator, but I think the point you make 
is there are other components that determine whether or not we 
will be successful. I assume that it's--I know it's the shared 
goal that every person who works for the State Department who 
represents the United States around the globe has a safe 
environment, as safe as we can provide to them.
    So my question is in this case, what has changed or what 
will we do different that means that our State Department 
employees' safety is not diminished?
    Secretary Tillerson. Well, you are correct, Senator, we've 
made the safety of not just our State Department employees, but 
Americans broadly, our highest priority, certainly as it 
relates to our Embassy presence, our consular office presence, 
and our missions around the world.
    If you examine the security elements of the budget, our 
budget for diplomatic security is actually up 11 percent year-
on-year. Where we have reductions has to do with some of the 
construction, the buildings, part of the budget for embassies 
and other facilities. Part of that we'll manage with some 
multiyear commitments across 2017 to 2018, and some of this has 
to do with just our ability to move projects along promptly.
    We are clearly committed to the Benghazi ARB 
recommendations, and I'm monitoring those carefully. We have 
some gaps we need to close. The OIG has helped us identify some 
of those. We're going to stay on top of those. If there were 
more funds there, we would simply try to step up more activity 
on some of the building and maintenance issues. So most of the 
reduction is in building and maintenance efforts, which we 
believe are manageable at least through fiscal year 2018.

    KILLING OF MICHAEL SHARP IN THE DEMOCRATIC REPUBLIC OF THE CONGO

    Senator Moran. Mr. Secretary, thank you. An American 
citizen who was not as safe, whose parents live in Kansas, 
Michael Sharp, was killed along with another U.N. investigator, 
in the Democratic Republic of the Congo. Last week, Ambassador 
Haley called on the U.N. to investigate the murders of those 
two individuals. Would you find it appropriate to join 
Ambassador Haley in insisting that the perpetrators be 
determined, the facts be discovered, and we do everything we 
can to see that justice is met?
    Secretary Tillerson. We have already done that through our 
diplomatic mission in the Democratic Republic of Congo, and 
have called for a full investigation. To the extent we are able 
to gain information in their investigation, we certainly will 
make that available to you. But, yes, we have called for that 
as well.
    Senator Moran. And what's the response of the government? 
Have they cooperated? Is there results that----
    Secretary Tillerson. My understanding is investigations are 
underway. What an investigation in the Democratic Republic of 
Congo may entail versus the way we carry out law enforcement is 
something we're trying to at least monitor and make sure we're 
asking all of the right questions.
    Senator Moran. The investigatory role is being carried on 
by the Democratic Republic of Congo. This is not by anyone 
representing the United States.
    Secretary Tillerson. We have not, I would say, been able to 
put in place independent investigatory authority there with the 
Democratic Republic of Congo at this time. We're working with 
them.

                     DIMINISHMENT OF U.S. INFLUENCE

    Senator Moran. One of the concerns I have with this budget 
is that we don't operate in a vacuum. As I talk to our military 
leaders, certainly terrorism is on their list of worries. 
Senator Graham gave you a long list, but our military officers 
often tell me that Russia may be our--is our most--is our 
greatest challenge. Others, certainly all of them will include 
China on the list of concerns for our country's role in the 
world. And investment in the State Department's programs, when 
they're reduced, gives other countries the opportunity to 
advance their causes if we leave any gap unfilled.
    And so I would ask you, with this budget, what would you 
expect to occur in regard to particularly China, but also 
Russia, and their ability to increase their influence around 
the globe, which in my view is to the detriment of the United 
States and its well-being. China just last month pledged $124 
billion for a new global infrastructure program. We are 
reducing USAID missions and eliminating economic development 
assistance to 37 countries around the globe, and the issue, in 
addition to me, in addition to the humanitarian, the rightness 
of the cause, is that others will take advantage of our 
absence.
    Secretary Tillerson. Well, we are already seeing that 
happening particularly in Southeast Asia, but in parts of 
Africa and elsewhere, particularly as to the rise of China. And 
I think our challenge is in China's case, it is a centrally 
command control economy, so when they come with not just loans, 
assistance, but also companies to carry out infrastructure 
projects, they get the whole package.
    And so countries that enter into these arrangements--and we 
are talking to these countries and cautioning them about what 
they're getting themselves into in terms of getting themselves 
overburdened with loan commitments to China, that when China 
offers to build a railroad, build a road, build a port, they 
don't do it with local employment, they bring Chinese 
employment in, and then those Chinese employees never go home. 
We see this happening. We're working with partners in the 
region. This was a subject of discussion when Secretary Mattis 
and I attended AUSMIN, our 2+2 Ministerial, last week in 
Australia as well as in our conversations with New Zealand, 
Singapore, and others.
    One of the approaches we are exploring is whether we can 
get the World Bank to also bring its mission to Southeast Asia, 
bring more private equity, private sector, investment dollars 
to the region and bring more counsel and advice to countries 
and give them another alternative around how to finance these 
projects, get more private sector involvement there.
    What's required to get the private sector to engage is some 
of these countries have to continue to improve their investment 
climate, like Vietnam, the Philippines, and others. We're 
working with them on what's necessary. And in our meetings with 
the ASEAN countries, they see this threat, they see it, they 
feel it. And so we do have to be there with an alternative, to 
your point. You're exactly right.
    We have to come with an alternative, but our alternative 
can't be solely achieved through the funding available through 
State or USAID. We really have to mobilize a much broader 
effort, and that's how we're responding.
    Senator Moran. Thank you, Mr. Secretary.
    Senator Graham. Senator Shaheen.
    Senator Shaheen. Mr. Chairman, I'll defer to my colleague 
Senator Durbin because he was kind enough to open the door for 
me, which was why I got here before he did. So he was really 
here at the same time.
    Senator Graham. No, no, no, absolutely not. Senator Durbin.
    Senator Durbin. Go ahead.
    Senator Graham. Senator Durbin. No, Senator.
    Senator Durbin. Your turn.
    Senator Graham. Senator.
    Senator Shaheen. No good deed goes unpunished, as we've 
said.
    Senator Graham. Have you all decided?
    Senator Durbin. A Good Samaritan never goes unpunished.
    Senator Shaheen. Secretary Tillerson, thank you for being 
here. I'm sorry that I missed you this morning at the Foreign 
Relations Committee because I was at another appropriations 
subcommittee hearing.

                                 RUSSIA

    But I wanted to ask you about recent news reports that have 
described a proposed trip to St. Petersburg by Under Secretary 
Tom Shannon that's going to happen on June 23. And as news 
reports have suggested that the purpose of the trip is to try 
and discuss with the Russians how we might be able to work 
together against ISIS and Syria. And last week, a State 
Department spokesperson admitted that one of the things that 
will be part of the conversation are the two dachas that were 
seized last year in response to Russia's interference in our 
elections. And I have a picture of those there, and we can see 
that they are quite substantial. It's my understanding that one 
of the intelligence reports suggested that these were used for 
collecting intelligence by the Russians.
    And I wonder if you can share with us, given Russia's 
continued behavior, why we would even consider the return of 
those two dachas as part of any discussions that we're having 
with them.
    Secretary Tillerson. Let me describe to you the nature of 
our current dialogues with Russia because they're occurring at 
a couple of levels. What I would call the strategic big issues, 
like, ``Can we work together in Syria? How are we going to 
resolve the Ukraine? How are we going to deal with sovereign 
interference?'', those are being today conducted at my level 
with my counterpart, the Foreign Minister, and on occasion with 
access to the Kremlin.
    What we have agreed to do, there is a long list of what the 
Russians call ``irritants,'' we call them ``the smalls'' on our 
side, a long list of things that have been problematic between 
both of us for some time, and in some cases, they're just 
getting worse.
    You recall when I made my trip to Moscow to see my 
counterpart, Foreign Minister Lavrov, and had a 2-hour meeting 
with President Putin, I came out of those meetings and I said 
our relationship is at the lowest level it's been since the 
Cold War, and it is spiraling down. And I said the two greatest 
nuclear powers in the world cannot have this kind of a 
relationship. We have to stabilize it and we have to start 
finding a way back.
    So we segmented the big issues from this list of the 
irritants. The dachas are on that list. We have things on the 
list such as trying to get the permits for our consular office 
in St. Petersburg. We've got issues with harassment of our 
Embassy employees in Moscow. We have a list of things. They 
have a list of things. I don't want to suggest to you this is 
some kind of a bartering deal--it's more let's start working on 
some of the smalls and see if we can solve them.
    As to the dachas, these two properties have been in 
ownership of the Russians dating back to the Soviet Union, 
1971. They've owned these properties and have used these 
properties for a very long time. They were transferred to the 
Russian Federation Government for one dollar at the breakup of 
the Soviet Union. We have continued to allow them to use these 
properties. And they have used these properties continuously 
for all that time.
    President Obama, in response to the interference with the 
election, expelled the 35 Russian diplomats and seized these 
two properties.
    Senator Shaheen. Right. I understand that.
    Secretary Tillerson. What we're working through with them 
in this conversation is, under what terms and conditions would 
we allow them to access the properties again for recreational 
purpose? We have not taken the properties from them, they still 
belong to them, so we're not going to seize properties that are 
theirs and remove their--but we are talking about, ``Under what 
conditions would we allow you to use them for recreational 
purposes?'' which is what they have asked.
    We have things on our side that we're discussing terms and 
conditions with them as well. So this is part of, how do we 
take some of the irritants out of the relationship and 
stabilize things?
    Senator Shaheen. Sure. I understand that. And I don't mean 
to interrupt, but my time is running. And I wonder if you could 
tell me if the properties are returned, how we would ensure 
that they would not be used for intelligence-gathering 
purposes.
    Secretary Tillerson. That's part of the terms and 
conditions we're discussing with them because we've been pretty 
clear to them, ``We know what you were doing there. We're not 
going to allow you to continue to do that.''

                FAMILY PLANNING AND REPRODUCTIVE HEALTH

    Senator Shaheen. Thank you. As Chair Graham pointed out, 
the 2018 budget proposal would reduce a billion dollars from 
the PEPFAR program. And there are other policy decisions that 
the State Department is making that will have an impact on 
PEPFAR in addition to the funding reduction. As you know, the 
State Department in May released guidelines for the 
implementation of the Mexico City Policy, or the Global Gag 
Rule, which for the first time ever will apply to all global 
health assistance programs, including PEPFAR.
    Now, study after study has shown that integrating 
reproductive health and HIV treatment and prevention services 
into basic primary care services leads to better health 
outcomes and significant cost savings of foreign dollars, and 
yet the State Department in this budget proposes eliminating 
all funds for family planning.
    So how will the State Department continue to move towards 
integrating HIV and reproductive health and family planning in 
light of the drastic cuts that are being proposed to 
reproductive health funding and the restrictions that you're 
imposing by the Global Gag Rule?
    Secretary Tillerson. Well, first, just to be clear, the 
reduction to PEPFAR is $1 billion, as was pointed out earlier.
    Senator Shaheen. No, I understood that. It's the money for 
the family planning also has been cut.
    Secretary Tillerson. The extension of the Mexico City 
Policy to all areas of health delivery was directed under 
presidential executive order. And so the State Department, when 
we received the executive order, began immediately to work with 
all of the delivery services, including all of those in PEPFAR 
and a number of the other NGO organizations and important 
partners in the health delivery networks across the world.
    Our assessment, we believe, is that the impact on those 
service providers is going to be minimal. That is what we 
believe. We're hearing from them. But to monitor that 
carefully, I have said that we will have a report to me after 6 
months of, how is this working? What has been the impact? And 
we've been directly engaged with a number of the major private 
donors, like the Gates Foundation and others, clearly working 
with them to say, ``Let us know how this is impeding your 
ability to deliver on the other parts of the health mandate 
that we still strongly support.''
    So we're obligated to implement the Presidential executive 
order. We think we found a way to do that, achieve his 
directive, but do it in a way that has minimal impact on our 
ability to deliver and minimal impact on our ability to deliver 
funding to PEPFAR and other related programs. And we will see 
how that works after about 6 months of operation.
    Senator Shaheen. And if I could just follow up, Mr. 
Chairman, how do you define minimum impact? Because based on 
information that I've seen from other international sources, 
losing access to family planning services will result in 2 
million more unsafe abortions, 12,000 maternal deaths, and 6 
million more unintended pregnancies. So will you factor that in 
as you're looking at the impact of this policy on the PEPFAR 
program?
    Secretary Tillerson. We will factor in those elements that 
are covered by the President's executive order to ensure that 
we are implementing the order and we are understanding whether 
it's impacting parts of our health programs that we did not 
intend by the executive order to impact.
    Senator Shaheen. So you're comfortable with it impacting 
women's health in the way I've just defined? That's a question.
    Secretary Tillerson. We will carry it out consistent with 
the President's executive order. So if certain activities and 
programs are excluded because of the order, we have to exclude 
those.
    Senator Shaheen. Well, Mr. Chairman, I'm certainly not 
comfortable with that kind of impact on women's health 
worldwide.
    Senator Graham. Thank you. Duly noted.
    Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman.

                                  CUBA

    And thank you, Mr. Secretary, for being here. We do 
appreciate your service. When I was first elected to Congress, 
a fellow Congressman, somebody who was a great coach, Tom 
Osborne, from Nebraska, one day said, ``John, if we run the 
same play 50 times in a row and we don't get good results, we 
probably need to do something different.'' And what he was 
referring to was Cuba. And we have been doing things a little 
bit differently lately, and I think getting some results.
    I'm a little bit disappointed as we hear that you all are 
about to reach a decision that perhaps we're going to push back 
on some of the reforms that we've made and some of the 
opportunities. I believe that you change the world through 
relationships. And also you have to be consistent. I know that 
we do business with lots of people that are certainly as bad on 
the human rights fronts as the Cubans, and I could list a whole 
bunch of them, I don't think we need to do that, but I think 
you would agree with that.
    Can you talk to me a little bit about kind of where we're 
at with that and how you feel about the path going forward?
    Secretary Tillerson. Well, again, as I indicated earlier, 
the Cuban policy is under review. In fact, there's an 
interagency review that's been underway today. I've been up 
here, so my Deputy Secretary has been participating in that for 
me. So I don't want to get ahead of the interagency process or 
tell you I know what the final policy outcomes are going to be. 
What I described earlier are some of the elements that I know 
are under discussion within the interagency process.
    And, again, our situation in Cuba, yes, there are many 
other places around the world that have similar human rights 
issues that are problematic to us and challenges to others. 
Cuba has a very long history of statutory obligations placed 
around it from Libertad all the way up through the most recent, 
I think there are four laws that govern a higher relationship 
with Cuba. As we are examining the situation, we believe it is 
important that we are not advancing or advocating policies that 
would put individuals or companies in violation of those laws.
    If it is the view of the United States that we want to 
change and redefine that relationship by removing some of the 
statutory requirements, I think that's a conversation that 
should happen.
    I agree that one of the best ways to improve relationships 
with Cuba and with other countries is through economic 
activity. It's the strongest way to tie our people together. It 
delivers value to people in the country, they improve their 
quality of life. All of that is good. We agree with every bit 
of it. What we are concerned about is not continuing to support 
in any way financially a regime which, as best we can tell, has 
made no change to its posture or its behavior.
    Senator Boozman. I think a recent study said that there is 
$6 billion worth of economic activity, 12,000 jobs. So it is 
important. I think there is tremendous potential there. But the 
only place I would disagree is I think you get there by 
engagement. And so----
    Secretary Tillerson. And just so you know, there is no 
disagreement between us on that.
    Senator Boozman. Yes, sir. And I think it's fair that you 
brought up that you don't want to violate any laws that are on 
the books now. But hopefully we can look at and work through 
and continue the engagement that we've got.

                           FULBRIGHT PROGRAM

    As an Arkansan and someone who believes, again, as we 
talked about, you change the world through engagement, the 
Fulbright Program has been something that we're proud of in the 
State of Arkansas. We're talking about a 47 percent overall cut 
there. I wish that would be something that you would look at, 
too.
    I was in Israel and visiting with I think he was the 
Finance Minister from Palestine. This was several years ago. 
And it turned out that he had been to summer school at the 
University of Arkansas, went on and finished up at the 
University of Texas. So we could laugh about that, the 
Arkansas-Texas--he knew all that stuff. But those things are 
so, so very valuable.
    Secretary Tillerson. Well, we see the Fulbright Program as 
extremely valuable as well. I've had conversations with former 
Senator Kerry, who is very engaged. Our reduction in the 
budget, as you know, the Fulbright Program also receives 
private donations. So our 45 percent cut translates I think 
into about a third reduction for them. We understand it will 
have an impact. What we want to do is to the extent we can help 
in attracting more private donations to support the program and 
perhaps begin to attract donations from countries who have 
benefited from the Fulbright Program as well. So it is not in 
any way an indication of our view of the value of that program.
    Senator Boozman. I think Mark Green is an excellent choice 
for USAID, and I congratulate you on your choice there.
    Secretary Tillerson. Thank you.

                      DEPARTMENT OF STATE REDESIGN

    Senator Boozman. Can you talk just for a second about the 
reorganization process that you're going through and commit to 
working with the subcommittee to make sure that the changes 
that you're in the process of doing, that they're sustainable 
as we go forward?
    Secretary Tillerson. Well, as I indicated, we have just 
completed what I think is--having done this in the private 
sector once or twice and in a big nonprofit once, there's a 
process that I know has delivered for me in the past. So we 
just concluded this listening effort, which will inform us and 
shape how we feel we need to now attack the redesign and the 
way forward. I've interviewed a couple of individuals to come 
in and help me lead that effort. I think we will finalize the 
listening report here in the next few weeks, and we're going to 
make that available so people can see that.
    Out of that report, though, there were about 13 themes that 
emerged, and these were extremely valuable to begin to help us 
focus on where are the greatest opportunities to remove 
obstacles for people. Because that's really what this is about, 
is, how do we allow people to get their work done more 
effectively and more efficiently? And we will be going after 
the redesign.
    Some of this is internal processes, some of it is 
structural, some of it are constraints that quite frankly 
Congress puts on us through some of the appropriations 
structures, and I understand all well intended to ensure 
accountability and oversight, but it ends up adding a lot of 
layers. So we're going to be getting at that.
    We hope to have the way forward, the next step, framed here 
in the kind of August timeframe so that we can then begin the 
redesign process itself, September. I'm hoping we can have all 
of that concluded by the end of the calendar year. And then 
2018 will be a year of, how do we implement this now? How do we 
effect the change and begin to get that into place?
    Senator Boozman. Thank you, Mr. Secretary.
    Senator Graham. Senator Durbin.
    Senator Durbin. Thank you, Mr. Chairman.
    Let me associate myself with the chairman's opening 
remarks. I thought it was a brilliant presentation that puts in 
perspective why we're here today.
    Senator Graham. Say that again.
    Senator Durbin. Mr. Secretary, let me----
    I've already said it on the record once, and that's the 
only time I'm ever going to say it. [Laughter.]
    No, seriously, I do respect what you said earlier.
    Mr. Secretary, I come into this same room and I sit down as 
ranking member on the Defense Committee. I listened to your 
explanation of how a 30 percent cut is not that bad, that money 
isn't the solution to the problem, you just need creative 
people and innovative thinking. I never hear that when we're 
talking about the defense budget. They always need more money, 
more and more and more. And yet when it comes to a world that 
is plagued by famine and the problems that we face, we're just 
saying we really don't need money to solve problems.
    It turns out my experience in life is you don't solve a 
problem by throwing money at it unless the problem is lack of 
money. And when it comes to the poorest people on Earth, it's 
lack of money, lack of investments in these people and in their 
lives.
    And I take a look at some of the things that are being 
suggested here. I am embarrassed. I am embarrassed at the 
policy of this country now when it comes to accepting refugees 
in the world. Since World War II, we've led the world in 
accepting refugees from all over. Cuba. Three of our four 
Hispanic Senators are from Cuban refugee families. I mean, you 
go through all of the people that we've absorbed as refugees 
into this country--and we know the policy of the Trump 
administration opposes acceptance of refugees.

                                 JORDAN

    Thank goodness there are heroes in this world like the King 
of Jordan. Currently, Jordan has absorbed 3 or 4 million 
refugees in a nation of 7 million people. It is an incredible 
act of kindness and charity on their part, and bravery when you 
consider the political risk.
    So what does this budget do to Jordan? This budget cuts by 
18 percent migration and refugee assistance to countries like 
Jordan. We're not accepting refugees, and we're saying to the 
countries that are, ``We're going to cut your funding.'' Think 
of a more creative way to feed those refugees, 1.4 million 
Syrian refugees.
    It just doesn't work, Mr. Secretary, for us to walk away 
from our global responsibility and then to hurt those who are 
accepting much more than others. How would you respond to the 
King of Jordan and explain why we would cut funds to him at 
this moment in history?
    Secretary Tillerson. Well, I would take exception to the 
comment that we're walking away from our responsibilities in 
that region with all of the men and women in uniform we have 
fighting and the State Department diplomatic resources we have 
to get at the reason the refugees are in Jordan. And I would 
tell you, in working in the region, they all understand. 
Turkey, Jordan, others understand, we'd like the refugees to 
stay close to their home so they can go back. Having them come 
all the way to the United States doesn't--may not achieve that.
    So our approach on the significant problem of refugee 
migration locally is to solve the problem that allows people to 
go home. We have already seen some success in the liberation of 
Mosul and other cities. We hope to replicate that kind of 
success in Syria, where we have come behind the military 
quickly when they liberate an area, create a secure zone, 
restore power and water, restore hospitals, restore schools. We 
have close to 40,000 children back in school in east Mosul 
already. People will come back if we create the conditions.
    So we really want the refugees to return. It's not the 
objective to have Jordan have to house those refugees now and 
forever more.
    Senator Durbin. Of course it's not, Mr. Secretary, but 
thank goodness for the King of Jordan, and I hope you feel that 
way about him, too.
    Secretary Tillerson. I certainly do.

                 PROPOSED BUDGET AND PROGRAM REDUCTIONS

    Senator Durbin. While we're trying to solve the problem in 
Syria, and I know Americans are risking their lives in that 
effort, while we're trying to solve it, this man is trying to 
make sure that the people, the Syrian refugees, have something 
to eat, to make sure that they have a--he told me their biggest 
problem is water, they don't have enough water to accommodate 
all these refugees. And we're going to cut the funding?
    Let me tell you another situation, which I'm sure you're 
aware of. As you go into the poorest places on Earth, what you 
find sadly is a gross mistreatment of little girls and women. 
It happens over and over again.
    And so a fellow by the name of George McGovern, who used to 
sit in this body and was a great leader in our nation before he 
passed, came up with an idea. He came up with an idea of a 
school lunch program. And you know who joined him in that idea? 
Bob Dole. An old alliance and partnership was revived. And 
here's the idea they had: if we offer a free lunch to kids in 
the poorest places on Earth, we think parents will send their 
little girls to school. Just basic. That's what they did. The 
McGovern-Dole school feeding program. And then they add another 
element to it, they gave the kids a little bag of grain to take 
home from school. So the parents couldn't wait to get the 
little girl off to school.
    What's the difference in the poorest places in the world 
between an educated and an uneducated little girl? I can tell 
you what it is. The uneducated little girl will be a slave, 
probably married off at an early age, probably bearing children 
long before she should, and maybe those children will survive 
and maybe they won't, and then we'll have overpopulation 
problems. But if they finish school, the opposite is the case. 
And so what did your budget decide to do to this McGovern-Dole 
school feeding program? You eliminated it. Now, is that going 
to make for a better world and a safer world?
    Secretary Tillerson. Senator, what we are attempting to do 
is to marshal forces of others. We are talking to other 
countries and asking them to do more, to step in to fill in 
some of the needs that Jordan has in the refugee camps, the 
same in Turkey. So we are using higher convening authority to 
bring to bear other resources as well.
    These are some of the very difficult choices we made in 
achieving a budget level that we have put forth in this budget. 
None of these choices are easy, none of them. There's not a one 
of them that was not difficult to make. And so I do not take 
exception to anything you've said at all, and would agree. So 
what we are going to attempt to do is see if we can bring other 
resources to bear to either fill in, mitigate, or perhaps grow 
out interest of others to address these same issues.
    Senator Durbin. So our message to the world is, ``We're 
stepping back. America is first and stepping back now. We're 
stepping back by 30 percent in our expenditures. We're 
eliminating these programs, and you are welcome to fill in,'' 
to the rest of the world? That is our message, the America 
First message?
    Secretary Tillerson. Our message is we're leaning in and 
asking all of you, all of you, to step up and do more.
    Senator Durbin. I think we're leaning on, we're not leaning 
in, and we're leaning on the poorest people on Earth.
    Senator Graham. Senator Van Hollen.
    Senator Van Hollen. Thank you. Thank you, Mr. Chairman.
    And welcome, Mr. Secretary. Good to have you here. And I, 
too, want to associate myself with the remarks by the chairman 
and the ranking member regarding the State Department budget. I 
do believe that cuts of this magnitude diminish our influence 
overseas. It will diminish our capacity to accomplish some of 
our goals. I'm all for creative reforms where the goal is a 
better operating department rather than trying to hit an 
arbitrary budget number that was provided to the State 
Department by OMB and others. There's a big difference between 
those two things.

                                 RUSSIA

    I want to talk to you a little bit about Russia and 
legislation the Senate will soon take up regarding Russian 
sanctions. I know that you've previously stated what every 
intelligence agency has concluded, that there was Russian 
interference in our elections. Is that the case?
    Secretary Tillerson. Yes.
    Senator Van Hollen. Yes. And I'm not here to debate whether 
it was a decisive intervention or not, but they interfered. And 
you would also agree, would you not, that they are attempting 
to interfere in the elections of many of our NATO allies, as in 
the Netherlands or France.
    Secretary Tillerson. It certainly appears that way.
    Senator Van Hollen. It does. And so would you also agree 
that Russia would prefer a weaker NATO to a stronger NATO?
    Secretary Tillerson. In all likelihood, they would.
    Senator Van Hollen. I think so, too. So I guess my 
question, Mr. Secretary, is, do you agree with Senator Graham 
and Senator McCain, and I think probably a majority of us on 
this subcommittee on a bipartisan basis, that it's important to 
take additional actions and sanction Russia to let them know 
that you cannot interfere in our elections and just get away 
with it, that the United States is not going to walk away from 
that kind of attack on our democracy? Isn't that important?
    Secretary Tillerson. It certainly is important, Senator, 
and I think, you know, one of the challenges is how to 
structure these sanctions to achieve the desired result. In the 
case of the current sanctions, as you know, that are in place, 
were in response to Russia's invasion of Ukraine, taking of 
Crimea. So Russia understands what has to be done to achieve 
sanctions relief on the current sanctions.
    The issue and the outrageous response they should receive 
for their cyber meddling around elections so we can put 
sanctions in place, is what do we want from the Russians in 
order for them to earn sanctions relief? I'm not suggesting we 
shouldn't do it, I'm just pointing out from a diplomat's 
perspective, some of the challenges.
    I do think, and I've read the amendment to the Iran 
sanctions bill, which is where the Russian sanctions are being 
considered, and I think there are a few problematic areas 
within those that I would hope would allow the diplomatic 
efforts to attempt to make some progress. If we cannot make 
progress, and I have told others in the Senate when we've 
talked, I've had conversations with them, I may very well be 
calling you and saying the time has come now to do this in 
order to motivate some movement on their part.
    So I understand and am supportive of having that kind of 
ability. I think the question is, given where we are--and we 
don't know yet whether these efforts we have in place are going 
to bear fruit. Ultimately, it's going to take a little time, 
but as I said earlier, I think it is important that we address 
the situation and the relationship we have today, which I do 
not believe is in the interest of the United States nor the 
interest of stability in the world, and we can either 
deteriorate it further or we can try to stabilize and improve 
it, and right now, this is an effort that is in progress.
    Senator Van Hollen. No, I understand, Mr. Secretary, and I 
think all of us would like to see the Russians take the actions 
that indicate to us that they want to be a constructive 
international player, but as you know, the first challenge when 
you're tackling a problem is to get the other side to admit 
that they've engaged in this kind of activity. Have they 
indicated to you in any of these conversations, have they 
admitted they interfered in our elections in any of your 
conversations?
    Secretary Tillerson. I think their position and their 
explanation of it is pretty public, and I've heard nothing any 
different.
    Senator Van Hollen. Well, that's right. I mean, now we're 
in a position where they haven't even admitted it, right? 
You've got Vladimir Putin talking about maybe some private 
citizens in Russia, you know, played hanky-panky. We know 
that's not true. We know it was a concerted effort. We've seen 
it not only in the United States, but with our NATO allies. So 
to even be talking about providing them access to the compound 
on the Eastern Shore of Maryland, my State, or others, instead 
of leaning forward and saying, ``Here is what we're going to do 
unless, number one, you admit what you did; and number two, 
you're going to provide us verifiable assurances that it won't 
happen again,'' it seems to me we've got to lean in on that 
issue.

                                  IRAN

    Let me ask you a budget-related question with respect to 
the verification of the Iran agreement. We're also going to be 
discussing legislation related to that agreement because on 
April 18, the administration certified to the Congress that 
Iran was in fact in compliance of the current agreement, isn't 
that right?
    Secretary Tillerson. That's correct.
    Senator Van Hollen. And you would agree, would you not, 
that it's in our national security interest to make sure we 
have in place the ability to verify Iranian compliance with the 
agreement?
    Secretary Tillerson. Yes, it is, but I will also tell you 
under that agreement, it's a pretty low bar.
    Senator Van Hollen. Well, I would beg to differ, but I 
think what we should agree on, Mr. Secretary, is that the IAEA, 
which monitors that agreement, should have the resources to do 
it. Would you agree with that?
    Secretary Tillerson. Certainly.

                   INTERNATIONAL ATOMIC ENERGY AGENCY

    Senator Van Hollen. Okay. Well, part of your budget calls 
for a 27 percent reduction to the contributions to 
international organizations, and those mandatory contributions, 
many of them go to fund the IAEA, which has indicated that they 
need those resources to verify Iranian compliance with the 
nuclear agreement. So can you tell us today that the United 
States will ensure that we provide our share of the funds 
necessary to make sure that they can verify compliance with 
that agreement?
    Secretary Tillerson. Yes. The cuts to the international 
organization's budget, which, as you mentioned, touches on a 
number of organizations, U.N., World Health, IAEA, how we would 
distribute those is under continued discussion with the bureaus 
and those agencies so that we have as best an understanding as 
we have as to how that would affect them, but it is our 
intention that the IAEA have all the resources it needs to 
carry out its responsibilities on the compliance side of the 
JCPOA.
    Senator Van Hollen. I appreciate that commitment, Mr. 
Secretary. I think that's important to all of us.
    Senator Graham. Senator Coons.
    Senator Coons. Thank you, Chairman Graham.
    Thank you, Secretary Tillerson, for your service and the 
chance to be with you again today. I'm struck at the list that 
the chairman put up and the detailed and thorough presentation 
he made about the unsettled, dangerous and difficult world in 
which we currently operate and the gap with your written and 
spoken presentation.

                                 RUSSIA

    I see here Russian aggression and conflict in Ukraine 
relatively prominent, and I did not see that in your written 
testimony or your spoken testimony. And I'm concerned about 
that gap in the context of an era when we know that Russia, 
from the very highest levels, intentionally interfered in our 
last presidential elections, and in my view, that's only going 
to stop when we stop it.
    I understand we may have a difference in approach to how to 
engage Vladimir Putin in Russia, but I have a concern about the 
message we're sending to our vital allies. I am haunted by a 
question asked of me by an Eastern European diplomat at the 
Halifax Security Forum not long after the inauguration where he 
said, ``How can we count on you to defend our democracy when we 
don't see you defending your own democracy?''
    In your confirmation hearing, you acknowledged Russia's 
ongoing efforts to divide Europe from the United States and to 
divide NATO and the EU within. And we discussed how you would 
lead the resources of the State Department to counter Russian 
propaganda through tools like Radio Free Europe, and how you 
would invest in strengthening our vital allies in the region, 
whether NATO or, as has been mentioned, countries like Georgia 
or Ukraine that are not NATO members.
    If I understand this right, your fiscal year 2018 request 
for Europe and Eurasia is nearly cut in half from fiscal year 
2016 by about $450 million. What is the strategy behind 
decreasing support for our partners and allies in the region in 
the face of a clear and growing Russian threat to their 
democracies and ours?
    Secretary Tillerson. Well, first let me position the 
situation with Russia for you so that you understand what I am 
hearing from allies, partners, large and small, and this is 
without exception. I have yet to have a bilateral, a one-on-
one, a pull-aside, with a single counterpart in any country in 
Europe, the Middle East, even Southeast Asia that has not said 
to me, ``Please address your relationship with Russia. It has 
to be improved.'' They believe worsening this relationship will 
ultimately worsen their situation.
    So we have been--people have been imploring me to engage 
and try to improve the situation. Now, that was our approach 
anyway, but I would just tell you the feedback I'm getting is, 
``Please engage and see if you can improve the situation.''
    With respect to the tools available to us, we do maintain a 
particular emphasis on the countries that we see in Europe that 
are most at risk of Russian interference in Eastern Europe. We 
would like to do more in the Baltics and in the Balkans. If we 
had a little more, we would do a little more there, but we have 
not walked away from those.
    We do want to continue to perfect more sophisticated 
approaches as to how to push messages into Russian society, 
obviously through social media, through broadcasts, through all 
of the tools available to us, and we are going to continue to 
maintain that effort to ensure we are in the conversation among 
young people and others inside of Russia.
    But this--I understand other countries are concerned about 
Russia, they should be. And I hear about it when I talk to them 
about how they feel the direct threat, whether they're in the 
Baltics, whether they're in the Balkans, whether they're in 
Georgia, or whether they're in other parts of the world as 
well. So they express that to me, but then when we talk about 
what should be done, they want us to solve it through 
engagement. They do not want it to get worse because if it gets 
worse, they fear it will be worse for them.
    Senator Coons. Well, Mr. Secretary, I appreciate hearing 
that perspective, and we have many of the same conversations, 
just with a different endpoint. In Southeast Asia, in Eastern 
Europe, in the North Atlantic Alliance, I hear grave concerns 
that the signals we are sending are signals of retreat and of 
disengagement. Partly this is from countries, as was mentioned 
by the chairman, like Jordan that critically depend on us for 
support as they bear the burden and costs of a great number of 
refugees. In other places, it's where either China is being 
ascendant or aggressive in the South China Sea, or in the face 
of North Korea, or in Eastern Europe, as you mentioned.
    I just--in terms of an overall budget that is trying to 
defend American interests and advance American values, I don't 
see how it makes sense in an increasingly difficult and 
contested world to unilaterally withdraw support from vital 
allies who have chosen us and our values and our side in a 
contest of ideas with Russia, China, and others.

                                 AFRICA

    Let me mention two other things before I run out of time. 
As has been mentioned by others, we have people-to-people 
programs like the Fulbright Scholarships that have had a big 
positive impact and that elevate the reputation we enjoy in the 
world. Africa is a very young continent, a very large 
continent, where China is omnipresent. The Young African 
Leaders Initiative is a relatively modest-in-scope program that 
has had a big impact. I thought it was, again, not the choice I 
would have made to cut all the educational and cultural 
exchange programs in half, and YALI would be one of them. I 
hope you will reconsider that because I think these are 
powerful programs that connect us to parts of the world where 
we benefit from a positive relationship and from, as you said, 
that next generation of leaders.
    Power Africa is also something that we, on a bipartisan 
basis, authorized through the Electrify Africa Act. It is a way 
for us to bring the deployment of private sector capital and 
American expertise to Sub-Saharan Africa. Your budget proposal 
allocates an 84 percent cut from the fiscal year 2016 enacted 
level for this. There are a dozen other programs I could talk 
about that I think improve the visibility and the scope and the 
reach of our investment through diplomacy and development. 
Those are two I just wanted to elevate in our conversation 
today.
    Let me close just by quoting an editorial that I thought 
made an important point. A Senator said in this editorial, ``To 
view foreign policy as simply transactional is more dangerous 
than its proponents realize. Depriving the oppressed of a 
beacon of hope could lose us the world we have built and 
thrived in.'' This is, of course, by Senator McCain. It was 
written on May 8. I would ask for unanimous consent it be 
submitted for the record.
    Senator Graham. Without objection.
    [The information follows:]

                 [From The New York Times, May 8, 2017]

_______________________________________________________________________

Opinion  <rm-bond>  op-ed contributor

             JOHN McCAIN: WHY WE MUST SUPPORT HUMAN RIGHTS

                            (By John McCain)

    Washington, DC.--SOME years ago, I heard Natan Sharansky, the human 
rights icon, recount how he and his fellow refuseniks in the Soviet 
Union took renewed courage from statements made on their behalf by 
President Ronald Reagan. Word had reached the gulag that the leader of 
the most powerful nation on earth had spoken in defense of their right 
to self-determination. America, personified by its President, gave them 
hope, and hope is a powerful defense against oppression.
    As I listened to Mr. Sharansky, I was reminded how much it had 
meant to my fellow P.O.W.s and me when we heard from new additions to 
our ranks that Mr. Reagan, then the Governor of California, had often 
defended our cause, demanded our humane treatment and encouraged 
Americans not to forget us.
    In their continuous efforts to infect us with despair and dissolve 
our attachment to our country, our North Vietnamese captors insisted 
the American Government and people had forgotten us. We were on our 
own, they taunted, and at their mercy. We clung to evidence to the 
contrary, and let it nourish our hope that we would go home one day 
with our honor intact.
    That hope was the mainstay of our resistance. Many, maybe most of 
us, might have given in to despair, and ransomed our honor for relief 
from abuse, had we truly believed we had been forgotten by our 
government and countrymen.
    In a recent address to State Department employees, Secretary of 
State Rex Tillerson said conditioning our foreign policy too heavily on 
values creates obstacles to advance our national interests. With those 
words, Secretary Tillerson sent a message to oppressed people 
everywhere: Don't look to the United States for hope. Our values make 
us sympathetic to your plight, and, when it's convenient, we might 
officially express that sympathy. But we make policy to serve our 
interests, which are not related to our values. So, if you happen to be 
in the way of our forging relationships with your oppressors that could 
serve our security and economic interests, good luck to you. You're on 
your own.
    There are those who will credit Mr. Tillerson's point of view as a 
straightforward if graceless elucidation of a foreign policy based on 
realism. If by realism they mean policy that is rooted in the world as 
it is, not as we wish it to be, they couldn't be more wrong.
    I consider myself a realist. I have certainly seen my share of the 
world as it really is and not how I wish it would be. What I've learned 
is that it is foolish to view realism and idealism as incompatible or 
to consider our power and wealth as encumbered by the demands of 
justice, morality and conscience.
    In the real world, as lived and experienced by real people, the 
demand for human rights and dignity, the longing for liberty and 
justice and opportunity, the hatred of oppression and corruption and 
cruelty is reality. By denying this experience, we deny the aspirations 
of billions of people, and invite their enduring resentment.
    America didn't invent human rights. Those rights are common to all 
people: nations, cultures and religions cannot choose to simply opt out 
of them.
    Human rights exist above the state and beyond history. They cannot 
be rescinded by one government any more than they can be granted by 
another. They inhabit the human heart, and from there, though they may 
be abridged, they can never be extinguished.
    We are a country with a conscience. We have long believed moral 
concerns must be an essential part of our foreign policy, not a 
departure from it. We are the chief architect and defender of an 
international order governed by rules derived from our political and 
economic values. We have grown vastly wealthier and more powerful under 
those rules. More of humanity than ever before lives in freedom and out 
of poverty because of those rules.
    Our values are our strength and greatest treasure. We are 
distinguished from other countries because we are not made from a land 
or tribe or particular race or creed, but from an ideal that liberty is 
the inalienable right of mankind and in accord with nature and nature's 
Creator.
    To view foreign policy as simply transactional is more dangerous 
than its proponents realize. Depriving the oppressed of a beacon of 
hope could lose us the world we have built and thrived in. It could 
cost our reputation in history as the nation distinct from all others 
in our achievements, our identity and our enduring influence on 
mankind. Our values are central to all three.
    Were they not, we would be one great power among the others of 
history. We would acquire wealth and power for a time, before receding 
into the disputed past. But we are a more exceptional country than 
that.
    We saw the world as it was and we made it better.

John McCain (@SenJohnMcCain) is a Republican Senator from Arizona.

Follow The New York Times Opinion section on Facebook and Twitter 
(@NYTopinion), and sign up for the Opinion Today newsletter.

A version of this op-ed appears in print on May 8, 2017, on Page A21 of 
the New York edition with the headline: We Must Support Human Rights.

    Senator Coons. I am concerned that in a world that is 
increasingly unstable and where there is a clear contest 
between authoritarian capitalism and real capitalism, as a 
democracy that is a capitalist society, we need to step up our 
game. And I agree with increasing our defense investment, but I 
think to do it without also sustaining or increasing our 
investment in diplomacy and development is ill-considered, and 
I really hope that we will work together to advance human 
rights, to advance diplomacy, and to advance development 
through this budget.
    Thank you, Mr. Chairman.
    Senator Graham. Thank you.
    Senator Daines.
    Senator Daines. Thank you, Mr. Chairman.
    Secretary Tillerson, thank you for your service to our 
country. Thank you for coming before this subcommittee today.

                              NORTH KOREA

    Two months ago I led a bicameral congressional delegation 
to China and Japan. In fact, it was just after President Xi was 
in Florida. I was heading over to China I think that Sunday. 
And we were underscoring our concerns about the threat posed by 
North Korea, noting that the U.S., and I quote, year of 
strategic patience is over, as was articulated by Vice 
President Pence, who came there the week after we were there in 
terms of in the region.
    Despite international efforts to pressure Pyongyang, it 
continues to conduct missile tests, nearly a dozen already this 
year. While some of these tests have failed, I am concerned 
that North Korea is learning from these failures. There's an 
old saying, when you attend college, you learn a lot more from 
the tests you fail versus the tests you ace. Meanwhile, South 
Korea has delayed implementing part of THAAD, the missile 
defense system.
    My question is, how have the latest developments impacted 
the State Department's engagement with South Korea, Japan, and 
China to protect against North Korean aggression?
    Secretary Tillerson. Well, as you know, the new South 
Korean Government is being put into place. They have not named 
all of their cabinet positions yet, but we have been in 
conversations with some of their representatives, who came to 
Washington, as well as maintaining a very close dialogue with 
our Japanese counterparts.
    So our intention--and I know the South Koreans are 
committed as well to the strong trilateral partnership that we 
have that confronts North Korea first and foremost, and then 
ultimately at some point, at the appropriate point, engage with 
others. But the pressure campaign that we've had underway now 
for a few weeks, which involves obviously a requirement that 
China in particular participate and participate in a meaningful 
way, we believe is beginning to have some effect. It is 
difficult obviously to judge precisely because we do not have 
great transparency and visibility inside the regime in North 
Korea, but this is a campaign that has a forward map as to how 
we continue to implement and increase that pressure on the 
North Koreans until we receive a clear signal that they now are 
ready to engage with a different mindset about the way forward.
    You could interpret the level of missile testing obviously 
is quite disturbing to us. Whether that's a sign they're trying 
to give to us that it's not working, whether it's a sign that 
it is working, is difficult to tell, but we are monitoring all 
of those tests carefully, and particularly in terms of what is 
the nature of the test. And we have good alignment between 
ourselves and the government of China regarding, first, the 
objective, a denuclearization of the peninsula, but also we 
have a good understanding between us of what actions if North 
Korea went too far, what actions would cause us to be 
completely aligned?
    So we have further high level dialogue with the Chinese 
coming up this next week, Secretary Mattis and myself, because 
we want to work this both at the diplomatic level but also at 
the mil-to-mil level. It's important that we manage the risk of 
this quite carefully with full and open channels of 
communication with the Chinese.
    Senator Daines. Secretary Tillerson, I want to commend you 
and the administration in the leadership that I've been seeing 
in Asia. I lived in China for 6 years working for Procter & 
Gamble. I was there when Kim Un Jong's grandpa signed the deal 
back in 1994, and we've seen what's happened since then.
    I was struck by, as you just mentioned, the change in the 
engagement approach the Chinese now have. We met with Premier 
Li Keqiang as well as Chairman Zhang Dejiang as they are, I 
think, as you stated, changing their engagement strategy with 
North Korea, and I want to thank you for your leadership in 
that regard in this very important issue.
    Similarly, I had feedback from the leadership in Japan with 
Prime Minister Abe and his team, that our relationship with 
Japan has never been better in some time. And the media doesn't 
report this kind of news, but I saw it firsthand, and I want to 
thank you for your steady hand of leadership in this important 
area of the world.

                     RUSSIAN TRADE WITH NORTH KOREA

    Last week, there was a press report that indicated that 
Russian trade with North Korea increased by more than 70 
percent in the first 2 months of this year. Can you provide 
additional details on this development? And what impact does 
this have on our North Korea strategy?
    Secretary Tillerson. We do need Russia's cooperation and 
participation. We have spoken directly to them. I spoke 
directly to President Putin on the need for them to join us and 
China in the pressure campaign on North Korea. We do see and 
monitor Russian movements of fuel, petroleum products. They are 
opening a new ferry transport system between Vladivostok and 
North Korea, which is troubling.
    So we're continuing the dialogue with them. I think we're 
making some progress. If you noticed in the U.N. Security 
Council resolution that was passed, it was passed with 
unanimous approval. The Russians supported that resolution, 
which imposed more sanctions on individuals and entities. In 
years past, we would never have hoped that they would vote for 
it. They might have abstained.
    So I think the Russians, too, are beginning to understand 
the threat that North Korea poses to them because if there is a 
problem regionally, they will feel the effects of that. So I 
think they are also beginning to recalculate their posture 
towards North Korea.

                       ENERGY SECURITY IN EUROPE

    Senator Daines. So speaking of Russian threat, I'm going to 
go to the other side of the world. A few weeks ago, I visited 
Norway. In fact, we were at Hammerfest, Norway. I was with 
Chairman Murkowski, of the Energy Committee, as well as 
Secretary Zinke, and Senator Cornyn, Senator Barrasso, Senator 
Heitkamp.
    While I was there, I toured one of the world's most 
efficient liquefied natural gas facilities. They also have 
onsite carbon capture capability. Many European countries still 
depend on LNG from Russia. I was struck by the fact there are 
actually 13 European countries that rely on Russia for over 75 
percent of their annual LNG imports.
    So the facility that we saw such as the one in Norway, the 
only one in Europe, combined with U.S. LNG exports, can be 
important to reduce Russia's ability to use its energy policy 
to intimidate Europe.
    The question is, what's the State Department doing and what 
more can we do as part of a whole-of-government approach to 
help Europe become less dependent on Russia for their energy 
needs?
    Secretary Tillerson. Well, just to clarify, Europe receives 
70 percent of its natural gas supply, but it comes by way of 
pipeline to Europe, because there are extensive historic 
pipelines that have been there for decades. And Russia is now 
pursuing the expansion of a second pipeline called Nord Stream 
2 that would connect to Germany.
    We have encouraged European countries and the EU to at 
least subject that pipeline to the full rigors of their 
regulatory process and have suggested to them it's not in their 
long-term energy security interest to become more dependent on 
Russian natural gas, and have pointed out that the U.S. has an 
abundance of natural gas and facilities now to ship LNG to 
Europe.
    So we are promoting the notion that Europe needs to really 
think about its total energy balance and its energy security, 
and recognize how dependent they remain on Russia. So we are 
having those kinds of dialogue with them.
    Senator Daines. All right. Thank you, Secretary Tillerson.
    Senator Graham. Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman. I know 
it's been a very long day.

                                 YEMEN

    Mr. Secretary, thank you for sticking with us in both 
committee processes. We had a vote on the floor of the Senate 
earlier today on a small portion of the proposed arms sales to 
Saudi Arabia. It was a close vote, close in part because I 
think there is a worry that while there is clearly a military 
strategy to assist the Saudis in their bombing campaign inside 
Yemen, that there is not a political component to the strategy. 
I think you answered a question that Senator Young posed 
earlier today about putting pressure on the Saudis to allow 
humanitarian resources to flow more freely into the country, a 
country that is ravaged by famine and cholera today.
    But I wonder if you might speak a little bit more in depth 
about the lack of a political process. Secretary Kerry was very 
deeply personally engaged in trying to bring the Iranian-backed 
Houthis together with the Saudi-backed regime. He was 
unsuccessful, but he got very close. And the sense is that this 
administration and your Department of State has not engaged in 
that political process, is not actively trying to get the two 
sides to sit at the table. And part of our worry is that the 
strategy now is to escalate the military conflict as a means of 
trying to bring the Houthis to the table under circumstances in 
which they are weaker, which might exacerbate the military 
conflict.
    So just explain to me, or I would love for you to talk to 
the subcommittee about your views on how the U.S. reengages the 
political process inside Yemen.
    Secretary Tillerson. Well, thank you, Senator. And you are 
right on the issue. Let me dispel the notion that we're not 
engaged. I lived in Yemen for 2\1/2\ years, and so I know a 
number of the people pretty well. We are engaged with really 
it's the Emiratis, the Saudis, and ourselves with the Omanis 
participating as well, and the U.N. We've had two or three 
meetings now to talk about the way forward, including 
discussions with the U.N. representative in this.
    We are pursuing the political solution. But this involves 
more than just the Saudis and the Houthis. It's a little more 
complicated than that, and I think that's why past efforts may 
have failed, there was not a recognition of all of the equities 
that were involved inside of Yemen.
    I want to be careful about going too far because some of 
this is at a very sensitive stage and we are not talking about 
it publicly yet, but we are working diligently with those 
parties to put together a way forward to begin to advance a 
political solution.
    The focus on the Port of Hodeidah is critical because it is 
the port of entry where we could begin to deliver massive 
amounts of humanitarian assistance. It is controlled today by 
the Houthis. The aid that has been sent in through that port we 
know has--most of it has not made it to the people it was 
supposed to make it to. We've been working with the U.N. 
Secretary-General. We're working with both the Emiratis and the 
Saudis to gain agreement over how we might gain control of that 
port.
    We believe we can gain control of the port under some other 
third authority's control. And then the next step is we've got 
to put in place a safe passage for the aid to go to make it all 
the way to Sana'a and other parts of the country where the 
sufferings are greatest, and it's that safe passage piece that 
we're working on right now.
    If we can stabilize the humanitarian situation and if we 
can disrupt the elements of the conflict itself, then we think, 
with some other steps that are yet--that are underway, but are 
not yet taken, we think we can create conditions for a 
political process to begin.
    Senator Murphy. Just to clarify, are you talking about--
when you say retake that port, you're talking about a military 
campaign to retake the port?
    Secretary Tillerson. No. The Houthis would voluntarily turn 
that port over to a third authority, not the Saudis, not the 
Emiratis, and then we would gain access. Then the next step is, 
how do we create the safe passage to connect the aid to the 
people that need it?
    Senator Murphy. How do you gain a political reconciliation 
there if you're not talking to the Iranians?
    Secretary Tillerson. The Iranians are part of the problem. 
And again I want to be a little cautious about how far I go 
given the sensitive nature of what we're trying to put together 
quietly. I would just say that they are not directly at the 
table because we do not believe they have earned a seat at that 
table. We would like for the Iranians to end their flow of 
weapons to the Houthis, in particular, flow of sophisticated 
missiles to the Houthis. We need for them to stop supplying 
that. And we're working with others as to how we could get 
their agreement to do that.
    This is extraordinarily difficult, it's more complicated 
than the two or three countries people think are involved, and 
it is a very difficult country in which to reach even a 
political settlement, having been through two civil wars now. 
So we want to take this in a manner that will be durable if we 
can take it to that place.
    Senator Murphy. I guess part of the struggle is figuring 
out who earns a seat at the table and who doesn't. So the 
Russians have earned a seat at the table with respect to the 
future of Syria despite the slaughter that they have allowed to 
happen, but the Iranians don't earn a seat at the table inside 
Yemen.
    It seems as if you have to talk to people that we disagree 
with, the people that are often our adversaries, if you want to 
make peace in places like that. How do we distinguish in that 
way as to why the Iranians don't get a seat at the table, but 
we give the Russians a seat at the table?
    Secretary Tillerson. It's the role they're willing to play 
from this point forward in working with us to stabilize, create 
conditions for ceasefires, and create conditions for political 
discussions. In the case of Syria, we have a discussion and we 
have a process underway with the Russians to achieve some 
stability and create conditions for the political process to 
unfold in Geneva where, quite frankly, neither Russia nor we 
have a seat at the table in the Geneva process, but we can be 
there to influence.
    In the case of Yemen, we do not have any construct today 
that suggests the Iranians have any interest whatsoever in 
deescalating the conflict in Yemen.
    Senator Murphy. You know, I hope you'll talk to the folks, 
I'm sure you have, who were subject to the negotiations last 
year. They were very close to an agreement. I don't think you 
can ever categorize the Iranians as being constructive, but we 
were not far away. I think it's worthwhile to engage in direct 
negotiation. I don't think there's any way around it if you 
ultimately want to bring political resolution to that place.
    Secretary Tillerson. I understand people had their own 
assessments at the time.
    Senator Graham. Thank you, Senator Murphy.
    Well, we made it. I think you acquitted yourself very well, 
Mr. Secretary. I appreciate you coming to the subcommittee.
    We have some requests pending to the State Department. If 
you could respond to those requests reasonably soon, we'd 
appreciate it.
    The following items will be made part of the hearing 
record:
    Outside witness testimony from the American Academy of 
Diplomacy, the American Foreign Service Association, 
InterAction, CARE USA, International Rescue Committee, Catholic 
Relief Services, World Vision, Oxfam America, 16 former four-
star generals and admirals, the U.S. Global Leadership 
Coalition, the Institute of International Education, and the 
Modernizing Foreign Assistance Network;
    A letter from the U.S. Government Accountability Office 
(GAO) to Secretary Tillerson regarding the implementation of 
GAO recommendations regarding Security of Overseas Personnel 
and Facilities, Security Assistance, Cost Savings, Humanitarian 
Assistance, and Information Technology;
    Letters in support of foreign assistance from the family 
and friends of Anita Datar (killed by terrorists in Mali in 
2015), 225 business leaders, and 24 faith-based organizations;
    A June 12, 2017 oped in Politico by Admiral Mike Mullen 
(Ret) and General Jim Jones (Ret) entitled ``Why Foreign Aid is 
Critical to U.S. National Security'';
    A June 1, 2017 letter from the Sri Lankan Ambassador who is 
deeply concerned with the proposed cuts to assistance for Sri 
Lanka;
    A June 12, 2017 letter from the Tunisian Ambassador who is 
similarly concerned with the budget request for assistance for 
Tunisia; and
    A July 6, 2017 prepared statement of the Council of 
International Development Companies.
    Senator Graham. I'll just wrap it up. You've been very 
generous with your time. I'm excited about your review of the 
State Department, your listening and taking action to make it a 
more efficient place. You're right, just throwing money at a 
problem is never going to solve it.
    Your business background is unique here, but also your 
engagement in the world. You know a lot of these countries 
because you lived there and you've done business. So I think 
you're going to be a good representative for us, and I'm 
excited about that.
    This budget is just driven by an arbitrary number. It comes 
out of OMB, but it basically is a result of increasing military 
spending, and can't deal with entitlements, so you've got to do 
what you've got to do. It's more of a shoot-and-aim budget. I'm 
looking forward to your review. Then we can make more sense of 
it rather than just shooting and aiming later.
    Threat-based budgeting is the way to go, you're dead right. 
It's just not about the money we spend, but a threat-based 
budget. And reform is absolutely essential.
    On the defense side, we've reformed retirement, and that 
was tough. It's prospective, but it's going to save money and 
it's going to be fair to the soldiers and military members, but 
it's a real reform. We're going to cost-plus contracts have 
been replaced by fixed-price contracts. That's been a hell of a 
fight, but it's going to save money. We're taking people out of 
the headquarters units and putting them out in the field 
because we got too top-heavy.
    We've done all that and still going to increase the defense 
budget by 10 percent because after you do all those reforms, 
the world is so dangerous, and the military has been hurt for 
the last few years through sequestration, that even after all 
those reforms, you just need more soldiers out there in the 
fight. They need better equipment, they need more modern 
equipment, they need to deter war, and they need to win the 
wars that we're in.
    Soft power. As I understand the need for increased hard 
power, I do not understand how you can cut soft power by 29 
percent. I'm looking forward to reform the State Department, 
but I just don't believe a 29 percent reduction is ever going 
to make sense given the threats we face.
    I think this budget will cost influence, we're going to 
lose influence, it's going to put lives at risk, and it will be 
seen as a retreat, so that's why I can't support it. But I will 
support you and your efforts to bring about a new, modern State 
Department, listen to how we can do better with our allies.
    I don't mind asking people for more money, I really don't. 
Count me in, in filling those gaps. But given our role in the 
world, I think the cuts that we're talking about here, we're 
sacrificing influence at a time we need more. We're turning 
back programs that have worked pretty well at a time when a 
little more will get us over the finish line. And I don't want 
to retreat from the world right now.
    The last 8 years before you got in town was pretty tough. 
Nobody trusted us. Everybody thought we were taking a backseat 
and good luck. Leading from behind did not work. I want to 
compliment you and the President for getting out and about. 
Increase in military spending. You've got a hands-on approach 
to almost every conflict in the world, and I left out Yemen.
    Any Secretary of State having to deal with three or four of 
these problems would have a load. Here's my goal, is to lighten 
your load. It's to try to find out a way to save money, but 
also achieve the purpose of soft power, which is protect 
America. And I look forward to working with you.
    You will find no better friend than this subcommittee to 
reform the State Department. But we cannot sit on the sidelines 
and watch the State Department be seen as retreating at a time 
when we need more soft power, not less.

                     ADDITIONAL COMMITTEE QUESTIONS

    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted to Hon. Rex Tillerson
             Questions Submitted by Senator Lindsey Graham
    Question. Please describe this administration's foreign policy. How 
is this foreign policy similar to, or different from, that of previous 
Republican administrations?
    Answer. The President campaigned on the phrase America First, and 
that characterizes our foreign policy. The chief goal of American 
foreign policy is to ensure the security and economic prosperity of our 
people. We are also dedicated to advancing American values. We are 
confident that as we continue to establish and grow relationships, we 
will have opportunities to persuade other nations on issues such as 
human rights, good governance, and rule of law.
    America First does not mean America alone. We will continue to 
maintain alliances and build new ones along the lines of shared 
interest. We seek to grow our international partners' responsibility 
for security and stability at regional and international levels. For 
example, we have consistently asked other nations with no historic 
interest in de-nuclearizing North Korea to join our peaceful pressure 
campaign and apply new economic and diplomatic sanctions.
    Question. Is it the intention of the fiscal year 2018 Function 150 
budget request to reorient the United States away from its position as 
the world's sole superpower?
    How does the fiscal year 2018 Function 150 budget request ensure 
that American remains the sole global superpower?
    Answer. The fiscal year 2018 Function 150 budget request will allow 
America to remain the sole global superpower as it supports the 
President's priorities to defend national security, assert U.S. 
leadership, and foster opportunities for U.S. economic interests. Even 
with the reductions in funding, we will continue to be the leader in 
international development, global health, democracy and good governance 
initiatives, and humanitarian efforts. As part of our efforts, we will 
continue to partner with key allies to protect Americans and American 
interests, advance bilateral partnerships, open new markets for U.S. 
businesses, and promote American interests abroad, in a manner that 
puts America first. Focusing our efforts will allow us to advance our 
most important policy goals and national security interests, while 
ensuring that other countries contribute their fair share toward 
meeting global challenges.
    Question. Are diplomacy and development essential components to our 
national security framework?
    Answer. Yes. Diplomacy is always the administration's preferred 
option for resolving conflict and advancing our interests. We are 
seeing the fruits of diplomacy right now as many nations have, at our 
urging, undertaken a new responsibility for solving the North Korea 
issue by imposing and intensifying diplomatic and economic sanctions. 
Development programs will remain an important component of our foreign 
policy; they play a key role in mitigating socio-economic circumstances 
in which instability and violence often emerge and thrive.
    Question. If so, how is this reflected in the Function150 budget 
request?
    Answer. Diplomacy and development are essential components to our 
national security framework. The fiscal year 2018 Function 150 budget 
request for the State Department and USAID defends our national 
security interests, addresses the challenges to American leadership 
abroad, bolsters U.S. national security, and secures our borders. It 
acknowledges that U.S. assistance must be more effective, while 
continuing to advance our foreign policy and economic interests.
    As I mentioned in my testimony, the fiscal year 2018 budget request 
includes substantial funding for many foreign assistance and 
development programs under the auspices of USAID and the State 
Department.
    As we work to streamline efforts to ensure efficiency and 
effectiveness of U.S. taxpayer dollars, we acknowledge that we have to 
prioritize and make some tough choices. Even with reductions in 
funding, we will continue to be the leader in international 
development, global health, democracy and good governance initiatives, 
as well as humanitarian efforts.
    Question. What is the administration's foreign assistance strategy?
    Answer. The Joint Strategic Plan (JSP) is the overarching strategy 
document for the Department and USAID. Our foreign assistance strategy 
has been, and will continue to be, a completely integrated component of 
the JSP. The fiscal year 2018-2022 JSP is currently under development 
in accordance with the process, timeline and requirements laid out by 
OMB and in the Government Performance Results Act--Modernization Act of 
2010 (GPRA-MA).
    Question. Who is responsible for the development and implementation 
of such strategy?
    Answer. The Secretary and USAID Administrator provide the overall 
policy guidance. The Bureau of Budget and Planning (BP) and the Office 
of U.S. Foreign Assistance Resources (F), together with USAID's 
Management Bureau (M) and Bureau for Policy, Planning and Learning 
(PPL), share responsibility for managing the JSP process. The 
Secretary's Policy Planning Staff's (S/P) provides additional policy 
guidance and prioritization among the full range of foreign policy 
issues, and how those policy priorities should be articulated in the 
JSP's strategic goal and objective framework. The Secretary will 
approve and publish the fiscal year 2018-2022 Joint Strategic Plan by 
February 2018, concurrent with the fiscal year 2019 President's budget.
    Question. Once confirmed, what will be the relationship between the 
USAID Administrator and the Secretary of State?
    Answer. According to authorities identified in the Foreign Affairs 
Reform and Restructuring Act of 1998, the USAID Administrator reports 
to and is under the direct authority and policy guidance of the 
Secretary of State.
    Question. What role (bilaterally and multilaterally) does the 
Function 150 budget request envision for diplomacy and development in 
the relief and reconstruction in ISIS-liberated areas of Iraq and 
Syria?
    Will the Secretary of State lead in such relief and reconstruction 
efforts within the U.S. Government and international community?
    Answer. The President's fiscal year 2018 budget requests $5.6 
billion for efforts to defeat ISIS and other terrorist organizations 
worldwide, including $2.0 billion in Diplomatic Engagement funding and 
$3.6 billion in Foreign Assistance funding. Within that total, the 
budget requests $1.5 billion for Iraq and Syria. This funding will 
allow the United States to support critical diplomatic efforts as well 
as stabilization, demining, and reconciliation programs in Iraq and 
Syria to build on and cement military gains against ISIS.
    In March 2017, Secretary Tillerson hosted a Ministerial meeting for 
the Global Coalition to Defeat ISIS at which he announced that the 
Coalition had pledged over $2 billion in humanitarian, stabilization, 
and demining funding in 2017 for areas in Iraq and Syria liberated from 
ISIS. With Secretary Tillerson leading within the U.S. Government, the 
United States will continue to play a leading role in the Coalition's 
efforts to help local partners stabilize liberated areas in Iraq and 
Syria and set those areas on the path to recovery.
    Question. Please clarify your views on the role of American values, 
including support for democracy and human rights, in U.S. foreign 
policy.
    Answer. The United States is the only global superpower with the 
means and the moral compass capable of shaping the world for good. Our 
foreign policy actions should be guided at all times by our core values 
of freedom, democracy, individual liberty, and human dignity. Promoting 
U.S. values--such as the pursuit of democratic governance and 
commitment to human rights and the freedom of religion, press, and 
speech--contributes to the long-term U.S. strategy of strengthening the 
international order. An example of one of the many ways we promote our 
values is through our annual reports on International Religious Freedom 
and Trafficking in Persons--two recently released reports in which we 
both publicly highlight countries that have made progress and expose 
those that continue to commit abuses.
    Question. What arguments did the Secretary of State put forward to 
the Office of Management of Budget (OMB) in support of additional 
resources when responding to OMB's initial topline allocation for the 
Function 150 budget request?
    What explanation did OMB provide the Secretary of State for denying 
this request?
    How was OMB's initial topline allocation for the Function 150 
budget request developed?
    Was the Department of State or USAID an integral part of that 
process?
    Answer. The Function 150 budget request prioritizes the well-being 
of Americans, bolsters U.S. national security, secures our borders, and 
advances U.S. economic interests. Executive branch communications 
between agencies and OMB regarding budget planning are deliberative and 
pre-decisional in nature, but the Department and USAID work closely 
with OMB on all budgetary matters.
    Question. Please describe the process by which the Office of U.S. 
Foreign Assistance Resources (F) established initial country-level 
allocations.
    What consultations occurred between F and embassies and USAID 
missions abroad in the development of the initial country-level 
allocations? Please describe the process and input by embassies and 
USAID missions abroad into the initial country-level allocations. If 
none occurred, please explain why.
    When F consulted with embassies and USAID missions after initial 
country-level allocations had been established, how many days were 
posts give to appeal these allocations?
    What were the specific criteria F used to determine whether any 
appeals were justified, and were posts given reasons for acceptance or 
rejection of appeals?
    Did the Department of State and USAID consult with foreign 
governments and implementers in developing final country-level 
allocations?
    When and how were foreign governments and implementers informed of 
final country-level allocations?
    How were CDCSs, RDCSs, and other strategic planning documents used 
in the development of initial and final country-level allocations?
    If such documents were not used, why not?
    Answer. Every fiscal year, the Office of U.S. Foreign Assistance 
Resources (F) leads the development of the Department of State and 
USAID foreign assistance budget request over a year-long process which 
begins in early January of each calendar year, when each mission is 
given the opportunity to submit a budget request aligned with their 
strategic plans, known as the Mission Resource Request (MRR). Following 
these inputs, bureaus make adjustments to the mission-level requests in 
their Bureau Resource Requests (BRRs), based on regional and/or global 
priorities. Department and USAID leadership then review the MRRs and 
BRRs, make adjustments, and the Secretary submits a final budget 
request to the Office of Management and Budget (OMB). While all of 
those steps took place during the development of the fiscal year 2018 
budget request, because of this year's Presidential Transition, the 
latter stages of the process had to be modified to account for the 
directional shifts in policy between the current and prior 
administrations, and the limited timeframe available to develop and 
finalize the budget.
    The initial fiscal year 2018 foreign assistance allocation process 
was informed by the topline funding levels provided to the Department 
and USAID by the Office of Management and Budget (OMB), as well as 
administration policies and priorities as laid out in the President's 
Fiscal Year 2018 Budget Blueprint. In aligning available resources, 
funding was prioritized based on a series of criteria including: 
countries and programs most critical for defending U.S. national 
security objectives and interests, asserting U.S. leadership and 
influence, and fostering opportunities for U.S. economic interests; 
where the assistance could be most effective or could have a 
transformative impact; and where the Department or USAID assistance has 
a comparative advantage.
    F, in consultation with Department and USAID leadership, developed 
an initial set of allocations using a variety of data and sources for 
analysis, including, but not limited to functional, regional, and 
country development strategies (i.e., Joint Regional Strategies (JRS), 
Functional Bureau Strategies (FBS), Integrated Country Strategies 
(ICS), Country Development Cooperation Strategies (CDCS)); MRRs; BRRs; 
bureau consultations; and prior year budget and performance documents. 
Department and USAID bureau leadership, along with their constituent 
missions, were given approximately one week to review the proposed 
bureau and country allocation levels and offer any adjustments, 
including proposals to shift funding across Operating Units (OUs) 
within a bureau, or request additional funding for specific countries, 
accounts, and/or programs. Their inputs were reviewed and considered 
against the criteria outlined above and allocation adjustments were 
made in consultation with Department and USAID leadership. Bureaus were 
informed of the adjustments that were made and the rationale behind 
them. Once bureau, country, and account levels were finalized, bureaus 
and their constituent missions finalized the distribution of funding by 
the Standardized Program Structure, including by sector, for inclusion 
in the Congressional Budget Justification.
    Once the President's fiscal year 2018 budget request was submitted 
to Congress and made available to the public, the Department and USAID 
began engaging with partners and foreign governments on the details of 
the request.
    Question. What guidance has been given to embassies and USAID 
missions on engagement with respective foreign governments on final 
country-level allocations?
    When was such guidance issued?
    Answer. Once the President's fiscal year 2018 budget request was 
submitted to Congress and made available to the public, the Department 
and USAID began engaging with partners and foreign governments on the 
details of the request, including final country-level allocations.
    Question. What communications guidance has the Department of State 
provided to embassies and USAID missions on proposed assistance levels 
to ensure that China and Russia do not shape America's national 
security narrative?
    Answer. Our U.S. embassies and USAID missions regularly receive 
guidance on assistance levels, and throughout the preparation and 
release of the State/USAID budget. This enables our embassies and 
missions to engage foreign audiences, assert American leadership, and 
project our national security narrative.
    The Department informs foreign and domestic media about our 
assistance programs, and educates journalists and editors on our 
policies, programs and initiatives. We use digital technologies and 
social media to reach a wider group of emerging influencers, including 
youth leaders, public intellectuals, NGOs, and others now playing a 
significant role in development and humanitarian response, along with 
politics and commerce. We have invested in digital marketing and 
analytics, IT infrastructure, and web services in recent years, and as 
a result, we are reaching more people around the world on more 
platforms than ever before in ways that reinforce core American values 
of openness, transparency and innovation.
    Question. Given that many foreign governments and populations first 
learned of proposed cuts through local press and social media (once the 
details of the budget were released), how does the Department of State 
intend to control the narrative on U.S. foreign policy?
    Answer. The Department of State has a critical role in crafting 
America's foreign policy narrative. The decisions regarding our budget 
have indeed received much press attention. America's policies have 
often been the center of international attention and the Department has 
been highly effective in presenting our vision to foreign audiences, 
and engaging and influencing key target groups. Now, as in the past, 
our intention is to use the broad spectrum of Department talent, 
platforms and programs to engage friends and allies, as well as those 
who are not positively disposed towards us, to project a vision of 
America foreign policy that is committed to retain our leadership role, 
but at a lower cost.
    By engaging foreign and domestic media, we aim to educate 
journalists and editors on our policies, programs and initiatives. And 
we use digital technologies and social media to reach a wider group of 
emerging influencers, including youth leaders, public intellectuals, 
NGOs, and others now playing a significant role in politics and 
commerce. We've invested in digital marketing and analytics, IT 
infrastructure, and web services in recent years, and as a result, 
we're reaching more people around the world on more platforms than ever 
before in ways that reinforce core American values of openness, 
transparency and innovation.
    Question. How does the fiscal year 2018 Function 150 budget request 
and the manner in which the cuts were made public through local press 
and social media not cede U.S. influence and narratives on foreign 
policy to the People's Republic of China and Russia?
    Answer. The fiscal year 2018 budget request of $37.6 billion is 
consistent with the administration's top priority--America's security. 
The budget includes programs that will target threats to U.S. security, 
such as the Islamic State in Iraq and Syria (ISIS), and strengthen the 
homeland. In addition to targeting new threats, the fiscal year 2018 
budget request allows for the State Department and U.S. Agency for 
International Development (USAID) to conduct their mission more 
efficiently and effectively by streamlining efforts and saving U.S. 
taxpayer dollars. Despite the reductions in funding, we will continue 
to lead globally on international development and humanitarian 
assistance, and the budget request includes funding for many foreign 
assistance programs.
    We are committed to retaining our leadership role, but at a lower 
cost. I am convinced that the highly skilled and knowledgeable people 
of my Department will deliver the value that the American people 
deserve, but more effectively and efficiently. They will get the job 
done, and we will continue to lead the world. The redesign effort that 
I have initiated aims to help accomplish this goal.
    Question. In many countries targeted for significant assistance 
cuts, other U.S. Government agencies, particularly the Department of 
Defense, are not similarly planning for operational or program 
reductions in fiscal year 2018. How was the Function 150 budget request 
coordinated with other such agencies?
    Answer. As in the past, the Office of Management and Budget (OMB) 
is formally charged with ensuring a coordinated approach to the 
administration's budget request that reflects the President's 
priorities. OMB played that important role with the fiscal year 2018 
budget request. Additionally, the Department continued its practice of 
coordinating directly with DoD and other agencies during the budget 
development. Moving forward, Secretary Mattis and I have committed our 
departments to work more closely together on how we prioritize and 
align our respective security sector assistance (SSA) resources in 
fiscal year 2018 and beyond. We have established a new State-DoD SSA 
Steering Committee that is working to ensure a coordinated approach to 
our respective assistance programs. The goal is to focus on a joint 
approach that determines how best to leverage resources and authorities 
to advance national security priorities and partnerships in the most 
cost-effective method. Together, we are in constant communication 
regarding how we can best target U.S. assistance to advance the 
administration's top policy priorities, such as defeating ISIS. We are 
also taking steps to ensure that we can continue to closely coordinate 
the development of our budget requests in the future.
    Question. Did the National Security Council provide any input into 
the development of the fiscal year 2018 Function 150 budget request?
    Answer. The Office of Management and Budget (OMB) is formally 
charged with ensuring a coordinated approach to the President's budget 
request within the Executive Office of the President as well as other 
Federal agencies. OMB played this important role in the development of 
the fiscal year 2018 budget request and is best positioned to comment 
on any coordination with the NSC on development of the Function 150 
budget request.
    Question. Please provide the Committee any analysis prepared by the 
Department of State, USAID, the NSC, OMB, or any other U.S. Government 
agencies that demonstrates other international donors will increase 
financial contributions for any decreases in U.S. assistance proposed 
in the fiscal year 2018 Function 150 budget request.
    Answer. Once the President's fiscal year 2018 budget request was 
submitted to Congress and made available to the public, the Department 
and USAID began engaging with partners and foreign governments on the 
details of the request. As part of our efforts, we will work to ensure 
that other donor countries contribute their fair share toward meeting 
global challenges. We will continue to partner with key allies to 
protect Americans and American interests, advance bilateral 
partnerships, and promote American interests abroad. Focusing our 
efforts will allow us to advance our most important policy goals and 
national security interests.
    Question. Does the Department of State and USAID intend to obligate 
and expend all funds made available to such agencies in fiscal years 
2017 and 2018?
    Answer. The Department of State and USAID will obligate funds 
appropriated by Congress consistent with applicable law, including the 
Impoundment Control Act.
    Question. Are such agencies familiar with the Impoundment Act and 
the requirements of both the administration and Congress under that 
Act?
    Answer. The Department and USAID will obligate funding appropriated 
by Congress consistent with applicable law, including the Congressional 
Budget and Impoundment Control Act of 1974.
    Question. What relationship does the Department of State and USAID 
seek with the Senate Appropriations Committee?
    Answer. The Department remains committed to working with Congress 
on the steps we are considering to improve the ability of the 
Department and USAID to achieve critical foreign policy goals. We will 
be in regular communication on the redesign process with the 
Department's committees of jurisdiction. The Department will continue 
to work with Congress, including your staff, during the redesign 
process and will notify and report on planned organizational changes 
consistent with sections 7015 and 7034(l) of the Department of State, 
Foreign Operations, and Related Programs Appropriations Act, 2017 
(Division J, Public Law 115-31). As the review is still underway, it is 
possible some of the planned changes might also require statutory 
changes. We will work with Congress as part of or prior to the fiscal 
year 2019 budget submission to pursue such statutory changes. At the 
end of this process, our goal is to ensure the State Department and 
USAID are better equipped to address the foreign policy challenges of 
the United States.
    Question. Do such agencies intend to respond to requests for 
information from the Ranking Member and Minority in a timely manner, 
consistent with past practices of prior Republican and Democrat 
administration?
    Answer. The Department and USAID continue their long-standing 
practice of responding appropriately to correspondence from Members of 
Congress, regardless of political affiliation.
    Question. How did the administration factor in Congressional 
priorities in the Function 150 budget request, such as the Global Food 
Security Act?
    Answer. The fiscal year 2018 budget reflects the President's 
``America First'' agenda that prioritizes the well-being of Americans, 
bolsters U.S. national security, secures our borders, and highlights 
U.S. economic interests. It also reflects the President's commitment to 
rebuild our Nation's military within fiscal constraints, while working 
on behalf of the American people to advance our national security 
objectives and foreign policy goals.
    The fiscal year 2018 request includes nearly $500 million to 
support agriculture programs and implementation of the Global Food 
Security Act. While working to ensure food security is an important 
foreign policy goal, the request does reflect a reduction from past 
years. We acknowledge that we had to prioritize and make some tough 
choices. The request prioritizes the most critical U.S. national 
security interests and foreign policy priorities.
    Question. Did the Department of State coordinate any of recent 
personnel actions--including hiring freezes and limitation on 
employment of eligible family members--with other U.S. Government 
agencies located in embassies and consulates?
    Answer. The Department of State elected to maintain the Federal 
hiring freeze while it undergoes a redesign effort, which will inform 
staffing requirements. EFM hiring by other U.S. Government agencies in 
overseas missions is determined by each individual agency's hiring 
policies. Each agency has the ability to make its own EFM hiring 
decisions.
    Question. Is the Secretary of State aware of any detrimental 
impacts of the hiring freeze on the requirements of those agencies? 
(Other U.S. Government agencies located in embassies and consulates)
    Answer. As with any hiring freeze, there was an expectation that 
overseas operations could not continue ``business as usual'' and would 
require prioritization of mission-critical operations that support the 
Department's security, safety, and health responsibilities. The 
Secretary has approved some hiring exemptions to mitigate the impact on 
national security, public safety, and public health. The Department of 
State has a well-established strategy for succession planning based on 
an analysis of past attrition trends, and, for the Foreign Service, 
based upon the flow through of Foreign Service Generalists and 
Specialists up through the ranks. To the degree that attrition 
increases with possible personnel reductions, we will adjust our models 
to account for the changes and ensure that necessary functions are 
maintained. Our newest hires will benefit over the coming months from 
our redesign effort, which is focused on improving the way each of us, 
individually and collectively, deliver on our State Department mission, 
here and abroad.
    Question. Operations and Personnel: Will the Secretary of State 
approved the July entry class for new Foreign Service officers? Why or 
why not?
    Answer. The Department plans to offer new Foreign Service officers 
placements in two A-100 classes: July 24 and September 18, 2017. We 
value these talented individuals and the skills they will bring into 
the Department. They also will benefit over the coming months from our 
redesign effort, which is focused on improving the way each of us, 
individually and collectively, deliver on our State Department mission, 
here and abroad.
    Question. Does the administration intend to significantly change 
the organization or mission of USAID?
    Answer. We are reviewing options to ensure the efficiency, 
effectiveness, and accountability of the United States' diplomatic and 
development operations, and we have no preconceived outcomes for a 
potential reorganization.
    The State Department and USAID recently completed collecting 
information on our organizational processes and culture through a 
survey that was made available to everyone in State and USAID. Over 
35,000 surveys were completed, and we also held in-person listening 
sessions with approximately 300 individuals to obtain detailed 
perspectives on what we do and how we do it. From this feedback the 
consultants heard a prevailing theme that ``Central to the hearts and 
minds of the people of USAID is the critical mission they see their 
organization playing in the world. There is a clarity about, and focus 
on, the mission.'' These insights and others will help the Department 
and USAID make informed decisions on how we can produce a more 
efficient, effective State Department and USAID that maximize the 
expertise of staff and continue to deliver results for the American 
people.
    Question. Are there any plans to transfer functions of USAID to the 
Department of State?
    Answer. There are no current plans. We are reviewing options to 
ensure the efficiency, effectiveness, and accountability of the United 
States' diplomatic and development operations, and we have no 
preconceived outcomes or plans for a potential reorganization. The 
State Department and USAID recently completed collecting information on 
our organizational processes and culture through a survey that was made 
available to everyone in State and USAID. From this feedback, we have 
been able to get a clearer overall view of our organizations and will 
be able to make informed decisions on how we can produce a more 
efficient, effective State Department and USAID that maximize the 
expertise of staff and continue to deliver results for the American 
people.
    Question. Are there any plans to transfer functions of the 
Department of State to USAID?
    Answer. Executive Order 13781 of March 13, 2017, calls for each 
agency to submit a plan, due in September, to improve the efficiency, 
effectiveness, and accountability of that agency. The Department of 
State (Department) and U.S. Agency for International Development 
(USAID) are working to meet this deadline and have begun to discuss 
goals, priorities and the strategic direction of the organizations to 
adapt to the changes that we will face over the next twenty years. We 
are looking at aligning resources, people, and our overarching mission, 
including restructuring the Department and USAID's operations, in order 
to deploy the talent and resources of the Department and USAID in the 
most efficient way possible. This review has no preconceived outcomes. 
The general intent for this review is to engage the Department and 
USAID community to design how the agencies will function for the next 
20-plus years. We look forward to keeping the Committee and others in 
Congress informed throughout this process. The recommendations, 
blueprints, and new vision that emerge from the redesign endeavor will 
be presented to OMB in September as part of the requested Agency Reform 
Plan, and will be fully discussed with the Committee and others in 
Congress before implementation begins in fiscal year 2018.
    Question. On what basis has the administration determined to cut 
the workforces of the Department of State by 8 percent (2,000 
positions) and USAID by 16 percent (570 positions), in advance of the 
Secretary of State's listening tour and planned reorganization task 
force?
    Answer. The Secretary recently received the results of the 
listening survey he commissioned. The Department is now in the process 
of analyzing the conclusions of the survey and is engaged in a redesign 
study. As mentioned in the Secretary's recent testimony, one of the 
primary goals of the Department's efficiency review is to take a hard 
look at common or overlapping missions shared by various bureaus as 
well as with other USG agencies. The Secretary has stated he has no 
preconceived notions in this regard, and this review will consider 
whether functions and/or programs within the Department are duplicative 
or very similar in nature. The results of this critical phase of the 
review will inform deliberations regarding functional consolidations or 
elimination. Implicit in any effort to reduce or consolidate functions 
or processes is a reduced workforce level to carry them out. Given the 
timing of this review, final, long-term decisions should subsequently 
be reflected in the Department's fiscal year 2019 CBJ.
    The Department remains committed to ensuring effectiveness of U.S. 
taxpayer dollars; driving efficiencies; working hand and hand with DoD 
and other agencies across the government to identify duplication of 
efforts; meeting objectives within fiscal constraints; and working on 
behalf of the American people to advance national security objectives 
and foreign policy goals. The Department looks forward to sharing its 
plans with the Congress and working together to create a more 
efficient, streamlined State Department and USAID.
    Question. How many political appointees remain to be identified and 
employed at the Department of State and USAID?
    Answer. We have identified and or employed approximately 60 percent 
of the Presidential appointments that require the advice and consent of 
the U.S. Senate.
    Question. Given the zeroing out of assistance to a number of 
countries, how many USAID missions are anticipated to close under this 
request?
    Answer. The budget request prioritizes and focuses foreign 
assistance in regions and on programs that most advance our national 
interest and the administration's foreign policy priorities. The budget 
reorients our foreign assistance to the most critical priorities, which 
means revisiting where and at what level we provide assistance. If no 
bilateral funding is requested for a particular country, in some cases 
we are leveraging prior-year funds to continue some support. In other 
cases we may utilize funds from a regional line to support activities 
in a particular country. Planning related to specific USAID Mission 
close-outs will be addressed separately as part of the implementation 
of the Presidential Executive Order on a Comprehensive Plan for 
Reorganizing the Executive Branch and other associated processes.
    Question. What criteria is the Department of State and/or USAID 
developing to guide the closure of USAID missions?
    Answer. The budget request prioritizes and focuses foreign 
assistance in regions and on programs that most advance our national 
interest and the administration's foreign policy priorities. The budget 
reorients our foreign assistance to the most critical priorities, which 
means revisiting where and at what level we provide assistance. If no 
bilateral funding is requested for a particular country, in some cases 
we are leveraging prior-year funds to continue some support. In other 
cases we may utilize funds from a regional line to support activities 
in a particular country. Planning related to specific USAID Mission 
close-outs will be addressed separately as part of the implementation 
of the Presidential Executive Order on a Comprehensive Plan for 
Reorganizing the Executive Branch and other associated processes.
    Question. In the Secretary of State's testimony the Secretary 
asserts that the Department of State and USAID ``have not evolved in 
their responsiveness as quickly as new challenges and threats to our 
national security have changed and are changing.'' Please provide 
detailed and specific evidence to justify this assertion, including a 
description of ``new challenges and threats to our national security''.
    Answer. Several events in recent years illustrate the State 
Department's need to embrace a new level of responsiveness.
    As noted in the Benghazi Accountability Review Board, 
communication, cooperation, and coordination functioned collegially at 
the working-level but were constrained by a lack of transparency, 
responsiveness, and leadership at the senior levels. There appeared to 
be very real confusion over who, ultimately, was responsible and 
empowered to make decisions based on both policy and security 
considerations. While we have made changes since the 2012 attacks, we 
must continue to be better organized and prepared to respond to 
rapidly-developing attacks perpetrated by non-state actors such as the 
terrorists who perpetrated the attack.
    The evolving terrorist threat continues to challenge governments 
around the world to find new ways to counter an increasingly diffuse 
threat. The strategy, organization, and tactics of terrorist actors are 
diverse and subject to rapid change. The Department of State and USAID 
must adapt to this threat in ways that challenge traditional 
bureaucratic paradigms.
    Equally as dangerous is the threat of nuclear-armed rogue states. 
North Korea's accelerated program to develop nuclear weapons, as well 
as Iran's documented nuclear aspirations partnered with their rapidly 
expanding proxy armies in the Middle East, demand a re-evaluation of 
whether the State Department is agile enough to respond to the 
unpredictable character of these regimes.
    The accelerating proliferation of digital technologies in the 21st 
century presents opportunities for American leadership and prosperity 
as well as first-order challenges to our national security. The 
Department of State and USAID must be agile in advancing an open, 
interoperable, secure, and reliable Internet; sustaining American 
preeminence in the global digital economy; and developing the 
international architecture to deter and counter malicious threats from 
adversarial states, criminals, and terrorists.
    These are just a few of the issues that necessitate a constant re-
evaluation of our ability to confront multiple challenges and, to an 
ever-increasing degree, expand our engagement with non-governmental and 
private sector partners.
    Question. How does a significant reduction in funding, assistance 
and personnel, allow the Department of State and USAID to respond any 
more quickly to such challenges and threats?
    Answer. The fiscal year 2018 budget request acknowledges that our 
operations must become more efficient, that our assistance must be more 
effective, and that our primary mission must always be advocating for 
the national interests of our country. By focusing our efforts, I 
believe we will be able to more quickly and effectively address the 
most pressing challenges and threats posed to our national security 
while ensuring that other donor countries contribute their fair share 
toward meeting global challenges.
    As I noted in my testimony, I have never believed, nor have I 
experienced, that the level of funding devoted to the goal is the most 
important factor in achieving it. With such a broad array of threats 
facing the United States, the fiscal year 2018 budget request begins 
the necessary work of focusing State Department and USAID efforts in 
order to allow us to advance our most important foreign policy goals.
    Question. To what extent, if at all, does the hiring freeze at the 
Department of State affect current or future Diplomatic Security 
operations?
    Answer. The Department is evaluating exceptions to its hiring 
freeze for specific types of positions, one of which is for those that 
provide security functions. Therefore, exceptions are being evaluated 
for Diplomatic Security personnel including Foreign Service special 
agents --covering the full spectrum of criminal investigations (both 
domestic and overseas), threat analysis, foreign service national 
vetting, leadership and oversight, program administration, financial 
management, anti-terrorism training, and management of the Department's 
security clearance and background investigation process. With the 
exception of Foreign Service special agent positions, DS is currently 
working to meet these personnel requirements by re-allocating current 
positions and existing vacancies.
    Question. What impact, if any, will that (the hiring freeze) have 
on the Department of State's diplomatic presence in high-threat, high-
risk locations?
    Answer. The High Threat Programs Directorate (DS/HTP) in the Bureau 
of Diplomatic Security (DS) is tasked with the direct responsibility of 
protecting our people, facilities, and classified information in the 
posts designated as high-threat, high-risk (HTHR), and for which the 
Department has evaluated continued presence as vital through the Vital 
Presence Validation Process. DS carries out this mission with a cadre 
of employees through multiple hiring types stationed domestically and 
overseas. These positions are critical positions that provide the 
necessary support, experience, and skill sets required to carry out DS' 
mission. DS is and will continue to realign resources to ensure the 
most critical security functions continue without interruption.
    Question. In the opinion of the Secretary of State, what is the 
right balance between the security of our diplomats and effective 
engagement overseas?
    Answer. Increasingly, our people are called upon to live and work 
in difficult and dangerous environments. We operate in these 
environments out of necessity, because that is where we must be to 
serve our Nation's interests. The Department continues to develop tools 
and mechanisms to ensure that risk is mitigated to the greatest extent 
possible and the foreign affairs community has a safe and secure 
environment in which they can conduct U.S. foreign policy. The 
Department is constantly responding to changes in the international 
security environment and assessing the safety of our Foreign Service 
personnel in response to new information.
    Following the Benghazi attack in 2012, the Department instituted 
the Vital Presence Validation Process (VP2), which is a mechanism to 
balance the risk versus the value of our presence in some of the most 
dangerous overseas operating environments. VP2 is an institutionalized, 
repeatable, and transparent process that facilitates risk-management 
decisions, including whether to begin, restart, continue, modify, or 
cease operations at posts identified on the high-threat, high-risk 
(HTHR) list.
    All posts, even those that are not on the HTHR list manage risk 
through the Emergency Action Committee (EAC) and their use of Decision 
Points to assess potential risks to a mission and its personnel. 
Decision Points are comprised of Operating Assumptions, Risk 
Indicators, and Consolidated Actions to Consider. The EAC reviews 
potential changes in risk that might impact the health, safety, and 
security of a mission and identifies ways to mitigate those risks. 
Decision points reflect events, threats, or changes in circumstances 
that require a discussion by the EAC to evaluate: the possibility of 
increased risk to the health, safety, and security of the mission, 
private U.S. citizens, and other U.S. Government interests; and, if/how 
the post should take action to respond to those changes.
    The Committee on Overseas Risk Evaluation (CORE) reviews reports of 
met and adjusted decision points by all posts worldwide. The CORE 
ensures decision-makers are fully briefed on operational overseas 
updates, and appropriate action is taken in response to posts' 
requests. The CORE is comprised of members from the appropriate 
regional bureau; regional bureaus' executive office; Diplomatic 
Security; Consular Affairs; principals' staff; the bureaus of Political 
Military Affairs, Intelligence and Research, and Public Affairs; the 
Operations Center's Crisis Management Support Office; the Office of 
Medical Services; and other offices and bureaus as appropriate. The 
office of Crisis Management & Strategy in the Operations Center of the 
Executive Secretariat chairs the CORE and is responsible for its 
operations and records.
    Question. What steps has the Secretary of State taken to ensure 
that the Department of State is appropriately protecting U.S. personnel 
outside of official facilities?
    Answer. The danger from terrorists and criminals operating outside 
of our facilities is best countered by well-informed individuals who 
conscientiously follow established personal security practices. The 
Department makes every effort to facilitate employees' knowledge, 
including contractors, of best security practices through training, 
constant communication, and various off-compound security measures.
    The Foreign Affairs Counter Threat (FACT) course is currently a 
requirement for select posts and will be required for all personnel 
assigned under Chief of Mission (COM) authority worldwide by the end of 
2019. This course provides employees with practical skills to 
recognize, avoid, and respond to potential security threats. Personnel 
assigned to posts on the High Threat High Risk list, whether 
permanently assigned or on temporary duty, fulfill additional training 
requirements designed to provide participants with threat and 
situational awareness training against criminal and terrorist attacks. 
Additional training initiatives include the Active Shooter Awareness 
Course and technical security education and training to protect U.S. 
personnel on their work and personal computer systems.
    In addition to providing training prior to arrival at post, all 
employees receive briefings on specific security regulations, 
procedures, and techniques in order to maintain a high level of 
employee security awareness. Additionally, Regional Security Officers 
(RSOs) issue, with the approval of the COM, security directives that 
give detailed written instructions and reminders of security policies 
and procedures. These directives include the Post's Travel Notification 
and Transportation Policies. The policies ensure that: COM personnel 
are aware of the potential security risks they may encounter while 
moving about the country and, where travel notifications are required, 
the RSO is aware of the whereabouts of COM personnel.
    The Department also has dedicated programs to ensure the safety of 
the family members for Foreign Service personnel. For example, the 
Residential Security program outlines the prescribed standards for the 
residences of U.S. citizen direct-hire employees and their eligible 
family members. The Soft Target Program aims to improve the physical 
security of schools with students in the Kindergarten through the 12th 
grade levels that face heightened threats, are assessed as especially 
vulnerable, or are deemed to be potentially at risk.
    Question. As noted in the 2015 cost-benefit analysis for the Bureau 
of Diplomatic Security's Foreign Affairs Security Training Center 
(FASTC), only five venues at the Interim Training Facility (ITF) at 
Summit Point, WV, were deemed operational, and only two of the five 
(ranges) are government-owned real property. The remainder of 
government-owned real property and structures were categorized as 
necessary to newly construct or improve for continued use--both at 
significant cost to the government. With that in mind, and recognizing 
previously stated congressional mandate to mitigate job losses at 
Summit Point, please provide a detailed plan and timeline for fair and 
reasonable disposition of the real property structures at the ITF 
(question submitted on behalf of Senator Shelley Moore Capito).
    Answer. The Department of State has accepted a proposal from Bill 
Scott Raceway (BSR), the lessor of the ITF, for the disposition of most 
government-funded and/or government-owned real property structures at 
the ITF, at the conclusion of the current contract and any extensions 
or bridges required to complete our training and transition to FASTC in 
Blackstone, VA. The Department must take a final look at FASTC 
requirements and needs to further define with BSR what Container 
Express (CONEX) Structures will remain behind. The Department also 
needs to discuss the Quick Range, the Tactical Training Operations 
Center, and miscellaneous structures in the Urban and Rural Practical 
Exercise Areas before agreeing to a final disposition of these 
particular items. A more detailed list and schedule will be provided as 
BSR and the Department finalize disposition.
    Question. Does the Department of State intend to consult with the 
Senate Appropriations Committee in a timely and comprehensive manner on 
proposals that seek to significantly change the organization, role, or 
function of the Department of State and USAID?
    Answer. The Department remains committed to working with Congress 
on the steps we are considering to improve the ability of the 
Department and USAID to achieve critical foreign policy goals. We have 
been in regular communication on the redesign process with the 
Department's committees of jurisdiction. The Department will continue 
to work with Congress, including your staff, during the redesign 
process and will notify and report on planned organizational changes 
consistent with sections 7015 and 7034(l) of the Department of State, 
Foreign Operations, and Related Programs Appropriations Act, 2017 
(Division J, Public Law 115-31). As the review is still underway, it is 
possible some of the planned changes might also warrant additional 
legislation. We will work with Congress as part of or prior to the 
fiscal year 2019 budget submission to pursue such statutory changes. At 
the end of this process, our goal is to ensure the State Department and 
USAID is better equipped to address the foreign policy challenges of 
the United States.
    Question. Given that proposed fiscal year 2018 funding levels were 
pre-determined by OMB prior to conducting any studies on 
reorganization, are the Department of State's efforts to gather 
opinions through the Insigniam contract and planned task force on 
reorganization simply window-dressing?
    Answer. The State Department and USAID's fiscal year 2018 budget 
request acknowledges that operations must become more efficient, that 
assistance must be more effective, and that the primary mission must 
always be advocating for the national interests of the United States. 
To produce a more efficient, effective State and USAID, I commissioned 
an external listening tour and study of the Department to look for ways 
to ensure effectiveness of U.S. taxpayer dollars; drive efficiencies; 
work hand in hand with DoD and other agencies across the government to 
identify duplication of efforts; meet objectives within fiscal 
constraints; and work on behalf of the American people to advance 
national security objectives and foreign policy goals. I have stated 
publicly that I have no preconceived outcomes and plan to follow the 
facts where they lead me; any reorganization plans will be developed 
accordingly. The Department looks forward to sharing its plans with the 
Congress and working together to create a more efficient State and 
USAID.
    Question. Did any of the individuals from Insigniam who conducted 
site visits and interviews with Department of State personnel in 
Colombia, Haiti, Rwanda, Austria, Thailand, Pakistan and the 
Philippines have a security clearance?
    Answer. Security clearances or public trust certifications were 
granted to Insigniam team members, as needed, based on the level of 
access to information required by each member. Members of the Insigniam 
team who traveled without security clearances or public trust 
certifications were escorted by appropriately cleared employees at all 
times.
    Question. Did any such individuals [those from Insigniam who 
conducted site visits] meet with officials from other U.S. Government 
agencies to understand more fully what the mission and functions of an 
Embassy are?
    Answer. Yes, each of the Insigniam consultants who conducted 
interviews overseas met with officials from other U.S. Government 
agencies to understand more fully what the mission and functions of an 
Embassy are, including the needs of the interagency as they relate to 
the Department of State as a service provider.
    Question. Proposed operations and assistance cuts in the 1990s 
adversely impacted the ability of the U.S. to respond to post-September 
11, 2001 diplomacy and development requirements. Given that the past is 
prologue, how is the Department of State and USAID factoring in 
lessons-learned from historical cuts--including those in the 1990s--in 
configurations of what the personnel requirements should be?
    Answer. I recently received the results of the listening survey I 
commissioned. The Department is in the process of analyzing the 
conclusions of the survey and determining a way forward. As part of 
that process, the Department's Office of the Historian is conducting 
research into past reorganizations and reform initiatives. USAID has 
also conducted an internal study of past reductions in staff and in-
country presence, including those of the 1990s, and their long-term 
impacts. In addition, the Department has developed staffing models in 
order to conduct staffing studies based on program requirements at any 
given time. The staffing models are adjusted and refined as needed.
    Question. What is the purpose of the EFM program, and who has 
responsibility for the management of the EFM program at embassies?
    Answer. The Department relies on a mix of employment options to 
carry out its core responsibilities at our missions abroad, including 
hiring qualified eligible family members (EFMs) to fill essential 
security, health, and safety positions. The EFM employment program is 
administered by Human Resources Offices at missions abroad. However, 
worldwide policies governing the EFM employment program are created, 
maintained and managed by the Office of Overseas Employment in the 
Bureau of Human Resources in the Department of State in Washington, DC.
    Question. What is the justification for suspending the EFM program?
    Answer. The Department elected to maintain the Federal hiring 
freeze through the agency-wide listening tour and subsequent agency 
redesign phase. Since EFMs who are employed by the Department of State 
at our missions abroad are almost always hired via appointments, which 
are subject to the hiring freeze, EFMs cannot currently be hired by the 
Department in our missions abroad without an exemption from the 
Secretary of State. However, EFMs may continue to be hired by non-State 
agencies at our missions abroad who have elected to lift the hiring 
freeze.
    Question. Was any analysis performed on the impact EFM program 
suspension may have on operations at embassies, including for other 
U.S. Government agencies? If so, please provide to the subcommittee in 
a timely fashion. If no was analysis was conducted, why not?
    Answer. No formal analysis was conducted in advance of the Federal 
hiring freeze which was announced on January 23, 2017. As with any 
hiring freeze, there was an expectation that overseas operations could 
not continue as ``business as usual'' and would require prioritization 
of mission critical operations that support the Department's security, 
safety and health responsibilities.
    Question. Is it the intention of the Department of State to 
increase the costs of operations at posts abroad by canceling the EFM 
program?
    Answer. The Department did not cancel the EFM program. However, the 
Department did elect to maintain the Federal hiring freeze through the 
agency-wide listening tour and subsequent agency redesign phase. The 
current agency redesign phase will consider how best to leverage the 
knowledge, skills and abilities of our talented, qualified and 
available EFMs as a cost effective component of the workforce.
    Question. Does it make sense to have an RSO or ARSO issue badges at 
posts, rather than an EFM? Please provide a cost comparison for this 
specific scenario.
    Answer. Most Regional Security Offices have a U.S. direct-hire 
Office Management Specialist (OMS); however, when that is not possible, 
cleared Eligible Family Members (EFMs) are able to perform the 
essential administrative services including but not limited to printing 
badges, reviewing visitor access requests, and organizing law 
enforcement liaison events. This allows for RSOs and ARSOs to focus on 
managing key security services, ensuring adequate oversight over high-
value items such as local guard contracts and special protective 
equipment, while maintaining effective liaison with host country 
security counterparts to receive timely threat information and security 
assistance. Administrative support, whether performed by a Foreign 
Service (FS) OMS or cleared EFM, is prudent because it permits regional 
security offices appropriate time to manage and provide oversight over 
all security programs at overseas posts to include important life 
safety, emergency preparedness, and information security. Besides the 
adverse distraction from an agent's core mission, the salary of a DSS 
Special Agent is significantly higher than that of a cleared EFM.
    Question. Is the Secretary of State the only individual empowered 
to issue waivers for the EFM program?
    Answer. Yes, the Secretary of State is currently the only 
individual who has the authority to grant exemptions to the 2017 hiring 
freeze which would allow EFMs to be hired abroad by the Department. 
Some exemptions have been approved by the Secretary, which allowed 
several missions to hire EFMs into positions that support critical 
security, safety and health responsibilities at posts abroad.
    Question. Is this the most pressing and productive use of the 
Secretary's time?
    Answer. The Secretary has a deep interest in all personnel 
categories and is therefore the proper oversight authority for actions 
that impact the Department.
    Question. What is the justification for the proposed Economic 
Support and Development Fund (ESDF), and how will the creation of this 
account make more efficient and effective U.S. assistance?
    Answer. The fiscal year 2018 budget request reflects a commitment 
to ensure every tax dollar spent is aligned with the State Department's 
and USAID's mission-critical objectives. The Economic Support and 
Development Fund (ESDF) requested in the fiscal year 2018 budget is an 
effort to streamline accounts and ensure the most effective use of 
foreign assistance funding. The ESDF account will continue to support 
select programs and activities previously requested under the Economic 
Support Fund and Development Assistance accounts, allowing the 
Department and USAID to better assess, prioritize, and target 
development-related activities in the context of broader U.S. foreign 
policy objectives and partnerships around the world.
    Question. How does the Department of State square zeroing out 
assistance to certain countries with the assertion in the Secretary of 
State's letter accompanying the Function 150 budget request that ``An 
optimally functioning State Department and USAID will deploy funding 
that restores the leadership of the American people and allies depend 
on for stability, security, and prosperity''?
    Specifically, how does zeroing out assistance restore the 
leadership of the American people?
    Answer. The fiscal year 2018 request for the State Department and 
USAID will allow America to continue to assert U.S. leadership, defend 
national security, and foster opportunities for U.S. economic 
interests. Even with the reductions in funding, we will continue to be 
the leader in international development, global health, democracy and 
good governance initiatives, and humanitarian efforts. As part of our 
efforts, we will continue to partner with key allies to protect 
Americans and American interests, advance bilateral partnerships, open 
new markets for U.S. businesses, and promote American interests abroad, 
in a manner that puts America first. Focusing our efforts will allow us 
to advance our most important policy goals and national security 
interests, while ensuring that other donor countries contribute their 
fair share toward meeting global challenges.
    Question. Should the Committee endorse the proposed cuts, does the 
Function 150 budget request include plans for, and funding to 
implement, a glide path or transition plan for impacted countries?
    If no such plans were prepared by OMB, did the Department of State 
and USAID prepare plans for a glide path or transition prior to the 
submission of the budget?
    What are the estimated costs for such glide paths or transition 
plans?
    Answer. Since 2016, guidance for Integrated Country Strategies has 
required a section on Transition Planning for Foreign Assistance. As 
these strategies are updated every 3 years, about a third of Embassies 
have strategies that contain this planning to date. USAID Missions with 
a Country Development Cooperation Strategy (CDCS) have also begun to 
incorporate a transition plan into their CDCS development process that 
addresses USAID-managed programming. The goal of these transition 
planning efforts is to explore opportunities to decrease country 
dependency on U.S. foreign assistance and to encourage self-sufficiency 
through programs to strengthen economic development, security, and 
stability. The fiscal year 2018 budget request focuses our funds on the 
most critical priorities, and these transition planning efforts will 
help inform foreign assistance programming moving forward.
    Question. The budget request for Foreign Military Financing Program 
(FMF) includes a proposal to transition from grants to loans. Which 
countries have been identified for such transitions?
    Has the Department of State considered that such transitions may 
result in increased arms sales to countries by the People's Republic of 
China and Russia?
    What analysis was prepared prior to this proposal being included in 
the President's budget request?
    Answer. The Department of State is planning for a partial 
transition from FMF grants to loans, which we believe will allow us to 
both maintain key security partnerships and provide value for American 
industry and taxpayers.
    Not all countries may be appropriate loan partners for the United 
States, due to their limited national budgets or other circumstances 
that could limit their ability to repay. The Department is in the 
process of conducting loan feasibility reviews on a country-by-country 
basis, considering each country's importance to U.S. national security, 
national budget, expected ability to fulfill the terms of a loan 
agreement, and likelihood of interest.
    To the extent that past grant FMF recipients are willing and able 
to continue expanding or sustaining their U.S.-origin defense 
capabilities through FMF loans instead of grants, the United States 
will be able to reduce the amount of foreign assistance needed for 
these purposes.
    The Department recognizes that, in some circumstances, past FMF 
recipients may also choose to seek loans or assistance from other 
international suppliers, such as China or Russia. However, these 
possibilities are mitigated by the fact that some of the largest 
recipients will continue to be funded with FMF grant funds at 
significant levels, and by the high quality of defense articles and 
services produced by the United States compared to other possible 
suppliers.
    During the development of the President's budget request, analysis 
was conducted by the Department, in consultation with the Office of 
Management and Budget and other agencies, on how best to create savings 
for the taxpayer and advance America's core interests. The 
administration feels that the flexibility provided by offering both FMF 
grants and loans is the most effective way to fulfill our security 
commitments in a cost effective manner.
    Question. Given the administration's apparent de-emphasis on 
democracy and human rights promotion, how do you see programming for 
Department of State and USAID changing in this area over the next 4 
years?
    Answer. Supporting countries in strengthening democracy, human 
rights, and governance (DRG) is critical for defending national 
security, fostering economic opportunities for the American people, 
asserting U.S. leadership and influence, and ensuring effectiveness and 
accountability to the American taxpayer. As has been the case for many 
years, Democracy, Human Rights and Governance (DRG) programs 
implemented by both USAID and the State Department seek to build the 
accountability, transparency, and responsiveness of democratic 
governing institutions; foster respect for human rights and the rule of 
law; fight corruption; promote citizen participation and engagement in 
governance and rule of law; and strengthen civil society organizations 
and independent media.
    Some of our most pressing national security threats at their core 
stem from other countries' poor governance and the absence of the rule 
of law. DRG investments are critical to addressing the societal 
conditions that lead to violent extremism, radicalization, migration, 
instability, and organized crime. In fiscal year 2018, DRG programs 
will be targeted to promote effective, accountable, and democratic 
institutions and a vibrant civil society, which create the conditions 
for long-term security and stability.
    Question. How is the administration incorporating values into U.S. 
foreign policy toward Egypt?
    Answer. We consistently incorporate our values into our 
relationship with Egypt by registering our concerns with Egypt's lack 
of progress on democracy and human rights. We continue to object to 
Egypt's lack of fair trial guarantees, excessive use of preventative 
custody and pretrial detention, trials involving hundreds of 
defendants, and the use of military courts to try civilians. Moreover, 
we continue to fund assistance programs that promote democratic 
principles and the improvement of electoral participation by all 
segments of Egyptian society, and advance principles of minority 
equality and transparency in all of our activities.
    We were extremely disappointed by President Sisi's signature of the 
NGO law and the government's recent obstruction of access to more than 
a hundred websites--including those of some of the best known news and 
human rights organizations--which may close the space for civil society 
groups to operate. In response, we have raised--and will continue to 
raise at senior levels--our serious concerns about Egypt's policies 
that challenge democratic governance, and stress the fundamental 
importance of the respect for human rights, civil liberties, and the 
need for a robust civil society.
    Question. Egyptian President el-Sisi recently ratified a new NGO 
law which would make it virtually impossible for independent civil 
society organizations to operate in Egypt through restrictive 
registration and funding processes. Should the repeal of this NGO law 
should be a prerequisite for continued economic U.S. assistance for 
Egypt? If not, why?
    Answer. We were extremely disappointed by President Sisi's 
signature of the NGO law. From the time parliament proposed this 
legislation last November, until President Sisi approved it, we clearly 
and repeatedly communicated our concerns about the law and urged the 
Government of Egypt to not adopt it. We have stressed that a strategic 
relationship is a two-way street that requires trust and credibility.
    The State Department is evaluating how to respond. Egypt remains a 
key regional actor, and none of the options come without downsides. Our 
support of Egypt's stability through assistance promotes U.S. interests 
in a volatile region. We have seen some progress over the last few 
months: the release of Aya Hijazy, and important wins for U.S. 
businesses.
    We are considering all available options as we continue to press 
the Egyptians at the highest levels to ensure that U.S. assistance 
programs and civil society have the necessary space to operate.
    Question. The Memorandum of Understanding (MOU) with Jordan expires 
in fiscal year 2018, yet the budget request presupposes a funding level 
of $1 billion--consistent with the existing MOU funding level. Does the 
budget request purposefully undercut the ability of Jordan to engage 
the Department of State to discuss assistance needs in fiscal year 2018 
and beyond?
    Answer. The President's request for Jordan in fiscal year 2018 is 
consistent with our prior-year requests. Protecting this robust level 
for Jordan's foreign assistance in the context of the reduction to the 
State and USAID budget signals a strong commitment to the U.S.-Jordan 
partnership. We are committed to supporting the stability and security 
of Jordan, a critical partner in the region, on a range of U.S. 
national security priorities. Assistance is one of the many tools we 
can use in Jordan to help support the country. We remain in close touch 
with the Jordanian government to discuss the numerous challenges the 
country faces to ensure we properly calibrate our levels of support.
    Question. Given the myriad burdens Jordan bears, are increased 
assistance levels justified in the renewed MOU?
    Answer. Jordan is one of our oldest and closest regional allies, 
and we are committed to supporting Jordanian stability and security as 
it faces a number of difficult and complex regional challenges. We 
remain in close touch with the Jordanian government to ensure we can 
properly calibrate our levels of support.
    Question. How do you explain the administration's retreat from 
multilateral organizations and fora?
    Answer. The administration is committed to both an effective United 
Nations and to U.S. leadership on a multilateral stage. We believe that 
with focused U.S. leadership, the United Nations can better serve the 
interests of peace, security, and prosperity. The United Nations 
represents an important tool through which the United States can assert 
its influence and seek action that might otherwise be difficult and 
more expensive for the United States to pursue. However, the United 
States cannot continue to bear a disproportionate share of the burden 
of paying for solutions to the world's problems. Other member states 
must do more to support international organizations, and the 
organizations themselves must be reformed to improve their 
effectiveness, efficiency, and transparency.
    Question. Will such a retreat result in the loss of leadership and 
leverage in implementing reforms?
    Answer. The administration is committed to both an effective United 
Nations and to U.S. leadership on a multilateral stage. That leadership 
has been on frequent display at the U.N. Security Council and elsewhere 
on crucial issues such as Syria, Iran, DPRK, and peacekeeping reform. 
However, the President's budget proposal makes clear that the United 
States cannot continue to bear a disproportionate share of the U.N. 
budget, and that other member states need to offer greater financial 
support and political muscle to propel urgently needed reforms.
    Question. What premium does the Department of State place on 
countering the influence of the People's Republic of China and Russia 
abroad--or to put it another way, what premium does the Department 
place on maintaining U.S. influence globally?
    Answer. Russian and Chinese attempts to exert influence on U.S. 
allies and partners are a serious concern. These two countries seek to 
negatively impact U.S. interests, including by influencing foreign 
populations and sowing doubts about the United States.
    The Department of State works consistently to counter foreign 
influence operations that undermine our national security, including 
those conducted by China and Russia. From the Secretary of State to 
Foreign Service Officers and career employees, the Department is 
focused daily on broadening and strengthening ties between the United 
States, national governments, intergovernmental organizations, 
nongovernmental organizations, and individuals. The Department strives 
to project and maintain U.S. influence globally.
    Question. In the Secretary of State's testimony, the Secretary 
asserts that ``. . . even with reductions in funding, we will continue 
to be the leader in international development, global health, democracy 
and good governance initiatives, and humanitarian efforts.'' As the 
budget request eliminates funding for democracy and good governance in 
Cambodia and Sri Lanka, how does the Secretary intend to lead on these 
issues, particularly when democratic elements within both countries 
seek to consolidate democratic gains?
    Answer. We are committed to fostering democracy and good governance 
in Cambodia, Sri Lanka, and beyond.
    In Cambodia, support for human rights and democratic reforms 
remains a long-standing U.S. priority. Working with other like-minded 
countries, we have expressed concerns both publicly and privately over 
a range of human rights and democracy issues, including the harassment 
of civil society activists and organizations and recent amendments to 
Cambodia's Law on Political Parties. Recent positive developments in 
Cambodia include the release from pre-trial detention of five current 
or former employees of the human rights NGO ADHOC and the peaceful, 
well-executed Cambodian local council elections in June despite threats 
of intimidation by the ruling party. The opposition won nearly 500 
communes and approximately 43 percent of the popular vote. Embassy 
Phnom Penh will monitor preparations for national elections in July 
2018, which will offer Cambodia an important opportunity to demonstrate 
its commitment to democratic norms. We will also continue to monitor 
the trials and cases in the Extraordinary Chambers of the Courts of 
Cambodia (ECCC) and encourage accountability for the atrocities 
committed during the Khmer Rouge regime.
    We worked closely with Sri Lanka to pass the 2015 Human Rights 
Council (HRC) Resolution 30/1 outlining reform commitments to promote 
reconciliation, accountability, and human rights in Sri Lanka in the 
wake of the 2008-2009 conclusion of its civil war. We continue to 
engage Sri Lanka, civil society and our partners in the international 
community on these reforms under the 2017 consensus HRC Resolution 34/
1, co-sponsored by Sri Lanka, which extended until March 2019 the 
timeline and oversight for the reforms agreed upon in Resolution 30/1. 
We continue to push Sri Lanka to return to private owners the land its 
military occupied; it has returned nearly 5,000 of the 13,000 acres 
seized in the north and east to date. We consulted with the government 
on its Office of Missing Persons bill, and we continue to consult on 
the draft Counterterrorism Act to replace the draconian Prevention of 
Terrorism Act. We supported the Consultative Task Force process, which 
provides a basis for reforms moving forward, and will continue to 
encourage the government and our partners to fully implement all 
commitments agreed to in HRC Resolution 30/1, including establishing a 
credible judicial mechanism to try alleged war crimes.
    In both countries, we will continue our open dialogue with 
governmental and civil society leaders, and with third countries and 
multilateral partners. We will support the emerging leadership of the 
two countries and encourage them to be more active in advancing 
democratic values and good governance. We will also continue to hold 
them accountable to their obligations under universal human rights 
norms and instruments. Finally, we will sustain our multilateral work 
within the U.N. system and through regional mechanisms to strengthen 
human rights monitoring and enforcement mechanisms in Cambodia and Sri 
Lanka to ensure democratic progress.
    Question. In fiscal year 2016 and fiscal year 2017, USAID engaged 
academic and commercial expertise to develop innovative vector control 
technologies to address vector-borne pathogens transmissions and avert 
the spread of future infectious disease outbreaks. What type of funding 
would be available in fiscal year 2018 to support vector control 
programs?
    Answer. USAID invests in the Innovative Vector Control Consortium 
(IVCC) to support the research and development of novel insecticides 
and insecticide-based tools for use in public health vector control 
programs. This is an effort to directly address the emerging 
insecticide resistance and to make new vector control tools available 
for malaria prevention. USAID's support to IVCC leverages contributions 
from the Bill & Melinda Gates Foundation, DfID and others, and is in 
direct partnership with private sector companies.
    While the United States will continue significant funding for 
global health programs, including programs to combat infectious 
diseases, other stakeholders and partner countries must increase their 
financial investments in global health programs.
    Question. Given the incredible success of PEPFAR since its creation 
by President Bush, and how close international donors are to epidemic 
control in Africa, what is the justification for a proposed $1 billion 
cut to PEPFAR?
    Answer. With the President's fiscal year 2018 budget, the U.S. 
Government will continue to prioritize smart investments that save 
lives and advance progress toward controlling the HIV/AIDS, 
tuberculosis, and malaria pandemics.
    Specifically, PEPFAR, in collaboration with host governments, will 
accelerate efforts toward achieving epidemic control in 13 high impact 
epidemic control countries by expanding the most impactful HIV services 
among the highest-HIV-burden locations and populations. PEPFAR will 
also focus on increasing partner performance and identifying and 
leveraging efficiency gains through the collection and use of more 
granular data (disaggregated by age, sex, and at the site level).
    Outside of these 13 high impact epidemic control countries, PEPFAR 
will maintain its current level of antiretroviral treatment through 
direct service delivery and expand both HIV prevention and treatment 
services, where possible, through increased performance and efficiency 
gains. PEPFAR will also work with partner governments, the Global Fund, 
and others to determine how HIV prevention and treatment services can 
be expanded in cases where PEPFAR is not the primary funder and/or 
service delivery provider.
    The $1.125 billion requested for the U.S. contribution to the 
Global Fund keeps the U.S. on track to meet its commitment to match $1 
for every $2 provided by other donors for the Global Fund's most recent 
5th Replenishment period.
    Question. What is the rationale for zeroing out $330 million in 
HIV/AIDS funding for USAID in the budget request?
    Answer. The President's budget consolidates all U.S. assistance for 
global HIV/AIDS efforts within the State Department to simplify the 
management and coordination of these investments. It is important to 
note that in the budget, USAID will remain one of the two (along with 
CDC) primary implementing agencies for PEPFAR, and will continue to 
implement a significant share of U.S. global HIV/AIDS assistance in 
this capacity.
    Question. Can the Department of State ensure the Committee that the 
U.S. will meet our 33 percent contribution to the Global Fund?
    Answer. The President's budget includes $1.125 billion for the U.S. 
contribution to the Global Fund to Fight AIDS, Tuberculosis and 
Malaria, which keeps the U.S. on track to meet its commitment to match 
$1 for every $2 provided by other donors for the Global Fund's most 
recent 5th Replenishment period.
    Question. The fiscal year 2018 budget request proposes to cut 
federally-funded exchange programs by more than half--justifying this 
by asserting that the private sector will pick up the slack and that 
there's no harm to U.S. interests. Yet, the administration has at 
various times expressed that it might cut back the J-1 visa Summer Work 
Travel exchange program--a private-sector program that costs no 
taxpayer money. Please fully explain the rationale to cut and curtail 
our engagement with emerging leaders from around the world via exchange 
programs.
    Answer. Educational and cultural exchange programs are undeniably 
an important part of the State Department's diplomatic mission. One of 
our key exchange initiatives is the Summer Work Travel program, which 
is a privately-funded Exchange Visitor Program that places foreign 
students in a U.S. business or organization for a short period of time, 
typically during the summer months. We will continue to support the 
private and State Department-funded exchanges in ways that best accord 
with the law, advance America's foreign policy priorities, and serve 
the needs of the American people.
    Question. Given limited size of the J-1 Visa program, its role in 
promoting cultural exchange, and the short duration of the visas, what 
is the justification of including this program in the review under the 
Hire American Executive Order?
    Answer. The portfolio of the Exchange Visitor Program includes 13 
different categories of private sector exchange. These programs are 
educational and cultural in focus and fall under Fulbright-Hays 
authority or other Congressional legislation that brings them under the 
Exchange Visitor Program. Such programs are regulated as educational 
and cultural exchanges under 22 CFR 62. They are not intended to be 
labor programs, although some exchange activities may involve a work 
component. Around 300,000 exchange visitors begin programs each year in 
the 13 different categories of private sector exchange. Often these 
exchange programs last for 3 to 4 months, as is the case with Summer 
Work Travel or Camp Counselor, although they may last a number of 
years, such as for College and University Students and Alien 
Physicians.
    Question. Will the Department of State commit to continuing to 
support both federally-funded and private sector exchange programs as 
key elements of America's diplomatic engagement with the world?
    Answer. Both federally funded and private sector exchange programs 
have proven themselves to be very important tools in our diplomatic 
engagement and we will continue to support their use worldwide.
    Question. Regarding the currently pending sale of F-16s to Bahrain, 
it is the committee's understanding that the Department of State was 
sent congressional questions requiring a response. What is the current 
status of the Department's response? What is the current status of the 
sale?
    Answer. As you know, our security relationship with Bahrain is 
extremely important, and we share many of the concerns raised by 
Members of Congress. The operational and logistical support that 
Bahrain provides our military is essential to the success of our 
campaign against ISIS.
    We will continue to stand with Bahrain in fighting terrorism, even 
as we encourage the government to differentiate its approach against 
violent militia groups from its response to peaceful political 
opposition. We agree that promoting human rights in Bahrain and 
enhancing regional stability in the Gulf are mutually reinforcing 
interests, and we are committed to pursuing both efforts.
    We continue to strongly encourage the Government of Bahrain to take 
steps toward political reconciliation and to advance reform efforts for 
the benefit of Bahrain's long-term security and our mutual interests in 
regional stability. We welcome discussing the matter with you further 
in an appropriate setting.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
    Question. The National Defense Authorization Act for fiscal year 
2017 included major reforms to how the Department of Defense 
administers foreign military assistance, which now totals about $10 
billion annually. That law reaffirmed the State Department's foreign 
policy lead in relation to these assistance programs and requires 
concurrence by your department for all DoD-funded aid programs. What 
steps are you taking, beyond establishing coordinating committees, to 
ensure that the State Department can take on this oversight role and 
effectively plan, administer, and evaluate the foreign policy impact of 
all U.S. military and police assistance? What additional staff or other 
resources will be needed to carry out this responsibility?
    Answer. The Department has longstanding mechanisms for planning, 
coordinating, and evaluating security assistance, including processes 
such as: the development of the Integrated Country Strategy, which 
details each Mission's three year goals and objectives and provides a 
framework to organize and prioritize in-country activities; the 
development of the Mission Resource Request, which reflects each 
Mission's annual funding request for all Department assistance 
accounts; various interagency planning forums throughout the budget 
cycle; and program-specific proposal review processes. In addition, the 
Department adheres to evaluation policy and the Foreign Aid 
Transparency and Accountability Act of 2016, which requires U.S. 
Government agencies to closely monitor, evaluate, and report on U.S. 
foreign assistance programs.
    In light of DoD's expanded assistance authorities, the Department 
is working with DoD to develop processes that synchronize security 
assistance planning and programming across the two agencies. This is in 
addition to, as you note, a new State Department-DoD Security Sector 
Assistance Steering Committee that Secretary Mattis and I have 
established, which is accountable for ensuring the joint approach is 
fully embraced.
    I have designated the Assistant Secretary for Political-Military 
Affairs as the lead coordinator for the Department in the joint 
planning, development, and implementation of programs under DoD's new 
Section 333 authority, which incorporates and expands on several legacy 
DoD authorities that were repealed in the fiscal year 2017 NDAA.
    Question. Mr. Secretary, as long as you are Secretary of State can 
we count on the Department to respond in a timely manner to written 
questions and other requests for information from Republicans and 
Democrats on this Committee?
    Answer. The Department continues its long-standing practice of 
responding appropriately to correspondence from Members of Congress, 
regardless of political affiliation.
    Question. Can we count on you to consult with this Committee 
regarding any proposed State Department reorganization that would have 
policy, budgetary, or personnel implications, prior to initiating such 
reorganization?
    Answer. The Department remains committed to working with Congress 
on the steps we are considering to improve the ability of the 
Department and USAID to achieve critical foreign policy goals. We will 
be in regular communication on the redesign process with the 
Department's committees of jurisdiction. The Department will continue 
to work with Congress, including your staff, during the redesign 
process and will notify and report on planned organizational changes 
consistent with sections 7015 and 7034(l) of the Department of State, 
Foreign Operations, and Related Programs Appropriations Act, 2017 
(Division J, Public Law 115-31). As the review is still underway, it is 
possible some of the planned changes might also require statutory 
changes. We will work with Congress as part of or prior to the fiscal 
year 2019 budget submission to pursue such statutory changes. At the 
end of this process, our goal is to ensure the State Department and 
USAID are better equipped to address the foreign policy challenges of 
the United States.
    Question. The proposed cuts in the fiscal year 2018 budget request 
would have real consequences for the security of our diplomats, for the 
conduct of our foreign policy, for the lives of people who depend on 
our assistance, and for our friends and allies. Your budget implies 
that we have been throwing money away on things that don't matter. 
Where is the data and the analysis to support these cuts? What facts do 
you have to demonstrate that this will make Americans better off and 
the world a safer place?
    Answer. The fiscal year 2018 budget request includes substantial 
funding for many foreign assistance programs under the State Department 
and USAID, but the first responsibility of the government is the 
security of American citizens, and the Department is orienting 
diplomatic efforts toward fulfilling that commitment. While State's 
mission will also be focused on advancing the economic interests of the 
American people, the primary focus will be to protect U.S. citizens at 
home and abroad, and therefore the Department is making hard choices to 
reduce funding for other initiatives. Even with reductions in 
assistance and development funding, the United States will continue to 
be the leader in international development, global health, democracy 
and good governance initiatives, as well as humanitarian efforts. The 
Department is confident the fiscal year 2018 budget request will allow 
the Department to support the President's priorities to defend national 
security, assert U.S. leadership, foster opportunities for U.S. 
economic interests, and ensure accountability to the U.S. taxpayer.
    Question. Secretary Mattis' quote about needing more ammunition if 
the State Department doesn't get the money it needs is so relevant that 
it has become somewhat of a cliche. You referenced the quote in your 
confirmation hearing, and stated that ``ensuring the resources are 
available to advance our foreign policy and diplomacy goals are 
important and elevated to a level that even the nominee of the 
Secretary of Defense has recognized.'' Did the importance of 
maintaining at least current levels of appropriations for U.S. foreign 
policy change? Or did you determine between January and March that 
Congress has been wasting billions of dollars on frivolous operations 
and programs?
    Answer. The State Department and USAID budget increased over 60 
percent from fiscal year 2007, reaching a record-high $55.6 billion in 
fiscal year 2017. Recognizing this rate of increase in funding is not 
sustainable, the fiscal year 2018 budget request reflects an effort to 
ensure every tax dollar is aligned with the Department's critical 
diplomatic and development mission, and that other nations should take 
on a greater responsibility for meeting shared international 
commitments. Operations must become more efficient, assistance must be 
more effective, and the primary mission must always be advocating for 
the national interests of the United States. The Department and USAID 
acknowledges that we had to make some tough choices, but focusing our 
efforts will allow the Department to advance the most important foreign 
policy goals and national security interests, while ensuring that other 
donor countries contribute their fair share toward meeting global 
challenges.
    Question. The administration has emphasized the need for other 
countries to ``step up'' their efforts to address today's global 
challenges and contribute their ``fair share''. How will cutting our 
contributions convince others to do more, and what evidence do you have 
that others have the ability, or the inclination, to fill the gap in 
funding caused by your budget cuts?
    Answer. The Department of State and USAID must advance our efforts 
to engage other countries to address global challenges. As part of our 
efforts, we will work to ensure that other donor countries contribute 
their fair share. We will continue to engage diplomatically with allies 
and partners to advance shared policy priorities and bilateral 
partnerships. Even with reductions in funding, we will continue to be 
the leader in international development, global health, democracy and 
good governance initiatives, as well as humanitarian efforts. The 
budget clearly communicates that American taxpayers can no longer be 
expected to shoulder a disproportionate share of these efforts. As we 
work to streamline efforts to ensure efficiency and effectiveness of 
U.S. taxpayer dollars, we acknowledge that we have to prioritize and 
make some tough choices. Focusing our efforts will allow us to advance 
our most important policy goals and national security interests.
    Question. You have testified that the U.S. has been doing more than 
its fair share to promote global peace and security. Does that mean 
that you believe 1.4 percent of the Federal budget is unfair and too 
much for the world's only superpower?
    Answer. The first responsibility of government is the security of 
its own citizens, and this budget request highlights that priority. The 
fiscal year 2018 budget request prioritizes the well-being of 
Americans, bolsters U.S. national security, secures our borders, and 
highlights U.S. economic interests. As we work to ensure the efficiency 
and effectiveness of U.S. taxpayer dollars, we will have to prioritize 
and make some tough choices. Focusing our efforts will allow us to 
advance our most important policy goals and national security 
interests, while ensuring that other donor countries contribute their 
fair share toward meeting global challenges. Even with reductions in 
funding, we will continue to be the leader in international 
development, global health, democracy and good governance initiatives, 
as well as humanitarian efforts.
    Question. In your testimony you stated that ``We are challenged to 
respond to . . . new global dynamics, and a post-9/11 world 
characterized by historic new threats that present themselves in ways 
never seen before, enabled by technological tools that we have been 
ill-prepared to engage.'' Can you reconcile that statement with your 
belief that the growth of the State Department and USAID budgets are 
not sustainable and should be reduced? Why can we not afford 1.4 
percent of the Federal budget to support U.S. foreign policy in an 
increasingly complex and challenging world?
    Answer. The State Department and USAID budget increased over 60 
percent from fiscal year 2007, reaching a record-high $55.6 billion in 
fiscal year 2017. Recognizing this rate of increase in funding is not 
sustainable, the fiscal year 2018 budget request reflects an effort to 
ensure every tax dollar spent is aligned with the Department's critical 
diplomatic and development mission, and that other nations should take 
on greater responsibility for meeting shared international commitments. 
The Department and USAID's fiscal year 2018 budget request acknowledges 
that our operations must become more efficient, that our assistance 
must be more effective, and that our primary mission must always be 
advocating for the national interests of our country. By focusing our 
efforts, we will be able to more quickly and effectively address the 
most pressing challenges and threats posed to our national security 
while increasing the cost-effectiveness of our operations for the 
American taxpayer.
    Question. In your testimony you state that ``The first 
responsibility of government is the security of its own citizens, and 
we will orient our diplomatic efforts toward fulfilling that commitment 
. . . the State Department's primary focus will be to protect our 
citizens at home and abroad.'' I agree that the security of U.S. 
citizens and American personnel and facilities at home and around the 
world must be a priority, but I disagree that the best way to do so is 
by ceding U.S. leadership and influence abroad. What about this budget 
makes Americans safer, and when can we expect to see the results?
    Answer. The fiscal year 2018 request for the State Department and 
USAID will allow America to continue to assert U.S. leadership, defend 
national security, and foster opportunities for U.S. economic 
interests. Even with the reductions in funding, we will continue to be 
the leader in international development, global health, democracy and 
good governance initiatives, and humanitarian efforts. As part of our 
efforts, we will continue to partner with key allies to protect 
Americans and American interests, advance bilateral partnerships, open 
new markets for U.S. businesses, and promote American interests abroad, 
in a manner that puts America first. This budget also sustains our 
responsibilities for border security and protecting Federal employees 
who serve under Chief of Mission authority overseas. Focusing our 
efforts will allow us to advance our most important policy goals and 
national security interests, while ensuring that other donor countries 
contribute their fair share toward meeting global challenges.
    Question. In your testimony you state that ``I have never believed, 
or experienced, that the level of funding devoted to a goal is the most 
important factor in achieving it. Our budget will never determine our 
ability to be effective--our people will.'' I agree. Increased funding 
does not necessarily equal increased effectiveness. And certainly 
neither does decreased funding. You have proposed to reduce State 
Department staffing by roughly 2,000 positions, and the budget 
eliminates development and economic programs in 37 countries. What is 
more effective about this approach, and how did you arrive at these 
numbers?
    Answer. With such a broad array of threats facing the United 
States, the fiscal year 2018 budget request begins the necessary work 
of focusing State Department and USAID efforts in order to allow us to 
advance our most important foreign policy goals. The State Department 
and USAID's fiscal year 2018 budget request acknowledges that our 
operations must become more efficient, that our assistance must be more 
effective, and that our primary mission must always be advocating for 
the national interests of our country. By focusing our efforts, we will 
be able to more quickly and effectively address the most pressing 
challenges and threats posed to our national security while increasing 
the cost-effectiveness of our operations for the American taxpayer.
    Question. Can we count on the State Department and USAID to 
obligate and expend the funds appropriated by Congress for fiscal year 
2017, and fiscal year 16 funds set to expire on October 1, 2017, in the 
manner prescribed?
    Answer. The Department of State and USAID will obligate funds 
appropriated by Congress consistent with applicable law, including the 
Impoundment Control Act.
    Question. You have embarked on a restructuring of the State 
Department to improve efficiency and effectiveness. Over the past 3 
months, we have heard testimony from U.S. combatant commanders around 
the world, from the Chairman of the Joint Chiefs of Staff, and from the 
Secretary of Defense expressing ``unqualified support'' for the budgets 
of the State Department and USAID. Yet, in addition to the 30 percent 
cut for diplomacy and development, you are proposing to use millions of 
dollars that was appropriated for other purposes to eliminate more than 
600 positions from the State Department through buyouts, and to reduce 
more than twice that number through attrition:
    What if you determine that given the increasingly complex and 
dangerous threats we face around the world, the State Department and 
USAID need more resources, including personnel, not less? Will you then 
request the additional resources? Wouldn't it make more sense to first 
determine how many people and how much funding the Department actually 
needs, before cutting the budget?
    Answer. We can build a State Department that is more effective as 
well as more efficient within the President's budget request. The 
Department remains committed to ensuring effectiveness of U.S. taxpayer 
dollars; driving efficiencies; working hand in hand with DoD and other 
agencies across the government to identify duplication of efforts; 
meeting objectives within fiscal constraints; and working on behalf of 
the American people to advance our national security objectives and 
foreign policy goals. As we move forward, the Department looks forward 
to sharing its plans with the Congress and working together to create a 
more efficient, streamlined State Department and USAID.
    Question. What mechanisms are in place, or do you intend to put in 
place, to ensure that reductions to personnel through attrition do not 
adversely impact the ability of bureaus and offices to effectively 
carry out their missions? What is the process for a bureau or office to 
request authority to hire additional staff, and under what 
circumstances do you intend to permit hiring?
    Answer. The Department of State has a well-established strategy for 
succession planning based analysis of attrition and, for the Foreign 
Service, flow through of Foreign Service Generalists and Specialists up 
through the ranks. To the degree that attrition increases with possible 
personnel reductions, we will adjust our models to account for the 
changes and ensure that necessary functions are maintained.
    We do not foresee involuntary actions such as a general reduction 
in force. Rather, we are targeting voluntary incentives for early 
retirement or separation to ensure that any reduction does not impact 
our ability to meet the requirements of our mission.
    Although the Department is currently maintaining a Department-wide 
hiring freeze, there is an established process for requesting 
exemptions to the hiring freeze. Senior officials (Assistant Secretary 
or equivalent) may seek an exemption for positions deemed critical to 
the execution of functions that support the Department's security, 
health and safety responsibilities.
    Question. What is the justification for, and impact of, suspending 
the incoming class of Foreign Service Officers?
    Answer. As of June 13, the Department is unable to offer this 
year's cadre of Fellows a spot in an A-100 class at this time, as has 
been customary.
    Question. What is the justification for, and impact of, freezing 
the hiring of Eligible Family Members?
    Answer. I have elected to continue the OMB/OPM hiring freeze 
Department-wide while we undergo our review of aligning resources, 
people, and our overarching mission, in order to deploy the talent and 
resources of the Department in the most efficient way possible. 
Specific hiring exemptions have been approved for EFM positions that 
support critical security, safety and health responsibilities at 
overseas posts.
    Question. In your testimony you commit that the United States will 
continue to respond to disasters and epidemics overseas. Yet the budget 
reduces funding for programs intended to prevent and mitigate the 
impact of such disasters, and programs intended to build food security 
against the threat of famine and strengthen local health systems. What 
about cutting these programs will enable you to respond more 
efficiently and effectively, and when can we expect to see the results?
    Answer. The United States is a leader in global humanitarian 
response and conflict prevention efforts. The U.S. Government is 
actively engaging with partners to reduce fragility and promote 
stability in conflict-affected states. This includes enhancing the 
ability of fragile countries to mitigate shocks and prevent conflict, 
and advancing the stabilization of conflict-affected areas so that they 
can transition to long-term political, economic and social stability.
    The United States is committed to doing our fair share to respond 
to humanitarian crises. With our fiscal year 2018 budget request, we 
will remain a leading contributor of humanitarian assistance. We are 
also asking our international partners to step up their efforts and 
contribute more. We continue to respond robustly to the famine or 
threat of famine in South Sudan, Somalia, Yemen and Nigeria, providing 
nearly $1.2 billion in fiscal year 2017 to date for these crises. At 
the same time, we must focus on addressing the fundamental conditions 
that give rise to these crises and work to prevent new ones from 
emerging. This requires aggressive diplomacy and targeted assistance to 
resolve conflicts, promote good governance, and promote stabilization. 
Our budget request in fiscal year 2018 includes dedicated resources to 
support conflict mitigation, stabilization, and human rights and 
governance programming in Afghanistan, Iraq, Nigeria, Somalia, Syria, 
Yemen, and elsewhere.
    Question. At the Defense appropriations subcommittee's fiscal year 
2018 budget hearing, I asked Secretary Mattis about his views on the 
proposed cuts to foreign assistance. He answered by acknowledging that 
DoD may have to fill some of the gaps left by State and USAID, and that 
he was willing to do so if needed. However, DoD has a dismal track 
record of implementing development and economic assistance, including 
in Afghanistan and Iraq since 9/11. Why does it make sense to have DoD 
fill gaps in foreign assistance rather than provide the necessary 
resources to State and USAID which are far better suited to the job?
    Answer. The Department of State and USAID have indispensable roles 
to play in a whole-of-government effort to address national security 
challenges, working with the Department of Defense (DoD) and other U.S. 
Government agencies. I am committed to fulfilling our important 
mission, and I believe our fiscal year 2018 request provides us with 
the necessary resources in that regard. As I stressed in my opening 
remarks, I believe it is our people first and foremost--not the level 
of resources--that will determine our ability to succeed in meeting 
these important objectives. By being more selective and targeted with 
our foreign assistance resources, I believe we can have a greater 
impact and increase cost-effectiveness for the American taxpayer.
    Secretary Mattis and I have committed our departments to work more 
closely together on security sector assistance (SSA) efforts and 
foreign assistance more broadly. We have established a new State-DoD 
SSA Steering Committee that is working to ensure a coordinated approach 
to our respective assistance programs. We are not seeking to transfer 
responsibility for programs historically funded by State to DoD; 
rather, the goal is to focus on a joint approach that determines how 
best to leverage resources and authorities to advance national security 
priorities and partnerships in the most cost-effective method. 
Together, we are also reviewing how we can best target our assistance 
to advance our top policy priorities, such as defeating ISIS.
    Question. In your testimony you note that the administration is 
``motivated by the conviction that the more we engage with other 
nations on issues of security and prosperity, the more we will have 
opportunities to shape the human rights conditions in those nations.'' 
I agree that engagement is important. How do you reconcile that 
statement with rolling back engagement with Cuba; with significant cuts 
to international financial institutions, the U.N. and other 
international organizations; and with reductions to bilateral 
assistance programs across the world, including the elimination of 
development and economic programs in 37 countries?
    Answer. The Department of State and USAID must advance our efforts 
to engage other countries to address global challenges. As part of our 
efforts, we will continue to partner with key allies to protect 
Americans and American interests, advance bilateral partnerships, and 
open new markets for U.S. businesses. Even with the reductions in 
funding, we will continue to be the leader in democracy and good 
governance initiatives, international development, global health, and 
humanitarian efforts. As I noted in my testimony, I have never 
believed, nor have I experienced, that the level of funding devoted to 
the goal is the most important factor in achieving it. Our budget will 
never determine our ability to be effective--our people will. By 
focusing our efforts, we will be able to more quickly and effectively 
address the most pressing challenges and threats posed to our national 
security while increasing the cost-effectiveness of our operations for 
the American taxpayer.
    Question. Do you plan to solicit feedback from the broader 
international development community, including our implementing 
partners and beneficiaries of U.S. assistance, regarding any proposed 
reorganization?
    Answer. Yes, State and USAID are planning on hosting a broad 
stakeholder engagement and listening session, which will include 
partners from the development community, in the coming weeks.
    Question. The mission of the World Health Organization is of vital 
importance to the health and safety of Americans and people everywhere. 
Compared to a deadly air borne virus, the Ebola epidemic was relatively 
easy to contain, and yet it claimed the lives of thousands of people 
and cost billions of dollars. WHO has been badly underfunded for years. 
How much are you requesting for a U.S. contribution to WHO in fiscal 
year 2018, compared to the U.S. contribution in fiscal year 2017?
    Answer. The fiscal year 2017 assessed contributions will total 
approximately $112 million. An aggregate total contribution will be 
determined once the fiscal year 2017 voluntary contributions are 
finalized. In addition to the State Department and USAID, the Centers 
for Disease Control, Food and Drug Administration, Environmental 
Protection Agency, National Institutes of Health, and the Department of 
Health and Human Services all contribute funds to WHO. The President's 
fiscal year 2018 Congressional Budget Request did not specify amounts 
of funding for contributions to WHO. While the contributions to the 
International Organizations account face a significant cut in the 
President's request, we have not yet determined funding levels for 
individual organizations. The organization could receive fiscal year 
2018 foreign assistance funds as an implementing partner for programs 
and activities funded through accounts such as global health programs.
    Question. International basic education assistance works. When 
Exxon Mobil sets up operations around the world, it needs local 
employees with the basic skills, particularly in math and science, to 
be an effective part of the workforce. This means youth and children 
starting out with a quality education, and that particularly girls and 
women also have a chance to compete in their societies. Critical 
thinking also counters violent extremism. The fiscal year 2018 budget 
request would cut funding for basic education by 53 percent. What is 
the justification for this reduction, and what impact do you expect 
such a cut to have?
    Answer. The fiscal year 2018 request for education is still robust, 
at more than a half billion dollars--$377.9 million alone for basic 
education. Our effort to streamline resources is in keeping with the 
administration's priority of ensuring effectiveness and accountability 
to the U.S. taxpayer. This does require some tough decisions. However, 
we deeply recognize that investments in basic education creates 
pathways not only for learning, but also for greater economic growth, 
improved health outcomes, democratic governance, and more resilient 
societies.
    For that reason, USAID basic education programs are targeted on 
supporting countries' achievement of specific, measurable results: 
children reading and children and youth--particularly girls--accessing 
safe, quality education in crisis and conflict. From 2011 to 2015, 
USAID supported 151 basic education programs in 46 countries, directly 
benefiting more than 41.6 million children and youth. Forty-nine 
percent of basic education beneficiaries, or 20.2 million individuals, 
were girls.
    USAID basic education programs also invest in countries where 
additional donor resources can be leveraged, another priority of the 
new administration. For instance, USAID works in partnership with the 
Global Partnership for Education (GPE) to strengthen country-level 
cooperation of education programming. In 2015 alone, U.S. support to 
GPE contributed to the construction or rehabilitation of 5,700 
classrooms, provision of 12.8 million textbooks and learning materials, 
and training of 147,000 teachers.
    Moving forward, USAID's education strategy will continue to focus 
on partnerships and initiatives with the strongest potential to improve 
the lives of the children and youth.
    Question. Your budget proposes to cut the Fulbright Program by 
half, and to eliminate many other international exchange programs which 
have strong, bipartisan support in Congress. Some of the most effective 
foreign advocates for American values are graduates of Fulbright and 
other U.S. cultural and educational exchange programs. I have met many 
of them. Do you believe these programs are failing to produce good 
results? At a time when misinformation and hostility toward the United 
States is growing, why would we not increase funding for these cost-
effective programs?
    Answer. The proposed cuts in Educational and Cultural Exchanges 
account contained in the fiscal year 2018 State Department budget 
request are part of a government-wide and Department-wide effort to 
reduce costs and to prioritize our resources where they have the 
greatest benefit to the American public. The State Department 
recognizes the important contribution of exchange programs, such as 
Fulbright, to advancing our foreign policy priorities, and the proven 
effectiveness of these programs. We will make every effort to leverage 
these programs and the efforts of the private sector to achieve U.S. 
national goals for people-to-people engagement.
    Question. In your testimony, you stated that one third of the 
Fulbright budget is contributed by other governments. I am concerned 
that foreign governments will reduce their contributions if the U.S. 
cuts its contribution, and there is no realistic scenario in which 
foreign and private contributions make up the difference of U.S. cuts 
so the program is maintained at the current level, as you suggested. In 
addition, your proposed cuts to the Economic Support Fund would likely 
result in USAID missions in Pakistan, Afghanistan and Egypt cutting 
back the amounts they allocate to Fulbright. What evidence do you have 
that if the Congress does what the President proposes, total funding 
for Fulbright from all sources will not decrease.
    Answer. We are looking holistically at how U.S. Government funded 
efforts and the efforts of other stakeholders, including foreign 
governments and the private sector, are helping to achieve our common 
objectives. To sustain high priority cultural and exchange programs 
like Fulbright at lower U.S. Government funding levels, we will need to 
determine priority areas and countries of activity after close 
consultations with the Department's regional bureaus and taking into 
account the strategic interests of the U.S. Government and our foreign 
policy goals. The extent to which U.S. Government funds are leveraged 
with contributions from other stakeholders will also be considered. 
Every effort will be made to keep exchange programs overall as robust 
and cost effective as possible, in service to the American people.
    Question. A January 2016 report by the State Department Inspector 
General found that the Department routinely takes over 500 days to 
respond to Freedom of Information Act (FOIA) requests. Citizen groups 
cite cases in which FOIA requests to State can go unfulfilled for 
years. What progress has State made to resolve its FOIA backlog and 
reduce the time for responding to FOIA requests, and what do you plan 
to do about this in fiscal year 2018 and beyond?
    Answer. The Department takes its FOIA responsibilities seriously 
and has taken a series of concerted actions to improve the program. 
These efforts have reduced the backlog by over 30 percent since October 
1, 2015; the current backlog is approximately 15,600 cases.
    The Department is developing a new process to eliminate its current 
FOIA backlog on an accelerated timeframe. Concurrently, the Department 
is in the process of acquiring new technical tools that will help 
facilitate both resolving the Department's FOIA backlog and providing 
more timely responses to requesters and the public.
    Further, to ensure greater public access to Department records, the 
Department is adding released records to our foia.state.gov website 
every month, an effort that started in 2016. There are now over 162,000 
documents available on-line for public review, which is a 40 percent 
increase over last year.
    Additional FOIA training is being offered to both employees who 
process FOIA requests and those who generate records being requested. 
There are monthly briefings on FOIA available to all Department 
employees located in Washington, DC, and new remote training tools are 
being created for all Department employees.
    Finally, the Department has established a new internal FOIA working 
group to address process and policy issues, including how to improve 
from the previous year's performance.
    Question. You have spoken of the importance of the United States' 
work with Mexico to combat the criminal organizations responsible for 
trafficking drugs to the United States and widespread violence in 
Mexico. Improving security in Mexico and combatting organized crime 
requires a judicial system that effectively investigates and prosecutes 
crimes and corrupt-free civilian police forces that citizens trust. 
According to your fiscal year 2018 budget request, assistance for 
Mexico would drop by 45 percent in 2018 as compared to 2016. Why does 
this make sense, and how do you plan to sustain our collaboration with 
Mexican authorities to combat organized crime and strengthen Mexico's 
criminal justice institutions?
    Answer. We remain committed to supporting the Government of Mexico 
in combatting organized crime and the movement of drugs and other 
illicit goods throughout the hemisphere. The fiscal year 2018 budget 
request reflects the administration's focused approach to foreign 
assistance. The request for Mexico prioritizes issues that directly 
impact the safety and security of the United States, by strengthening 
border security and undermining the transnational criminal 
organizations that traffic drugs, including heroin and fentanyl, which 
are exacerbating the U.S. opioid epidemic.
    The Bureau of International Narcotics and Law Enforcement Affairs 
(INL) continues to build the capacity of Mexican civilian security and 
justice sector institutions to strengthen borders and ports; disrupt 
the activities of transnational criminal organizations; interdict 
illegal drugs, including heroin, fentanyl, and methamphetamines; and 
disrupt illicit financial networks. Assistance will improve Mexico's 
ability to bring offenders to justice by increasing the effectiveness 
and professionalism of judicial institutions under Mexico's new 
accusatory justice system. In support of the May 2017 U.S.-Mexico 
Strategic Dialogue on Disrupting Transnational Criminal Organizations, 
INL is working with the Government of Mexico to identify new 
opportunities to combat transnational criminal organizations, including 
disrupting their business models. We are exploring new ways to 
strengthen criminal investigations of money laundering, build Mexico's 
capacity to criminally prosecute and sanction financial crimes, and 
work jointly on detecting and interdicting bulk cash shipments from the 
United States to Mexico. The funding requested in fiscal year 2018 is 
in addition to the $1.9 billion in International Narcotics Control and 
Law Enforcement funds allocated since fiscal year 2008.
    In addition, Economic Support and Development Fund assistance will 
promote human rights by building the capacity of Federal and State 
authorities to abide by and implement Mexico's National Human Rights 
Program and the government's obligations under international human 
rights treaties. Assistance at a local level will improve access to 
community-level justice and victims' services. This is complemented by 
assistance to civil society organizations to help promote crime and 
violence prevention, rule of law, and human rights.
    Question. In light of the important role of U.S. support for police 
professionalization, strengthening the rule of law, and advancing 
judicial reform in Mexico, what areas of assistance will you prioritize 
for the State Department's future engagement with Mexico?
    Answer. We continue to prioritize support for Mexico's transition 
to an accusatorial criminal justice system as an integral component of 
our strategy to combat transnational organized crime. A transparent, 
efficient, and effective criminal justice system is essential to our 
goal of dismantling transnational criminal organizations to combat the 
production and trafficking of heroin and fentanyl fueling the opioid 
epidemic in the United States. Disrupting criminal organizations that 
traffic heroin and other drugs requires strong law enforcement and 
justice institutions that can investigate, arrest, prosecute, convict, 
and imprison criminals. Our support also strengthens the rule of law by 
protecting due process, promoting assistance to crime victims, and 
strengthening human rights.
    U.S. funding supports the Government of Mexico's own priorities to 
promote accountability, professionalism, integrity, and adherence to 
due process among the country's 350,000 Federal, State, and municipal 
law enforcement officials. As Mexico has embarked on an essential set 
of reforms to its justice sector, the United States, through our 
security partnership with Mexico, has provided essential support by 
targeting every facet of the criminal justice system. This continues to 
include training for judges, prosecutors, and curriculum support for 
law schools, as well as supporting accreditation of Federal and State 
forensic laboratories and certification of their personnel. The United 
States also continues to provide training, technical assistance, and 
equipment in support of Mexico's efforts to reform Federal and State 
penitentiary systems.
    The United States and Mexico have forged a multi-faceted 
partnership to combat organized crime and drug trafficking and to 
support Mexico's efforts to strengthen its security institutions, 
enhance rule of law, build public confidence in the justice sector, 
improve border security, and promote respect for human rights. Through 
the Merida initiative, we will continue to direct funding to key 
priorities identified jointly by our governments to complement Mexico's 
investment in its own security.
    Question. It is one thing for a Communist government to restrict 
travel by its citizens. We might expect that. But do you believe it is 
right for the government of the world's oldest democracy to tell its 
citizens where they can travel and for what purposes, and to do so only 
for one country which is just 90 miles away?
    Answer. The Executive branch enforces U.S. law. U.S. law has 
prohibited certain financial transactions and trade with Cuba for over 
50 years, including travel-related transactions. Consistent with the 
Cuban Assets Control Regulations promulgated by the Department of 
Treasury, certain travel-related transactions may be authorized either 
by a general license or on a case-by-case basis by a specific license 
for travel related to 12 specified categories of activities. These 
categories include educational, religious, and journalistic activities, 
family visits, support for the Cuban people, humanitarian projects, 
government business, public performances and competitions, activities 
of private foundations or research or educational institutes, 
professional purposes, export, import, or transmission of information 
materials, and certain export transactions. These categories could be 
subject to modification pursuant to the National Security Presidential 
Memorandum issued on Cuba on June 16.
    Question. Do you believe the Cuban military or other security 
services pose a threat to the United States or to regional peace and 
security? Have any other Western Hemisphere governments indicated that 
they believe that they do?
    Answer. The Cuban military poses no significant direct threat to 
the United States and its regional partners. However, Cuba's security 
services have previously worked contrary to U.S. interests in the 
region, and the Government of Cuba provides support to Venezuelan 
security services.
    The countries of the region agreed to invite Cuba to the 2016 
Conference of Defense Ministers of the Americas (CDMA), a decision that 
was reached in April 2016 at a preparatory conference in Port of Spain, 
Trinidad and Tobago. While Cuba did not attend the conference, the 
decision suggests the region's willingness to cooperate with Cuba on 
issues of security.
    Question. The White House says President Trump's reinstatement of 
restrictions on travel to and trade with Cuba by Americans will help 
bring freedom to Cuba, for which the Cuban people will credit President 
Trump. What human rights improvements do you expect to occur as a 
result of President Trump's actions, and by when do you expect to see 
them?
    Answer. The National Security Presidential Memorandum (NSPM) issued 
June 16 seeks to advance human rights in Cuba. The Trump 
administration's policy is designed to encourage the Cuban government 
to address ongoing human rights abuses, including infringement of 
fundamental freedoms, and violence and intimidation against dissidents. 
By restricting certain types of travel and financial transactions, the 
administration's policy increases the pressure on the Cuban government 
to address these human rights abuses. U.S. policy will be shaped by how 
the Cuban government chooses to act toward its own people. As the NSPM 
states, the White House will continue to evaluate its policies to 
promote improved human rights conditions for the Cuban people, and the 
United States will continue to engage with the Cuban government on 
areas of national interest.
    Question. You have blamed Helms-Burton and other laws for the 
President's reinstatement of restrictions on travel to and trade with 
Cuba by Americans--contrary to U.S. policy everywhere else in the 
world. You have also strongly endorsed engagement with governments we 
disagree with in order to obtain improvements in human rights. Is that 
just a talking point, or would you support a repeal or modifications of 
Helms-Burton in order to facilitate that engagement? If the latter, 
what modifications of Helms-Burton would you recommend to facilitate 
U.S. engagement with Cuba?
    Answer. The National Security Presidential Memorandum (NSPM), 
Strengthening the Policy of the United States toward Cuba, outlines the 
policy of the executive branch towards Cuba. The new policy ensures 
engagement with Cuba is consistent with U.S. national interests, 
including advancing Cuban human rights and encouraging the growth of a 
Cuban private sector independent of government control. The new policy 
also reaffirms the executive branch's commitment to Helms Burton.
    Question. What improvements in the standard of living of the Cuban 
people do you expect to occur as a result of President Trump's 
reinstatement of restrictions on travel to and trade with Cuba by 
Americans, and by when do you expect to see them?
    Answer. As stated in the National Security Presidential Memorandum, 
issued June 16, the new Cuba policy aims to ensure engagement advances 
the interests of the Cuban people and encourages the growth of a Cuban 
private sector independent of government control. It does this by 
directing Federal agencies to undertake various actions, including 
making regulatory changes to restrict certain financial transactions 
and travel. The effect of these changes will be felt over time and 
constitute part of our continued engagement to improve human rights, 
encourage the rule of law, foster free markets and free enterprise, and 
promote democracy in Cuba.
    Question. How will you assess--with what criteria and over what 
period of time--whether the reinstatement of restrictions on travel to 
and trade with Cuba by Americans is helping to bring freedom to the 
Cuba?
    Answer. Cuban civil society, international non-governmental 
organizations, and global media paint a bleak picture of repressive 
conditions in Cuba. As outlined in the National Security Presidential 
Memorandum, issued June 16, the President's policy is designed to 
advance human rights and democracy in Cuba, while maintaining 
engagement that serves U.S. national interests. The United States will 
engage with Cuba to promote greater freedoms for the Cuban people, who 
for decades have lived with persistent harassment, violence, and arrest 
for exercising fundamental freedoms of speech and assembly.
    The Department receives regular and detailed reporting from the 
U.S. Embassy in Havana regarding conditions on the island. In addition, 
the Department maintains close and frequent contact with Cuban civil 
society and international non-governmental organizations, and closely 
follows reports from NGOs, academics, and international media. We will 
rely heavily on all these sources to monitor human rights conditions in 
Cuba.
    Question. What if any other improvements in Cuba do you expect to 
occur as a result of this policy, and by when do you expect to see 
them?
    Answer. The National Security Presidential Memorandum (NSPM), 
Strengthening the Policy of the United States toward Cuba, outlines the 
policy of the executive branch toward Cuba consistent with U.S. 
interests. The new policy gives greater emphasis to advancing human 
rights and democracy in Cuba, while maintaining engagement that serves 
U.S. national interests.
    The policy maintains U.S. diplomatic relations with Cuba; ensures 
compliance with the statutory ban on tourism to Cuba; confirms support 
for the economic embargo of Cuba; requires a report on whether 
conditions of a transition government are present; amplifies efforts to 
support the Cuban people through expansion of Internet services, free 
press, free enterprise, free association, and lawful travel; and 
reaffirms the end of the ``Wet Foot, Dry Foot'' policy. The policy also 
ensures U.S. engagement benefits the Cuban people and private 
enterprise--not the military and security services--by directing 
Federal agencies to adjust current regulations to prohibit certain 
direct financial transactions with listed Cuban military, intelligence, 
or security services.
    This continued engagement furthers national security and foreign 
policy interests of the United States. While we cannot predict a 
specific date by which we can expect to see such improvements in Cuba, 
we will continue to craft U.S. policy to improve human rights, 
encourage the rule of law, foster free markets and free enterprise, and 
promote democracy.
    Question. How many, if any, additional State and Treasury 
Department personnel, and at what cost in fiscal year 2018 and fiscal 
year 2019, will be required to implement and enforce the President's 
restrictions on travel to and trade with Cuba by Americans?
    Answer. The State Department is analyzing the resource requirements 
necessary to implement the National Security Presidential Memorandum 
(NSPM) on Strengthening the Policy of the United States toward Cuba in 
coordination with our colleagues at Treasury.
    Question. What if any evidence do you have that President Trump's 
policy toward Cuba will help bring freedom to Cuba or otherwise improve 
the lives of the Cuban people?
    Answer. As President Trump's Cuba policy makes clear, the 
administration is committed to supporting the Cuban people by advancing 
human rights and democracy in Cuba, while maintaining engagement that 
serves the national security and foreign policy interests of the United 
States. To that end, the Department of State continues to pursue 
diplomatic engagement, supporting and working with human rights and 
democracy activists in Cuba and regional partners.
    Specifically, the new Cuba policy describes the administration's 
intent to support the Cuban people through the expansion of Internet 
services, free press, free enterprise, free association, and lawful 
travel. The President's National Security Memorandum on Cuba policy 
lays out several specific steps the Department of State and other 
agencies will undertake to assess the current state of U.S. Government 
engagement and programming in Cuba and help further these goals. 
Additionally, the Department of State is already holding preliminary 
meetings to inform the work of the Internet task force we will convene 
to examine the technological environment for expanding Internet access 
in Cuba.
    Question. The Cuban government is repressive. No one disputes that. 
I have condemned Cuba's violations of human rights and I have met with 
Cuban dissidents. But if Cuba were a democracy and its police were 
summarily executing thousands of people suspected of drug abuse, 
without any legal process, like the police in the Philippines are 
today, would you recommend millions of dollars in aid for Cuba as you 
are for the Philippines?
    Answer. The United States supports strengthening human rights and 
democratic governance, and the programs and assistance we provide 
worldwide reflect that mission. We are working with the Philippines on 
addressing the shared objective of preventing illicit drug trafficking, 
as well as providing assistance to promote the rule of law and human 
rights. We have serious concerns when those involved in the drug war 
reportedly operate outside the rule of law, and we have discussed our 
human rights concerns at the highest levels of the Philippine 
government on multiple occasions, and raised the issue at the May 8 
Universal Periodic Review at the Human Rights Council.
    In order to encourage Cuba to meet the requirements set forth in 
the Libertad Act, U.S. Government programs in Cuba support the Cuban 
people's desire for human rights and democratic governance. Our 
programs train independent journalists to provide an alternative voice 
to State-run media, equip human rights defenders to better document 
human rights abuses and present reports to international fora, and send 
crucial humanitarian assistance to victims of political repression and 
their families.
    Question. Would you support the following legislation, and if not 
why not?
    ``Notwithstanding any other provision of law, regulation, or 
policy, travel to and transactions incident to such travel in Cuba by 
American citizens and legal residents shall not be subject to 
limitations that are more or less restrictive than for such travel to 
and transactions in Iran, Syria, Russia, North Korea, China, or 
Vietnam.''
    Answer. We do not agree with the general approach. A ``one-size 
fits all'' approach that combines Cuba with disparate other countries 
would not be helpful. Different circumstances call for different 
approaches. We often face dynamic situations and ever-shifting 
landscapes when formulating our foreign policy. The administration must 
have the flexibility to tailor its responses to the reality on the 
ground, which can vary considerably both by country and over time.
    Question. Do you support, and would you recommend, similar 
restrictions on travel to and trade by Americans with any other country 
besides Cuba, and if so which countries and for what reasons, and if 
not why not? What about Venezuela and Russia, Cuba's strongest 
supporters?
    Answer. The safety and security of U.S. Citizens abroad, and the 
development of a strong, prosperous American economy are top priorities 
of the Department of State. As such, the Department continually 
evaluates potential travel and trade-related measures. Due to the 
serious and mounting risk of arrest and long-term detention of U.S. 
citizens, restrictions on the use of U.S. passports to travel into, in, 
or through North Korea have been in effect since September 1, 2017, in 
accordance with C.F.R. 51.63. Persons who wish to travel to North Korea 
on a U.S. passport must obtain a special passport validation under 22 
C.F.R. 51.64, and such validations will be granted only under very 
limited circumstances. Currently, there are no decisions to implement 
additional restrictions on travel to other countries.
    Question. In 2018, Temporary Protected Status (TPS) for over 
300,000 citizens of El Salvador and Honduras is set to expire. If TPS 
is not renewed, what would be the effect on economic and security 
conditions in these countries--whose combined population is 14.5 
million--of a sudden influx of 300,000 unemployed people (increasing 
the population by 2 percent)?
    Answer. The Salvadoran and Honduran governments have been 
cooperative partners in receiving their deported citizens. Each country 
receives roughly 50,000 deportees a year from the United States and 
Mexico.
    The United States Agency for International Development (USAID) 
partners with the International Organization for Migration (IOM) to 
improve the capacity of the Northern Triangle governments of El 
Salvador, Guatemala, and Honduras to receive and assist deported 
migrants. Since 2014, USAID has provided three program contribution 
grants totaling $26.8 million to IOM to help the Northern Triangle 
governments improve their capacity to receive and reintegrate 
unaccompanied children, families, and adults returned from the United 
States and Mexico and to rebuild and renovate four repatriation 
centers.
    Despite ongoing efforts by the Salvadoran and Honduran governments 
and current and requested U.S. assistance for the region, any increase 
in deportation, would likely strain government services and hinder the 
governments' ability to address serious economic problems, further 
delaying job creation and successful reintegration of deported 
citizens.
    Question. The fiscal year 2018 request includes a 39 percent cut in 
assistance to the three countries of Central America's ``Northern 
Triangle,'' El Salvador, Guatemala, and Honduras. Currently, aid to 
those countries supports the ``U.S. Strategy for Engagement in Central 
America,'' a plan begun in fiscal year 2016 to address the root causes 
of migration. If we cut these violence-prevention, economic 
development, workforce development, community policing, and criminal 
justice reform efforts, what is the risk that violence and insecurity 
will worsen and drive another wave of migrants toward the United 
States?
    Answer. Through U.S. assistance and engagement in Central America, 
our aim is to secure the U.S. border and protect American citizens by 
addressing the economic, security, and governance drivers of illegal 
immigration and illicit trafficking. The President's fiscal year 2018 
budget request of $460 million for Central America emphasizes continued 
U.S. commitment to reducing insecurity and violence, enhancing the 
business climate, and promoting improved governance in the region, all 
of which is essential to supporting the safety, security, and 
prosperity of Americans. This is in addition to the almost $2 billion 
provided by Congress in fiscal year 2015-fiscal year 2017.
    Fiscal year 2018 funding will enable us to focus efforts in areas 
that will have the greatest potential for transformative impact on U.S. 
national security. The Department and USAID will implement an 
integrated approach to crime and violence prevention through programs 
that reduce gang violence and the influence of organized crime across 
borders; promote good governance, anti-corruption, and fiscal 
management; and foster prosperity.
    Question. The Inspectors General for the Departments of State and 
Justice released a report recently that State and DEA employees were 
involved in a cover up of a 2012 incident where a drug raid in Honduras 
went wrong and four innocent civilians were killed and others injured. 
The report finds that State Department employees ``failed to comply 
with, and undermined, the Ambassador's Chief of Mission authority'' and 
``provided inaccurate and incomplete information to Congress and the 
public.'' How is State holding accountable the employees cited in the 
IGs' report? What changes to policies and procedures has State 
implemented to ensure that this type of non-cooperation with 
investigators is not repeated, especially in cases involving loss of 
life and personal injury? What specific compensation has been provided, 
or is contemplated, by whom, for the Honduran victims of the Ahuas 
incident?
    Answer. The Department of State (DOS) has very serious concerns 
with the joint report produced by the Inspectors General of the 
Departments of State and Justice (OIGs), ``A Special Joint Review of 
Post-Incident Responses by the Department of State and Drug Enforcement 
Administration to Three Deadly Force Incidents in Honduras.'' These 
concerns were raised by the Bureau of International Narcotics and Law 
Enforcement Affairs (INL) in their January 17, 2017 official comments 
on the draft joint report. Additionally, during the course of the joint 
investigation, DOS officials asked the OIGs to address concerns over 
the root cause of the interagency conflict concerning appropriate 
protocols for disclosing law enforcement investigative information, 
including internal agency reviews. None of these concerns were 
addressed during the joint OIG investigation, nor are they reflected in 
the final joint report. As a result, the lengthy and complex report 
remains incomplete and factually misleading. In our view, this has 
resulted in the adoption of conclusions regarding INL and Bureau of 
Western Hemisphere Affairs (WHA) personnel that are erroneous and not 
supported by the evidence.
    Because the Department concluded that DOS employees did not engage 
in misconduct, they were not referred for formal disciplinary action. 
DOS concluded the employees did not willfully provide incomplete or 
inaccurate information to Members of Congress or the public. 
Coordination before and after the incidents discussed in the joint 
report suffered from limited legal provisions regarding the presence of 
U.S. law enforcement in foreign police operations. The Foreign 
Assistance Act contemplates defensive use of force by U.S. law 
enforcement personnel and the need to secure Chief of Mission approval 
for their presence at foreign police operations and for carrying 
firearms in country, but does not address responsibilities for post-
incident responses. Conflicting agency policies related to the 
disclosure of information contributed to misunderstandings between the 
participating law enforcement entities pertaining to their obligations. 
This prevented the Chief of Mission from receiving information that she 
had every right to receive and can be avoided in the future by clearly 
delineating responsibilities in advance, particularly among law 
enforcement entities. Additionally, transparency in accountability 
reporting and protocols for overseas incident reporting and 
investigations should be agreed upon. Unfortunately, this context was 
not addressed in the joint investigation or the resulting report. The 
Department earnestly believes that State employees acted in good faith 
in a chaotic environment and accurately reported information as it was 
made available to them at the time.
    INL appreciates the report's identification of weaknesses and has 
taken measures to address them. The State Department has not provided 
air support to Honduran law enforcement operations since July 2012 and 
all assets have been reallocated to another country program. The State 
Department has provided regular and systematic reporting to Congress on 
Honduras programs since 2012. There has been excellent coordination 
between Federal law enforcement and the U.S. Chief of Mission since 
2014.
    Regarding compensation for the Honduran victims of the Ahuas 
incident, the Government of Honduras provided a $200,000 grant to 
INGWAIA, an indigenous NGO, to assist the families affected by the 2012 
incident. INGWAIA confirms that it has disbursed all funds in support 
of the following:
  --Medical support for eight members of beneficiary families;
  --Assessment of the current condition of all beneficiary families' 
        homes and purchase of materials needed for renovations;
  --Delivery of food assistance and school supplies to five of the 
        beneficiary families;
  --Support to the establishment of a bakery run by 30 women, including 
        beneficiary families;
  --Distribution of rice seeds to 25 male heads of household in the 
        village, including one beneficiary household that has a rice 
        farm and benefited from assistance in producing and selling 
        rice; and
  --Assistance to two beneficiary families on establishing legal title 
        to their properties.
    Question. In a January 2017 response to a Senate QFR, you said that 
you ``would also seek to review the details of Colombia's recent peace 
agreement, and determine the extent to which the United States should 
continue to support it.'' Now that details of the agreement have been 
reviewed, what is the administration's position?
    Answer. The President stated in his May 18 meeting with Colombian 
President Juan Manuel Santos that the United States strongly supports 
Colombia's efforts to secure a just and lasting peace. We will continue 
to work with the Colombian government to support its implementation of 
the peace accord.
    Question. Colombia is in the first months following a peace accord 
with the hemisphere's largest guerrilla group. The early post-conflict 
phase is fragile, and there is much to do to consolidate territorial 
control, reduce coca cultivation, and ensure that violence doesn't 
worsen. Why does the fiscal year 2018 budget request include a 44 
percent cut in assistance to Colombia from the fiscal year 2017 level?
    Answer. As the President stated in his May 18 meeting with 
Colombian President Juan Manuel Santos, Colombia is a strategic U.S. 
partner, and the United States strongly supports Colombia's efforts to 
secure a just and lasting peace. We have a vital national interest in 
Colombia's success. Colombia at peace will be an even stronger partner 
for us on countering drug-trafficking, organized crime, terrorism, and 
illegal immigration.
    Our budget request reflects the administration's more targeted 
approach to foreign assistance. Building on prior year programs, U.S. 
assistance will help the Colombian government implement the peace 
agreement and focus on special U.S. capabilities and technical 
expertise to catalyze and enhance Colombia's own peace accord 
implementation and counternarcotics efforts.
    Our programming focuses U.S. assistance on: (1) security, including 
the government's counternarcotics efforts and reintegration of ex-
combatants; (2) the expansion of state institutions and presence in 
former rebel areas, including rural economic development, justice 
services, the military's civil engineering units, and humanitarian 
demining; and (3) justice and other support for victims.
    Question. How much does State plan to spend in fiscal year 2017 and 
fiscal year 2018 to support Colombia's efforts to reduce coca 
cultivation, whether through forced eradication or through voluntary 
eradication/crop substitution? Is it your position that the Colombian 
police should resume aerial eradication, notwithstanding the ruling of 
Colombia's constitutional court?
    Answer. We remain deeply committed to supporting Colombian efforts 
to combat drug trafficking and roll back recent increases in coca 
cultivation and cocaine production. Congress directed $391 million for 
U.S. assistance to Colombia in fiscal year 2017, with a particular 
focus on counternarcotics.
    Our fiscal year 2018 budget request reflects the administration's 
focused approach to foreign assistance. We prioritized programs that 
address the coca cultivation increase. The administration's fiscal year 
2018 request includes an 8 percent increase from the fiscal year 2016 
Actual levels for Department of State and USAID counternarcotics 
programs. The fiscal year 2018 Request for International Narcotics 
Control and Law Enforcement (INCLE) funds for Colombia counternarcotics 
activities is $90.5 million, a slight increase over the fiscal year 
2016 Actual level. Additionally, the fiscal year 2018 Request includes 
$57.4 million in Economic Support and Development Funds (ESDF) for 
USAID counternarcotics programming, a 16 percent increase above fiscal 
year 2016 Actual levels. The Department will concentrate these 
resources on the high priority supply reduction efforts such as 
interdiction and eradication, as well as rural development programs to 
improve the conditions necessary for inclusive, licit economic growth.
    The choice between the various eradication methodologies is a 
sovereign decision of the Government of Colombia. It is a State 
Department priority to determine the most effective way to advance 
shared U.S.-Colombia counternarcotics goals. We believe the best 
approach to reducing narcotics production in Colombia is eradication 
combined with well-coordinated, whole-of-government efforts to provide 
licit economic opportunities in strategic areas of concern.
    Question. Leahy Law: During your confirmation hearing you indicated 
that you support the Leahy Law, which provides that if the Secretary of 
State has credible information that a unit of a foreign security force 
has committed a gross violation of human rights, it is no longer 
eligible for U.S. assistance unless the individuals responsible are 
being brought to justice. For fiscal year 2017, Congress provided $9 
million to implement the law, which is labor intensive and involves 
vetting tens of thousands of foreign individuals and units for U.S. 
training, equipment, and other assistance. Can you assure me that you 
will not reduce funding for this critical requirement? Will you permit 
DRL to hire staff to replace attrition in support of this requirement? 
If not, why not?
    Answer. The Department will ensure that our Leahy vetting remains 
timely and efficient. Vetting delays would erode our efforts to train 
and equip partner security forces and thus erode our security. The 
Department intends to honor use of the $9 million provided in fiscal 
year 2017 to support Leahy Law objectives, including Leahy vetting 
staffing requirements and information technology improvements. As with 
all programs within the Department, the Department is currently 
examining ways to improve performance and to carry out the mission of 
the Department in the most efficient and effective manner possible to 
assure the best uses of resources made available to the Department.
    Question. Do you agree that the Department of State should not 
license for export articles or services for a unit of a foreign 
security force if there is credible information that such unit has 
committed a gross violation of human rights until effective steps are 
taken to bring the individuals responsible to justice?
    Answer. The protection and promotion of human rights remains a key 
goal of U.S. defense trade licensing, by longstanding policy and 
consistent with foreign military sales provisions in the Arms Export 
Control Act (22 U.S.C. Sec. 2751 et seq.) and grant assistance 
provisions in the Foreign Assistance Act of 1961 (22 U.S.C. Sec. 2151 
et seq.).
    The U.S. Conventional Arms Transfer Policy specifies ``The United 
States will not authorize any transfer if it has actual knowledge at 
the time of authorization that the transferred arms will be used to 
commit: genocide; crimes against humanity; grave breaches of the Geneva 
Conventions of 1949; serious violations of Common Article 3 of the 
Geneva Conventions of 1949; attacks directed against civilian objects 
or civilians who are legally protected from attack or other war crimes 
as defined in 18 U.S.C. 2441.'' More broadly, the Policy requires that 
arms sales take into consideration, among other factors, ``The 
likelihood that the recipient would use the arms to commit human rights 
abuses or serious violations of international humanitarian law, 
retransfer the arms to those who would commit human rights abuses or 
serious violations of international humanitarian law, or identify the 
United States with human rights abuses or serious violations of 
international humanitarian law.'' In pursuit of these objectives, we 
consider seriously whether there is credible information that a 
proposed recipient unit has committed a gross violation of human rights 
and whether effective steps are being taken to bring individuals 
responsible for such violations to justice.
    Question. How do you plan to apply the Leahy Law for purposes of 
military assistance for Israel, Egypt, and Pakistan, and for other 
cases that include equipment provided above the unit level?
    Answer. The Department will continue to implement Leahy vetting in 
accordance with the State implementation guidance. Recipients of U.S. 
assistance, whether individuals or units, are entered into the 
Department's International Vetting and Security Tracking (INVEST) 
system, then checked against internal Embassy databases for potentially 
derogatory information, including--but not limited to--allegations of 
gross violations of human rights (GVHR). If no disqualifying derogatory 
information is found during internal Embassy vetting, the cases are 
forwarded through the INVEST system to Washington, where the Bureau of 
Democracy, Human Rights, and Labor (DRL) and the relevant regional 
bureau conducts additional GVHR-related vetting. Nominees found to have 
credible GVHR allegations against them are reported to the host 
government and rendered ineligible for all U.S. assistance. Until the 
host government takes effective steps towards bringing such units or 
individuals to justice, no assistance, including training or material 
support, is furnished to rejected nominees. Because the requirements of 
the Leahy Law are so well understood at our embassies, units or 
individuals known in connection with a GVHR are pre-screened for 
eligibility well before entering the formal vetting system.
    The Department understands that in some cases it may be difficult 
to determine which specific units will receive assistance, as is the 
case when assistance is used to provide items commonly used across 
multiple units through a centrally managed logistics facility (e.g., 
ammunition, fuel, or boots disbursed through a central warehouse or 
depot). In such situations, the Department will provide a list of units 
that are ineligible for assistance under the Leahy law.
    Question. How do you plan to apply the Leahy Law for purposes of 
assistance for Iraqi security forces, and for militia forces allied 
with the Iraqi military?
    Answer. The United States provides weapons and other defense 
articles and services to the Iraqi government to support its campaign 
to defeat ISIS, as well as to help build a strong and effective Iraqi 
military. We continue to work with the Iraqi government to ensure that 
weapons provided to Iraq are used only by those for whom the weapons 
were originally intended and to support investigations into any human 
rights violations that are alleged to have occurred. We have informed 
the Government of Iraq that we expect to ensure its armed forces fully 
comply with the Law of Armed Conflict. We vet all assistance provided 
to Iraqi Security Forces (ISF) as we would any other country, in 
accordance with the Department of State's guidelines on Leahy law 
implementation. Iraqi recipients of U.S. assistance, whether 
individuals or units, are checked against internal Embassy databases, 
as well as open source and classified databases in Washington, for 
potentially derogatory information, including--but not limited to--
gross violations of human rights (GVHRs). Nominees found to have 
credible GVHR allegations against them are reported to the host 
government and rendered ineligible for all U.S. assistance. Until the 
Government of Iraq takes effective steps towards bringing any such 
units or individuals to justice, no assistance--including training or 
material support--is furnished to rejected nominees.
    The United States supports Tribal Mobilization Forces (TMF) in 
Anbar and Ninewa; for these forces, the Embassy vets the commanders and 
units. The Embassy also takes the extra step of vetting TMF units' 
tribal or political sponsors, as applicable. The United States has not 
provided any assistance to the Shia Popular Mobilization Forces (PMF), 
as many are linked to Iran and have numerous credible allegations of 
human rights abuses. The Coalition does not provide support to groups 
or forces that are designated terrorist organizations, responsible for 
GVHRs, or that do not fall under the control of the Government of Iraq.
    Question. You have complained about the rate of growth of U.S. 
foreign assistance programs. But the amount appropriated for 
international family planning/reproductive health programs has fallen 
over $40 million--more than 6%--since fiscal year 2010. Currently, an 
estimated 303,000 women in developing countries die needlessly each 
year from pregnancy-related causes, and unsafe abortion continues to be 
a major cause of unacceptably high maternal mortality rates. Yet, your 
budget proposes to eliminate funding for USAID's voluntary family 
planning programs, which the evidence conclusively shows prevent 
unwanted pregnancies, reduce abortion, reduce child mortality, and 
prevent pregnancy related deaths. Republican administrations and 
Republican majorities in Congress have long supported these programs. I 
recall Senator Hatfield, who once chaired the Appropriations Committee. 
He was staunchly pro-life, but he was a passionate advocate for family 
planning, for all the reasons I mentioned. Was he wrong? What is the 
justification for eliminating this funding?
    Answer. Preventing child and maternal deaths is a priority for 
USAID's global health programs. As we work to streamline efforts to 
ensure efficiency and effectiveness of U.S. taxpayer dollars, we 
acknowledge that we have to prioritize and make some difficult choices. 
By focusing our efforts on global health programs in maternal and child 
health, nutrition, and malaria, we will continue to save the lives of 
women and children. While the United States will continue significant 
funding for global health programs, other stakeholders and partner 
countries must do more to contribute their fair share to global health 
initiatives.
    Question. You have said that the U.S. is paying more than its fair 
share of foreign assistance. In other words, apparently, that others 
should pay more than they are and that the U.S. should pay less. But 
when it comes to public health, experts estimate that it would cost 
approximately $9.4 billion to address the unmet need for modern 
contraceptive services for 225 million women in the developing world. 
This number assumes that one-third of the financial resources necessary 
to provide reproductive healthcare should be furnished by donor 
countries and two-thirds by developing nations themselves. By applying 
the U.S. percentage share of total gross national income (GNI) of the 
developed world to its assigned one-third contribution to the total 
funding required to address the unmet need for contraception, the U.S. 
share of the cost, based on relative wealth, equals $1.193 billion. 
That is twice the amount appropriated for these purposes in fiscal year 
2017, and for fiscal year 2018 your budget request includes zero. How 
to do reconcile that with your statements about the U.S. paying its 
fair share?
    Answer. The United States is by far the largest global health 
donor. As we work to streamline efforts to ensure efficiency and 
effectiveness of U.S. taxpayer dollars, we acknowledge that we have to 
prioritize and make some difficult choices. By focusing our efforts on 
global health programs in maternal and child health, nutrition, and 
malaria, we will continue to save the lives of women and children.
    Question. You propose to cut funding for assistance for refugees by 
$313 million at a time when the number of refugees and internally 
displaced persons is the highest it has been since World War II. The 
President has also cut the number of refugees for resettlement from 
100,000 to 50,000. This not only contradicts the President's claim that 
the U.S. will remain a global leader, it is un-American.
    Answer. The proposed proportion of the fiscal year 2018 State/USAID 
foreign assistance budget requested for humanitarian assistance remains 
the same as in fiscal year 2016, roughly 22 percent, and the relative 
priority of these interventions has not diminished.
    We remain committed to providing lifesaving assistance to those who 
need it most. This request, in concert with fiscal year 2017 resources, 
will enable the U.S. Government to respond to the major humanitarian 
emergencies around the globe, including Syria, Iraq, Yemen, Somalia, 
Nigeria, and South Sudan.
    We will continue to ensure that we are using funds as efficiently 
and effectively as possible in order to meet current and unforeseen 
needs. Other donors will need to do more to assist in responding to 
humanitarian crises around the world.
    Question. The administration's justification is that other donors 
should contribute more. Of course we want others to do more to help 
refugees, but no country has the means to fill our shoes. What makes 
you think that will happen, and when can we expect to see the results?
    Answer. The administration remains committed to addressing the 
global refugee crisis. The United States is the largest provider of 
humanitarian assistance worldwide, more than $7 billion in fiscal year 
2016, which provided protection, food, shelter, healthcare services, 
access to clean water, and other urgent provisions to millions of 
people. The present refugee crisis is global in nature, and thus calls 
for a global response by governments, non-governmental organizations 
(NGOs), and the private sector. Collective action is critical to 
alleviating the plight of the over 65 million forcibly displaced people 
worldwide. We have seen this dynamic at work with respect to both 
public and private aid.
    Question. Can you explain the rationale for eliminating the 
Emergency Refugee and Migration (ERMA) account, as the fiscal year 2018 
request would do? The budget justification claims that these functions 
can be carried out under the Migration and Refugee Assistance (MRA) 
account, and yet that account would also be cut by 10 percent. What is 
the rationale for eliminating ERMA?
    Answer. We remain committed to providing lifesaving assistance to 
those who need it most. The MRA request, in concert with fiscal year 
2017 resources, will enable the U.S. Government to respond to the major 
humanitarian emergencies around the globe. For several years, the MRA 
account has supported emergency refugee needs. The fiscal year 2018 
budget request still includes support for emergency refugee and 
migration needs within the MRA account, but eliminates duplication and 
streamlines support for refugee and migration needs into one account.
    We will continue to ensure that we are using funds as efficiently 
and effectively as possible in order to meet current and unforeseen 
needs. Other donors will need to do more to assist in responding to 
humanitarian crises around the world.
    Question. How many refugees does the President plan to admit this 
next fiscal year, and how does this compare to the historical average 
since the 1980 Refugee Act?
    Answer. Each year, the President makes an annual determination, in 
consultation with Congress, regarding the refugee admissions ceiling 
for the following fiscal year. That determination is expected to be 
made prior to the end of fiscal year 2017.
    Question. I have refugee constituents in my state who are waiting 
to be reunited with their families through the U.S. Refugee Admission 
Program. What can you assure me about the future of this program and 
the prospects that my constituents will be reunited with their family 
members?
    Answer. Family reunification has long been a priority of the U.S. 
Refugee Admissions Program. Currently, the Priority 3 (P-3) category 
affords USRAP access to the parents, spouse, and unmarried sons and 
daughters under 21of individuals of designated nationalities who 
initially entered the United States as refugees or were granted asylum. 
In addition, within 2 years of arrival, a principal refugee admitted to 
the United States may file an I-730 petition to request following-to-
join benefits for his or her spouse and/or unmarried children under the 
age of 21 who were not previously granted refugee status. These 
beneficiaries are not required to establish past persecution or a well-
founded fear of persecution, as they derive their status from the 
refugee relative in the United States who filed the petition. 
Beneficiaries of I-730 petitions may be processed within their country 
of origin or in other locations.
    Question. I understand that the administration is writing a report 
on the fiscal impacts of refugee resettlement. Are you also factoring 
in the positive economic and social contributions of refugees in your 
analysis?
    Answer. The Department of State, in consultation with 
representatives from the Department of Health and Human Services, 
Department of Homeland Security, and the Office of Management and 
Budget, is working to quickly and fully implement the President's 
directives in Sections 4(b) and (c) of ``The Presidential Memorandum on 
Implementing Immediate Heightened Screening and Vetting of Applications 
for Visas and Other Immigration Benefits.'' Section 4(b) of the 
Presidential Memorandum requests a report detailing the estimated long-
term costs of the United States Refugee Admissions Program at the 
Federal, State, and local levels, along with recommendations on how to 
curtail those costs. The Department of State is working diligently with 
partner agencies to prepare a report that responds to the President's 
request.
    Question. More than 50,000 Iraqis who have close affiliations with 
the U.S. Government in Iraq and who have faced risks as a result are 
waiting for interviews in USRAP. How do the administration's plans for 
refugee resettlement ensure that these Iraqi allies continue to have a 
path to safety?
    Answer. The Department of State, in coordination with the 
Department of Homeland Security, implements a Priority Two (P-2) Direct 
Access Program (DAP) for U.S.-affiliated Iraqis, which allows certain 
categories of Iraqis to apply directly to the USRAP without the need 
for a referral by the United Nations High Commissioner for Refugees. 
These categories include those Iraqis who worked for the U.S. 
Government, U.S. military, U.S.-funded organizations closely associated 
with the U.S. mission in Iraq, U.S.-based media organizations or 
nongovernmental organizations, and their immediate family members.
    Since fiscal year 2007, over 47,000 Iraqis have been resettled in 
the United States under the P-2 DAP. The administration is committed to 
ensuring the successful continuation of this priority program for 
Iraqis who risked their lives and those of their families to support 
U.S. efforts in Iraq.
    Question. Executive Order 13769 required you to conduct a 120-day 
review of the U.S. Refugee Admissions Program ``application and 
adjudication process to determine what additional procedures should be 
taken to ensure that those approved for refugee admission do not pose a 
threat to the security and welfare of the United States, and shall 
implement such additional procedures.'' What is the status of the 
review, and what are the results?
    Answer. On March 6, 2017, the President revoked Executive Order 
13769 and replaced it with Executive Order 13780. Executive Order 13780 
also requires the Secretary of State, in conjunction with the Secretary 
of Homeland Security and in consultation with the Director of National 
Intelligence, to conduct a 120-day review of the refugee admissions 
process and identify additional procedures to ensure that refugees 
seeking resettlement in the United States do not pose a threat to the 
United States. On March 15, 2017, the United States District Court for 
the District of Hawaii issued a nationwide injunction prohibiting the 
Department of State from enforcing or implementing sections 2 and 6 of 
Executive Order 13780. Section 6(a) of Executive Order 13780 relates to 
the 120-day review of the refugee admissions process. Because this 120-
day review is enjoined by the Hawaii District Court decision, the 
Department of State is not proceeding with the review at this time and 
does not have any results to report.
    Question. Despite the fact that the two executive orders to stop 
the refugee resettlement program for 4 months were halted by a series 
of court injunctions, it appears that the USCIS Refugee Corps 
interviews of refugee applicants have slowed down, and delays in the 
processing of security checks for refugee applicants have resulted in 
clearances expiring at different times. Since each step in the security 
check process is time limited, this has created setbacks and delays for 
refugees in the pipeline. How is this in keeping with the court 
injunctions on the refugee executive orders, as well as the 
congressional intent, made clear in the fiscal year 2017 Omnibus, that 
funding for resettlement is to be maintained?
    Answer. It is important to note that the Department of State is 
only one of the Federal agencies that implements the U.S. Refugee 
Admissions Program. The budgets and operational capacity of the State 
Department and all of our interagency partners affect the pace of 
refugee admissions. The Department of State defers to the Department of 
Homeland Security regarding questions about the pace of U.S. 
Citizenship and Immigration Services Refugee Corps interviews and 
defers to our law enforcement and intelligence agency partners 
regarding questions related to security check processing.
    The Consolidated Appropriations Act, signed by the President on May 
5, provided full year funding for the Bureau of Population, Refugees, 
and Migration, including for the Refugee Admissions Program. Previous 
limits on the number of refugees who could travel to the United States 
had been put in place to operate within the budget allocated under the 
Continuing Resolution. After the Consolidated Appropriations Act was 
signed, the Department of State instructed its overseas partners to 
schedule refugees for travel without any numerical restrictions after 
they have completed the highly rigorous and necessary security vetting 
and other processing. This instruction was given in conformity with 
Department of Justice guidance regarding the Hawaii Court's injunction, 
in consultation with our interagency partners, and consistent with our 
operational capacity.
    Question. Has the Department of State formally requested that the 
Government of Turkey waive diplomatic immunity for the foreign 
diplomats or security personnel involved in the May 16 assault against 
peaceful protesters?
    Answer. No, the Department has not asked for a waiver of immunity 
from the Republic of Turkey. The Department of State is working with 
the Department of Justice to examine the findings of the investigation 
and is weighing what additional steps might be appropriate in this 
context. Each case will be considered individually and our actions will 
be responsive and proportional to the charges.
    Question. What is the status of the administration's discussions 
with the Turkish Government about the return of U.S. taxpayer-funded 
equipment to the appropriate end users, or to the U.S. Government, 
after Turkish security personnel confiscated the equipment in April?
    Answer. The Department of State and other international donors 
engaged with Turkish officials at various levels about the equipment 
seized by individuals thought to be associated with a Turkish backed 
police force in the northern Aleppo countryside. To date, we have been 
unsuccessful in our efforts to retrieve the equipment. We, along with 
our European partners, will continue to engage the Government of Turkey 
on this issue.
    Question. Has President Erdogan apologized or expressed any regret 
for the conduct of his bodyguards?
    Answer. The Department of State has no knowledge of President 
Erdogan apologizing or expressing regret for the May 16 assault.
    Question. President Trump announced that the U.S. will withdraw 
from the Paris Climate Agreement. Polls show that a majority of 
Americans disagree with that decision. American scientists 
overwhelmingly support the agreement. Hundreds of major U.S. business 
also support the agreement, including ExxonMobil. The U.S. military 
regards climate change as a growing threat to national security. Nobody 
thinks the other parties to the agreement will renegotiate it to 
accommodate the U.S. Now China is seen as the global leader on climate 
change--which would have been unthinkable a few years ago. The 
renewable energy sector offers huge opportunities for U.S. industry and 
U.S. jobs. You stated in testimony that you preferred for the U.S. to 
remain in the Paris Climate Agreement to have a seat at the table. Now 
that President Trump has announced the withdrawal of the U.S., we are 
not only no longer at the table, but your elimination of funding under 
the Global Climate Change Initiative guarantees that the U.S. will cede 
leadership on the issue of climate change, which practically every 
country in the world recognizes as a grave threat: What is the 
justification for these cuts, and what funding remains in your budget 
request for biodiversity, sustainable landscapes, and adaptation and 
mitigation programs?
    Answer. The United States will remain engaged on the issue of 
climate change. The President has, however, expressed concern that 
financial pledges of the previous administration were not in the best 
interest of American taxpayers. The President's budget proposal 
eliminates the Global Climate Change Initiative and U.S. funding for 
the Green Climate Fund in fiscal year 2018. We anticipate supporting 
biodiversity and other programs that may achieve sustainable 
landscapes, adaptation, and mitigation objectives while advancing 
broader U.S. national security interests and fostering U.S. economic 
opportunities.
    Question. Your budget proposes to fund only half of our assessed 
contributions to international peacekeeping missions. The total amount 
we provide to the United Nations for these missions pales compared to 
what it would cost the U.S. military to do the job. An investigation by 
the GAO found that U.N. peacekeeping missions are eight times less 
expensive for American taxpayers than fielding a comparable U.S. force. 
Condoleezza Rice once noted in testimony before Congress that U.N. 
peacekeeping ``is much more cost-effective than using American forces. 
And of course, America doesn't have the forces to do all of these 
peacekeeping missions, but somebody has to do them:''
    Do you agree with Secretary Rice? Which peacekeeping missions would 
you urge the U.N. Security Council to cancel, and how much would it 
save the U.S. Treasury?
    Answer. U.N. peacekeeping is a powerful tool to address global 
challenges to international peace and security. There is no question 
that dollar for dollar, deploying one U.N. blue helmet is cheaper than 
deploying one American soldier--though, to be fair, the level of 
readiness of the majority of U.N. peacekeepers is not comparable to 
that of American soldiers, nor is the level of investment in their 
training or equipment. However, we are grateful that so many countries 
are prepared to participate in U.N. peacekeeping operations and we 
continue to invest in training and capacity building to improve 
readiness levels from troop-contributing countries.
    Nevertheless, we believe that peacekeeping operations can be made 
more efficient and effective at fulfilling their often multi-faceted 
mandates. We have invited U.N. Security Council members to join us in 
evaluating each U.N. peacekeeping mission as its mandate comes up for 
renewal to ensure it is appropriate to the situation in the country and 
that it is advancing the Security Council's objectives.
    To help guide us moving forward, we have developed five principles 
peacekeeping missions should be held to: (1) missions must support 
political solutions; (2) host country strategic consent is critical; 
(3) mandates must be realistic and achievable; (4) clear sequencing and 
exit strategies are required at all stages; and (5) missions and 
mandates must be adjusted where Security Council objectives are not 
achieved.
    Question. If you have not yet determined which peacekeeping 
missions the administration supports, and which it wants to cut, how 
did you decide to request funding for only half of our assessed share?
    Answer. The President's budget request sets the expectation that 
the United Nations will rein in costs and that the funding burden will 
be shared more equitably among members; including a cap for the United 
States to contribute no more than 25 percent for U.N. peacekeeping 
costs.
    Question. The U.S. has been and continues to be a leader on child 
health issues, both domestically and abroad. For example, in developing 
countries, the U.S. partners closely with UNICEF to ensure that 
children receive the support, education, and healthcare they need. 
UNICEF also provides aid in crisis or conflict situations, such as in 
Syria today, responding to both the immediate and long-term needs of 
children. To what extent do you think the U.S. should continue to 
contribute to the work that UNICEF is doing to protect the health and 
welfare of children?
    Answer. The President's request does not include funding for UNICEF 
from the International Organizations and Programs (IO&P) account. 
However, the State Department and USAID may still contribute to U.N. 
organizations such as UNICEF, if they are selected as implementing 
partners to execute specific foreign assistance projects.
    We are committed to supporting the critical work UNICEF does in 
education and healthcare for children in developing countries and in 
crisis situations through our membership on the UNICEF Executive Board. 
But we must share the funding responsibility with our partners and 
allies, and it is time for other countries to increase voluntary 
contributions to enable UNICEF to continue its important work.
    Question. What specific steps do you plan to take to protect the 
rights of whistleblowers at the United Nations?
    Answer. The Department takes seriously the need for robust 
whistleblower protections at the United Nations and at other 
international organizations. Even one whistleblower experiencing 
retaliation is one too many. The Department is committed to ensuring 
that staff can speak up without being afraid of retaliation at the 
United Nations and other international organizations. The United 
Nations continues to make progress. U.N. Secretary-General Guterres 
issued a revised whistleblower protection policy as one of his first 
administrative actions. The whistleblower advocacy community welcomed 
the revisions as a step in the right direction. While improvements to 
policy are good, effective whistleblower protection requires that the 
United Nations and other international organizations consistently 
implement and enforce their whistleblower protections policies.
    The U.S. Missions to the United Nations and its agencies, funds, 
and programs are working to promote more effective whistleblower 
protections including by extending protections to contractors and 
consultants, as well as ensuring that whistleblowers have appropriate 
avenues to recourse.
    Question. This administration argues that the U.S. assessment rate 
for U.N. peacekeeping activities--which is currently just over 28.4%--
is too high. This focus on the U.S. assessment rate ignores the 
significant personnel contributions made by other countries to U.N. 
peacekeeping operations, including 1,100 U.N. peacekeepers who have 
died in the field. Do you think personnel contributions should be taken 
into account when considering the appropriate level of U.S. financial 
support for peacekeeping?
    Answer. Personnel contributions are an essential component of 
making peacekeeping effective and an important part of burden-sharing 
in U.N. peacekeeping. We also recognize that peacekeeping can be quite 
dangerous and every year there are peacekeepers that make the ultimate 
sacrifice. We honor their service and their sacrifice. The threat to 
civilians and to U.N. personnel and equipment are considered when the 
Security Council considers what troop and police ceilings to authorize.
    The President's budget request reflects the administration's 
commitment to reducing the United Nations' over-dependence on a single 
large contributor to finance U.N. peacekeeping operations. The request 
is designed to promote greater burden sharing by other countries and is 
based on a U.S. contribution rate at or below 25 percent.
    Question. In December 2015, the General Assembly approved the U.N. 
Regular Budget, which was about $400 million less than the prior 
biennial budget, and moved to reassess staff compensation in order to 
save the organization more money. In addition, the U.N. has implemented 
a strategy to improve the cost-efficiency of peacekeeping missions, 
helping to reduce the cost per peacekeeper by 18 percent and reduce the 
number of support personnel in the field by 3,000. These reforms came 
as a result of the U.S. being fully engaged at the U.N. Currently, 
Ambassador Haley and U.N. Secretary-General Guterres are working 
closely together to push forward on further reforms to the institution, 
particularly with regards to its peacekeeping missions. How do the 
President's proposed cuts to U.N. funding fit into that overall 
strategy? Aren't we undermining our own negotiating position by pushing 
for deep cuts before Ambassador Haley's reform push has even fully 
gotten off the ground? Why would any other U.N. member states, to say 
nothing of our allies, support any U.S.-backed reform proposals with 
the knowledge that the U.S. just plans to unilaterally reduce its 
financial contributions anyways?
    Answer. The President's budget proposal for fiscal year 2018 
reflects the U.S. commitment to remain engaged with the United Nations, 
even as we seek to spur long-needed reforms and more equitable burden-
sharing among U.N. member states. By demanding fiscal discipline, the 
United States is leading the effort to rethink the way that the United 
Nations and other international organizations operate. The President's 
budget request reinforces the expectation that the United Nations and 
other international organization must become more efficient and 
effective, and that Member States must agree to distribute the costs of 
collective action more equitably.
    Question. U.N. humanitarian agencies like the World Food Program 
(WFP), U.N. Refugee Agency (UNHCR), and U.N. Children's Fund (UNICEF) 
provide life-sustaining aid, including food, medical care, shelter, 
educational support, and other forms of assistance to tens of millions 
of people around the world affected by war and natural disasters every 
year. Unfortunately, the international humanitarian system is under 
extreme stress at the current moment. With more than 65 million people 
having fled their homes to escape conflict or persecution, the world is 
in the grips of the largest forced displacement crisis since the end of 
World War II. In addition, more than 20 million people in four 
countries (South Sudan, Yemen, Somalia, and northeastern Nigeria) are 
either currently facing famine or the risk of famine. According to 
Stephen O'Brien, U.N. Under-Secretary-General for Humanitarian Affairs, 
this represents the largest humanitarian crisis since the beginning of 
the U.N. Given this dire situation, why is the administration proposing 
deep cuts to our international disaster and food aid programs, and what 
evidence do you have that others will fill the gaps caused by such 
cuts?
    Answer. The United States remains committed to its role as the 
world's leading humanitarian actor. Time and again, the American 
people, through the actions of Congress, have exhibited a generosity 
and humanitarian spirit second to none.
    While the United States will continue as a global leader in 
addressing humanitarian crises, we cannot do it alone. Other countries 
must provide increased, predictable funding. We can only truly meet the 
needs of the world's most vulnerable people if the international 
community comes together to provide this support.
    Question. Famine has been declared in parts of South Sudan, and 
Yemen, Somalia, and northeastern Nigeria, with millions of people at 
risk from starvation and disease. The main cause of food insecurity in 
these countries is armed conflict. The U.N. peacekeeping mission in 
South Sudan (UNMISS) is currently working to protect tens of thousands 
of civilians who have been uprooted by the civil war since 2013. In 
Somalia, an African Union-led peacekeeping force (AMISOM) supported by 
the U.N. is working to help extend the authority of the Somali 
government and fight back against al-Shabaab militants. Have you 
determined what the impact would be on missions like these if the U.S. 
fails to pay its full dues? If so, what is it and why is it in our 
interest to reduce our payments?
    Answer. Our goal is to achieve better, smarter peacekeeping 
operations that are able to more effectively and efficiently address 
conflicts, support political solutions, and achieve the objectives 
identified by the Security Council. We have invited U.N. Security 
Council members to join us in evaluating each U.N. peacekeeping mission 
as its mandate comes up for renewal to ensure it is appropriate to the 
situation in the country, and that the mission is advancing its 
mandated objectives.
    AMISOM's mandate expires in August 2017; UNMISS' mandate expires in 
December 2017. We will conduct a comprehensive review of both missions 
to ensure they are properly aligned with the current security and 
political situation on the ground and able to achieve Security Council 
mandates. We recognize that the continued presence of AMISOM and the 
U.N. Support Office in Somalia are critical to stabilizing Somalia 
after more than two decades of clan-fueled civil war and, more 
recently, the rise of a murderous terrorist group, Al Shabaab. By 
providing security and stability, AMISOM helps create the conditions 
under which the Federal Government of Somalia can extend its reach and 
better protect its own citizens. Security in Somalia is critical to 
avoiding greater refugee flows to Kenya and Ethiopia, two countries 
already struggling to house large Somali refugee populations. We are 
convinced that AMISOM can improve its effectiveness and its efficiency.
    Likewise, UNMISS has been instrumental in protecting more than 
200,000 vulnerable civilians on its bases--one of the first ever 
successful operations of this safe-haven nature. This has certainly not 
been without some major challenges, including peacekeepers' failure to 
keep armed South Sudanese elements from attacking a protection of 
civilians site. As UNMISS continues to improve, we will assess whether 
the scope and scale of the mission is appropriately configured to the 
current situation in South Sudan.
    Question. Some have argued that the U.S. should withdraw from the 
U.N. Human Rights Council. Over the past 6 years though, we have seen a 
number of positive outcomes from U.S. engagement. The Council voted to 
dispatch a team to investigate human rights violations committed by 
ISIS in Iraq; continues to scrutinize and bring attention to the dire 
human rights situation in Iran; authorized a groundbreaking 
investigation into human rights violations in North Korea; created a 
mechanism to push for the prevention and elimination of child and 
forced marriage, and saw a dramatic reduction in the number of special 
sessions on Israel. This record of success is markedly different than 
when the U.S. was not involved in the Council from 2007-2009. While the 
Council still has its flaws, the overwhelming view of human rights 
organizations is the U.S. should continue to engage with it. Do you 
agree?
    Answer. At the 35th Session of the United Nations Human Rights 
Council (HRC) in June 6-23, U.S. leadership proved critical to shaping 
the international response to urgent human rights situations in 
Venezuela, the DRC, Syria, Ukraine, Belarus, Cote D'Ivoire, and 
Eritrea. U.S. Permanent Representative to the U.N. Ambassador Haley 
attended the opening, affirmed the U.S. commitment to human rights, and 
reinvigorated discussions on reform of the HRC. In a series of 
engagements, she highlighted the need for the HRC to be more effective 
and accountable, including by eliminating the biased agenda item 
focused solely on Israel. She underscored the need for the HRC to focus 
international attention and action on the worst human rights violators, 
including through reforms to the Council's membership, and the need for 
members to show leadership in cooperating with U.N. human rights 
mechanisms. The United States joined 47 other states in signing a 
Dutch-led joint statement proposing measures to improve the Council's 
membership and strengthen its credibility.
    At its best, the HRC calls out human rights violators and 
encourages positive action. However, all too frequently, it fails to 
address critical situations for political reasons--and undermines its 
own credibility. Countries with poor human rights records are routinely 
elected to the Council, where they use their position to shield 
themselves from criticism and frustrate efforts to safeguard human 
rights and fundamental freedoms. The HRC maintains a clear anti-Israel 
bias, as edvidenced by the existence of Agenda Item 7.
    We are calling on member states to join together in the months 
ahead to develop and enact changes to the Council's election 
procedures, accountability measures for members, standing agenda, and 
operations to help ensure that the world's most critical human rights 
situations--regardless of where they take place--are addressed fully 
and effectively.
    Question. Press reports suggest that Israeli President Netanyahu 
supports ending support for UNRWA and turning its responsibilities over 
to the U.N. High Commissioner for Human Rights. What do you think of 
this idea, and is it supported by the Israeli armed forces?
    Answer. The United Nations Relief and Works Agency for Palestine 
Refugees in the Near East (UNRWA) was established by U.N. General 
Assembly resolution in 1949, before the creation of the UNHCR or the 
adoption of the 1951 Refugee Convention, to carry out direct relief and 
works programs for Palestinian refugees. UNRWA operates under a General 
Assembly mandate, and General Assembly action would be required to 
terminate UNRWA's mandate or transfer its responsibilities to the 
United Nations High Commissioner for Refugees (UNHCR).
    The enduring nature of the Palestinian refugee issue--and of 
UNRWA--is a result of a lack of a negotiated settlement between Israel 
and the Palestinians. The status of Palestinian refugees is one of the 
most sensitive final status issues facing the two parties. Efforts to 
dismantle UNRWA could be viewed as an attempt to whittle away at the 
refugee issue outside the context of bilateral political negotiations 
and risk damaging our ability to engage credibly with both sides in 
advancing peace negotiations. UNRWA's humanitarian programs, which 
include providing education for over half a million Palestinian refugee 
children as well as life-saving assistance for refugees affected by 
conflict in Syria, make the Agency a critical partner to key allies in 
the region. Without UNRWA, these services would fall to already 
overburdened host governments, notably Jordan, or could create a vacuum 
that would be exploited by terrorist organizations such as Hamas or 
Hizballah.
    Question. Israel reportedly agreed recently to the Palestinian 
Authority's request to reduce electricity to Gaza, and the water 
shortage there gets worse there every day. What conversations are you 
having, if any, with the Israelis about the worsening humanitarian 
situation in Gaza and the potential for further civil unrest and 
violence?
    Answer. The humanitarian situation in Gaza is a direct result of 
Hamas's illegal rule. Over the last 10 years, we've seen Hamas 
persistently dedicate resources to terror tunnels and military 
installations over projects to support the civilian population. This 
includes Hamas' refusal to fully pay for the electricity delivered to 
Gaza, which helped precipitate the current crisis.
    Despite the problems caused by Hamas, the United States remains a 
staunch supporter of Gaza's recovery. Our assistance to Gaza, which 
supports the civilian population through humanitarian assistance, the 
development of water distribution networks, investments in civil 
society and healthcare, and other essential programs, is supported by 
the Government of Israel, which called for increased levels of donor 
support to Gaza earlier this year. We are also working with the 
Palestinian Authority and the Government of Israel, which share our 
concerns about the humanitarian situation, to find new ways to support 
the civilian population in Gaza without empowering Hamas.
    Question. Diplomacy and development go hand in hand, but they are 
fundamentally different, just as diplomats and aid workers have very 
different training. In order to make our foreign aid more effective, 
efficient, and accountable, I believe USAID needs autonomy, and it 
should be empowered and funded appropriately to conduct its own policy, 
planning, budgeting, and analysis. You have stated that the budget 
proposal and the reorganization plan does not prejudge any outcomes for 
USAID, but the consolidation of the Economic Support Fund and 
Development Assistance accounts would likely significantly impact 
USAID's management of funds. Do you disagree, and if so, how would 
USAID's autonomy be preserved if the accounts were consolidated as 
proposed? Do agree with me, and many others, about the importance of 
preserving USAID's autonomy?
    Answer. The fiscal year 2018 budget request reflects a commitment 
to ensure every tax dollar spent is aligned with the State Department's 
and USAID's mission-critical objectives. In an effort to streamline 
accounts and ensure the most effective use of taxpayer dollars, the 
fiscal year 2018 budget requests economic and development assistance 
through a new, consolidated Economic Support and Development Fund 
(ESDF). The streamlining of the Economic Support Fund and Development 
Assistance accounts does not mean that development programs are 
entirely eliminated, or that development is no longer important to the 
United States. Instead, it allows the State Department and USAID to 
better assess, prioritize, and target development-related activities in 
the context of broader U.S. strategic objectives and partnerships.
    As our redesign effort moves into its next phase, we will take the 
feedback of over 35,000 employee surveys and 300 individual interviews 
into consideration as we work to ensure that our funding is aligned to 
our objectives. There are no predetermined outcomes.
    Question. USAID's Global Development Lab (Lab) is slated for 
elimination in your fiscal year 2018 budget. The Lab is designed to 
bring new ideas, new partners, and new ways of thinking into 
government. It ascribes to the theory that not all of the best ideas 
come from within government. What is the justification for eliminating 
this office?
    Answer. The fiscal year 2018 request includes $15.5 million for the 
Lab. The Lab will continue to deliver on its two part mission to 
produce breakthrough innovations and transform the development 
enterprise but in a more focused way. The Lab will focus on working 
with Missions to take advantage of advancements in science, technology, 
innovation and partnership to achieve development objectives more cost-
effectively, and to institutionalize the use of these tools, 
approaches, and technologies. USAID, through the Lab and the broader 
network of USAID innovation teams emerging in Bureaus and Missions, 
continues to build an adaptable organization that is focused on 
bringing new partners and the best ideas to the Agency to provide USAID 
with a critical future-forward advantage by not only being ready for 
the changing development landscape, but by helping USAID lead that 
change. The tools and approaches the Lab brings to USAID remain 
critical for delivering on the broader mission. In a tight budget 
climate, what the Lab does is even more important, including finding 
transformative solutions to accelerate development results, engaging 
new actors, and taking advantage of advancements in science and 
technology.
    Question. Congress appropriated $990 million to address the urgent 
needs of countries stricken by famine or under threat of famine. Why 
haven't these funds been apportioned to USAID, and when will they be?
    Answer. USAID greatly appreciates the additional $990 million in 
International Disaster Assistance funds provided in the fiscal year 
2017 Omnibus. We anticipate the full $990 million will be apportioned 
to USAID by June 20, 2017.
    USAID is committed to responding to these crises. Already this 
fiscal year, the U.S. Government has provided more than $1.8 billion 
toward the humanitarian needs of affected people in Somalia, Yemen, 
Nigeria and South Sudan--more than the previous year. Of this $1.8 
billion in humanitarian assistance, $1.48 billion is from USAID.
    Question. The fiscal year 2018 budget request would eliminate 
funding for the Food for Peace program and the McGovern Dole Food for 
Education program that have proven their ability to improve food and 
nutrition security and help lift communities out of poverty. 
Additionally, it would cut funding for International Disaster 
Assistance, and the Emergency Food Security Program, which can be used 
to respond to emergencies with vouchers or to purchase local food where 
available. What analysis has the State Department done on the impact of 
these cuts in terms of lives lost and long-term costs associated with 
providing humanitarian assistance where food insecurity, which could 
have been mitigated through the Food for Peace program, needs to be 
addressed?
    Answer. USAID is committed to assisting as many people as possible 
who are in need, maximizing current resources and working to leverage 
assistance from other donors.
    Every year, much of USAID's work involves making tough decisions 
and trade-offs, and trying to determine how best to use resources, 
especially in the face of ever escalating humanitarian needs. 
Humanitarian funding decisions are based on need, as assessed by 
international and non-government organizations, and U.S. Government 
field teams, in close coordination with local governments and 
implementing partners.
    For example, in 2016, USAID faced a tough decision on whether to 
spend food assistance funds in Syria or to address the results of El 
Nino. When Germany provided an unprecedented $600 million contribution 
to the U.N. World Food Program for the Syria crisis, USAID was able to 
reduce the United States' food assistance contribution to Syria and use 
that funding to address the drought in southern Africa.
    The fiscal year 2018 request includes significant funding for 
humanitarian assistance, including food assistance, disaster and 
refugee program funding. In fiscal year 2018, as in previous fiscal 
years, USAID will have to prioritize and undertake a process to make 
choices to determine how and where to allocate emergency food 
assistance, based on the latest or ongoing crises where food insecurity 
is highest.
    The State Department and USAID continually work to support 
populations with the greatest humanitarian need, and to assess whether 
implementing partners have the operational capacity and access to the 
people in need. Other donors will also need to do more to assist in 
responding to humanitarian crises around the world. Making these 
difficult choices must also be based on evidence and the results of 
evaluations and studies pertaining to the assistance provided. It is 
true that an ounce of prevention is worth a pound of cure. A study in 
Kenya and Ethiopia by the United Kingdom's Department for International 
Development estimates that, over the long-term, every $1 invested in 
resilience will result in $2.90 in reduced humanitarian spending and 
avoided losses as well as improved poverty, hunger, and malnutrition 
outcomes. That is why USAID, across its programming, has made 
significant investments to build resilience to recurrent crises.
    We refer you to the U.S. Department of Agriculture regarding the 
McGovern Dole Food for Education program, as they manage this program.
    Question. Poor maternal and child nutrition in the first 1,000 days 
has irreversible physical and economic impacts for the rest of a 
child's life. Poor nutrition can hold entire national economies back. 
For example, annual GDP losses from poor nutrition average 11 percent 
in Asia and Africa. This is greater than the loss experienced during 
the 2008-2010 financial crisis. We know that for an additional $10 per 
child per year, we can accelerate progress toward ending malnutrition, 
which will have measurable, concrete benefits on health, economies, and 
well-being of entire communities and nations. But funding for nutrition 
under the Global Health Programs account was requested at $78.5 million 
for fiscal year 2018--a decrease of almost $50 million from recent 
years. And the amount specified for maternal and child nutrition from 
all accounts was $120 million--a decrease of $136 million in the total 
budget for nutrition in the State Department and USAID from last year:
    What is the justification for cutting funding for maternal and 
child nutrition programs? How do you plan to maintain current U.S. 
commitments to global nutrition (USAID Multi-Sectoral Nutrition 
Strategy, U.S. Government Global Nutrition Coordination Plan, U.S. 
Government Global Food Security Strategy, Global Nutrition Targets 
2025, 2030 Agenda)?
    Answer. We have reviewed our programs and are strategically 
focusing our investments within a reduced overall budget. Funds will 
support evidence-based approaches to nutrition and innovations that 
will improve outcomes for the most vulnerable populations. We are also 
looking to our development partners and host country partners to 
increase their efforts to help improve maternal and child nutrition. 
While the United States will continue significant funding for global 
health programs, other stakeholders must do more to contribute their 
fair share to global health initiatives.
    We are confident that this budget request will allow us to support 
U.S. commitments and priorities. The United States is committed to 
helping achieve global nutrition targets, and we have been a large 
funder of global nutrition programs for many years. Our commitments are 
made together with the commitments of other development partners and 
countries, and we expect these partners to increase their efforts to 
help meet these global targets.
    Question. Thanks in part to support from the United States, child 
and maternal death rates have been halved since 1990. The United States 
has committed to saving 15 million children's lives and 600,000 
mothers' lives by 2020 as a milestone on the road to ending preventable 
child and maternal deaths within a generation. Given the reductions 
your budget proposes for USAID's child and maternal health programs, 
will the U.S. still be able to meet this commitment?
    Answer. Preventing child and maternal deaths is a priority for 
USAID and relies on investment in and linkages across health programs. 
USAID is committed to averting the deaths of 15 million children and 
600,000 women by 2020, by working with other partners, including most 
importantly countries themselves, to mobilize additional resources and 
political will to focus efforts on the most effective and efficient 
interventions to prevent child and maternal deaths.
    The fiscal year 2018 request includes $1.5 billion to prevent child 
and maternal deaths. While the composition of USAID funding across 
health programs varies year-to-year, our efforts have always relied 
upon partnership with country governments and other donors, and 
continued success is linked to sustained involvement by all.
    Question. What specific plans do you have for supporting Power 
Africa in fiscal year 2018 and beyond?
    Answer. The role that Power Africa plays in addressing Africa's 
needs is as clear today as when I stated in my confirmation hearing, 
``Nothing lifts people out of poverty quicker than electricity.'' 
Access to modern, reliable, and affordable electricity services is a 
cornerstone of economic development. It enables critical gains in 
healthcare and education, powers business and expands employment 
opportunities, and enhances public safety.
    Through diplomacy, and, where appropriate, through assistance, the 
State Department and USAID through the Power Africa Coordinator's 
Office, will continue to promote policy reforms that will encourage 
private sector investment in the African power sectors.
    The fiscal year 2018 budget includes a planned level of $45.45 
million for Power Africa under the USAID Africa Regional Operating Unit 
to support transaction assistance, on-grid and beyond the grid 
connections, and enabling environment reforms critical to the 
development and sustainability of the power sector.
    Question. USAID plays a critical and distinct role in global health 
research and development, supporting late-stage and implementation 
research to advance new drugs, vaccines, diagnostics, and other health 
tools intended for use in remote and low-resource settings. Since 2000, 
the agency has supported development of 21 new health technologies with 
demonstrated track records of saving lives and cutting program costs. 
USAID's research investments are also critical for the health of 
Americans, and allow health technologies to be tested in regions of the 
world with the highest disease burdens, which in turn ensures Americans 
have access to the most effective, high-performing vaccines and 
medicines. Despite these returns, your fiscal year 2018 budget request 
cuts USAID funding for global health R&D, and zeros out USAID 
investments in HIV/AIDS research. This work is unique, and not 
duplicative of research happening at other Federal agencies:
    Why does this make sense for global health or the health of 
Americans, especially at a time when infectious disease epidemics are 
on the rise?
    Answer. The fiscal year 2018 budget consolidates all U.S. 
assistance for global HIV/AIDS efforts within the State Department to 
simplify the management and coordination of these investments. USAID 
will continue to remain one of the primary implementing agencies for 
PEPFAR, and will continue to implement a significant share of U.S. 
global HIV/AIDS assistance in this capacity.
    With regard to global health research, USAID intends to increase 
its efforts to leverage partners' expertise and resources, strengthen 
country capacity to conduct their own research and development (R&D), 
and strategically utilize market shaping and innovative financing tools 
to incentivize private companies to invest in R&D.
    Question. Congress worked with the George W. Bush administration to 
pass the Water for the Poor Act in 2005. This law made it an explicit 
part of U.S. foreign policy to provide clean drinking water and 
adequate sanitation to the world's poorest people. In 2014, Congress 
reauthorized that law in a bipartisan manner with the passage of the 
Water for the World Act. In 2012, U.S. intelligence agencies released 
an Intelligence Community Assessment on Global Water Security, which 
states that ``during the next 10 years, many countries important to the 
U.S. will experience water problems----shortages, poor water quality--
--that will risk instability and state failure, increase regional 
tensions, and distract them from working with the U.S. on important 
policy objectives''.
    How will you ensure that USAID upholds its commitments to 
developing and implementing a Global Water Strategy (as required by the 
2014 Water for the World Act) that addresses how the U.S. will increase 
access to safe drinking water and sanitation and hygiene services, 
improve the management of watersheds and water resources, and mitigate 
or resolve water-related conflicts?
    Answer. The Department of State and the U.S. Agency for 
International Development, in collaboration with interagency partners, 
are leading the development of a U.S. Government-wide Global Water 
Strategy focused on increasing access to safe drinking water and 
sanitation, improving the management of water resources, promoting 
cooperation on shared waters, and strengthening water sector governance 
and financing both within countries and globally. The U.S. Government 
will advance these goals in targeted countries and regions by providing 
technical assistance, investing in infrastructure, improving scientific 
and technical capacity, mobilizing resources, engaging diplomatically, 
and supporting intergovernmental organizations. The Global Water 
Strategy will emphasize building public-private partnerships, 
recognizing that the U.S. cannot meet this challenge alone.
    Question. If the Economic Support Fund and Development Assistance 
accounts are merged into an Economic Support and Development Fund, how 
would you ensure that funds for water and sanitation will be equitably 
disbursed to developing countries that meet the metrics of greatest 
need in accordance with the Water for the World Act?
    Answer. The priority country designation processes put in place 
under the Water for the World Act of 2014 for fiscal year 2015, fiscal 
year 2016, and fiscal year 2017 will continue, per Section 5(h) of the 
Act. The Act requires that the designation of a high-priority country 
be based on a set of criteria laid out in the Act (Section 5 f (1)). 
These fall into four areas: (1) the level of need; (2) the opportunity 
to leverage U.S. Government efforts; (3) the level of country 
commitment; and (4) the likelihood of making significant improvements 
on a per capita basis on the health and educational opportunities 
available to women and girls. Need is assessed using global datasets on 
the number and proportion of people with access to safe drinking water 
and sanitation, and the rates of under-five child mortality due to 
diarrheal disease. The merging of Development Assistance (DA) and 
Economic Support Fund (ESF) accounts into the Economic Support and 
Development Fund (ESDF) will not have an impact on the allocation of 
funds for water, sanitation, and hygiene (WASH).
    Question. What are you doing to address the problem of arbitrary 
arrest, imprisonment and mistreatment of political opposition leaders 
in Ethiopia, a recipient of U.S. economic and security assistance?
    Answer. Ethiopian Prime Minister Hailemariam and I spoke on March 
1, and we discussed a range of issues concerning the relationship 
between the United States and Ethiopia, including those related to 
human rights and governance. The Department of State and the U.S. 
Embassy in Ethiopia advocate for human rights by attending the trials 
of arrested journalists, bloggers, and opposition party officials; by 
raising issues pertaining to these detentions, including the 
government's use of the Anti-Terrorism Proclamation and its continued 
state of emergency to silence dissent and limit basic rights and 
freedoms; by advocating for rule of law and assisting legal defense 
clinics; by supporting unhindered access to social media and sponsoring 
events through our visiting speaker program; by applying Leahy vetting 
to all applicable bilateral assistance programs; and by calling 
publicly and privately for evidence-based investigations and 
prosecutions that are free from political motivation. Embassy Addis 
Ababa's Resident Legal Advisor arrived at the beginning of June and is 
engaging with Ethiopian prosecutors to advance work on increased 
visibility and openness of their investigations and prosecutorial 
decisions to improve accountability and ethics in the justice sector.
    Question. ``What are your plans for the Special Envoy for Sudan and 
South Sudan? What do you believe are the ultimate goals and proper 
roles of the U.S. in each country, and how do you plan to achieve 
them?''
    Answer. Working to resolve the humanitarian crisis in South Sudan 
and civil conflicts in both Sudan and South Sudan remain policy 
priorities for the administration. The Office of the Special Envoy for 
Sudan and South Sudan, led by a senior Foreign Service officer, 
continues to be deeply engaged on these issues and in shaping and 
supporting U.S. policy, in close coordination with leadership of the 
Bureau of African Affairs. The appointment of a Special Envoy for Sudan 
and South Sudan, or alternatively an Africa Bureau-based Special 
Representative, is under consideration by the Department in the context 
of State's ongoing organizational redesign.
    In recent months, we have, along with Troika partners (Norway and 
the United Kingdom), encouraged the AU, the U.N., and the 
Intergovernmental Authority on Development (IGAD) to play a more active 
role in convincing all parties in South Sudan to implement a cessation 
of hostilities in conjunction with the resumption of an inclusive 
political process.
    In Sudan, our primary diplomatic objectives include establishing a 
permanent ceasefire between the Government of Sudan and armed 
opposition groups, leading to an inclusive political dialogue, durable 
peace, and an end to Sudan's internal conflicts in Darfur and the Two 
Areas (South Kordofan and Blue Nile states). We are also working to 
build cooperation to counter international terrorism as well as 
regional threats, and to expand access for humanitarian assistance to 
civilians in Sudan's conflict areas and throughout the country. We 
continue to press the Government of Sudan to institutionalize 
protection of human rights and religious freedoms, and have intensified 
our efforts to ensure full compliance by Sudan with U.N. Security 
Council Resolutions regarding North Korea. The United States also 
remains deeply engaged in supporting the African Union-mediated peace 
talks, working directly with all parties to the conflicts and with 
international partners to advance effort for sustainable peace.
    In mid-2016, following years of limited bilateral engagement with 
the Government of Sudan due to U.N. and domestic sanctions, the United 
States launched a Five-Track Engagement Plan offering the promise of 
sanctions relief if Sudan made sustained progress in five critical 
areas of engagement: (1) counterterrorism; (2) countering the Lord's 
Resistance Army (c-LRA); (3) implementing a cessation of hostilities 
(COH) in Darfur and in the Two Areas (South Kordofan and Blue Nile 
states); (4) ending negative involvement in South Sudan; and (5) 
improving humanitarian access. Since then, Sudan has increased 
counterterrorism cooperation with us; granted access for African Union 
or U.S. c-LRA operations; initiated and largely respected a unilateral 
COH in its conflict areas; stopped, according to our assessment, 
provision of support to armed groups in South Sudan; and is working 
with us to improve humanitarian access. Executive Order (E.O.) 13761, 
issued in January 2017, agreed to revoke certain pre-existing sanctions 
if the administration determined that Sudan sustained positive actions 
in these areas over a 6-month period.
    The United States retains substantial leverage to encourage Sudan's 
continued cooperation in addressing U.S. priorities. Sudan is motivated 
by the credible prospect of sanctions revocation and has signaled its 
interest in further bilateral normalization. Sudan remains on the U.S. 
State Sponsor of Terrorism List, which leaves in place restrictions on 
U.S. foreign assistance, defense exports and sales, certain controls 
over exports of dual-use items, and other restrictions. Several other 
restrictions on Sudan remain in place, including the restrictions 
prescribed by Sudan's current designation as a Country of Particular 
Concern for religious freedom and sanctions imposed by E.O. 13400 on 
persons connected with the conflict in Darfur. These restrictions offer 
additional leverage in our efforts to encourage the Government of Sudan 
to rejoin the international community and meet all international 
standards in protecting the rights of its citizens.
    Question. Footprint of Freedom: In your testimony, you state that 
``[h]istory has shown that the United States leaves a footprint of 
freedom wherever it goes.'' That sounds good, but how would you 
reconcile that statement with our actions, for example, in Vietnam 
during the 1960s and 70s; in Guatemala during the 1980s; in Chile 
during the 1970s; in the Philippines and Indonesia during the 1960s, 
70s and 80s; in Zaire during the 1980s and 90s; in Iran during the 
1970s; or in Ethiopia, Egypt, Uganda, and Saudi Arabia today?
    Answer. The specifics of U.S. foreign policy are always challenging 
and complex--you've highlighted some of those challenges across 
different administrations and over 60 years of diplomacy.
    We are the only global superpower, and one with the means and moral 
compass capable of shaping the world for good. Knowing your interest in 
the promotion of human rights, I'm sure you will agree that our mission 
should be guided at all times by our core values of freedom, democracy, 
individual liberty, and human dignity.
    Question. If the Saudi, Venezuelan, or Chinese governments were 
behaving like the Castro government, e.g. refusing to hold free and 
fair elections and arresting their critics, would the administration 
recommend similar restrictions on travel and trade by Americans with 
Saudi Arabia, Venezuela, and China, and if not why not? What if the 
same were true for the Russian, Kazakhstan, or Uzbekistan governments? 
Is the administration considering recommending similar restrictions on 
travel and trade by Americans with any other country, and if not why 
not?
    Answer. The United States engages with various governments, 
including Saudi Arabia, Venezuela, China, Russia, Kazakhstan and 
Uzbekistan on a range of issues, including democracy and human rights. 
The Department has found that there is no ``one size fits all'' 
solution to democracy, governance and human rights questions. As the 
Department constructs its policy approach, it considers the whole of a 
relationship between the United States and the other country and works 
to craft the most effective approach to advance human rights and 
democracy under the specific circumstances.
    Question. Does your fiscal year 2018 budget request propose to 
reduce funding for programs to address the needs and protect the rights 
of women and girls in Afghanistan, including education programs, family 
planning and reproductive health programs, police training programs, 
and women's leadership programs? If not, why not?
    Answer. The fiscal year 2018 budget request continues to prioritize 
the needs and protect the rights of women and girls in Afghanistan. The 
Department of State and USAID will allocate funds for specific programs 
in accordance with our policy priorities and the budgetary requirements 
of those programs. The human rights of Afghan women and girls, 
including access to education, health, and leadership opportunities, 
remain a priority in our overall efforts to stabilize Afghanistan and 
protect the development gains of the last 15 years.
    Since the fiscal year 2018 request for the Economic Support and 
Development Fund (ESDF) is consistent with the fiscal year 2016 actual 
level, we do not foresee any significant changes in ESDF programming 
that would support Afghan women and girls. For International Narcotics 
Control and Law Enforcement programming, the fiscal year 2018 request 
will allow us to continue supporting women and girls through our 
ongoing work with drug treatment centers, social service programs for 
drug prevention, corrections programs for incarcerated women and female 
prison officials, and women's shelters. The fiscal year 2018 request 
level will require us to scale back and be more targeted with select 
programs, but we will also look to transition these efforts to Afghan 
institutions where possible and leverage the support of other donors to 
help ensure the goals of these programs are continued.
    Question. According to Freedom House, freedom in the world has been 
in decline over the last decade. Meanwhile, actual spending for 
Democracy, Rights and Governance (DRG) programming has fallen from 
$3.27 billion in 2010 to $2.27 billion in 2016. Your fiscal year 2018 
budget proposes further cuts to $1.59 billion. Why does this make 
sense, especially as non-democratic regimes such as Russia and China 
continue to expand their influence and destabilize regions?
    Answer. Supporting countries in strengthening democracy, human 
rights, and governance (DRG) is critical for defending national 
security, fostering economic opportunities for the American people, 
asserting U.S. leadership and influence, and ensuring effectiveness and 
accountability to the American taxpayer. As has been the case for many 
years, Democracy, Human Rights and Governance (DRG) programs 
implemented by both USAID and the State Department seek to build the 
accountability, transparency, and responsiveness of democratic 
governing institutions; foster respect for human rights and the rule of 
law; fight corruption; promote citizen participation and engagement in 
governance and rule of law; and strengthen civil society organizations 
and independent media.
    In fiscal year 2018, DRG programs will be targeted to promote 
effective, accountable and democratic institutions and a vibrant civil 
society, which creates the conditions for long-term security and 
stability
    As we work to streamline efforts to ensure efficiency and 
effectiveness of U.S. taxpayer dollars, we acknowledge that we have to 
prioritize and make some tough choices about our approaches and 
programming. We have requested DRG funds where these programs help to 
advance our most important policy priorities. It is also important to 
highlight that resources do not equate to outcomes or the entirety of 
our commitment to these efforts, as our ambassadors and diplomats also 
advance DRG objectives in country.
    Question. Strengthening civil society is critical to both 
humanitarian and development assistance, especially in supporting 
societies to hold their governments accountable. How will funding be 
provided to support civil society in fiscal year 2018, compared to 
fiscal year 2017?
    Answer. An independent civil society is not only critical to the 
delivery of development and humanitarian assistance, it is also an 
important bulwark against state fragility and the political 
radicalization that is linked to extremism. Despite the critical role 
that Civil Society Organizations (CSOs) play in a country's development 
process, CSOs have faced a mounting backlash and closing of the 
political space in which they operate in many parts of the world. In 
2017, Freedom House reported the eleventh consecutive year of global 
decline in civil liberties and political rights.
    In response, the Department of State and USAID's fiscal year 2018 
budget request includes $1.6 billion for Democracy, Human Rights and 
Governance (DRG) programs, of which, $261.6 million is dedicated to 
civil society. [Please note that final allocations have not been 
finalized for fiscal year 2017.] This level supports CSOs working in 
closing and closed spaces by building their capacity to galvanize 
citizen participation, foster a positive shift in government 
responsiveness to citizen demands, improve freedom of information, and 
support civic participation and CSO engagement with governments for 
improved accountability.
    Question. In a June 5th press statement entitled ``Pulling U.S. 
from U.N. Human Rights Council Could Endanger Lives around the Globe'', 
HRC Global Director Ty Cobb argued that: ``U.S. foreign policy must 
protect and promote human rights. Turning away from the Council would 
signal to brutal regimes--and all those they oppress--that the U.S. is 
looking the other way. Without U.S. leadership, despotic leaders will 
be emboldened to control the agenda and push their own goals.'' How do 
you respond, and do you really believe the U.S. can more effectively 
advocate for human rights in a new human rights body comprised solely 
of like-minded governments, as you and Ambassador Haley have reportedly 
suggested?
    Answer. Reforms are urgently needed to strengthen the U.N. Human 
Rights Council's (HRC) membership and revise its agenda. We are calling 
on member states to join together in the months ahead to develop and 
implement reforms to ensure that the world's most critical human rights 
situations are addressed fully and effectively.
    While we are concerned by the anti-Israel behavior of a number of 
U.N. bodies, none is in need of reform more profoundly than the HRC. 
The HRC must address its anti-Israel bias, which delegitimizes its 
broader mission. Agenda Item 7 is the only perpetual agenda item that 
consistently targets a single nation. At the same time, human rights 
violators like Cuba and Venezuela sit on the council itself. As a 
member of the HRC, the United States at times casts the only no vote 
against resolutions targeting Israel. Prior to the U.S. joining the HRC 
in 2009, nearly half of the country-specific resolutions adopted 
concerned Israel. Since reduced to less than a quarter of adopted 
resolutions, the number of resolutions targeting Israel is still far 
too many. Much more needs to be done.
    Whether as a member of the HRC or not, the United States will 
remain steadfast in its commitment to the protection and promotion of 
human rights of all persons.
    Question. How is the administration, through diplomatic or other 
means, encouraging President Duterte to stop the extrajudicial 
executions (EJEs) of individuals suspected of drug abuse, and to 
prosecute and punish those who have committed EJEs?
    Answer. The United States and the Philippines have a longstanding 
alliance and relationship built on shared sacrifices, common values, 
and people-to-people ties. The United States works with the Philippines 
to address the shared objective of combatting drug trafficking, and 
supports programs that target the transnational shipment of narcotics, 
strengthen the rule of law, and encourage holistic drug demand 
reduction efforts.
    We have serious concerns when those involved in the drug war 
reportedly operate outside the rule of law. We have discussed our human 
rights concerns at the highest levels with the Philippine government on 
multiple occasions, and raised the issue at the May 8 Universal 
Periodic Review at the Human Rights Council. We vet all security 
assistance to the Philippines to ensure that funding is not provided to 
individuals who have committed gross human rights violations, and 
encourage our Philippine partners to conduct thorough and transparent 
investigations into reports of arbitrary and unlawful killings. We will 
continue to work with the Philippines on this and other issues as we 
advance shared objectives in our multidimensional relationship.
    Question. During the Vietnam War, the U.S. dropped millions of tons 
of bombs that failed to explode. They continue to kill and maim 
innocent civilians today. We also used Agent Orange and other 
herbicides, which left areas contaminated with dioxin, a deadly 
chemical. This subcommittee has been funding programs to get rid of the 
unexploded landmines and bombs, and to clean up the areas most severely 
contaminated with dioxin. This has been supported by Democratic and 
Republican administrations, and it has contributed to better relations 
with Vietnam and Laos. How much is included in the fiscal year 2018 for 
these programs in Vietnam and Laos, and will you continue to support 
these programs beyond fiscal year 2018?
    Answer. The President's fiscal year 2018 budget request supports 
war legacy programs in Vietnam and Laos. Addressing legacies from the 
Vietnam War is critical to advancing cooperation with both countries. 
The budget request includes up to $15 million for Agent Orange/dioxin 
cleanup and $7 million for clearance of unexploded ordnance (UXO) 
efforts in Vietnam and $10 million for UXO efforts in Laos.
    Question. The State Department's fiscal year 2018 budget 
justification says ``The fiscal year 2018 request will allow partners 
to continue to meet the basic needs of the Tibetan communities in Nepal 
and India, including protection and reception services for those 
transiting across Nepal to India.'' For over two decades, there has 
been bipartisan support in the Congress for Tibet-related programs and 
we want them to continue. Do your support funding for these programs, 
that have shown concrete benefit to the Tibetan people in the 
preservation and promotion of their religious, linguistic, and cultural 
identity, at not less than the fiscal year 2017 levels?
    Answer. The United States respects China's territorial integrity, 
and considers Tibet to be part of China. Consistent with the Tibetan 
Policy Act, the U.S. Government remains committed to seeking to protect 
the distinct religious, cultural, and linguistic identity of Tibetans; 
improving the humanitarian and economic conditions of Tibetans; 
improving respect for the human rights of Tibetans, including religious 
freedom; and encouraging the Government of China to enter into dialogue 
with the Dalai Lama or his representatives leading to a negotiated 
agreement on Tibet.
    While we do not have a specific funding request for Tibetan-related 
programs, the administration's fiscal year 2018 budget request includes 
humanitarian assistance resources that may be used by partners to 
continue to meet the basic needs of Tibetan communities in Nepal and 
India, including protection and reception services for those transiting 
across Nepal to India. It includes funding for exchange programs that 
increase engagement and mutual understanding between Tibetans and the 
people of the United States. It also contains resources for programs to 
advance human rights and democracy in China, which includes support for 
religious and ethnic minorities. Final funding allocations will be 
determined during the year of appropriation and will depend on factors 
such as humanitarian appeals received and needs identified at that 
time.
    Question. The fiscal year 2018 budget request says ``Through the 
Bureau of Population, Refugees, and Migration (PRM)'s global programs, 
the U.S. Government seeks to protect and assist the world's most 
vulnerable people including refugees. . . .'' Further, it says ``that 
funds will address threats to fundamental rights on a global scale, 
particularly in closed or closing political spaces where these rights 
and vulnerable populations are threatened.'' In the case of Tibetan 
refugees, the Dalai Lama has been striving to find a solution to their 
situation through dialogue with the Chinese leadership. The Tibetan 
Policy Act mandates that the State Department have a Special 
Coordinator for Tibetan Issues whose ``central objective'' is ``to 
promote substantive dialogue between the Government of the People's 
Republic of China and the Dalai Lama or his representatives:''
    Will you commit to allocating adequate funding for programs that 
will encourage dialogue and a peaceful political solution to the 
Tibetan issue?
    Answer. Consistent with the Tibetan Policy Act, the U.S. Government 
remains committed to encouraging the Government of China to enter into 
dialogue with the Dalai Lama or his representatives leading to a 
negotiated agreement on Tibet; seeking to protect the distinct 
religious, cultural, and linguistic identity of Tibetans; improving the 
humanitarian and economic conditions of Tibetans; and improving respect 
for the human rights of Tibetans, including religious freedom.
    While we do not have a specific funding request for Tibetan-related 
programs, the administration's fiscal year 2018 budget request includes 
humanitarian assistance resources that may be used by partners to 
continue to meet the basic needs of Tibetan communities in Nepal and 
India, including protection and reception services for those transiting 
across Nepal to India. It includes funding for exchange programs that 
increase engagement and mutual understanding between Tibetans and the 
people of the United States. It also contains resources for programs to 
advance human rights and democracy in China, which includes support for 
religious and ethnic minorities. Final funding allocations will be 
determined during the year of appropriation and will depend on factors 
such as humanitarian appeals received and needs identified at that 
time.
                                 ______
                                 
Question Submitted by Senator Patrick J. Leahy for Senator Patty Murray
    Question. Nearly 3 years after the Northwest reached a regional 
consensus to modernize the Columbia River Treaty, the U.S. notified 
Canada of our intent to begin formal negotiations on the Treaty. Since 
October 2016, we have been waiting for Canada to come to the table.
    Secretary Tillerson, I urge you to proactively raise the Columbia 
River Treaty at every opportunity with your Canadian counterparts. Do I 
have your commitment to do that?
    Answer. Yes. The Department continues to press the Canadian 
government at all levels to begin negotiations on the Columbia River 
Treaty regime. I recently raised the issue directly with Canadian 
Foreign Minister Chrystia Freeland at the ASEAN meetings in Manila on 
August 7, Under Secretary Shannon raised the issue during a March 10 
call with Deputy Foreign Minister Ian Shugart, and Acting Assistant 
Secretary Palmieri raised it on the margins of the high-level policy 
dialogue on June 1 in Ottawa. The Canadians responsible for the treaty 
are fully aware of the U.S. view of the urgent need to begin 
negotiations and tell us they are awaiting a negotiating mandate from 
their Cabinet. Department officials are ready to begin talks with 
Canada's negotiators at any time.
                                 ______
                                 
              Question Submitted by Senator James Lankford
    Question. Mr. Secretary, on May 31st, you met with Vietnamese Prime 
Minister Nguyen Xuan Phuc to discuss the economic relationship between 
the United States and Vietnam. The related press release noted in part: 
``President Trump is prioritizing engagement with Vietnam, an important 
trading partner of the United States.'' The U.S. Commission on 
International Religious Freedom's (USCIRF) 2017 report recommended that 
Vietnam be designated as a country of particular concern (CPC), which 
is a country that engages in or tolerates particularly severe religious 
freedom violations that are systematic, ongoing, and egregious.
    As part of the Trade Promotion Authority, I included an amendment 
that required religious freedom to be part of trade negotiations. Have 
you discussed the religious freedom and human rights violations in 
Vietnam as part of your discussions with the Prime Minister? What 
actions will the State Department take in response to USCIRF's 2017 
recommendation on Vietnam as a CPC?
    Answer. As we did during the Prime Minister's visit, we continue to 
press the Government of Vietnam for progress on religious freedom and 
other human rights, which we emphasize are critical to our bilateral 
relationship. While we have seen some progress over the past few years, 
we are troubled by the recent trend of arrests and convictions of 
peaceful activists, along with the continuing detention of religious 
leaders, which threatens to overshadow Vietnam's overall evolution on 
human rights, including religious freedom.
    Our most recent assessment was that Vietnam's actions with respect 
to religious freedom, while of great concern, fell short of the 
criteria for designation as a Country of Particular Concern under the 
International Religious Freedom Act. We will continue to monitor the 
situation vigilantly and urge the government to allow all members of 
religious groups, including those groups not registered with the 
government, the freedom to practice their religion. We will urge the 
government to ensure its laws and actions are consistent with the human 
rights provisions of its own constitution, as well as with its 
international human rights commitments and obligations.
                                 ______
                                 
              Questions Submitted by Senator Steve Daines
    Question. What is the State Department doing to work with 
countries, such as Ethiopia or the DRC, to increase transparency and 
ensure that families following all relevant laws are able to bring 
adopted children home in a timely manner?
    Answer. Since Ethiopia's April 2017 suspension of intercountry 
adoptions, State Department officials have vigorously engaged with the 
Ethiopian government to strongly advocate for a way forward for cases 
in process, noting that legal adoptions or official matches have taken 
place in many of those cases. On June 1, an official from the Ministry 
of Woman and Children's Affairs (MOWA) told the Embassy that MOWA would 
resume issuing Vital Signature letters for cases with Federal First 
Instance Court (FFIC) approval, which is a legal adoption.
    Since June 1, MOWA has issued documents allowing more than 30 
adopted children with FFIC approval to obtain Ethiopian passports and 
initiate their U.S. immigration processes. MOWA continues to process 
cases in all stages of the adoption process. Officials have informed 
the Embassy that MOWA will devise a plan allowing remaining cases to 
continue to be processed. The Department continues to advocate for the 
resolution of pending cases.
    In 2013, the DRC suspended issuance of exit permits for adopted 
children. Beginning in February 2016, the DRC convened an 
Interministerial Commission, now disbanded, to review individual 
adoption cases and pre-approve them for issuance of exit permits once 
U.S. immigrant visas were approved. Embassy Kinshasa worked closely 
with the Interministerial Commission and with the DRC's Direction 
Generale de Migration (DGM) to ensure the pre-approval review of more 
than 400 adoptive children. The Embassy continues to facilitate DGM 
issuance of exit permits on an ad hoc basis.
    To date, only seven U.S. adoption cases from the DRC remain 
outstanding. The Department continues to strongly recommend against 
initiating intercountry adoptions in the DRC until such time as long-
awaited family-law legislation is passed into law and intercountry 
adoptions can be processed on a firm legal basis with regularized 
procedures.
    The Department seeks to ensure that intercountry adoption involving 
children or adoptive parents in the United States take place in the 
best interests of the child. We also support efforts by foreign 
governments to implement safeguards that protect a child's best 
interests. We believe such measures can help to protect all those 
involved in an intercountry adoption. We encourage countries like 
Ethiopia and the DRC to communicate with us any concerns they have 
about the adoption process so that we can work together to address them 
without disrupting lawful adoptions in process. In some cases, however, 
countries act unilaterally to halt adoption processing for any number 
of reasons. In the case of Ethiopia, to date the Ethiopian government 
has not issued an official statement or policy regarding the reasons 
for the suspension or how it will be implemented in the future.
    Question. On May 24th, the guided-missile destroyer USS Dewey 
sailed within 12 nautical miles of the Chinese-occupied Mischief Reef, 
according to press reports. While it was a U.S. Navy ship that 
conducted the operation, the State Department serves an important role 
in the overall Freedom of Navigation Program.
    To what extent do you see Freedom of Navigation operations as 
advancing U.S. diplomatic interests in the region?
    Answer. Since 1979, the U.S. Freedom of Navigation program has 
demonstrated non-acquiescence to excessive maritime claims by coastal 
States all around the world. The program includes both consultations 
and representations by U.S. diplomats and operational activities by 
U.S. military forces. In fiscal year 2016, we conducted FONOPs 
challenging excessive maritime claims of 22 coastal States, including 
allies and partners. These operations are designed to protect the 
rights, freedoms, and lawful uses of the sea and airspace guaranteed to 
all countries. U.S. forces operate in the Asia-Pacific region on a 
daily basis, including in the South China Sea, and all operations are 
conducted in accordance with international law.
    Conducting regular FONOPs, including in the South China Sea, 
reinforces our commitment to support the rights accorded to all nations 
under international law. These operations also complement our 
diplomatic efforts urging claimant states to refrain from reclamation, 
construction, and/or militarization of features in the South China Sea 
and to resolve territorial and maritime disputes peacefully in 
accordance with international law, without the use or threat of force 
or coercion.
    Question. How is your department helping other countries to counter 
propaganda?
    Answer. It is critical for the United States to continue supporting 
partner countries to counter terrorist propaganda. This includes 
partnering voluntarily with multiple stakeholders, including private 
technology companies, to counter terrorist narratives--particularly 
online.
    The Global Engagement Center (GEC) operates as an interagency 
coordinating body within the Department charged with enhancing the 
capacity of the whole-of-government approach to recognize, understand, 
expose, and counter foreign state and non-state propaganda and 
disinformation. The GEC's role is focused on counter-messaging and 
related capacity building for foreign partners from grassroots 
organizations to national governments. Additionally, the GEC has an in-
house analytics capacity which complements the products and efforts of 
the rest of the Department and interagency.
    The Department is engaged in a range of efforts with key partners, 
including voluntary collaborative efforts with private technology 
companies, civil society and non-governmental partners, to empower 
credible voices overseas. These collaborative efforts include 
empowering youth through ``hackathons,'' TechCamp workshops, and 
university programs to develop counter-messaging campaigns, digital 
literary, and critical thinking skills.
    For example, the Bureau of International Information and Programs 
(IIP) supports Tech Camps throughout the world, including in the Middle 
East, creating interactive workshops leveraging private sector 
partnerships to build digital skills and technical capacity among key 
foreign influencers in civil society to counter ISIS and other 
terrorist propaganda, as well as the Speakers Program that brings 
American experts for short visits to share their expertise.
    IIP's U.S. Speaker Program provides opportunities for U.S. experts 
to engage key interlocutors in person or through virtual platforms. The 
Bureau of Educational and Cultural Affairs (ECA) supports programs that 
engage journalists and media makers, government officials, civil 
society and religious leaders, as well as their institutions. ECA 
programs build international networks that advance successful and 
peaceful societies, and appreciation for American values. For example, 
International Visitor Leadership Programs (IVLPs), bring U.S. CVE 
practitioners from around the world to build U.S. and overseas 
capacities to counter anti-American narratives, and share good and 
accurate information.
    Building on these kinds of activities, the Bureau of 
Counterterrorism and Countering Violent Extremism (CT) supports longer-
term capacity building for local messengers--including via the Hedayah 
Center, the Abu Dhabi-based international CVE center.
    Question. How is your department helping other countries deal with 
the threat posed by foreign fighters returning home from the 
battlefield?
    Answer. The Department has helped other countries deal with the 
threat posed by foreign terrorist fighters (FTFs) returning home from 
the battlefield in a number of ways. We have worked with partners to 
increase terrorist identity information sharing, strengthen border 
controls and threat-based security and traveler screening, update legal 
frameworks regarding FTFs, bolster investigative and prosecutorial 
capacity and develop rehabilitation and reintegration efforts . Our 
work to improve border security abroad also aims to stop terrorists 
from reaching our shores. We have built a layered visa and border 
security screening system and we continue to refine this effort, 
including working closely with our foreign partners.
    Through the implementation of U.N. Security Council Resolution 
2178, our international partners have expanded the tools they use to 
detect, disrupt, and prosecute returning FTFs. For example, the United 
States now has information-sharing agreements with 64 international 
partners to identify and track the travel of suspected terrorists. More 
than 60 countries have laws in place to prosecute and penalize FTF 
activities. At least 65 countries have prosecuted or arrested FTFs or 
their facilitators and at least 31 countries use enhanced traveler 
screening measures.
    More than 60 countries, including the United States, have provided 
INTERPOL information on approximately 14,000 individuals, a thousand 
fold increase over the past 4 years. We are now helping countries in 
Southeast Asia strengthen their connectivity with INTERPOL to take 
greater advantage of INTERPOL's FTF database and its Stolen and Lost 
Travel Documents system, among other mechanisms, to counter the flow of 
FTFs to conflict zones and identify them in transit or upon return. We 
hope to begin sharing more of our FTF information with certain 
international partners through INTERPOL in the near future.
    Separately, the Department of State, in partnership with the 
National Counterterrorism Center and the Department of Justice, is also 
sponsoring regional workshops to address the challenges of ISIS's 
external operations and returning FTFs from Iraq and Syria. Regional 
workshops have been held in the Balkans and North Africa, and future 
workshops are being planned for the Middle East and Southeast Asia. In 
these workshops, regional governments collaborate on ways we can better 
assess the risk posed by returnees, share strategies for disrupting 
attacks directed or enabled by ISIS, and identify opportunities for 
increased cooperation and capacity building to ensure we have the 
tools, including rehabilitation and reintegration efforts, in place to 
address the threat over the near and long term.
    In addition, we work with our international partners on reducing 
opportunities for recruitment and radicalization to violence by 
returning FTFs who are incarcerated. The United States supports a range 
of programs aimed at helping prison official develop and implement 
programs and policies geared towards the management and rehabilitation 
of returning FTFs.
                                 ______
                                 
               Questions Submitted by Senator Marco Rubio
    Question. How does the State Department plan to promote human 
rights and democracy in Cuba and Venezuela when it proposes to zero out 
funds in foreign assistance for the promotion of human rights and 
democracy in both countries?
    Answer. We are committed to working with our partners in the region 
to advance a shared vision for strengthening prosperity, security, 
democracy, and the protection of human rights throughout the 
hemisphere. The U.S. Government wants the people of both Cuba and 
Venezuela to thrive under representative democracy. To that end, the 
Department of State continues to support and engage with human rights 
and democracy activists in both countries. President Trump's Cuba 
policy makes clear the administration's intent to support the Cuban 
people by advancing human rights and democracy in Cuba. We also will 
work with partners in the region to promote peaceful solutions in 
Venezuela.
    As the Department of State and USAID work to ensure efficiency and 
effectiveness of U.S. taxpayer dollars, we made difficult choices in 
our budget request. The fiscal year 2017 appropriation provided support 
for democracy in Venezuela, consistent with current USAID programs. 
These funds will allow us to continue our programming for the near 
future.
    Question. How is your budget helping to improve governance and 
decrease violence in Central America, especially in the Northern 
Triangle countries?
    Answer. The Department's fiscal year 2018 budget request of $460 
million for Central America would fund programs that promote 
prosperity, security, and governance. U.S. programs complement the Plan 
of the Alliance for Prosperity, the reform initiative of the Northern 
Triangle countries of El Salvador, Guatemala, and Honduras.
    To improve governance, U.S. programs and diplomatic engagement seek 
to strengthen the rule of law, promote strong institutions and 
government accountability, reduce impunity, support anti-corruption 
efforts, improve budget management, and increase fiscal transparency. 
U.S. assistance will enhance the voice of civil society in the 
policymaking process and strengthen anti-corruption mechanisms such as 
the United Nations International Commission Against Impunity in 
Guatemala in Guatemala (CICIG) and the Organization for American States 
Mission to Support the Fight Against Corruption and Impunity in 
Honduras (MACCIH).
    To decrease violence in Central America, U.S. programs and 
diplomatic engagement seek to combat transnational criminal 
organizations, stem drug trafficking, enhance citizen security, reduce 
gang violence, strengthen borders, and deter human smuggling and 
trafficking through programs focused on capacity building, information 
sharing, and professionalizing police and military institutions.
    Question. In your view, are the countries of the Northern Triangle 
committing sufficient resources to the initiative? To what extent have 
these governments' public pronouncements and legal reforms produced 
real changes on the ground?
    Answer. U.S. programs complement the Plan of the Alliance for 
Prosperity, the reform initiative developed by the Northern Triangle 
countries of El Salvador, Guatemala, and Honduras in 2014. The Alliance 
for Prosperity targets four main lines of action: stimulate the 
productive sector, develop opportunities for their people, improve 
public safety and enhance access to the legal system, and strengthen 
institutions. The Northern Triangle governments committed $2.8 billion 
in 2016 to the Alliance for Prosperity, and committed an additional 
$2.6 billion in 2017. In 2016 and 2017, the annual Northern Triangle 
investment is approximately four times the combined fiscal year 2016 
and fiscal year 2017 U.S. investment in all of Central America using 
fiscal year 2016 and fiscal year 2017 funds.
    Through the Alliance for Prosperity and Plan El Salvador Seguro, 
the Salvadoran government reports it reclaimed 1,600 unsafe public 
spaces, upgraded 81 public spaces and 115 schools, and trained 21,419 
teachers from January 2015 to September 2016. From June 2015 to 
September 2016, it provided 23,278 computers to primary and secondary 
school students.
    The Guatemalan government reports it provided 1,953 computers to 
promote greater connectivity in the school system and trained 8,000 
youth in its Digital Talent program from January 2015 to September 
2016. It dismantled 30 criminal organizations and arrested 72 gang 
members for extortion as a result of joint efforts by the Public 
Prosecutor's office, the Ministry of Interior, the National Police, and 
the United Nations International Commission to Combat Impunity in 
Guatemala during this same time period. Guatemalan authorities 
restructured the tax collection agency, which added $200 million of 
revenue in 2016. The Asset Forfeiture Unit of the National Police 
seized $10 million in cash from drug traffickers in 2016.
    From January 2015 to September 2016, the Honduran government 
reports it trained 1,426 police officers at the Police Technical 
Institute and 34,588 individuals benefited from the first year of the 
Solidarity Bank, a program to improve key business sectors. The 
Honduran Anti-Extortion Task Force also captured 226 people during this 
time period.
    Question. The Castro regime's support for the Maduro government's 
subversion of democracy in Venezuela through repression is widely 
known. Yet the previous administration gave the Cuban regime a pass for 
these activities:
    Do you believe the Cuban regime should be held accountable for the 
subversion of democracy in Venezuela? If so, how?
    Answer. The Venezuelan government is responsible for the 
undermining of democratic institutions in its country. We understand 
that thousands of Cuban doctors, teachers, and security personnel work 
in Venezuela at the invitation of the Venezuelan government. All 
countries, including Cuba, should urge the Government of Venezuela to 
seek a peaceful, democratic solution to the country's crisis, instead 
of supporting internal repression and authoritarianism. The United 
States joins with governments across the hemisphere to call on the 
Government of Venezuela to fulfill the commitments it made during the 
fall 2016 dialogue process in order to establish a positive and 
constructive environment in which negotiations and mediation among all 
parties can take place.
    Question. Free access to information is vital to independent 
political thought in nations where speech and other freedoms are 
limited. In our own hemisphere, there is no country where basic 
political freedoms are more curtailed than Cuba:
    Are the requested funds sufficient to implement the goals of the 
State Department's Bureau of Information Resource Management in 
countries where technology is censored?
    Answer. Promoting Internet freedom is an essential part of our 
approach to protecting and promoting human rights in the 21st century. 
The Bureau of Democracy, Human Rights and Labor leads the State 
Department's efforts to promote Internet freedom globally through a 
variety of bilateral and multilateral engagements as well as through 
foreign assistance programming. Many governments have taken steps to 
censor and restrict Internet access at the expense of their own 
economic and social development. As a result, more than two-thirds of 
the world's population now lives in Internet repressive countries.
    Since 2012, Congress has appropriated $25-$35 million annually to 
the State Department to support global Internet freedom programs. These 
resources have enabled the Internet freedom program, including support 
for anti-censorship and secure communication technologies, digital 
safety training, policy advocacy initiatives, and applied research to 
ensure that human rights defenders and ordinary citizens around the 
world are able to safely access the global Internet. The State 
Department's Internet freedom portfolio constitutes the most 
comprehensive support for Internet freedom of any funder.
    Question. In the President's fiscal year 2018 budget request, I am 
concerned that, given the long lead-time for State Department 
budgeting, the State Department wouldn't be able to react 
programmatically to a collapse of the Maduro government. Where would 
the funds come from and what form would they take?
    Answer. The United States continues to be engaged in the situation 
in Venezuela and to work with others, including the Organization of 
American States (OAS), to support peaceful solutions to the political 
and economic crisis in the country. The Department of State and U.S. 
Agency for International Development (USAID) have a long history of 
responding rapidly to changing circumstances in countries around the 
world and will engage with our partners and the OAS to address changes 
to the situation in Venezuela.
    The Department and USAID have authorities and funding, subject to 
availability, to provide initial support as necessary to address 
immediate needs that may arise in Venezuela, including humanitarian 
assistance, stabilization assistance, and democracy and human rights 
programming, as appropriate.
    Question. Is this budget sowing the seeds of more violence, drugs, 
and migrants on America's streets by leaving empty spaces and weak 
governments in Central America and South America to do the heavy 
lifting?
    Answer. U.S. assistance and engagement in Central America aims to 
secure U.S. borders, protect American citizens, and improve U.S. 
prosperity by addressing the economic, security, and governance drivers 
of illegal immigration and illicit trafficking. Our engagement in the 
region aims to dismantle transnational criminal organizations, combat 
drug trafficking, halt illegal immigration, improve opportunities for 
U.S. firms, and promote sustainable economic growth by addressing the 
underlying causes of insecurity, impunity, and lack of economic 
opportunity.
    The fiscal year 2018 request level will enable us to focus our 
efforts in areas that will have the greatest potential for 
transformative impact. With the request, the Department and USAID will 
implement an integrated approach to crime and violence prevention 
through programs that reduce gang violence and the influence of 
organized crime across borders. The Department and USAID will promote 
good governance, anti-corruption, and fiscal management, and implement 
policies that improve economic and educational opportunities, foster 
economic growth, and create sustainable livelihoods for citizens of the 
region.
    Question. Are their [Central America and South America] unique 
needs factored into the administration's rebuilding and reintegration 
plans?
    Answer. The unique needs of the Central America and South America 
regions, as well as the unique needs of other regions in the world, 
will be considered as we move forward to implement Executive Order 
13781 of March 13, 2017, which calls for each agency to submit a plan 
in September to improve the efficiency, effectiveness, and 
accountability of that agency. The Department of State (State) and U.S. 
Agency for International Development (USAID) are working to meet this 
deadline and have begun to discuss goals, priorities and the strategic 
direction of the organizations to adapt to the changes that we will 
face over the next 20 years. We are looking at aligning resources, 
people, and our overarching mission, including restructuring State and 
USAID's operations, in order to deploy the talent and resources of 
State and USAID in the most efficient way possible. This review has no 
preconceived outcomes.
    Question. Do you intend to provide elevated levels of U.S. 
assistance to Central America throughout the entire 5-year plan?
    Answer. During the June 15-16, 2017 Conference on Prosperity and 
Security in Central America, the U.S. Government reaffirmed its 
commitment to continued collaboration with the region and support for 
programs that complement the Northern Triangle governments' 5-year 
plan, the Alliance for Prosperity (2015-2019). The President's fiscal 
year 2018 request of $460 million for Central America emphasizes 
continued U.S. commitment to reducing insecurity and violence, 
enhancing the business climate, and promoting improved governance in 
the region, all of which is essential to supporting the safety, 
security, and prosperity of Americans. This is in addition to the 
almost $2 billion provided by Congress in fiscal year 2015-fiscal year 
2017, putting the U.S. Government on a path to providing significant 
assistance throughout the period of collaboration with the Northern 
Triangle governments on their 5-year plan.
    Question. In your view, is 5 years a sufficient period of time to 
implement the Alliance for Prosperity? What results do you expect to 
see by the end of the 5-year period? Do you foresee the Northern 
Triangle countries requiring significant levels of external support 
beyond the 5-year timeline?
    Answer. The Northern Triangle governments continue to make progress 
implementing the reforms necessary to improve the business climate, 
increase tax revenues, facilitate trade, expand energy integration, 
strengthen the public-private sector dialogue, combat organized crime, 
improve information sharing, cooperate on migration flows, strengthen 
border security, and reduce youth violence.
    However, significant systemic and long-term problems remain in the 
Northern Triangle, which require sustained efforts and support by the 
U.S. Government, host country partners, the private sector, 
international organizations, civil society, and the broader 
international community to ensure continued progress. The U.S. 
Government works closely with Northern Triangle governments and the 
governments of the other Central American countries to align U.S. 
assistance with the benchmarks and timelines of programs and priorities 
of each government. Each country presents unique economic development 
and security challenges. In some areas, particularly in the realm of 
governance, sustained efforts over a generation will be necessary to 
fully implement reforms, improve transparency, and establish rule of 
law in the region.
    Question. In a QFR from our Committee during your confirmation 
process that asked ``Do you believe it should be a national security 
priority of the United States to support Tunisia's transition to 
democracy? What specifically should the United States do?'', you 
answered: ``Yes, I do believe Tunisia is a strategically important 
country for the United States and an important partner for us in 
bringing stability to the region. I believe we should broadly engage 
with Tunisia on security, economic, governance, and civil society 
development.'' The State Department's fiscal year 2018 budget request, 
however, zeroes out the $65 million in FMF provided to Tunisia in 
fiscal year 2017, and cuts ESF [Economic Support Fund] in half to just 
$40 million:
    If Tunisia is a strategically important country, and an important 
partner to bringing regional stability, shouldn't the United States be 
fully committed to investing in its success and maintain bilateral 
assistance at the previous fiscal year's level of $165.4 million?
    Answer. Tunisia is an important partner, and the United States is 
fully committed to investing in its success. However, as we work to 
streamline efforts to ensure efficiency and effectiveness of U.S. 
taxpayer dollars, we acknowledge that we have to prioritize and make 
some tough choices.
    The Department is shifting our approach to the funding and 
provision of military assistance globally. The Department's budget 
request includes $200.7 million in global Foreign Military Financing 
(FMF) resources, which could support targeted FMF grants or loans to 
partners such as Tunisia. Shifting some foreign military financing from 
grants to loans will better leverage U.S. taxpayer dollars and still 
allow qualifying partners to purchase more American-made equipment.
    The fiscal year 2018 ESF level for Tunisia takes into account the 
fact that the Tunisian American Enterprise Fund will have hit its total 
capitalization target of $100 million, with the last $20 million 
contribution provided by the United States in fiscal year 2017. 
Finally, the fiscal year 2018 request also includes $14.6 million in 
INCLE, NADR, and IMET funds to support our continued partnership with 
Tunisia on shared security and counterterrorism priorities.
    Question. This budget requests $75 million in economic assistance 
to Egypt, which includes money for democracy and development programs. 
Egyptian President el-Sisi recently ratified a draconian new NGO law 
which would make it virtually impossible for independent civil society 
to operate in Egypt through restrictive registration and funding 
processes. According to the Project on Middle East Democracy, Egypt's 
new NGO law will also require international NGOs to obtain ``prior 
approval from the National Authority to operate in Egypt. They have to 
purchase a $20,000 permit; this fee would increase by 20 percent every 
5 years.'' A longstanding provision of U.S. law known as the 
``Brownback Amendment'' asserts that ``with respect to the provision of 
democracy, human rights, and governance activities, the organizations 
implementing such assistance, the specific nature of that assistance, 
and the participants in such programs shall not be subject to the prior 
approval by the government of any foreign country.'' In your view, does 
Egypt's new NGO law violate the Brownback Amendment by giving the 
Egyptian government veto power over U.S.-funded democracy programs? 
More broadly, with this new law in place, what kind of economic, 
development, or democracy programming is even possible for U.S. 
assistance to support in Egypt? Do you believe that repeal of this NGO 
law should be a pre-requirement to the United States providing 
continued economic aid to Egypt?
    Answer. I am disappointed by President Sisi's signature of the NGO 
law. From the time parliament proposed this legislation until President 
al-Sisi approved it, we clearly and repeatedly communicated our 
concerns about the law and urged the GOE to revise it. We have stressed 
that a strategic relationship is a two-way street that requires trust 
and credibility.
    We are actively considering options on how best to address this 
deeply problematic legislation, and we are watching closely development 
of implementing regulations. We are moreover examining the implications 
of the law for the implementation of U.S. assistance programs, and we 
will continue to press the Egyptians to enable U.S. assistance programs 
and civil society the necessary freedom to operate.
    The Department of State and USAID implement programs consistent 
with the Brownback Amendment. Many of the practical implications of 
Egypt's new NGO law remain unclear, and we are trying better to 
understand the law and how it might impact our programs and 
implementing partners. In the meantime, we continue to make clear to 
the Egyptian government that a vibrant civil society is critical for 
Egypt's stability and prosperity.
    Question. The fiscal year 2016 Omnibus requires you to certify and 
report to Congress that the Egyptian government has met a number of 
benchmarks on democracy, human rights, and the rule of law before 
releasing 15 percent of Egypt's military aid:
    Can you tell us if the Egyptian government has released political 
prisoners?
    Answer. The Egyptian government periodically grants pardons and 
releases prisoners. However, few political prisoners benefit from this 
process. Some notable exceptions are religious dissident Islam el-
Beheiry, who received a pardon in November 2016, and Aya Hijazi, her 
husband, and their colleagues, whom a court acquitted in April 2017. 
Thousands of individuals remain detained on charges of violating 
Egypt's Demonstrations Law, and we consistently raise our concerns 
about human rights to the Egyptians at senior levels.
    Question. The fiscal year 2016 Omnibus requires you to certify and 
report to Congress that the Egyptian government has met a number of 
benchmarks on democracy, human rights, and the rule of law before 
releasing 15 percent of Egypt's military aid: Is implementing laws or 
policies to govern democratically?
    Answer. We have not been satisfied with Egypt's progress on 
democracy and human rights and will need to take any relevant 
developments into account when we consider whether to proceed with the 
certification or to exercise a national security waiver. Egypt is a key 
regional partner and represents an important bilateral relationship, 
but we are committed to ensuring that our partnership delivers on U.S. 
interests and advances U.S. national security goals.
    Question. After President el-Sisi signed a draconian new law 
restricting civil society and reports of an escalated crackdown against 
civil society organizations in Egypt, do you believe the Egyptian 
government is implementing reforms that protect ``the ability of civil 
society organizations and the media to function without interference''? 
What examples, if any, can you provide as evidence of those actions by 
the Egyptian government? What examples, if any, can you provide as 
evidence of the Egyptian government violating those principles?
    Answer. I was extremely disappointed by President Sisi's signature 
of the NGO law, which we believe further undermines the ability of 
civil society to operate independently. The law as written would impose 
burdensome NGO registration and other invasive administrative 
requirements. We continue to raise our concerns with the Egyptian 
government at the highest levels about this law and we are actively 
considering options on how best to address it.
    We also remain concerned that the government subjects civil society 
activists are to asset freezes, travel restrictions, and arrests. Egypt 
also recently blocked access to more than a hundred websites including 
some of the best known news and human rights-oriented organizations, 
and the government continues to arrest activists for their social media 
posts. Finally, we are discussing but have yet to reach a resolution to 
the ``foreign funding case'' involving convictions against U.S. 
citizens and Egyptian employees of U.S. registered NGOs.
    I have raised our concerns about the deteriorating human rights 
situation in my meetings with Egyptian officials in Washington and in 
Cairo, and our Embassy in Cairo continually engages on these issues. We 
have stressed and will continue to underscore to the Egyptians that 
progress on human rights is important to Egyptian stability and to our 
relations.
    Question. This proposed budget would eliminate Foreign Military 
Financing grants for every country in the world except for four, 
including $1.3 billion for Egypt. A May 2016 report from the GAO 
indicated that a lack of cooperation from Egyptian authorities 
``limited U.S. efforts to verify the use and security of certain 
equipment.'' Since that time, a disturbing video from April 2017 shows 
members of the Egyptian military shooting unarmed detainees to death at 
point-blank range in the Sinai Peninsula and staging the killings to 
look as if they had happened in combat. Egyptian authorities continue 
to deny access to U.S. officials seeking to verify that such equipment 
is not being used to commit gross human rights violations, in 
accordance with the Leahy Law:
    Have your Egyptian counterparts assured you that U.S. officials 
will have full access to the Sinai to make such verification? In your 
view, is the Egyptian military currently in compliance with the Leahy 
Law?
    Answer. Egypt is struggling to defeat Islamic State-Sinai (IS-
Sinai), an ISIS affiliate, in northeast Sinai, despite a significant 
increase in Egyptian military personnel there over the past year. IS-
Sinai continues to target Egyptian military, security, and government 
personnel and increasingly civilians in the Sinai. We are also seeing 
an increase in ISIS attacks in the Nile Valley, including the Palm 
Sunday bombing of churches in the Nile Delta cities of Tanta and 
Alexandria.
    The Egyptian government continues to limit outside access to the 
conflict area in northern Sinai, apart from official travel to 
Multinational Force and Observers (MFO) facilities. The government has 
given limited access to U.S. officials to tour development projects in 
the Sinai near the Suez Canal and the Egyptian 2nd Field Army 
Headquarters on the Sinai side of Ismalyia. However, at senior levels, 
the Departments of State and Defense continue to press the Egyptian 
government for greater access to northern Sinai to gain better 
visibility on the security challenges the Egyptians face.
    The Department is deeply concerned over the video allegedly showing 
extra judicial killings. Senior Department officials have conveyed 
these concerns directly to the Egyptian government and urged the 
Egyptians to conduct a thorough and transparent investigation, and hold 
responsible individuals to account. The Department will continue to 
follow developments closely from both Washington and Cairo, as well as 
continue to express U.S. concerns at senior levels of the Egyptian 
government.
    Question. As the fiscal year 2018 budget request is still fairly 
topline, would you please address whether the administration intends to 
prioritize funding for programs assisting religious minorities, 
including Christians, Yezidis and others, who were targeted for 
genocide by the Islamic State?
    Answer. Looking forward to fiscal year 2018, we will continue to 
provide assistance to vulnerable populations in Iraq and Syria, 
including by supporting efforts to document violations and abuses. Our 
Economic Support Fund request for Iraq will include reconciliation and 
accountability programming, and a point of emphasis in our proposal 
review process will remain the provision of assistance to, protection 
of, and advocacy for Iraq's most vulnerable populations, including 
youth, women, and members of ethnic and religious minorities.
    Assistance to vulnerable populations also includes helping to 
create conditions for displaced individuals to safely and voluntarily 
return home, and in Iraq, our support for Government of Iraq-led 
stabilization and accountability efforts will continue to benefit these 
populations. To date, FFS has funded $22 million of projects for the 
Yazidi communities of Sinjar, Sinuni, and Rabia and $34 million of 
projects for the mainly Christian communities of the Ninewa Plains.
    Question. What justice mechanisms is the administration willing to 
support for those victims of genocide?
    Answer. As with the ongoing fight of our Coalition partners to 
defeat ISIS in Iraq, the administration will work by, with, and through 
the Iraqi government to help the families of victims and survivors of 
ISIS atrocities obtain accountability in Iraq. Many of these victims 
are members of vulnerable religious and ethnic communities who have 
lived on their ancestral homelands on the Ninewa Plains for millennia.
    To that end, we support the documentation of atrocities committed 
by ISIS. Our Transitional Justice Global Initiative, for example, 
enables Iraqi civil society to document human rights abuses; 
establishes protocols and a repository that collects, organizes, 
preserves, and analyzes evidence gathered to serve a wide range of 
future transitional justice purposes; and connects documentation 
efforts with national and local accountability efforts. Over 600 
narratives have been gathered from victims and witnesses of atrocities 
committed in Iraq. Narratives gathered by international civil society 
organizations (such as those by the Knights of Columbus and U.S. 
Holocaust Memorial Museum) may be used to augment these efforts. The 
program is also implementing community workshops and supporting 
advocacy campaigns to promote and raise awareness of transitional 
justice processes, including reconciliation, reparations, and truth-
seeking, among other efforts.
    We have provided technical assistance to the Iraqi government on 
mass grave identification, preservation and excavation and forensic 
identification of the remains contained within those mass graves. We 
have also provided support for legal services to survivors of conflict-
related violence.
    As another example, the United States is contributing to the global 
effort to empower women and girls as leaders in the fight against ISIS. 
We are helping survivors who have been freed or escaped ISIS captivity 
through the Gender-Based Violence Emergency Response and Protection 
Initiative, which provides funds for medical, psychological, and social 
support.
    Ultimately, the Government of Iraq will be responsible for holding 
perpetrators of atrocities criminally accountable in domestic justice 
processes. To that end, Iraq has requested additional assistance to 
support domestic capacity in pursuing accountability. The United States 
supports the U.K. proposal for the creation of an investigative body 
that would work with the Government of Iraq to formulate mechanisms to 
investigate, document, and gather evidence of atrocities perpetrated by 
ISIS and other terrorist groups in Iraq.
    Question. Is [Egypt] taking consistent steps to protect and advance 
the rights of women and religious minorities, and is [Egypt] providing 
detainees with due process of law?
    Answer. Egypt has taken some steps to advance the rights of women 
and religious minorities. This includes the new Church Construction 
Law, an important first step in ensuring the equal treatment of the 
Coptic Christian population. The government also finished rebuilding 78 
churches burned by mob violence in 2013. Egypt has also passed 
legislation restricting female genital mutilation.
    Religious dissident Islam el-Beheiry was pardoned by President Sisi 
in November 2016 and released. Aya Hijazi, her husband, and their 
colleagues were all acquitted and released in April 2017. We are glad 
to see her back in the United States. However, thousands of detainees 
remain in custody and have faced violations of fair trial guarantees. 
Perpetrators of violence against the Christian community regularly 
escape justice through the use of extra-judicial ``reconciliation 
sessions.''
    However, the overall human rights situation remains troubling. As 
noted in the Department's 2016 Human Rights Report, the most 
significant human rights problems in Egypt were excessive use of force 
by security forces, deficiencies in due process, and the suppression of 
civil liberties. Lack of fair trial guarantees, excessive use of 
preventative custody and pretrial detention, trials involving hundreds 
of defendants without individual presentation of evidence, and the use 
of military courts to try civilians remain serious problems.
    Question. What was the rationale for zeroing out the $330 million 
in HIV and AIDS funding for USAID? Can you ensure that the United 
States will meet our contribution to the Global Fund?
    Answer. The President's budget consolidates all U.S. assistance for 
global HIV/AIDS efforts within the State Department to simplify the 
management and coordination of these investments. It is important to 
note that in the budget, USAID will remain one of the two (along with 
CDC) primary implementing agencies for PEPFAR, and will continue to 
implement a significant share of U.S. global HIV/AIDS assistance in 
this capacity.
    The President's budget includes $1.125 billion for the U.S. 
contribution to the Global Fund to Fight AIDS, Tuberculosis and 
Malaria, which keeps the U.S. on track to meet its commitment to match 
$1 for every $2 provided by other donors for the Global Fund's most 
recent 5th Replenishment period.
    Question. With the large proposed cuts to global health programs, 
how will the U.S. keep infectious diseases--such as airborne, drug-
resistant tuberculosis and mosquito-spread Zika--under control?
    Answer. The fiscal year 2018 request continues to support Global 
Health Security by requesting to use $72.5 million in remaining fiscal 
year 2015 Ebola emergency funds, which would maintain a straight-line 
of support for global health security in development programs at the 
fiscal year 2016 levels. The remaining balances from the Ebola response 
are an appropriate source of funding for programs with an objective to 
prevent and contain future outbreaks of existing or new diseases, 
including Zika. Programming these funds will enable the U.S. 
Government, in partnership with other nations, international 
organizations, and public and private stakeholders, to prevent 
avoidable epidemics that could spread to the United States, detect 
threats early, and respond rapidly and effectively to disease outbreaks 
in an effort to prevent them from becoming global pandemics.
    While the United States will continue significant funding for 
global health programs, as well as infectious diseases including 
tuberculosis, other stakeholders and partner countries must do more to 
contribute their fair share to global health initiatives.
    Question. In your Senate confirmation hearing, you committed to 
maintain U.S. leadership on combating trafficking in persons around the 
world. However, the fiscal year 2018 President's budget requests only 
$17,000,000 for Trafficking in Persons from the International Narcotics 
Control and Law Enforcement Account (INCLE), a cut of almost 60 percent 
from the fiscal year 2017 Omnibus, and does not include a request for 
Programs to End Modern Slavery, which received $25,000,000 in the 
fiscal year 2017 and fiscal year 2016 Omnibus.
    How do you expect the U.S. Government to maintain its leadership on 
this vital human rights issue with such dramatic cuts to the 
Trafficking in Persons Office, which leads the United States' global 
engagement to combat human trafficking?
    Answer. The reduction in our fiscal year 2018 request for anti-
trafficking assistance largely reflects the administration's broader 
reduction in economic, development, and law enforcement assistance. In 
a constrained budget environment, difficult trade-off decisions must be 
made, however the request continues support for targeted bilateral and 
regional anti-trafficking programs as well as $17 million in centrally-
managed INCLE funds for the Office to Monitor and Combat Trafficking in 
Persons (J/TIP) to strengthen the ability of partner governments and 
civil society to prosecute traffickers, protect victims, and prevent 
human trafficking. The administration has reaffirmed its commitment to 
counter trafficking in persons as part of the Presidential Executive 
Order on Enforcing Federal Law with Respect to Transnational Criminal 
Organizations and Preventing International Trafficking.
                                 ______
                                 
             Questions Submitted by Senator Jeanne Shaheen
    Question. The potential ramifications of a reorganization or 
consolidation of the State Department and USAID are huge and would 
reverberate across the entire U.S. Ggovernment policy-making apparatus. 
I'm disappointed that to date this Committee has not received any 
information about the Department's internal thinking on a potential 
reorganization with Congress:
    In light of Congress' established role in making U.S. foreign 
policy, will you commit to engaging with Congress in a real and 
consultative manner, before undertaking any substantial reorganization 
of the State Department or USAID?
    Answer. The Department remains committed to working with Congress 
on the steps we are considering to improve the ability of the 
Department and USAID to achieve critical foreign policy goals. We have 
been in regular communication on the redesign process with the 
Department's committees of jurisdiction. The Department will continue 
to work with Congress, including committee staff, during the redesign 
process and will notify and report on planned organizational changes as 
a result of the redesign process consistent with sections 7015 and 
7034(l) of the Department of State, Foreign Operations, and Related 
Programs Appropriations Act, 2017 (Division J, Public Law 115-31). At 
the end of this process, our goal is to ensure the State Department and 
USAID are better equipped to address the foreign policy challenges of 
the United States.
    Question. I'm concerned that the large cuts to USAID and the State 
Department your administration's budget proposes appear to be the 
result of indiscriminate slashing of the structure or form, without 
consideration of the function our people and institutions play 
overseas. Was there a concerted process of determining what functions 
our foreign policy apparatus should have--and what the form of the 
apparatus should be to execute those functions--based on strategic 
foreign policy objectives before arriving at these significantly 
decreased top line budget figures? If so, can you share this underlying 
analysis with this Committee?
    Answer. The President's fiscal year 2018 budget request prioritizes 
the well-being of Americans, bolsters U.S. national security, secures 
our borders, and advances U.S. economic interests. The first 
responsibility of our government is the security of American citizens, 
and we will orient our diplomatic efforts toward fulfilling that 
commitment. While our mission will also be focused on advancing the 
economic interests of the American people, the State Department's 
primary focus will be to protect our citizens at home and abroad.
    Ensuring the security and prosperity of the American people and 
advancing our values has necessitated difficult decisions in other 
areas of our budget. The State Department and USAID's fiscal year 2018 
budget request acknowledges that our operations must become more 
efficient, that our assistance must be more effective, and that our 
primary mission must always be advocating for the national interests of 
our country. Global challenges cannot be met by governments alone, and 
cannot rely too greatly on the United States. The fiscal year 2018 
request expects greater leveraging of U.S. dollars, along with 
increased efficiency and effectiveness of each dollar. In addition, the 
request expects that the private sector and countries themselves make 
better use of their own investments for development.
    The budget reorients our foreign assistance to the most critical 
priorities, which means revisiting where and at what level we provide 
assistance. If no bilateral funding is requested for a particular 
country, in some cases we are leveraging prior-year funds to continue 
some support. In other cases we may utilize funds from a regional line 
to support activities in a particular country.
    We acknowledge that we had to make some tough choices, but focusing 
our efforts will allow us to advance our most important policy goals 
and national security interests.
    Question. Secretary Tillerson, when you appeared before the Senate 
Foreign Relations Committee for your confirmation hearing, you stated 
that you would continue to support international family planning 
programs, and that current funding of $607.5 million for these programs 
``seemed appropriate.'' I am therefore appalled to see that the budget 
request for fiscal year 2018 includes a complete elimination of funding 
for international family planning and reproductive health programs. As 
you know from your time at ExxonMobil, empowering women to choose the 
timing and spacing of their births dramatically reduces maternal and 
newborn deaths. Cutting off this approximately $600 million in funds 
will result in nearly 27 million women and couples losing access to 
contraceptive supplies, nearly 6 million more unintended pregnancies, 2 
million more unsafe abortions and 12,000 maternal deaths. In addition 
to saving lives, family planning is critical to achieving our goals 
through programs focused on women's economic empowerment, HIV/AIDS, 
education and counter-terrorism:
    Can you explain why the administration has determined providing 
family planning is not essential to our global health programs and how 
you plan to address the potential lives lost by eliminating this 
funding? What impact will eliminating funding for international family 
planning have on U.S. development goals of ending preventable maternal 
and child deaths, achieving an AIDS-free generation, and supporting 
adolescent girls to continue their education?
    Answer. Preventing child and maternal deaths is a priority for 
USAID's global health programs. As we work to streamline efforts to 
ensure efficiency and effectiveness of U.S. taxpayer dollars, we 
acknowledge that we have to prioritize and make some difficult choices. 
By focusing our efforts on global health programs in maternal and child 
health, nutrition, and malaria, we will continue to save the lives of 
women and children. We will also continue prioritizing smart 
investments that save lives and continue progress toward controlling 
the HIV/AIDS pandemic through PEPFAR.
    While the United States will continue significant funding for 
global health programs, other stakeholders and partner countries must 
do more to contribute their fair share to global health initiatives.
    Question. Nearly 300,000 women die of complications related to 
pregnancy and childbirth every year, and 225 million women in 
developing countries want to avoid pregnancy but are not using an 
effective contraceptive method. Evidence shows that fully meeting the 
need for both contraceptive and family planning services is one of the 
most effective and cost-effective tools we have in saving mothers' and 
newborn lives. Yet this administration proposes eliminating this 
funding entirely. Why is this administration proposing a more 
expensive, inefficient and ineffective way to reduce maternal and 
newborn deaths?
    Answer. The United States is by far the largest global health 
donor. Preventing child and maternal deaths is a priority for USAID's 
global health programs. As we work to streamline efforts to ensure 
efficiency and effectiveness of U.S. taxpayer dollars, we acknowledge 
that we have to prioritize and make some difficult choices. By focusing 
our efforts on global health programs in maternal and child health, 
nutrition, and malaria we will continue to save the lives of women and 
children. While the United States will continue significant funding for 
global health programs, other stakeholders and partner countries must 
do more to contribute their fair share to global health initiatives.
    Question. On May 15, the State Department released guidelines for 
implementation of the Mexico City Policy, also known as the Global Gag 
rule, which for the first time ever will apply to all global health 
assistance programs, currently a total of $8.8 billion. Studies have 
shown that when this policy was last in place under the George W. Bush 
administration, which curtailed the work of organizations that are most 
qualified to provide modern contraceptives, abortion rates rose by 20 
percent.
    How will the State Department monitor the impact of this policy on 
women's access to healthcare, including family planning services, rates 
of unsafe abortion and maternal mortality?
    Answer. The State Department is working with affected agencies and 
departments to collect information on the impact of the expanded Mexico 
City Policy, now known as ``Protecting Life in Global Health 
Assistance'' (PLGHA), on our global health programs. Interagency 
representatives continue to meet regularly to assess progress and 
challenges related to implementing the PLGHA policy, and USAID, HHS, 
DoD, and the State Department have begun notifying implementing 
partners and other stakeholders about the expanded policy. Affected 
departments and agencies are also preparing for a review of the PLGHA's 
effect on programs, which will provide an opportunity to recommend any 
changes to the policy's implementation or scope, should they be needed 
to address unintended consequences.
    Question. Building off the last question, over the past 8 years, we 
have continued to forge new partnerships with other foreign aid 
organizations and assisted in building a robust aid infrastructure. 
Unfortunately, the reimplementation and vast expansion of the Global 
Gag rule will end these relationships and contribute to an aid 
infrastructure that will be cobbled together by other organizations who 
have to step in where the U.S. has withdrawn. Study after study has 
proven undeniably that integrating reproductive health and HIV 
treatment and prevention services into basic primary care services, at 
the same provider, leads to better health outcomes and significant cost 
savings of foreign aid dollars. The proposed elimination of funding for 
reproductive health and family planning will compound the harm caused 
by proposed funding cuts to HIV/AIDS services and undermine prevention 
and treatment initiatives. Make no mistake, your administration's 
proposed budget will have serious effects across global health programs 
and will contribute to country instability:
    Secretary Tillerson, how will the State Department continue to move 
toward integrating HIV and reproductive health/family planning services 
in light of the drastic cuts to family planning and reproductive health 
funding, as well as the restrictions imposed by the Global Gag Rule?
    Answer. The fiscal year 2018 budget request will allow PEPFAR to 
continue prioritizing smart investments that save lives and continue 
progress toward controlling the HIV/AIDS pandemic, maintain its current 
level of antiretroviral treatment through direct service delivery 
globally, and expand both HIV prevention and treatment services through 
increased performance and efficiency gains.
    PEPFAR will continue to work with USAID to assist women with HIV-
related pregnancy complications, reduce maternal deaths (including 
those related to HIV), prevent new pediatric HIV infections, and treat 
pediatric HIV. PEPFAR will also continue to monitor data related to HIV 
services at the site level, including the impact of any new policies.
    No one country alone can end the AIDS epidemic. It will take all 
partners doing their part to reach this goal. The budget request once 
again demonstrates that the U.S. Government continues to lead the way 
thanks to the generosity of the American people. But in order to 
control the HIV/AIDS pandemic, other countries and partners must step 
up to contribute their fair share.
    Question. Consistent with this year's budget, the administration's 
budget request for fiscal year 2018 recognizes ``countering Russian 
aggression and malign influence'' as one of three goals of U.S. 
assistance in Europe and Eurasia (together with regional security and 
stability and advancing European integration). Despite that 
recognition, the administration's proposed budget would slash over 60 
percent of the funding for the Assistance for Europe, Eurasia and 
Central Asia (AEECA) account, which serves to protect what limited 
assistance the U.S. provides in post-Soviet countries. These proposed 
cuts are particularly puzzling--and worrisome--in light of Russia's 
sustained and growing aggression and malign interference in its 
neighborhood. Secretary Tillerson, how will the State Department 
approach its work in post-Soviet states in an environment of enhanced 
Russian threats with significantly fewer resources? What do you imagine 
the impact of these cuts would be on USAID's work in this region?
    Answer. As we work to streamline efforts to advance the security 
and prosperity of the American people and ensure efficiency and 
effectiveness of U.S. taxpayer dollars, we have had to prioritize and 
make some tough choices.
    Russia does not accept the post-Cold War settlement in Europe, and 
is pushing back against it. With the President's fiscal year 2018 
request for Europe and Eurasia, we will target our assistance to areas 
where we see the greatest risk from Russian pressure and the greatest 
opportunity to achieve success, retaining focus on our highest 
priorities, engaging other countries to advance our shared interests, 
and leveraging our funds with other donors wherever we can. U.S. 
foreign assistance programs will seek to counter Russia's covert and 
overt campaign by improving democracy and good governance; expanding 
civic engagement and independent media; increasing defense 
capabilities; strengthening rule of law and anti-corruption measures; 
and promoting European integration, trade diversification and energy 
security. This includes continuing support for a strong, independent 
Ukraine, an economically and politically resilient Georgia, and Balkan 
countries that are able to resist external and internal pressures that 
result in democratic backsliding. USAID will continue to play a 
prominent role in foreign assistance programming throughout the region.
    Question. As you know, I am very concerned that despite Federal 
court rulings against the President's Executive Orders, the State 
Department has substantially reduced the number of refugee arrivals 
over the past several months. I appreciate your agency's response to my 
letter inquiring about the current operating status of the U.S. Refugee 
Admissions Program, which acknowledges that ``we are in the midst of 
one of the largest refugee crises in modern history.'' In the State 
Department's response to my letter, your agency indicated multiple 
times that the recent lower numbers of refugee arrivals have been an 
unfortunate result of ``budget constraints'' and the Department's 
effort to make do with ``available funding.'' I would like some 
clarification on this point, because Congress has made no cuts to 
refugee funding this fiscal year and in fact included a $300 million 
increase to the State Department for Migration and Refugee Assistance 
in the fiscal year 2017 Continuing Resolution:
    Could you please clarify what budget constraints or restrictions on 
available funding the Department has faced this year?
    Answer. It is important to note that the Department of State is 
only one of the Federal agencies that implements the U.S. Refugee 
Admissions Program. The budgets and operational capacity of the State 
Department and all of our interagency partners affect the pace of 
refugee admissions. The Consolidated Appropriations Act, signed by the 
President on May 5, provided full year funding for the Bureau of 
Population, Refugees, and Migration, including for the Refugee 
Admissions Program. Previous limits on the number of refugees who could 
travel to the United States had been put in place to operate within the 
budget allocated under the Continuing Resolution. After the 
Consolidated Appropriations Act was signed, the Department of State 
instructed its overseas partners to schedule refugees for travel 
without any numerical restrictions after they have completed the highly 
rigorous and necessary security vetting and other processing. This 
instruction was given in conformity with Department of Justice guidance 
regarding the Hawaii Court's injunction, in consultation with our 
interagency partners, and consistent with our operational capacity.
    Question. In fiscal year 2016, the U.S. resettled 85,000 refugees. 
I'm concerned that the State Department is currently on track to 
resettle thousands fewer refugees with the same amount of funding this 
year. Why has the Department thus far resettled so many fewer refugees 
with the same amount of funding?
    Answer. As noted in the response to the previous question, the 
Department of State is only one of the Federal agencies that implements 
the U.S. Refugee Admissions Program. The budgets and operational 
capacity of the State Department and all of our interagency partners 
affect the pace of refugee admissions. Before May 5, limits on the 
number of refugees who could travel to the United States were put in 
place to operate within the budget allocated under the Continuing 
Resolution. After the Consolidated Appropriations Act was signed on May 
5, these limits were lifted. The September 2016 Presidential 
Determination states that up to 110,000 refugees may be admitted to the 
United States in fiscal year 2017. This language represents a ceiling 
on refugee admissions--it is not a mandatory target. We are not in a 
position to speculate as to the final number of refugees that will be 
admitted by the end of this fiscal year.
    Question. More than 60,000 Iraqis have applied for U.S. 
resettlement and are currently awaiting interviews and other processing 
steps. These are brave individuals who have close affiliations with the 
U.S. Government and who have risked their lives and their families to 
assist us. How do the administration's plans for refugee resettlement 
ensure that these Iraqi allies continue to have a path to safety?
    Answer. The Department of State, in coordination with the 
Department of Homeland Security, implements a Priority Two (P-2) Direct 
Access Program (DAP) for U.S.-affiliated Iraqis, which allows certain 
categories of Iraqis to apply directly to the USRAP without the need 
for a referral by the United Nations High Commissioner for Refugees. 
These categories include those Iraqis who worked for the U.S. 
Government, U.S. military, U.S.-funded organizations closely associated 
with the U.S. mission in Iraq, U.S.-based media organizations or 
nongovernmental organizations, and their immediate family members.
    Since fiscal year 2007, over 47,000 Iraqis have been resettled in 
the United States under the P-2 DAP. The administration is committed to 
ensuring the successful continuation of this priority program for 
Iraqis who risked their lives and those of their families to support 
U.S. efforts in Iraq.
    Question. President Trump's decision to withdraw the United States 
from the Paris Climate Accord deals a devastating blow to America's 
global leadership with grave implications for our nation and future 
generations. This action exacerbates the growing threat that climate 
change poses to America's environment, economy and national security, 
and undermines our relationships with key allies by sending the message 
that the United States cannot be trusted to honor our international 
agreements:
    Secretary Tillerson, can you please describe your involvement in 
advising the President on whether the United States should withdraw 
from the Paris Climate Agreement?
    Answer. I gave the President my best counsel, and I think it's 
important to remember the United States continues to lead the world in 
reducing greenhouse gas emissions.
    Question. In your capacity, what steps are you taking to reassure 
our diplomatic allies that the United States can be trusted to uphold 
its international commitments to reduce greenhouse gas emissions and 
mitigate the impacts of climate change?
    Answer. While the United States has signaled its intent to withdraw 
from the Paris Agreement, we will remain a Party to the U.N. Framework 
Convention on Climate Change (UNFCCC) and continue to uphold our 
commitments in that institution. As I have said before, engagement 
globally on the issue of climate change continues to be important, and 
the United States will remain engaged.
    Question. Clean energy presents one of the biggest economic 
opportunities of this century and climate change is a major driver of 
this transition. During your hearing you emphasized the role of the 
private sector in advancing international development. However, the 
U.S. corporate sector agrees that the President's decision to remove 
the U.S. from the Paris Climate Agreement places American companies at 
a competitive disadvantage:
    Secretary Tillerson, what steps are you taking to ensure that the 
U.S. does not cede its leadership role in clean energy innovation to 
countries like China and Germany--both of whom remain committed to 
advancing climate policy and clean energy technology?
    Answer. The United States has been--and will continue to be--a 
world leader in the development and deployment of next-generation 
energy technology, including renewables. We will continue to do so in a 
way that does not undermine the competitiveness of U.S. businesses, or 
hamper our broader objective of advancing U.S. economic growth and 
prosperity. American leadership in this cutting-edge field stems from 
the creativity and dynamism of our private sector, and has been key to 
bringing our country myriad benefits: more jobs, a safer and more 
diversified energy system, reduced emissions, and new opportunities for 
our communities to tailor their energy to their needs. But innovation 
doesn't stop at the technologies themselves: the world also needs 
innovation in financing, policies, and business models to deploy these 
evolving technologies effectively, and our international partners are 
coming to us to learn how it is done. We will work with our 
international partners to deepen their energy security, give them the 
tools to diversify their sectors to reduce their vulnerability on 
single sources of energy, while opening new opportunities for U.S. 
companies abroad.
                                 ______
                                 
               Question Submitted by Senator Jeff Merkley
    Question. You mentioned at the June 13 hearing that your internal 
review of State Department operations is not complete, and that you 
remain months away from completing the review. You also mentioned that 
you are planning a 4 percent reduction in the Foreign Service, and a 12 
percent reduction in the Department's Civil Service work force. How did 
you arrive at these specific figures before completing your review of 
the Department's operations, and how is predetermining staffing cuts 
consistent with a mission-driven--as opposed to a budget-driven--review 
and possible redesign of the Department?
    Answer. The Department's fiscal year 2018 Congressional Budget 
Justification (CBJ) reflects the President's and my near term vision of 
how U.S. foreign policy mission and program priorities will be 
established and executed, with the funding and staffing resources 
aligned to meet those priorities. Our mission, program, staffing, and 
funding components are closely linked. The fiscal year 2018 CBJ 
provides our first opportunity to tie these pieces together in a 
comprehensive blueprint going forward.
    As I mentioned in my recent testimony, one of the primary goals of 
the Department's efficiency review is to take a hard look at common or 
overlapping missions shared by various bureaus as well as with other 
USG agencies. While I have no preconceived notions in this regard, 
based on what I've learned from agency employees, this review will 
consider whether functions and/or programs within the Department are 
duplicative or very similar in nature. The results of this critical 
phase of the review will inform deliberations regarding functional 
consolidations or elimination. Implicit in any effort to reduce or 
consolidate functions or processes is a reduced workforce level to 
carry them out. Given the timing of this review, final, long-term 
decisions should subsequently be reflected in the Department's fiscal 
year 2019 CBJ.
    The fiscal year 2018 Foreign Service reductions were developed 
keeping in mind preservation of Foreign Service flow-through in our 
most critical Generalist and Specialist skill categories, so that new 
hires will be available to assume duties at various overseas posts. 
This includes hires made under the auspices of the Rangel and Pickering 
programs--both of which, we agree, are of particular importance. The 
Foreign Service Generalist reductions that we envision are required to 
meet our career flow through goals while transferring a significant 
portion of our Consular workload to new non-career Consular Fellows 
hires. For the Civil Service, we will focus our hiring efforts on those 
mission critical occupations (MCOs) that provide important policy 
development and program support either directly here in Washington or 
in concert with our colleagues serving overseas.
    We have laid out an aggressive and comprehensive timeline for 
working to ensure that the Department of State carries out this 
administration's foreign policy in the most efficient and effective 
means possible. This takes on heightened urgency given the multitude of 
complex issues requiring first rate global engagement capacity. As we 
move forward, I look forward to continued collaborative consultations 
with you and your colleagues.
                                 ______
                                 
            Questions Submitted by Senator Chris Van Hollen
    Question. The President's fiscal year 2018 budget request cuts 
economic and development assistance by 44 percent, refugee assistance 
by 29 percent, peacekeeping by 42 percent, global health programs by 26 
percent, and funding for educational and cultural exchanges by 55 
percent. However, security assistance to Egypt remains intact at $1.3 
billion.
    Since his ascension to power through a military coup, Egyptian 
President Sisi has intensified his crackdown on dissent. Tens of 
thousands of political dissidents, including American citizens and 
human rights advocates, remain in Egyptian jails due to Sisi's 
policies. Members of the security forces routinely torture and forcibly 
disappear detainees. Police continue to arrest dozens of people who 
they accuse of planning protests. However, President Trump called 
President Sisi a ``fantastic guy'' when they met last September, and 
said he was ``very much behind'' Sisi during their White House meeting 
in April:
    Congress requires you to certify that Egypt had made progress on 
democracy and human rights, among other issues, before a portion of 
security assistance can be released. Do you think the Egyptian 
government has taken effective steps to advance democracy, release 
political prisoners, and hold its security forces accountable? If so, 
can you provide examples?
    Answer. We have not been satisfied with Egypt's progress on 
democracy and human rights and will need to take any relevant 
development into account when we consider whether to proceed with the 
certification or to exercise a national security waiver. Egypt is a key 
regional partner and represents an important bilateral relationship, 
but we are committed to ensuring that our partnership delivers on U.S. 
interests and advances U.S. national security goals.
    Question. A May 2016 GAO report stated that Egyptian authorities 
did not fully cooperate with U.S. officials and ``limited U.S. efforts 
to verify the use and security of certain equipment.'' Has the Egyptian 
government provided U.S. officials with full access to its security 
facilities? If not, do you believe we should continue providing Egypt 
with $1.3 billion in security assistance?
    Answer. The Foreign Military Financing program with Egypt underpins 
the U.S.-Egypt security partnership and promotes key U.S. security 
interests in a volatile region, including efforts to defeat ISIS.
    In response to the GAO report, representatives from the Department 
of State's Directorate of Defense Trade Controls (DDTC) conducted an 
outreach visit to Egypt in November 2016 to educate Egyptian officials 
on U.S. regulations concerning end-use monitoring of U.S. defense 
articles sold via the direct commercial sales process and explain why 
their cooperation on these checks is vital to a healthy defense trade 
relationship. Following this, DDTC was able to conduct favorable and 
timely checks.
    However, the Egyptian government continues to limit outside access 
to the conflict area in northern Sinai, apart from official travel to 
Multinational Force and Observers facilities. In the summer of 2016, 
the government allowed U.S. officials to tour development projects in 
the Sinai near the Suez Canal and the Egyptian 2nd Field Army 
Headquarters on the Sinai side of Ismalyia. At senior levels, the 
Departments of State and Defense continue to press Egypt's government 
for greater access to northern Sinai to conduct required end-use 
monitoring.
    Question. At the March 22 summit to counter ISIS in Washington, you 
acknowledged the next phase in the ISIS fight requires significant 
humanitarian assistance and a regional diplomatic strategy. Your words, 
however, stand in stark contrast to President Trump's 32 percent cut to 
the State Department and USAID budget. By cutting funding so 
dramatically, I am concerned this administration is making it more 
difficult to win the war against ISIS.
    You have repeatedly emphasized the importance of international 
burden sharing, which is a view shared on both sides of the aisle. 
However, by proposing 44 percent cut to humanitarian assistance and a 
27 percent cut to U.S. contributions to international organizations, 
including the United Nations High Commissioner for Refugees, President 
Trump is crippling the international agencies responsible for helping 
to stabilize Iraq and Syria.
    As you know, the Department of State is also responsible for 
generating the financial commitments of our coalition partners and 
allies to counter ISIS, and must be adequately resourced to undertake 
these negotiations. Furthermore, the United States must lead by 
example--our coalition partners will likely take their cues from our 
own contributions to the long-term fight against ISIS.
    Given this administration's decreased commitment to humanitarian 
and stabilization efforts in Iraq and Syria, have you been successful 
in getting allies and partners to accept a greater share of the burden?
    Answer. Robust support from other donors is critical for both 
humanitarian response and the sustainability of stabilization 
programming in liberated areas. At the March 2017 Ministerial of the 
Global Coalition to Defeat ISIS, Coalition members, including the 
United States, pledged an additional $2.6 billion for humanitarian, 
stabilization, and explosive hazards removal efforts for liberated 
areas in Iraq and Syria. This was in direct response to a call put 
forth by the United States to the totality of the Coalition--which 
consists of 73 members--for increased assistance to further critical 
initiatives and close funding gaps. Select Coalition members also added 
to this figure with significant humanitarian assistance pledges during 
an EU-hosted Brussels Ministerial Donor Conference on Syria 1 week 
later.
    The Coalition continues to respond to U.S. appeals for increased 
assistance that supports stabilization, humanitarian needs, and 
explosive hazards removal needs in liberated areas. Just recently, on 
the margins of the Coalition's July 13 Small Group meeting regarding 
humanitarian assistance needs in Iraq, Coalition partners publicly 
committed more than $90 million in new assistance. At this same event 
the United States announced a contribution totaling more than $119 
million, and a number of other Coalition members anticipate readying 
new assistance announcements in the coming weeks.
    Question. Can you provide specific examples of countries that have 
increased their commitments to the counter-ISIS fight to offset the 
administration's proposed cuts?
    Answer. Coalition collaboration to meet significant resource 
demands in liberated areas continues to be impressive, and response to 
U.S. calls for additional contributions continues to be robust. For 
example, the European Union has increased its financial support for 
educational initiatives in western Syria in order to free up United 
States assistance to target needs in those areas of Syria liberated by 
the Coalition-backed Syrian Democratic Forces. The EU has also provided 
more than $330 million in humanitarian assistance to Iraq since 2015, 
and pledged $50 million in 2017, in addition to contributions from 
individual EU member states. Germany, Denmark, and Canada contribute to 
the U.S.--led explosive hazards removal contract for liberated areas in 
Iraq, and Germany will soon be contributing to a similar program in 
Syria. Austria quadrupled its development assistance budget in 2016 in 
response to a call to Coalition donors to step-up support for 
stabilization activities in Iraq. Twenty-nine Coalition members 
responded to the United States' call for increased commitments to 
liberated areas in Iraq and Syria in advance of the March 2017 
Ministerial of the Global Coalition to Defeat ISIS by pledging $1.5 
billion in new assistance.
    Question. What roles and responsibilities do you expect of our 
coalition partners and allies, and international institutions, in the 
counter-ISIS fight moving forward?
    Answer. As the Coalition and local partners defeat ISIS in Iraq and 
Syria, we will likely see ISIS attempt to regenerate globally in 
vulnerable areas such as West Africa and Southeast Asia. Coalition 
partners' contributions must continue to include military and 
stabilization support in Iraq and Syria to defeat the remnants of ISIS, 
but will also increasingly incorporate significant civilian efforts to 
disrupt ISIS's external networks. Through increased information 
sharing, counter-messaging, capacity building programs for border 
security and law enforcement agencies, prison reform and de-
radicalization programs, and by encouraging Coalition partners to 
strengthen their counter-terrorism laws, we expect to counter the 
threat from a potential emergence of Global-ISIS or a virtual 
caliphate. Assistance in these areas will help to achieve our long-term 
goals of stemming the return of foreign terrorist fighters from Iraq 
and Syria, disrupting inspired attacks by home grown terrorists, 
severing ISIS financing streams, countering violent extremist 
recruitment, and neutralizing the ISIS narrative.
    Question. The United States has a proud tradition of providing 
leadership in global health. This effort has been supported by 
Democrats and Republicans for the past quarter century. Global health 
programs are also supported by a broad coalition of faith groups, non-
profits and universities--and is led by USAID. Investments in global 
health save lives and make America more secure. In addition to reducing 
the risk that diseases will spread to the United States, global health 
research creates new products and tools to combat many diseases that 
affect Americans. Moreover, poverty and disease create a breeding 
ground for conflict and instability--which increases terrorism and 
other threats. Despite these many benefits, the administration's budget 
would cut global health by 25 percent.
    Does USAID still endorse its Global Health Security Agenda ``to 
accelerate measurable progress toward a world safe and secure from 
infectious disease threats through preventing, detecting and rapidly 
responding to infectious disease threats?'' How can we hope to achieve 
this goal with a 25 percent cut in funding for global health?
    Answer. The fiscal year 2018 request continues to support Global 
Health Security by requesting to use $72.5 million in remaining fiscal 
year 2015 Ebola emergency funds, which would maintain a straight-line 
of support for global health security in development programs at the 
fiscal year 2016 levels. The remaining balances from the Ebola response 
are an appropriate source of funding for programs with an objective to 
prevent and contain future outbreaks of existing or new diseases. 
Programming these funds will enable the U.S. Government, in partnership 
with other nations, international organizations, and public and private 
stakeholders, to prevent avoidable epidemics that could spread to the 
United States, detect threats early, and respond rapidly and 
effectively to disease outbreaks in an effort to prevent them from 
becoming global pandemics.
    With regard to global health research, USAID intends to increase 
its efforts to leverage partners' expertise and resources, strengthen 
country capacity to conduct their own research and development (R&D), 
and strategically utilize market shaping and innovative financing tools 
to incentivize private companies to invest in R&D.
    The fiscal year 2018 budget consolidates all U.S. assistance for 
global HIV/AIDS efforts within the State Department to simplify the 
management and coordination of these investments. USAID will continue 
to remain one of the primary implementing agencies for PEPFAR, and will 
continue to implement a significant share of U.S. global HIV/AIDS 
assistance in this capacity.
    While the United States will continue significant funding for 
global health programs, as well as infectious diseases, other 
stakeholders and partner countries must do more to contribute their 
fair share to global health initiatives.
    Question. PEPFAR has had an incredible impact on HIV prevention, 
treatment and care programs in sub-Saharan Africa, in particular, with 
global success witnessed worldwide. PEPFAR has increased the number of 
people on life-saving treatment every year and in doing so has curbed 
the epidemic not only in Africa, but globally. Science has proven that 
investment in antiretroviral treatment and HIV prevention programs have 
significant impact on the epidemic in each country. The proposed 15 
percent cut to PEPFAR and the Global Fund would severely harm the fight 
to end the HIV epidemic. Further, reinstatement of the renamed Mexico 
City policy as applied to HIV funding will only reverse advances in 
providing high quality and comprehensive services:
    Given the wealth of rigorous evidence available about what works in 
HIV programming, how can you assure the American people that these cuts 
will not reverse the gains we have seen globally in mitigating the 
impact of HIV or increase HIV-related deaths worldwide? Do you support 
a rollback of the progress made through PEFPAR, a program with broad, 
bi-partisan and global support, which is currently supporting nearly 
11.5 million people with life-saving antiretroviral treatment and 
prevented 2 million babies from being born HIV-positive?
    Answer. In the 13 high impact epidemic control countries, PEPFAR 
will accelerate efforts to reduce HIV infections and AIDS-related 
deaths toward achieving epidemic control. We will expand the most 
impactful HIV prevention, treatment, and care services among the 
highest-HIV-burden locations and populations. This effort will be 
supported by using data to drive accountability, find efficiencies, 
leverage partnerships, and increase transparency.
    Outside of these 13 high impact epidemic control countries, PEPFAR 
will maintain its current level of antiretroviral treatment through 
direct service delivery and expand both HIV prevention and treatment 
services, where possible, through increased performance and efficiency 
gains. PEPFAR will also work with partner governments, the Global Fund, 
and others to determine how HIV prevention and treatment services can 
be expanded in cases where PEPFAR is not the primary funder and/or 
service delivery provider.
    Question. The President's budget proposal asserts the U.S. 
Government will continue treatment for ``all current HIV/AIDS 
patients'' under PEPFAR. On its face, that sounds promising, but the 
real success of PEPFAR has been its ability to increase the number of 
people on treatment every year and provide critical funding for primary 
prevention programs to stop people from contracting the disease in the 
first place. As many have noted, simply maintaining current treatment 
rolls is poor science and a poor investment of U.S. resources. If we 
want to see an AIDS free generation in our lifetime, which I would hope 
you would support, we must invest in additional HIV prevention programs 
in addition to expanding the numbers on treatment.
    Can you explain how all current HIV/AIDS patients would stay on 
treatment with a 15 percent reduction in resources?
    Answer. With the President's budget, PEPFAR is committed to 
maintain its current level of antiretroviral treatment through direct 
service delivery globally. This will be accomplished by increasing 
partner performance, identifying and leveraging efficiency gains 
through the collection and use of more granular data (disaggregated by 
age, sex, and at the site level), and prioritizing the strategic 
outcomes that are most directly related to achieving epidemic control.
    Question. Repeatedly, our most trusted military and national 
security leaders have agreed that fighting poverty and disease is part 
of a smart national security strategy, as it makes the world a safer 
place. It is no coincidence that some of the world's poorest, 
unhealthiest countries are also the most unstable. Even the President's 
budget request says, ``the health of the world's most vulnerable 
populations drives economic growth, strengthens communities, and 
reduces instability that often fuels war, conflict, and extremism.'' 
Given that statement, I am confounded by the proposed cuts to maternal 
and child health, the building blocks of strong, healthy communities. 
Despite incredible progress over the past 25 years--maternal deaths cut 
almost in half and 100 million children saved-- due in part to the work 
of Johns Hopkins University and many Maryland NGOs, there is still work 
to be done. Eliminating funding for family planning, which we know 
saves lives and makes women healthier, and cutting programs designed to 
keep mothers alive, able to work, able to care for their children, keep 
them in school, and create productive members of society, flies in the 
face of logic. If we want to help countries become self-reliant and 
stable, we need more, not less, funding for maternal and child health:
    How will the cuts in the President's budget request to family 
planning and maternal and child health programming help keep America 
safe?
    Answer. Preventing child and maternal deaths is a priority for 
USAID's global health programs, and relies on sustained investment and 
appropriate linkages across diverse health programs focused on maternal 
and child health, nutrition and malaria. All of these efforts 
contribute to preventing child and maternal deaths. The fiscal year 
2018 request includes $1.3 billion to prevent child and maternal deaths 
and proposes to redirect $250.0 million in previously appropriated 
Ebola supplemental funds for malaria programs.
    The United States is by far the largest overall global health 
donor. While the United States will continue significant funding for 
global health programs, even while refocusing foreign assistance, other 
stakeholders must do more to contribute their fair share to global 
health initiatives.
    Question. In fiscal year 2017, $607.5 million was appropriated for 
U.S. assistance in family planning and reproductive health programs. 
This funding helped 26 million women and couples take control of their 
reproductive health, allowing them to plan their families by choice, 
not by chance, and resulting in averting 8 million unintended 
pregnancies, including 3 million unplanned births; 3.3 million fewer 
abortions and the prevention of 15,000 maternal deaths. The return on 
investment in family planning is undeniable, one of the best anywhere 
in government, which is why I'm stunned at the President's fiscal year 
2018 budget request, which cuts all funding for family planning from 
USAID:
    Do you feel that family planning is important to protecting the 
health of women? Will you ensure that women in the developing world 
have access to contraception and pre and post-natal care?
    Answer. Preventing child and maternal deaths is a priority for 
USAID's global health programs, and relies on sustained investment and 
appropriate linkages across diverse health programs focused on maternal 
and child health, nutrition and malaria. All of these efforts 
contribute to preventing child and maternal deaths. The fiscal year 
2018 request includes $1.3 billion to prevent child and maternal deaths 
and proposes to redirect $250.0 million in previously appropriated 
Ebola supplemental funds for malaria programs.
    As we work to streamline efforts to ensure efficiency and 
effectiveness of U.S. taxpayer dollars, we acknowledge that we have to 
prioritize and make some difficult choices. The United States is by far 
the largest overall global health donor. While the United States will 
continue significant funding for global health programs, other 
stakeholders must do more to contribute their fair share to global 
health initiatives.
    Question. How many refugees does the President plan to admit this 
next fiscal year, and how does this compare to the historical average 
since the 1980 Refugee Act?
    Answer. Each year, the President makes an annual determination, in 
consultation with Congress, regarding the refugee admissions ceiling 
for the following fiscal year. That determination is expected to be 
made prior to the end of fiscal year 2017.
    Question. We understand that the administration is writing a report 
on the fiscal impacts of refugee resettlement. Can you clarify if you 
are also examining the positive economic contributions of refugees in 
your analysis?
    Answer. The Department of State, in consultation with 
representatives from the Department of Health and Human Services, 
Department of Homeland Security, and the Office of Management and 
Budget, is working to quickly and fully implement the President's 
directives in Sections 4(b) and (c) of ``The Presidential Memorandum on 
Implementing Immediate Heightened Screening and Vetting of Applications 
for Visas and Other Immigration Benefits.'' Section 4(b) of the 
Presidential Memorandum requests a report detailing the estimated long-
term costs of the United States Refugee Admissions Program at the 
Federal, State, and local levels, along with recommendations on how to 
curtail those costs. The Department of State is working diligently with 
partner agencies to prepare a report that responds to the President's 
request.
    Question. Can you explain the rationale for completely eliminating 
the Emergency Refugee and Migration (ERMA) account, as the President's 
budget request would do? The President's budget request claims that the 
functions of ERMA can be carried out under the Migration and Refugee 
Assistance (MRA) account, and yet that account would also be cut by 10 
percent, rather than increased by $100 million. Can you explain the 
rationale for eliminating this tool of diplomacy?
    Answer. We remain committed to providing lifesaving assistance to 
those who need it most. The MRA request, in concert with fiscal year 
2017 resources, will enable the U.S. Government to respond to the major 
humanitarian emergencies around the globe. For several years, the MRA 
account has supported emergency refugee needs. The fiscal year 2018 
budget request still includes support for emergency refugee and 
migration needs within the MRA account, but eliminates duplication and 
streamlines support for refugee and migration needs into one account.
    We will continue to ensure that we are using funds as efficiently 
and effectively as possible in order to meet current and unforeseen 
needs. Other donors will need to do more to assist in responding to 
humanitarian crises around the world.
    Question. More than 50,000 Iraqis who have close affiliations with 
U.S. Government in Iraq and who have faced risks as a result are 
waiting for interviews in U.S. Refugee Admissions Program (USRAP). How 
do the administration's plans for refugee resettlement ensure that 
these Iraqi allies continue to have a path to safety?
    Answer. The Department of State, in coordination with the 
Department of Homeland Security, implements a Priority Two (P-2) Direct 
Access Program (DAP) for U.S.-affiliated Iraqis, which allows certain 
categories of Iraqis to apply directly to the USRAP without the need 
for a referral by the United Nations High Commissioner for Refugees. 
These categories include those Iraqis who worked for the U.S. 
Government, U.S. military, U.S.-funded organizations closely associated 
with the U.S. mission in Iraq, U.S.-based media organizations or 
nongovernmental organizations, and their immediate family members.
    Since fiscal year 2007, over 47,000 Iraqis have been resettled in 
the United States under the P-2 DAP. The administration is committed to 
ensuring the successful continuation of this priority program for 
Iraqis who risked their lives and those of their families to support 
U.S. efforts in Iraq.
    Question. Despite the fact that the two executive orders to stop 
the refugee resettlement program were halted by a series of court 
injunctions, it appears that:
  --The USCIS Refugee Corps interviews of refugee applicants have 
        slowed down.
  --Delays in the processing of security checks for refugee applicants 
        have resulted in different parts of these clearances expiring 
        at different times and since each step in the security check 
        process is time limited, this has created setbacks and longer 
        waits for refugees in the pipeline.
    How is this in keeping with the court injunctions on the refugee 
executive order, as well as the congressional intent, made clear in the 
fiscal year 2017 CR and Omnibus funding, that resettlement is to be 
maintained?
    Answer. It is important to note that the Department of State is 
only one of the Federal agencies that implements the U.S. Refugee 
Admissions Program. The budgets and operational capacity of the State 
Department and all of our interagency partners affect the pace of 
refugee admissions. The Department of State defers to the Department of 
Homeland Security regarding questions about the pace of U.S. 
Citizenship and Immigration Services Refugee Corps interviews and 
defers to our law enforcement and intelligence agency partners 
regarding questions related to security check processing.
    The Consolidated Appropriations Act, signed by the President on May 
5, provided full year funding for the Bureau of Population, Refugees, 
and Migration, including for the Refugee Admissions Program. Previous 
limits on the number of refugees who could travel to the United States 
had been put in place to operate within the budget allocated under the 
Continuing Resolution. After the Consolidated Appropriations Act was 
signed, the Department of State instructed its overseas partners to 
schedule refugees for travel without any numerical restrictions after 
they have completed the highly rigorous and necessary security vetting 
and other processing. This instruction was given in conformity with 
Department of Justice guidance regarding the Hawaii Court's injunction, 
in consultation with our interagency partners, and consistent with our 
operational capacity.
    Question. As CEO of Exxon, you were a leader in the effort to 
prevent and treat malaria. Under your leadership, Exxon was a corporate 
leader in supporting international efforts to prevent and treat 
malaria.
    Yet the President's proposed budget reduces funding for the Global 
Fund to Fight AIDS, TB, & Malaria by 17 percent from fiscal year 2017. 
The White House has stated that the budget prioritizes promoting U.S. 
interests and security abroad. If the goal is to advance U.S. security 
and prosperity, then these cuts are confounding. The economic case is 
clear: When people are healthy, they have more capacity to purchase 
American goods and services. U.S. exports to developing countries have 
grown by more than 400 percent over the last 20 years. Today, they 
total more than $600 billion annually and are greater than U.S. exports 
to China, Europe and Japan combined. Malaria-free countries have five 
times greater economic growth than countries with malaria.
    Secretary Tillerson, do you agree that malaria can impede business, 
productivity and economic development at every stage, and can you 
explain how reducing U.S. support for malaria prevention helps to 
advance U.S. economic interests and prosperity?
    Answer. The fiscal year 2018 budget request includes $1.5 billion 
for USAID's Global Health Programs, and $322.5 million in remaining 
fiscal year 2015 Ebola emergency funds, for a total of $1.8 billion. 
This request supports funding for maternal and child health, including 
$290.0 million for Gavi, the Vaccine Alliance, which will complete our 
country's $1 billion, 4-year commitment from fiscal year 2015-2018 and 
help provide vaccinations for hundreds of millions of children in low-
resource countries. It also supports the President's Malaria Initiative 
(PMI) and nutrition, as well as tuberculosis and neglected tropical 
diseases.
    With $250 million from the fiscal year 2015 Ebola emergency funds, 
the total fiscal year 2018 request for malaria programs is $674 
million, consistent with fiscal year 2016. Resources will support the 
PMI comprehensive strategy, which brings to scale a combination of 
proven malaria prevention and treatment approaches and integrates, 
where possible, these interventions with other priority health 
interventions. PMI has been instrumental in the historic 71 percent 
reduction in the estimated malaria mortality rate in sub-Saharan 
Africa, and has contributed globally to an estimated almost seven 
million malaria deaths averted. PMI's efforts have also contributed to 
historic reductions in all-cause mortality among children under five.
    Further, the budget includes $1.125 billion for the U.S. 
contribution to the Global Fund to Fight AIDS, Tuberculosis and 
Malaria, which keeps the U.S. on track to meet its commitment to match 
$1 for every $2 provided by other donors for the Global Fund's most 
recent 5th Replenishment period.
    Question. How does cutting funds for malaria prevention advance 
U.S. economic security and prosperity? Will you ensure that the United 
States maintains its bipartisan tradition of leading world efforts to 
eradicate malaria and other diseases?
    Answer. The fiscal year 2018 budget includes $1.5 billion for 
USAID's Global Health Programs as well as $322.5 million in remaining 
fiscal year 2015 Ebola emergency funds, for a total of $1.8 billion. 
With $250 million from the fiscal year 2015 Ebola emergency funds, the 
total fiscal year 2018 request for malaria programs is $674 million, 
consistent with fiscal year 2016.
    Resources will support the President's Malaria Initiative (PMI) 
comprehensive strategy, which brings to scale a combination of proven 
malaria prevention and treatment approaches and integrates, where 
possible, these interventions with other priority health interventions. 
PMI has been instrumental in the historic 71 percent reduction in the 
estimated malaria mortality rate in sub-Saharan Africa, and has 
contributed globally to an estimated almost seven million malaria 
deaths averted. PMI's efforts have also contributed to historic 
reductions in all-cause mortality among children under five.
    The budget also includes $1.125 billion for the U.S. contribution 
to the Global Fund to Fight AIDS, Tuberculosis and Malaria, which keeps 
the U.S. on track to meet its commitment to match $1 for every $2 
provided by other donors for the Global Fund's most recent 5th 
Replenishment period.
    Question. As ExxonMobil's CEO you personally championed women as 
catalysts for economic development and social change. The President's 
budget request disproportionately harms women's health, with proposed 
cuts to maternal and child health and a complete gutting of funding for 
family planning and reproductive health. These cuts will have a 
devastating impact not only on women, but on their families. When we 
support families, we increase opportunities for U.S. economic 
development abroad. The U.S. Chamber of Commerce has said that ``Women 
represent half of the population, but more than half of the opportunity 
for growth.''
    Do you agree that these cuts are shortsighted and fail to recognize 
opportunities for U.S. trade and investment that are directly related 
to women's health and economic development?
    Answer. We recognize that countries are more peaceful and 
prosperous when women are accorded full and equal rights and 
opportunity.
    The U.S. Department of State has a dedicated strategy on women's 
economic empowerment, and we continue our work to advance gender 
equality through our foreign policy. The Department's Office of Global 
Women's Issues also works to combat gender-based violence, promote 
women in peace and security, and empower adolescent girls. The 
President's Emergency Plan for AIDS Relief (PEPFAR) is implementing 
DREAMS, a public-private partnership to ensure that girls can grow into 
Determined, Resilient, Empowered, AIDS-free, Mentored and Safe women. 
Through targeted diplomatic and programmatic interventions and 
activities, the Department aims to lift barriers and prevent harmful 
and discriminatory practices that disproportionately affect women. 
These efforts promote greater opportunities for women and girls in all 
spheres--economic, political, and social--which in turn opens 
opportunities for U.S. trade and investment.
    Question. Why has the administration not put in place a more 
aggressive secondary sanctions regime against North Korea, given your 
acknowledgement that North Korea poses the greatest threat to U.S. 
security? Is the administration prepared to force Chinese banks to 
choose between working with North Korea or losing access to the U.S. 
banking system?
    Answer. We have made clear to China that it has a diplomatic 
responsibility to exert much greater economic and diplomatic pressure 
on the regime if it wants to prevent further escalation in the region. 
We want to work with China, but we've said many times that we would not 
hesitate to act alone, including by sanctioning Chinese or other third-
country individuals and entities that provide support to North Korea's 
unlawful activities.
    China's efforts to curtail North Korea's nuclear and ballistic 
missile programs and address North Korea's sanctions evasion have been 
insufficient in addressing the threat posed by North Korea. We are 
committed to using targeted financial sanctions to impede North Korea's 
nuclear and ballistic missile programs and to counter the grave threat 
those programs pose to international peace and security. We will 
continue to call on all countries to take the appropriate steps to 
apply maximum pressure on the DPRK so it changes its calculus and 
returns to serious and meaningful talks aimed at denuclearization.
    Question. On March 13, President Trump released an executive order 
calling for a comprehensive reorganization of the executive branch. 
While I support reforms to improve the efficiency of government, I am 
deeply concerned by reports that you preemptively plan to cut thousands 
of positions at the State Department and eliminate dozens of missions 
worldwide--before establishing and articulating your foreign policy 
priorities. I believe these cuts would undermine America's ability to 
influence events worldwide, and to tackle enormous challenges presented 
by countries suffering from poor governance, extreme poverty, and 
rampant corruption. That is why I recently sent a letter with Senator 
Sullivan, co-chair of the Senate Foreign Service Caucus, asking you to 
provide a comprehensive briefing on your proposed plans to reorganize 
the State Department:
  --Will you provide Senator Sullivan and me with this briefing in the 
        coming weeks?
  --Can you explain how you plan to work with this Committee on plans 
        to reorganize the State Department and USAID?
    Answer. Yes. The Department remains committed to working with 
Congress on the steps we are considering to improve the ability of the 
Department and USAID to achieve critical foreign policy goals. We will 
be in regular communication on the redesign process with the 
Department's committees of jurisdiction. The Department will continue 
to work with Congress during the redesign process and will notify and 
report on planned organizational changes consistent with sections 7015 
and 7034(l) of the Department of State, Foreign Operations, and Related 
Programs Appropriations Act, 2017 (Division J, Public Law 115-31). As 
the review is still underway, it is possible some of the planned 
changes might also require statutory changes. We will work with 
Congress as part of or prior to the fiscal year 2019 budget submission 
to pursue such statutory changes. At the end of this process, our goal 
is to ensure the State Department and USAID are better equipped to 
address the foreign policy challenges of the United States.
    Question. Do you agree with the premise that there is a link 
between humanitarian crises and national security threats? How can we 
ensure that the State Department and USAID are well-equipped to address 
the crises we face today with a constrained budget?
    Answer. Many of the most exigent global threats to U.S. national 
security today emanate from conflict-affected and fragile states with 
poor governance, the absence of the rule of law, corruption, weak or 
nonexistent democratic institutions, and human rights abuses. Indeed, 
crises in these countries have sparked historic levels of displaced 
people around the world, which have required increasing amounts of U.S. 
and other international humanitarian resources to respond. These crises 
also create enabling environments for ISIS and other transnational 
terrorist groups to operate.
    The United States is committed to doing our fair share to respond 
to humanitarian crises. With our fiscal year 2018 budget request, we 
will remain a leading contributor of humanitarian assistance. We are 
also asking our international partners to step up their efforts and 
contribute more. We continue to respond robustly to conflict, famine or 
the threat of famine in South Sudan, Somalia, Yemen and Nigeria, 
providing more than $1.8 billion in fiscal year 2017 to date for 
populations impacted by these crises. At the same time, I believe we 
must focus on addressing the fundamental conditions that give rise to 
these crises and work to prevent new ones from emerging. This requires 
robust analysis, aggressive diplomacy and targeted assistance to 
resolve conflicts, promote good governance, and promote stabilization. 
Our budget request in fiscal year 2018 includes dedicated resources to 
advance conflict mitigation, stabilization, human rights, and 
governance through diplomacy in high priority countries such as 
Afghanistan, Iraq, Nigeria, Somalia, Syria, and Yemen.
    Question. Have you considered the implications of cuts of this size 
to humanitarian needs overseas?
    How many people do you think it will affect?
    What impact do you think it will have on our ability to influence 
governments who are responding to humanitarian crises?
    Answer. The United States is committed to doing our fair share to 
respond to humanitarian crises and providing lifesaving assistance to 
those who need it most. With our fiscal year 2018 budget request, we 
will remain a leading contributor of humanitarian assistance. This 
request focuses funding on the highest priority areas while asking our 
international partners to step up their efforts and contribute more. 
The proposed percentage of humanitarian funding requested as part of 
the fiscal year 2018 State/USAID foreign assistance budget remains the 
same as in fiscal year 2016, roughly 22 percent. The relative priority 
of these interventions has not diminished.
    Humanitarian funding decisions are based on need, as assessed by 
international and non-government organizations and USG field teams in 
close coordination with local governments and our implementing 
partners. The Department and USAID continually work to support 
populations with the greatest humanitarian need and assess whether 
implementing partners have the operational capacity and access to them.
    Question. Timeliness is vital in a humanitarian response. Not only 
do timely interventions save lives, they also help ensure that crises 
do not deepen, increasing demand for larger, costlier responses in the 
future. How will you ensure that humanitarian responses--limited by the 
proposed cuts in fiscal year 2018, as well as OMB's stated intention to 
carry over funding from fiscal year 2017--will not lead to larger, 
costlier humanitarian response in future years?
    Answer. We remain committed to providing lifesaving assistance to 
those who need it most. The fiscal year 2018 request, in concert with 
fiscal year 2017 resources, will enable the U.S. Government to respond 
to the major humanitarian emergencies around the globe, including 
Syria, Iraq, Yemen, Somalia, Nigeria, and South Sudan. The proposed 
proportion of the fiscal year 2018 State/USAID foreign assistance 
budget requested for humanitarian assistance remains the same as in 
fiscal year 2016, roughly 22 percent, and the relative priority of 
these interventions has not diminished.
    Question. How do the budget cuts to our programs in Sri Lanka 
advance our interests? Does this not simply make Sri Lanka, and other 
countries in the region, more susceptible to Chinese influence?
    Answer. The budget request includes bilateral security assistance 
for Sri Lanka provided through Nonproliferation, Anti-Terrorism, 
Demining and Related Programs (NADR) and International Military 
Education and Training (IMET) funding. These resources support 
activities that protect U.S. national security, secure our borders from 
external threats, and maintain U.S. influence with Sri Lanka and its 
armed forces.
    For the sake of efficiency and greater accountability to U.S. 
taxpayers, the budget request also reflects hard choices that reduce 
funding. This should not be taken to mean that the United States is 
less committed to Sri Lanka or our other friends and partners. To the 
contrary, we will continue to lead international development, global 
health, democracy and good governance, and humanitarian efforts. In 
addition, we will strive to think innovatively, leverage existing and 
prior-year resources, and work with governments and private sector 
actors to encourage investment that empowers developing countries such 
as Sri Lanka. We believe that this approach will compare favorably to 
other development assistance models, particularly those that invite 
dependency on loans and initiate a cycle of rising indebtedness and 
vulnerability.

                         CONCLUSION OF HEARINGS

    God bless you. The subcommittee stands in recess until the 
call of the Chair.
    [Whereupon, at 4:42 p.m., Tuesday, June 13, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


 
                      OUTSIDE WITNESS TESTIMONIES

    [Clerk's Note.--The following testimonies were submitted to 
be made part of the hearing record.]<greek-l>
                 Ambassador of Republic of Tunisia deg.
    Prepared Statement of the Ambassador of the Republic of Tunisia

                                                     June 12, 2017.

Hon. Lindsey Graham,
Chairman of the Senate Subcommittee on State, Foreign Operations & 
        Related Programs;
290 Russell Senate Office Building,
Washington, DC 20510.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    I am writing to express my sincere gratitude for the funds 
allocated to Tunisia for the fiscal year 2017 and the United States' 
ongoing support for Tunisia. This generous assistance has been critical 
in reinforcing security in Tunisia. More importantly it is a message to 
the Tunisian people of the United States' commitment to building a 
strategic partnership with Tunisia.
    However, I would like to share with you our great surprise toward 
the administration's proposal in the fiscal year 2018 budget request to 
eliminate Tunisia's FMF grant and cut ESF by half. Actually, the U.S. 
administration' s decision to shift FMF assistance to Tunisia in fiscal 
year 2018 to loans effectively places an undue burden on Tunisia at a 
vulnerable time.
    Please allow me to highlight the following pertinent facts that 
explain the importance of this assistance in the broader fights against 
terrorism and why helping and investing in Tunisia should matter:
  --Since Tunisia's historic democratic transition began in 2011, 
        Tunisia and the United States have been committed to forging a 
        durable strategic partnership based on strategic interests and 
        shared democratic values;
  --The United States has pledged to support Tunisia's democratic 
        transition, including deepening political, economic, and 
        military cooperation between our two countries.
  --The United States declared Tunisia a ``Major Non-NATO Ally'' in May 
        2015;
  --The Memorandum of Understanding (MoU) signed between our two 
        countries, on the occasion of the visit by the Tunisian 
        President Beji Caid Essebsi in May 2015, pledges to increase 
        support for economic, political, and military cooperation 
        between the United States and Tunisia. This MoU declares 
        support for programs aimed at reinforcing Tunisia's security, 
        developing its capacity to face major security challenges, and 
        advancing shared interests in a secure, stable and prosperous 
        region. It also underscores the value of FMF grants in enabling 
        the purchase of U.S. military goods and services;
  --Tunisia has been a committed and full-fledged member of the Global 
        Coalition to Counter ISIS since September 2015;
  --Our longstanding mutually beneficial military cooperation has 
        resulted in the establishment of a joint ISR (Intelligence, 
        Surveillance, and Reconnaissance) in Tunisia. This achievement 
        is considered as an important example of the excellent 
        cooperation between our two countries and Tunisia's commitment 
        to building a truly strategic partnership;
  --During the 31st Joint Military Commission, held in Washington on 
        May 2-3, 2017 where U.S. Defense Secretary and Tunisian Defense 
        Minister agreed on a ``Bilateral Country Action Plan'' (BCAP) 
        to boost military and security cooperation between the United 
        States and Tunisia over the next 5 years. Secretary Mattis and 
        Deputy Secretary Work committed to continuing to grow a strong 
        military relationship with the country;
  --In recognition of the huge economic challenges facing Tunisia, and 
        also its progress on fighting corruption and improving civil 
        liberties, the Millennium Challenge Corporation (MCC) announced 
        a new compact for Tunisia in December 2016.
  --Tunisia is on the front lines of the fight against terrorism as its 
        security and military forces are waging a number of complicated 
        missions, including border defense to protect against 
        infiltration from jihadists in Libya, counterterrorism 
        operations in urban areas to disrupt ISIS cells, and an Al 
        Qaeda linked insurgency on the Western border. To meet these 
        threats, Tunisia has worked closely with the United States to 
        improve readiness and capabilities. However, Tunisia is also 
        investing heavily in its own capabilities, prioritizing 
        military spending at the expense of other important areas and 
        making material sacrifices, despite a difficult economic 
        situation.
  --In 2016, Tunisia allocated nearly 15 percent of its national budget 
        (the equivalent of more than 2 percent of GDP) to military and 
        security spending. This includes increased training and 
        Tunisian purchases of U.S. military equipment and systems, 
        including Black Hawk helicopters.
  --Tunisia is not the only country in the region that is fighting 
        terrorism. But it is the only country in the Middle East and 
        North Africa that is fighting terrorism while transitioning 
        from dictatorship to a democratic system. Our commitment to 
        democratic principles and our shared values create the bedrock 
        of our long-term partnership with the United States.
    Given the facts mentioned above, we kindly request your valued 
mediation within Congress in order to preserve Tunisia from the 
budgetary cuts, by appropriating $165.4 million for bilateral funding 
in fiscal year 2018. This requested level would renew the same amount 
granted for Tunisia in fiscal year 2017, of which $65 million is 
designated for an FMF grant and $79 million is designated for ESP.
    As we celebrate this year the 220th anniversary of the 
establishment of our diplomatic relations, we are relying on your 
leadership to support Tunisia's request. That support will not only 
help Tunisia play its rightful role in bringing security and stability 
to the region, but reaffirms the United States' firm commitment to 
building a strategic partnership with Tunisia.
    I am grateful for your ongoing support and leadership. I would be 
delighted to meet you to discuss this in greater detail. Please accept, 
Honorable Chairman, the assurances of my highest consideration and 
esteem.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
           Prepared Statement of the Ambassador of Sri Lanka

                                                      June 1, 2017.
Hon. Lindsey O. Graham,
290, Russell Senate Office Building,
Washington, DC 20510.

Honorable Senator Graham,

    As you are aware, the 2015 presidential election in Sri Lanka 
ushered a new political era that enabled a national Unity Government to 
embark upon transformative political and economic reforms, paving the 
way for deepening the engagement between Sri Lanka and the United 
States. As a result, Sri Lanka and the United States have now 
established a regular ``U.S.-Sri Lanka Partnership Dialogue'' 
encompassing all aspects of our bilateral relations.
    As a strategically located island abutting the major sea lanes of 
the Indo-Asia-Pacific, Sri Lanka values its partnership with the United 
States, among others, to ensure maritime security and freedom of 
navigation in the Indian Ocean for the mutual benefit of both 
countries. As Sri Lanka develops into a major business hub in the Indo-
Asia-Pacific, cooperation and engagement with the United States will 
become even more important.
    Meanwhile, USAID has been carrying out impactful work in Sri Lanka 
targeting economic growth, strengthening democratic institutions and 
promoting reconciliation to consolidate post-conflict social and 
political stability. Assistance, especially to the conflict-affected 
regions, has served as a catalyst and force multiplier for development. 
Therefore, Sri Lanka is deeply perturbed by the U.S. State Department's 
proposed fiscal year 2018 budget reducing USAID led assistance to Sri 
Lanka by 92 percent.
    Sri Lanka's goal is to make the economy resilient, stable and 
efficient to cutback dependency on foreign loans, which takes a huge 
toll on the economy due to increasing debt burden. As a result of the 
massive infrastructure projects undertaken by the previous government 
with Chinese assistance, the debt to China is substantial. The dire 
financial situation inherited by the current unity government has 
placed it in a difficult position, as it needs to deliver livelihood 
support to the people, who suffered during the 30 year armed conflict 
which ended in 2009. Such assistance is essential for the success of 
the ongoing reconciliation process.
    United States assistance for Sri Lanka to provide a meaningful 
peace dividend to the people and to harness its potential as a service 
and business hub in the Indo-Pacific will usher further progress in the 
bilateral partnership. Hence, sustaining a meaningful budget line for 
USAID led assistance to Sri Lanka is critical. Programmes by USAID, 
Peace Corps, MCC, which manifest U.S. support to improve the lives of 
the people, and complement military to military cooperation, are 
essential in the context of regional developments and to win the 
confidence of the Sri Lankan people manifesting the efficacy of the 
U.S.-Sri Lanka partnership.
    Sri Lanka is pleased to have been selected for an MCC Compact 
Programme and is looking forward to the benefits that will accrue once 
project implementation commences in the years ahead. However, given the 
very nature of the MCC projects, results will only be felt over time, 
unlike USAID programmes.
    Tangible U.S. assistance can backstop Sri Lankan leaders against 
any roll back in progress and provide leverage to the United States' 
interests as well. This can shrink the space available for those with 
vested interests who clamour to vitiate the Sri Lanka-United States 
partnership.
    The European Union restored the GSP+ tariff concession facility for 
Sri Lanka earlier this month, recognizing Sri Lanka's progress in 
reforms since 2015. At a time the government and people of Sri Lanka 
are in need of similar support, it would seem insensitive for the 
U.S.--the most important partner for Sri Lanka outside of South Asia--
to curtail assistance to Sri Lanka.
    60 years of development support for the fellow democracy of Sri 
Lanka, indeed the oldest in Asia, must continue and even expand, as 
both countries head towards the 70 year mark in diplomatic relations in 
2018. Therefore, I appeal to you to lend your voice during 
congressional deliberations on the fiscal year 2018 budget to support 
sustaining USAID led assistance to Sri Lanka to nurture our mutually 
beneficial bilateral partnership.

With my highest regards,
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Prasad Kariyawasam
Ambassador
                                 ______
                                 
        Prepared Statement of the American Academy of Diplomacy
Dear Chairman Graham and Senator Leahy,

    Thank you for this opportunity for me to provide the perspective of 
the American Academy of Diplomacy on the current State Department 
Budget proposal and potential reorganization. The Academy is an 
organization of the Nation's most distinguished former diplomats, both 
career and non-career. It is a non-partisan, non-governmental 
organization dedicated to strengthening American diplomacy.
    We believe that a strong diplomacy is essential to American 
security and that such a diplomacy must rest on a strong State 
Department. This, in turn requires a strong Foreign Service and a 
strong Civil Service. The multiplicity of American interests around the 
globe from security and peace-making to protecting citizens and 
promoting business demands a complex and functioning institution. And, 
as even the most cursory list of interests illustrates, it is a job 
done mostly overseas. It is from these basic principles that we derive 
our comments on reorganization and the budget.
The Administration's Proposed Budget Injures American Security
    Both reorganization and the budget must reflect value judgments 
about the goals American diplomacy is organized to advance. It is in 
this regard that we have the most profound disagreement with the 
proposed budget, which is more likely to weaken American security than 
to promote it.
    Military operations take place for political purposes. It is 
diplomacy that is crucial to building enduring solutions before, during 
and after combat. This is a currently ongoing situation with multiple 
high priority needs in Iraq, Afghanistan and Pakistan. We do not 
understand how these tasks can be managed with a 42 percent cut in 
Overseas Contingency Operations (OCO) from fiscal year 2017.
    There can and should be debate about how much the United States 
spends on humanitarian and developmental assistance. But to largely 
turn our back on humanitarian needs or not even to do our part in 
development seems both a moral failing and an invitation to resentment. 
Our contributions to refugees and development are critical to avoid 
humanitarian crises from spiraling into conflicts that would draw in 
the United States and promote violent extremism.
    We believe the approximately 37 percent cut in U.N. peacekeeping 
funding is misguided. Peacekeeping and political missions are mandated 
by the Security Council where our veto power can ensure when, where, 
how many, and what kind of peacekeepers are used in a mission that 
support U.S. interests. Peacekeeping forces are deployed in fragile, 
sometimes prolonged, circumstances, where the U.S. would not want to 
use U.S. forces. U.N. organized troops cost the U.S. taxpayer only 
about one-eighth the cost of sending U.S. troops. Budget cuts of the 
amounts contemplated endanger basic U.S. security interests.
    Our contributions to refugees and development are critical to avoid 
humanitarian crises from spiraling into conflicts that would draw in 
the United States and promote violent extremism. Eliminating the 
Presidentially-directed, Emergency Refugee and Migration Assistance 
(ERMA) account and cutting the Migration and Refugee Assistance (MRA) 
are contradictory to the basic humanitarianism manifested by the Statue 
of Liberty.
    The proposed cuts to public diplomacy and educational exchanges 
seem to us similarly misguided. This is a time when our longstanding 
commitments to the institutions on which the world has relied for 
security and prosperity for more than 70 years are called into doubt. 
Surely part of prudent policy will be to explain our intentions and our 
policies to others.
    Educational exchange is one of those long term policies whose 
evident merit has received broad bipartisan support over many years. 
Hundreds of thousands of foreign students have studied in the United 
States and gained an understanding of Americans and American culture. 
This is far more effective in countering radical propaganda than social 
media. The American Immigration Law Foundation estimates that 46 
current and 165 former heads of government are U.S. graduates. Yet 
according to USGLC the 2018 proposal of $285 million for Educational 
and Cultural Exchanges (ECE) is a 55 percent reduction from 2017. These 
cuts will affect almost every program. For example, the Fulbright 
program will be cut 47 percent from 2017 levels. The citizen exchange 
program would be cut by 58 percent. The resulting loss of international 
comprehension of the United States would be a self-inflicted wound.
    Chairman Graham, Senator Leahy, it is neither the purpose nor the 
intention of the Academy to take positions on every aspect of the 
budget. In fact, we would normally not take policy positions at all. 
That we do so now is only because the drastic cuts of the proposed 
budget, of which the foregoing are merely some examples, required 
response.
    Cuts of the magnitude proposed would be a disaster for America's 
long term security that rest extensively on the strength of our 
diplomacy. Where reductions must be made they should be attentive to 
maintaining the long term strength of our diplomatic institutions, 
especially the Foreign Service. Cut programs before people should be a 
watchword because programs can more easily be rebuilt than can damage 
to the preparation of staff.
Principles and Recommendations for Reorganization
    The Academy does not oppose sensible streamlining and elimination 
of positions in order to promote efficiency. The State Department has 
gone through many reorganizations over the years and a top to bottom 
look makes some sense. There are cuts and streamlining that we 
recommend as well as principles to keep in mind. To turn to specifics:
    Diplomacy is accomplished primarily overseas. Basically, the 
overseas presence should be maintained both for its daily mission and 
to position the United States to respond to crises. To take just a few 
examples, when the Islamic State suddenly appeared in Mali it was our 
Embassy that was able to recommend action based on knowing the 
difference between terrorists and local political actors that needed 
support. When Ebola in West Africa threatened a worldwide pandemic it 
was our Foreign Service who remained in place to establish the bases 
for and support the multi-agency health efforts deployed to stop the 
disease. It is to our embassies that American citizens turn for 
security and evacuation abroad. Our embassies commercial work supports 
hundreds of U.S. companies and citizens in selling abroad. This 
supports thousands of American jobs. Every dollar spent on this work 
returns hundreds in sales. Neither America's security nor its economic 
prospects can be advanced by drastic reductions to our overseas 
presence and the savings from doing so are inconsequential in terms of 
the Federal budget.
    Effective diplomacy must maintain a strong Foreign Service. The 
Congress recognized this in passing the Foreign Service Act of 1980 
(the Act). One essential of a strong Foreign Service is that the annual 
intake of Foreign Service personnel should not be terminated nor 
drastically reduced. Unlike the Civil Service, the Foreign Service has 
a flow-through up-and-out system, aligned with military practice. 
Interruptions in regular Foreign Service recruitment lead to serious 
personnel gaps years later. The last such break in recruitment in the 
1990's is one of the reasons that the Service had too limited a 
``bench'' of highly qualified senior officers in recent years; gaps, 
not wars, were largely responsible for the increased hiring necessary 
in the last decade. As we speak State has still not made a decision to 
bring in the July entry class of Foreign Service Officers. This is a 
serious mistake that will injure the Service for many years. It should 
be corrected.
    It is doubly serious because the Foreign Service, as up-or-out 
service will lose about 300-400 FSOs and Specialists each year by 
selection out for low ranking, expiration of time in class, failure to 
pass over a promotion threshold or reaching the mandatory retirement 
age of 65.
    That said, the Department of State could be more efficiently run 
and not every cut is a bad idea. There are now 54 special envoys, 
coordinators, and ambassadors and 68 if one includes the various 
categories of special and senior advisor. Weed-like, these offices have 
proliferated. While some of the issues thus managed are important, 
creating separate offices consumes hundreds of staff positions and 
frequently duplicates rather than reinforces attention. Many of the 
functions performed by these offices should be placed in the regular 
bureaus. These positions and most of their staffs should be eliminated 
except where the relevant assistant secretary believes one is needed to 
conduct business for the Department. The Congress could be helpful by 
taking a flexible approach to the need for these offices and whether 
their tasks can be better managed elsewhere.
    The Academy supports the removal of the second Deputy Secretary 
position. We believe it is not needed and has led to overlap and 
confusion with the other deputy. If the much larger Defense Department 
can manage with one deputy, so can State.
    The number of Under Secretaries has swelled in recent years. 
Reductions to three or four should be considered. To manage with a 
smaller number of undersecretaries, consideration should be given to 
combining bureaus (and therefore reducing the numbers to be 
supervised), particularly in the functional area, so that the 
responsibility increases while the structure is reduced.
    The number of Deputy Assistant Secretary positions also has grown 
considerably. These positions can be reduced and more responsibility 
pushed to office directors and their staffs.
    In our view the key positions of Political and Management Under 
Secretaries, the Director General and the Dean of the Foreign Service 
Institute should be career Foreign Service Officers. The Director 
General, a position established by the Act, should be appointed from 
those that have the senior experience and personal gravitas to look out 
for the long-term future of the staff needed for an effective 
diplomacy.
    Every administration since Truman's has faced unanticipated 
interventions overseas. Because the Foreign Service is fully deployed 
at all times each intervention has found State lacking in its ability 
to support our interests and our military colleagues with adequate 
numbers in the field. It is irresponsible to assume this pattern will 
not repeat. State needs such a surge capacity. Whether this is done 
through the Stabilization and Crisis Bureau (SCO), reserves, or some 
other mechanism, the problem needs to be addressed.
    The Civil Service needs greater career mobility. In our 2015 report 
American Diplomacy at Risk we proposed one idea for an excepted service 
within the Civil Service that would allow rotation, including overseas, 
in return for accepting some of the requirements of rank in person, 
competitive evaluation, and selection out.
    These and other recommendations of the Academy demonstrate that we 
support sensible reorganization. We do not support changes driven 
solely to accomplish budget objectives which are seriously misguided. 
As the Department's reorganization plans come into clearer focus, we 
would welcome the opportunity to continue providing our views to the 
Congress.

    [This statement was submitted by Ronald E. Neumann, Ambassador 
(retired), President.]
                                 ______
                                 
     Prepared Statement of the American Foreign Service Association
    Today, 9 in 10 Americans support strong U.S. global leadership. 
Such leadership is unthinkable without a strong professional Foreign 
Service deployed around the world protecting and defending America's 
people, interests, and values. American leadership is being challenged 
by adversaries who want to see us fail; we cannot let that happen. We 
need to reassure our allies, contain our enemies, and assert U.S. 
leadership around the globe. If the United States retreats, we leave a 
vacuum that will be filled by others who do not share our values or 
interests. Walking that back--reclaiming American global leadership--
would be a daunting and uncertain task, in short, a grave risk we 
should not take.
    American Foreign Service Association (AFSA) members are over 16,600 
professionals, active and retired, from the Department of State, USAID, 
the Department of Commerce, the Department of Agriculture, and the 
Broadcasting Board of Governors. Our members spend approximately two-
thirds of their careers deployed overseas, usually in difficult and 
often in dangerous places. We maintain an enduring presence at 270 
embassies and consulates around the world, so Americans seeking to 
navigate unfamiliar terrain--whether to study, adopt a child, or expand 
an export market--have a home base to turn to, an Embassy staffed by 
fellow Americans who speak the local language fluently and know how to 
get things done.
    AFSA is extremely grateful for the expressions of support from 
members of Congress and from the public. The value of the Foreign 
Service is clearer to Americans than ever. But AFSA members, who care 
deeply about American global leadership, are worried. If the budget 
reductions proposed by the administration are approved by Congress, we 
could seriously degrade the capacity of the Foreign Service to help 
sustain American leadership. As Senator Lindsey Graham, the head of the 
State and Foreign Operations Sub-Committee of the Senate Appropriations 
Committee (SACFO) has noted, ``A 29 percent cut means you really have 
to withdraw from the world because your presence is compromised. That 
may be the goal of this budget. It's not my goal. This guts soft power 
as we know it.''
    Members of the Senate Foreign Relations Committee have described 
the Foreign Service as being among the ``most skilled, loyal, and 
motivated workforces of any organization on the planet.'' We are 
encouraged by these words and believe we are exactly the right national 
security instrument for the moment: a corps designed to be regularly 
redeployed around the world in pursuit of the President's foreign 
policy priorities. Consequently, we have to ensure that our budget 
priorities do not cut short our critical capabilities. If we damage 
core diplomatic capability by cutting off the flow of new officers, we 
risk walking off the field and forfeiting the game to our adversaries.
    Diplomacy is also the most cost-effective tool in the national 
security toolkit. The cost of helping to ensure a Europe whole and 
free, stopping ethnic conflict in the Balkans, or making peace between 
the Government of Colombia and FARC rebels pales in comparison to the 
cost of sustaining a war. As the SACFO ranking member Senator Leahy 
said, ``National security is not solely the mission of the Department 
of Defense. The President says he prefers ``hard'' power to ``soft'' 
power, but the notion that ``soft'' power is weak or wasteful is 
mindless. Failing to invest in America, and cutting programs that feed 
millions, prevent AIDS or treat tuberculosis and malaria, will make the 
world less stable, and make your job more difficult. Secretary Mattis . 
. . has said if we do not fully fund the State Department, we should be 
prepared to buy more ammunition for the military. That is not a trade I 
am willing to accept.''
    The very existence of skilled diplomats and development 
professionals in our national security arsenal allows us to reject that 
trade-off. For example, fighting ISIS is a top priority of this 
Administration, and the Foreign Service has the skill and field 
experience to help with the fight. As former Appropriations Chairman 
Rogers said to Secretary Tillerson, ``We need an aggressive plan to 
fight ISIS and any other enemy that wishes us harm. Secretary Tillerson 
and I agree that this requires a comprehensive approach, including not 
just military engagement, but also the full and responsible use of all 
diplomatic tools at our disposal. While the full budget picture has yet 
to emerge, we intend to work closely together over the next cycle to 
ensure that the necessary resources are available to fulfill these 
goals.''
    The Foreign Service has regional and language knowledge, top-notch 
reporting skills, and sophisticated public diplomacy capabilities. We 
know how to get things done overseas--how to coax a partner overseas to 
``yes'' with the lightest touch and the maximum residual goodwill. Our 
annual performance ratings, by which we are rank-ordered against our 
peers, are judged according to how well we met mission goals. Because 
these rankings have real consequences--determining whether we are 
promoted and can continue to serve, or low-ranked and forced out--they 
serve as a powerful way to ensure we are responsive to the priorities 
of successive administrations.
    While we know the administration is focused on some core 
priorities, such as fighting ISIS, protecting our border, countering 
international criminal activity, and preventing the spread of 
epidemics, but we still have no sense of overall foreign policy 
direction. As Secretary Tillerson put it in an April town hall meeting 
at State, ``if we don't know where we're going, all roads will take you 
there. `` We agree and would encourage Congress to ask the 
administration to provide the kind of strategic clarity that enables 
the Foreign Service to do our best delivering for America, using all 
our skills to the fullest and not letting them atrophy. We know from 
experience that understanding the administration's game plan allows 
diplomats to create the most effective means to get us where we want to 
go.
    The Foreign Service is modeled on the military, in particular on 
the Navy. Our rigorous entry requirements and the up-or-out system 
ensure high performance and accountability and keep us lean. The out in 
up-or-out is real, and many if not most members of the Foreign Service 
are required to leave the Service long before they are ready. This 
amounts to a built-in annual reduction in force, something we accept as 
part and parcel of maintaining a high-performing, accountable 
workforce. But this self-renewing system depends on a steady stream of 
new recruits to function. If we don't hire entry-level officers this 
year, we won't have FS-1s (colonel equivalents) in 20 years. Flow-
through is critical now--and for the future.
    The next year or two will be a period of clear prioritization in 
the Department of State. We certainly see the case for streamlining, 
which could increase diplomatic effectiveness, but it has to be done 
carefully and with an eye to preserving core capability. We would like 
to see our professional talent unleashed by getting rid of overly-
complex bureaucratic procedures that keep our Foreign Service checking 
boxes instead of doing their jobs. Making these processes truly client-
centered would literally change lives.
    We would like to partner with Congressional supporters to ensure 
that today, and 15 or 20 years from now, U.S. diplomats are still on 
the field, deployed around the world, protecting and promoting U.S. 
interests, and working at the top of their game. We should not, in a 
dangerous world, abandon the field to our adversaries.
    The United States has enjoyed a position of unprecedented global 
leadership in our lifetimes. This leadership was built on a foundation 
of military might, economic primacy, good governance, tremendous 
cultural appeal--and diplomatic prowess to channel all that power, hard 
and soft, into global leadership that has kept us safe and prosperous 
at home. This did not happen by chance. It was not destiny. It was 
effective diplomacy.
    As Secretary Tillerson said in his confirmation hearing, ``America 
has been indispensable in providing the stability to prevent another 
world war, increase global prosperity and encourage the expansion of 
liberty.'' To continue to lead the world, America needs diplomacy, and 
for effective diplomacy, we need an adequately resourced professional 
Foreign Service.

            Thank you.

    [This statement was submitted by Barbara J. Stephenson, President.]
                                 <greek-l>
                                 ______
                                 
                         Business Leaders deg.
   Prepared Statement of 225 Business Leaders in Support of the U.S. 
                      International Affairs Budget
                                                      May 22, 2017.
Secretary Rex Tillerson,
U.S. Department of State,
Washington, DC.

Dear Secretary Tillerson,

    As business leaders, we are writing to voice our strong belief in 
the return on investment from the U.S. International Affairs Budget in 
advancing America's economic interests overseas and supporting jobs at 
home.
    With 95 percent of the world's consumers outside the United States 
and many of the fastest growing economies in the developing world, now 
is the time to double down on America's global economic leadership. 
America's diplomats and development experts help build and open new 
markets for U.S. exports by doing what only government can do: fight 
corruption, strengthen the rule of law, and promote host country 
leadership to create the enabling environment for private investment. 
Our country's investments have generated impressive results: 11 of 
America's top 15 export markets are in countries that have been 
recipients of U.S. foreign assistance.
    Strategic investments in diplomacy and development make America 
safer and more prosperous. American companies depend on robust U.S. 
engagement overseas, especially in the fast growing markets in the 
developing world. Our embassies and consulates around the world are 
essential partners for American businesses to ensure we can compete on 
a level playing field. Trade promotion programs have helped drive 
American exports, which today make up almost 13 percent of America's 
$18 trillion economy and support about one in five American jobs.
    The State Department and USAID are increasingly partnering with 
American businesses to catalyze and leverage private sector expertise 
and resources to create sustainable solutions at scale on a range of 
challenges such as energy, health, and agriculture. And today, host 
countries themselves are driving policy changes to compete for American 
investments. Moreover, America's global economic leadership also 
embodies our country's values--promoting economic freedom, prosperity, 
and entrepreneurship that can mitigate the drivers of violent extremism 
in the world today. In today's global economy, we have a significant 
opportunity to strengthen the State Department, USAID, and our 
development agencies and the capacity to partner with the private 
sector to address global challenges and to expand opportunity.
    We are committed to working with you in your role as Secretary of 
State to share our perspectives on the importance of U.S. international 
affairs programs to boost our exports abroad and our jobs here at home, 
and we urge your support for a strong International Affairs Budget for 
fiscal year 2018.

            Respectfully,

Chris Policinski
President and CEO
Land O'Lakes

Andrew Tisch
Co-Chairman
Loews Corporation

David MacLennan
Chairman and CEO
Cargill

Sarah Thorn
Senior Director, Global Government Affairs
Walmart

Caroline Roan
Vice President, Corporate Responsibility
Pfizer, Inc.
President
Pfizer Foundation

Kate Rumbaugh
Vice President, Government Relations
The Coca-Cola Company

John Murphy
Senior Vice President for International Policy
U.S. Chamber of Commerce

Jim Collins
Executive Vice President
DuPont

Brad Figel
Vice President Public Affairs North America
Mars, Inc.

Connie Justice
President
Planson International

Paul Neureiter
Executive Director for International Government Affairs
AMGEN

Kathryn Reilly
Global Director Public Affairs
Aon

Tara Hogan Charles
Associate Director, Global Government Relations
Procter & Gamble

H. C. Shin
Executive Vice President, International Operations
3M

Michael Boyle
CEO
Boyle Energy Services & Technology

Bill Lane
Chair Emeritus
U.S. Global Leadership Coalition

Jeff Rowe
President of Global Seeds and North America
Syngenta

Philip de Leon
Director, Public Affairs & International Business
AGCO Corporation

Hugh Welsh
President
DSM Nutrition

Peter Tichansky
President
Business Council for International Understanding

Doug Galen
CEO
RippleWorks

David Wilhelm
Partner & Chief Strategy Officer
Hecate Energy

Pamela Venzke
Global Government Affairs & Policy
General Electric

Florizelle Liser
President & CEO
Corporate Council on Africa

Kathryn D. Karol
Vice President, Global Government & Corporate Affairs
Caterpillar Inc.

Dan Gaynor
Global Communications
Nike

Kevin Kolevar
Vice President, Global Government Affairs
The Dow Chemical Company

Laura Lane
President, Global Public Affairs
UPS

Melissa Froehlich-Flood
Vice President, Government Affairs
Marriott

Gary M. Cohen
Executive Vice President and President
Global Health and Development BD (Becton, Dickinson and Company)

Lisa Malloy
Senior Director, Global Policy Group
Intel Corporation

Kris Charles
Senior Vice President, Global Corporate Affairs
Kellogg

Ambassador Richard Holwill
Vice President, Public Policy
Amway

Jeffrey N. Simmons
President
Elanco Animal Health

Tom Halverson
CEO
CoBank

Ken Fletcher
CAO
Pike Enterprises

Peter M. Robinson
President & CEO
United States Council for International Business

Karl Jensen
Senior Vice President, National Governments
CH2M

Ward Brehm
Founder, Chairman
The Brehm Group

Chris Keuleman
Vice President, Global Government Relations
International Paper

Frederick S. Humphies, Jr.
Corporate Vice President, U.S. Government Affairs
Microsoft Corporation

Dave Adkisson
President & CEO
Kentucky Chamber of Commerce

Joseph Albert
Owner
Eli H. Albert Agency

Diane Alleva Caceres
Principal
Market Access International, Inc.

Luis Arguello
President & CEO
DemeTECH

Jeremy Arthur
President & CEO
Chamber of Commerce Association of Alabama

Connie Bacon
Commissioner
Port of Tacoma

Doug Badger
Executive Director
Pacific Northwest International Trade Association

Travis Barnes
President & Founder
Hotel Tango Artisan Distillery

Gene Barr
President & CEO
Pennsylvania Chamber of Business and Industry

Kurt R. Bauer
President & CEO
Wisconsin Manufacturers & Commerce

Lane Beattie
President & CEO
Salt Lake Chamber

Jon Bennett
Vice-President of Business Development
Catalyze Dallas

Thomas Bentley
Owner & Chairman of the Board
Bentley World Packaging

John Bernloehr
President
Consolidated Metal Products, Inc.

Carl Blackstone
President & CEO
Greater Columbia Chamber of Commerce

Silvia Bonilla
Director, Small Business Development Center
Illinois Hispanic Chamber of Commerce

Antonio Boyd
President
Think Tank Consulting Group, LLC

Tony Braida
Vice President
Bankers Trust Global Banking

Becky Brooks
President & Executive Director
Ruidoso Valley Chamber of Commerce

Kelly Brough
President & CEO
Denver Metro Chamber of Commerce

Cindy Brown
President
Chippewa Valley Bean

John Bruntz
President & CEO
The Boulder Company

Anne Burkett
Executive Director
North Alabama International Trade Association

Bob Burleson
President
Florida Transportation Builders Association

Jay Byers
President & CEO
Greater Des Moines Partnership

Steve Cain
President
Triangle North Carolina British American Business Council

William Canary
President & CEO
Business Council of Alabama

Ben Cannatti
Executive Director
Main Street Jobs Coalition

John Casper
President & CEO
Oshkosh Chamber of Commerce

Kip Cheroutes
President
Japan-U.S. Network, Inc.

Lalit Chordia
President & Founder
Thar Tech

Gil Cisneros
Chairman & CEO
Chamber of the Americas

Jay Clemens
President & CEO
Associated Oregon Industries

Jonathan Coffin
Vice President
VOX Global

Harvey Cohen
President
KZB, Inc.

Todd Connor
CEO
Bunker Labs

Caralynn Nowinski Collens
CEO
UI LABS

Alfonso Cornejo
President
Hispanic Chamber Cincinnati USA

Bill Cronin
President & CEO
Pasco Economic Development Council, Inc.

Joe Crookham
President
Musco Lighting

Maryann Crush
Manager
South Boston Transit Systems, LLC

Dan Culhane
President & CEO
Ames Chamber of Commerce

Yuri Cunza
President & CEO
Nashville Area Hispanic Chamber of Commerce

Eric Dallimore
Owner
Leon Gallery

Sarah Davasher-Wisdom
COO
Greater Louisville, Inc.

Daniel Davis
President & CEO
Jacksonville Chamber of Commerce

Richard Dayoub
President & CEO
Greater El Paso Chamber of Commerce

Ryan Deckert
President
Oregon Business Association

Connor Deering
President
Cemen Tech, Inc.

Dustin DeVries
Co-Founder, Technology Consultant
Caffeine Interactive Technologies

Brian Dicken
Vice President of Advocacy & Public Policy
Toledo Regional Chamber of Commerce

Billie Dragoo
Founder & CEO
RepuCare

Steve Dust
President & CEO
Greater Cedar Valley Alliance and Chamber

Barry DuVal
CEO
Virginia Chamber of Commerce

Lauri Elliott
Chairman & Executive Director
Afribiz Group, Inc.

Jason Espinoza
President
New Mexico Association of Commerce and Industry

Joe E. Evans
Owner
Evtex Companies

Keith Evans
President
Key Financial Insurance Agency, Inc.

Teresa Faidley
Senior Vice President
Schaumburg Bank & Trust Company N.A.

Terry Fankhauser
Executive Vice President
Colorado Cattlemen's Association

Ronald J. Finlayson
CEO
E-Systems Corporation

Beverly Flaten
Vice President of International & Domestic Marketing
JM Grain

Henry Florsheim
President & CEO
Wichita Falls Chamber of Commerce

Michael Ford
Chairman
Mid-Atlantic District Export Council

Nathan Frampton
President
Fanimation

Stephanie Freeman
President & CEO
Dunwoody Perimeter Chamber

Jenny Fulton
Founder
Miss Jenny's Pickles

David Gessel
Executive Vice President
Utah Hospital Association

Matt Glazer
Executive Director
Austin Young Chamber of Commerce

Howard Glicken
Founder, Chairman & CEO
The Americas Group

Neel Gonuguntla
President
US India Chamber Of Commerce DFW

Dean Gorder
Executive Director
North Dakota Trade Office

Terry Grant
President, Utah Market
KeyBank

Trey Grayson
President & CEO
Northern Kentucky Chamber of Commerce

Keith Guller
CEO
Essex Industries

Dan Haley
President & CEO
Colorado Oil & Gas Association

David Hart
Executive Vice President
Florida Chamber of Commerce

Chris Henney
President
Ohio Agribusiness Association

Aaron Hermsen
Director of Business Development
China Iowa Group

Dave Hofferbert
President
Bond Technologies, Inc.

Gregory Hopkins
Partner & President
Solitude Wealth Management

Kevin Hougen
President & CEO
Aurora Chamber of Commerce

Galen Hull
President
Hull International

Thomas Hulseman
Managing Director
Metro Chicago Exports

Mark Ingrao
President & CEO
Greater Reston Chamber of Commerce

Bob Jameson
President & CEO
Fort Worth Convention & Visitors Bureau

Andrea Jett Fletcher
Executive Director
French-American Chamber of Commerce

John Kalaras
CEO
Quality Training Institute

Jeffrey B. Kendall
President
JBK Integrated Solutions, LLC

Robert Kill
President & CEO
Enterprise Minnesota

Joseph Kirk
Executive Director
Mon Valley Progress Council

Wally Kocemba
Chairman & CFO
Calhoun Companies

Katie Kruger
CEO
Denver Metro Commercial Association of REALTORS

Matt Krupp
Co-Owner
Desantis Krupp, LLC

Kitty Kurth
President
Kurth Lampe

Emily Lane
Vice President of Sales
Calendar Islands Maine Lobster

Craig Lang
President
The Prairie Strategy Group

Lloyd Le Page
President & CEO
Heartland Global, Inc.

Kirk Leeds
CEO
Iowa Soybean Association

Donna Lindquist
President
Soleil Global Communications

Lou Ann Lineham
President
Linehan Associates, LLC

Doug Loon
President
Minnesota Chamber of Commerce

Kevin Lutz
President
Armstrong Printery, Inc.

Kevon Makell
Founder & CEO
Seww Energy

Dr. Toby Malichi
Founder, Global Chief Executive, and Ambassador of Trade
Malichi Group Worldwide

Ron Marston
President & CEO
HCCA International

Frances Martinez
Founder & CEO
North Shore Latino Business Association, Inc.

Nick Mastronardi
Founder & CEO
POLCO

Jason Mathis
Executive Director
Downtown Alliance

Robert Mayes
CEO
Keel Point

Eddie McBride
President & CEO
Lubbock Chamber of Commerce

Sandi McDonough
President & CEO
Portland Business Alliance

Candace McGraw
CEO
Cincinnati/Northern Kentucky International Airport

Larry McQueary
COO
Indy Fuel

Daniel McVety
President
Japan China Carolina

J. Patrick Michaels
Founder, Chairman & CEO
CEA Group

David Milton
Chief Supply Chain Officer
Payless ShoeSource

Mortada Mohamed
Executive Director
Texas International Business Council

Aneezal Mohamed
General Counsel, Compliance Officer & Secretary
Commercial Vehicle Group

Beau Morrow
Owner
Left Hand Design

Wilfred Muskens
President & CEO
Stevens & Lee

Ron Ness
President
North Dakota Petroleum Council

Saul Newton
Executive Director
Wisconsin Veterans Chamber of Commerce

Laura Ortega
Executive Director, International Business Council
Illinois Chamber of Commerce

Ersal Ozdemir
President & CEO
Keystone Corporation

Jerry Pacheco
President
Border Industrial Association

Jim Page
President & CEO
Chamber of Commerce of West Alabama

Richard Paullin
Executive Director
The International Trade Association of Greater Chicago

Raymond Pilcher
President
Raven Ridge Resources

Heather Potters
Chief Business Development Officer
PharmaJet, Inc.

Ramiro Prudencio
President & CEO
Burson-Marsteller Latin America

Robert Quick
President & CEO
Commerce Lexington

Laurie Radke
President
Green Bay Area Chamber of Commerce

Rona Rahlf
President & CEO
Utah Valley Chamber of Commerce

Brooks Raiford
President & CEO
North Carolina Technology Association (NCTA)

Michael Ralston
President
Iowa Association of Business and Industry

Bede Ramcharan
President & CEO
Indatatech

Olga Ramundo
President
Express Travel

Josh Rawitch
Senior Vice President, Communications
Arizona Diamondbacks

Joe Reagan
President & CEO
St. Louis Regional Chamber

Jeff Reigle
President & CEO
Regal Ware, Inc.

Gene Reineke
CEO
Hawthorne Strategy Group

John Reinhart
CEO & Executive Director
Port of Virginia

Colin Renk
Executive Director
America China Society of Indiana

Sandra Renner
CEO
FasTrack Global Expansion Solutions, Inc.

Jim Roche
President
Business & Industry Association of New Hampshire

Bob Rohrlack
President & CEO
Greater Tampa Chamber of Commerce

Robert Rotondo
President
Rotondo Enterprises, Inc.

Jack Roy
Owner
Jax Enterprises

David Rudd
Partner
Ballard Spahr, LLP

Rebecca Ryan
Founder
Next Generation Consulting

Mel Sanderson
Vice President of International Affairs
Freeport McMoRan, Inc.

Lydia Sarson
Executive Director
German American Chamber of Commerce of Philadelphia

Joe Savarise
Executive Director
Ohio Hotel & Lodging Association

Chris Saxman
Executive Director
Virginia FREE

David Schaffert
CEO
Olympia Thurston County Chamber of Commerce

Dean Schieve
President
Victus Motion and DMD Consulting

Michael Schmitt
Executive Director
America-Israel Chamber of Commerce Chicago

Bret Scholtes
President & CEO
Omega Protein Corporation

Ralph Schulz
President
Nashville Area Chamber of Commerce

Mike Shanley
Founder & CEO
Konektid International

Stephanie Simpson
Vice President
Texas Association of Manufacturers

Bill Sisson
President & CEO
Mobile Chamber of Commerce

Nathan Slonaker
President
Columbus International Affairs Opportunity

Jim Spadaccini
CEO & Creative Director
Ideum

Bruce Steinberg
President
Relyco

Michael Strange
President
Bassett Ice Cream

Carol Stymiest
President
Canadian Business Association of North Carolina

Greg Summerhays
President & CEO
Sandy Area Chamber of Commerce

David Taylor
President
Pennsylvania Manufacturers Association

Christian Thwaites
Chief Strategist
Brouwer & Janachowski

Jon Troen
President & CEO
Mittera Group

Brett Vassey
President & CEO
Virginia Manufacturers Association

Liane Ventura
Senior Vice President
Greater Miami Chamber of Commerce

Chad Vorthmann
Executive Vice President
Colorado Farm Bureau

Chris Wallace
President
Texas Association of Business

Jeff Wasden
President
Colorado Business Roundtable

Joyce Waugh
President & CEO
Roanoke Chamber of Commerce

Cherod Webber
President & CEO
Innovative Global Supply,LLC

Ed Webb
President & CEO
World Trade Center Kentucky

Deborah Wilkinson
President
Wilkinson Global Connections

Sheryl Wohlford
Owner
Automation-Plus

Richard Yang
President
Carolinas Chinese Chamber of Commerce

Steven Zylstra
President & CEO
Arizona Technology Council
      
                                 ______
                                 
                     Prepared Statement of CARE USA
    CARE USA thanks Chairman Graham and Ranking Member Leahy for the 
opportunity to submit testimony on the administration's fiscal year 
2018 budget proposal. With more than 71 years of experience in 
providing emergency humanitarian assistance and long-term development 
assistance in over 94 countries around the world, CARE has serious 
concerns that the administration budget proposal would inflict long 
term damage on our national security and global development needs. This 
budget will jeopardize millions of lives, and reverse decades of 
efforts to bring sustainable development, opportunity, health and 
dignity to people around the world. In short, this proposed budget 
would inflict human and political costs that far outweigh any potential 
budget savings.
    In many countries around the world, the relief, hope and skills 
brought by U.S. humanitarian and development programs are often the 
only direct knowledge people have of the United States. These programs 
create a more stable world by providing assistance, opportunity and 
tangible improvement to people's lives. Stepping back from this 
leadership role would not just impact the lives of millions, it would 
mark the end of the American era--the point where the United States 
decisively turned its back on those most vulnerable, allowing the 
exploitation of human needs to go unchecked.
    While the U.S. faces its own economic challenges, shifting less 
than 1 percent of the Federal budget from these programs will not solve 
America's deficit concerns. Instead, such cuts would take away from 
core national security investments and preventative interventions in 
order to seek political gain at the expense of the world's most 
vulnerable people.
    Therefore, CARE urges this Committee to use its constitutional 
authority to protect the International Affairs account, oppose any 
disproportionate cuts to international humanitarian and development 
programs, fully exercise its oversight authorities, and preserve 
critical expertise within the U.S. Government.
Our Current Challenges
    Our global political system is currently facing the largest 
humanitarian needs we have known in modern human history, with 65 
million people living in displacement, and over 30 million facing 
deadly famine conditions. Unfortunately, these numbers continue to grow 
every day. Conflict, extreme weather, pandemics, and natural disasters 
continue to impact millions.
    Despite these growing challenges, and political suggestions to the 
contrary, U.S. foreign assistance programs are working:
  --In many areas where the U.S. Agency for International Development 
        (USAID) is implementing agricultural development and food 
        security programming, extreme poverty has dropped between 7 and 
        36 percent, child stunting has dropped between 6 and 40 
        percent, and more than 10 million smallholder farmers are now 
        able to apply new technologies and management practices.\1\
---------------------------------------------------------------------------
    \1\ Investing in our Shared Future: How a Confident and Capable 
USAID is Building on a Proud Legacy of U.S. Development Leadership 
(USAID Exit Memo, Gayle Smith, January 2017).
---------------------------------------------------------------------------
  --Partners currently supported by OPIC are sustaining livelihoods for 
        nearly 1 million smallholder farmers, allowing them to grow 
        themselves out of poverty and creating future markets for 
        trade.\2\
---------------------------------------------------------------------------
    \2\ Exit Memo: Overseas Private Investment Corporation (Elizabeth 
Littlefield, January 5, 2017).
---------------------------------------------------------------------------
  --In 10 years, U.S. malaria programing has saved 6 million lives, 
        many of them children.\3\ Over the last 8 years, 4.6 million 
        children have been saved from dying of preventable diseases 
        because of U.S. assistance.\4\
---------------------------------------------------------------------------
    \3\ Investing in our Shared Future: How a Confident and Capable 
USAID is Building on a Proud Legacy of U.S. Development Leadership 
(USAID Exit Memo, Gayle Smith, January 2017).
    \4\ 5000th Baby Born at UNFPA-Supported Clinic for Refugees in 
Jordon, March 8, 2016.
---------------------------------------------------------------------------
  --In fiscal year 2016, U.S. investments in family planning and 
        reproductive health provided 26 million women and couples with 
        the tools they need to time and plan their pregnancies, 
        prevented 8 million unintended pregnancies, and averted 3.3 
        million abortions.\5\
---------------------------------------------------------------------------
    \5\ Just the Numbers: The Impact of U.S. International Family 
Planning Assistance, 2016. Guttmacher Institute, May 2016.
---------------------------------------------------------------------------
    Globally, recent estimates show that 10.7 percent of the world's 
population lives on less than U.S. $1.90 a day, down from 12.4 percent 
in 2012 and 35 percent in 1990.\6\ This progress shows that the fight 
against global poverty is winnable if there is sufficient political 
will.
---------------------------------------------------------------------------
    \6\ World Bank, updated October 2016. http://www.worldbank.org/en/
topic/poverty/overview.
---------------------------------------------------------------------------
    While many, including some within the current administration, 
continue to promote a disingenuous narrative that U.S. foreign aid is 
inefficient, ineffective, and of inferior quality, the evidence points 
towards U.S. development programs as a leading standard in the 
international community. In particular, USAID has led the way towards 
more nimble, efficient, transparent, and effective systems of 
addressing global poverty and its challenges. Recent changes within 
USAID have resulted in huge gains towards evidence-based approaches 
that seek to distill best practices and achieve sustainable, 
independent development.\7\ In addition, a recent 2017 GAO study found 
that USAID and the MCC's evaluations far exceeded the quality of those 
conducted by other foreign assistance agencies.\8\
---------------------------------------------------------------------------
    \7\ For example, 1,425 evaluations completed by USAID since 2011, 
and of those completed between 2011 and 2014, 71 percent were used to 
support and/or modify a project or activity. Investing in our Shared 
Future: How a Confident and Capable USAID is Building on a Proud Legacy 
of U.S. Development Leadership (USAID Exit Memo, Gayle Smith, January 
2017).
    \8\ Agencies Can Improve the Quality and Dissemination of Program 
Evaluations, GAO-17-316: Published: Mar 3, 2017. Publicly Released: Mar 
3, 2017.
---------------------------------------------------------------------------
    After all, the role of U.S. assistance is to help communities 
become self-reliant and self-sustaining, create the conditions where 
assistance is no longer needed. CARE has long supported this philosophy 
and we have worked ourselves out of a job in some locations by building 
the capacity of local organizations and governments to continue 
programs and address their own needs.
    Make no mistake, the challenges the world faces today are immense, 
and the level of human need in the world is reaching record 
proportions. Now is the time for the U.S. to lead in the fight against 
poverty and conflict, not rescind its role or retreat into complacency.
A Proposal for a Darker Future
    Despite the dire realities that face millions around the world, 
threatening global stability and our own national security, the 
administration's fiscal year 2018 budget proposal calls for an end of 
U.S. leadership abroad through the dismantling of life-saving 
international development and humanitarian programs. The proposed 
budget does not support a sustainable future and ignores known 
threats--brewing conflicts, potential crises, and possible disasters or 
pandemics. Instead, the administration's proposal actually adds fuel to 
current global fires, leaving us with a darker future. CARE, along with 
a number of other implementing and advocacy organizations, have 
estimated the impacts of these proposed cuts by account. The aggregate 
human cost of these proposed cuts is staggering.
    If accepted, the administration's proposed cuts to this critical 1 
percent of the budget would be historic, making us less safe, not more. 
This budget marks a dramatic departure in budgeting processes which 
unifies spending on defense and development. Since 1977, increased 
funding to the Department of Defense has generally been complemented by 
increased support for the International Affairs account (figure 1).\9\ 
Past administrations, Republican and Democratic alike, have understood 
that development and diplomacy are critical parts of our national 
security strategy. This budget proposal counters our national security 
goals by threatening our country's ability to safeguard against the 
desperation and instability often caused by extreme poverty and 
suffering.
---------------------------------------------------------------------------
    \9\ Data obtained through the Office of Management and Budget's 
historic tables.

 Figure 1: Defense and International Affairs (150 Account) Spending (% 
                                of GDP)

                           (in 2016 dollars)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The administration's fiscal year 2018 budget proposal includes 
ending effective development programs in numerous countries, 
eliminating the Development Assistance (DA) account, and significantly 
reducing life-saving humanitarian assistance--including ending the 
leading U.S. international food aid program, Title II Food for Peace, 
which helps protect and grow food security around the world. The 
administration specifically proposes a 43 percent cut to International 
Disaster Assistance (IDA), which saves lives by providing emergency 
food, water and sanitation in South Sudan, Yemen, Nigeria, and Somalia, 
where famine is growing, and to displaced persons and refugees 
everywhere. In addition, the administration demands that the IDA 
account become the sole provider of emergency food assistance, without 
providing any additional funding to offset those impacted by the 
elimination of Title II Food for Peace programing or lessen the impacts 
of remaining IDA funds having to also meet non-food needs.
    Ending the Development Assistance account, and merging such 
activities with reduced funding from the Economic Support Fund (ESF), 
will result in a dangerous reprioritization away from long-term 
development in favor of short-term political gains. The 
administration's budget proposal seeks to uproot current strategies 
that are in mid-progress and stop proven programs that have improved 
economic conditions around the world. For example, across the 19 
current Feed the Future focus counties, the administration's budget 
proposal would eliminate all agricultural development activities in 8 
countries, and would drastically reduce funding for an additional 9 
countries.\10\ Abandoning the successful work done in these countries 
would dismantle progress, disregard existing U.S. Government 
strategies, and jeopardize programs authorized under the recently 
passed Global Food Security Act (Public Law 114-195).
---------------------------------------------------------------------------
    \10\ Feed the Future countries slated for elimination of 
agricultural development assistance include: Liberia, Malawi, 
Mozambique, Rwanda, Senegal, Zambia, Cambodia, and Tajikistan. Feed the 
Future countries slated for significant cuts include: Ethiopia (-24 
percent), Ghana (60 percent), Kenya (-39 percent), Mali (-9 percent), 
Tanzania (-82 percent), Uganda (-72 percent), Bangladesh (-34 percent), 
Nepal (-37 percent), and Guatemala (-29 percent). As presented in the 
proposed fiscal year 2018 budget tables for Operating Unit, Account, 
Objective, and Program Area. Fiscal Year 2018 Congressional Budget 
Justification--Department of State, Foreign Operations, and Related 
Programs.
---------------------------------------------------------------------------
    In addition, the proposed cuts to global health programing would 
have a severe impact on women around the world--setting back their 
access to healthcare, their ability to feed their families, confront 
and shift the social norms that contribute to gender-based violence, 
and access opportunities and economic engagement.
Implications for Women and Girls
    CARE puts women and girls at the heart of development and 
humanitarian efforts because our decades-long experience in the field 
has demonstrated that this investment brings about meaningful, 
sustainable impact. Similarly, U.S. investments in supporting women and 
girls bring high returns for economic growth, well-being, and 
democratic governance, which maximize the benefits gained from the 
investment of United States' taxpayer dollars. If women were able to 
participate in the economy equally, it would yield a 26 percent 
increase in global GDP, or $28 trillion in 2025.\11\
---------------------------------------------------------------------------
    \11\ McKinsey & Company. The Power of Parity: How Advancing Women's 
Equality can add $12 Trillion to Global Growth: Executive Summary. 
September 2015. Page ii.
---------------------------------------------------------------------------
    Most of the world's women have the role of ensuring that families 
are fed, often through farming and/or food purchase supported by 
livelihood activities. By supporting women entrepreneurs, small 
business owners, and farmers to become more self-reliant, we create a 
cascading effect beyond the women themselves, helping them lift their 
families and their communities out of poverty. U.S. assistance opens up 
opportunities for women and girls to access the education, skills, and 
economic empowerment they need to be catalysts for broader economic 
growth in their countries. Healthier economies abroad means stronger 
economic trade partners for Americans, benefiting us all.
    Women and girls also comprise the majority of those displaced by 
conflict and natural disasters and, in this context, they are highly 
vulnerable to violence, exploitation, and poor health including 
malnourishment and reproductive health issues such as maternal death. 
U.S. Government assistance supports women and girls in emergencies, 
saves lives and, by being gender smart, can ensure efficient use of 
much-needed humanitarian aid. In order to be productive members of 
their communities and economies, however, women must be healthy and 
safe from violence.
    U.S. assistance in preventing violence against women--which affects 
an estimated 35 percent of women worldwide--has a life-changing impact 
on the women and girls it serves.\12\ The foreign aid the U.S. invests 
in these efforts, supplemented by diplomatic engagement through our 
embassies and missions abroad, ensures that creating safer, healthier 
communities is a shared priority for the U.S. and partner countries.
---------------------------------------------------------------------------
    \12\ World Health Organization. Global and regional estimates of 
violence against women: prevalence and health effects of intimate 
partner violence and non-partner sexual violence. 2013. Geneva, 
Switzerland.
---------------------------------------------------------------------------
    The administration's budget proposal cuts funding for programs with 
a gender component by 55 percent when comparing fiscal year 2016 to the 
proposed levels for fiscal year 2018. While these funds at times 
overlap with other sector funds, making it more challenging to assess 
the impact, it is possible to extrapolate that potentially millions of 
girls would not go to school, more girls would be put at risk for child 
marriage, and--because women and girls are often the last to eat--more 
girls would go hungry, placing them at increased risk for stunting, 
health threats, and decreased productivity.
    The administration proposes to eliminate all funding for bilateral 
international family planning and reproductive health programs. Coupled 
with the recent decision by the administration to halt all funding for 
the United Nations Population Fund (UNFPA), such cuts would have 
significant impacts on maternal and child health. Access to voluntary 
family planning services represents the single most effective 
intervention in preventing maternal and child deaths, and by 
eliminating these programs, the proposed budget is endangering the 
lives and health of millions of women, infants, couples, and families 
around the world. There are currently 230 million women around the 
world who would like to plan their pregnancies but are unable to do so. 
By meeting this unmet need for contraceptive services, maternal deaths 
would be reduced by over 30 percent and we could avert 1.4 million 
under-5 deaths every year.\13\
---------------------------------------------------------------------------
    \13\ Adding it Up: The Costs and Benefits of Investing in 
Reproductive Health, 2014, Guttmacher Institute, December 2014.
---------------------------------------------------------------------------
    The impacts of the decision to halt funding to UNFPA are already 
being felt. In 2016, UNFPA received $69 million in funding from the 
U.S. Government, which supported their work in humanitarian crises, 
including the Syrian refugee response at the Zataari camp in Jordan. 
Through the work of UNFPA, more than 7,000 babies have been delivered 
in this camp without a single maternal death. The loss of this funding 
is a matter of life or death for families in the camp, with services 
for nearly 50,000 people at risk due to this funding decision.\14\
---------------------------------------------------------------------------
    \14\ 5000th Baby Born at UNFPA-Supported Clinic for Refugees in 
Jordon, March 8, 2016.
---------------------------------------------------------------------------
    By eliminating funding for international family planning and 
reproductive health programs and stopping all funding the UNFPA, the 
administration's budget would result in 15,000 maternal deaths and 8 
million more unintended pregnancies.\15\ The decision to re-impose and 
expand the so-called ``Mexico City Policy'' only magnifies these 
potential impacts by placing further onerous and unnecessary 
restrictions on countless local NGOs working to meet the health needs 
of women, girls, and families. This decision further imperils work to 
end preventable maternal and child death.
---------------------------------------------------------------------------
    \15\ Just the Numbers: The Impact of U.S. International Family 
Planning Assistance, 2017. Guttmacher Institute, May 2017.
---------------------------------------------------------------------------
    CARE's global work shows that when U.S. policy restricts access to 
global health services, vulnerable women and children suffer the most. 
We have the ability to drastically change that reality, and it is in 
the United States' best interest to do so.
A Retreat from Emergencies
    A record 128.6 million people are in need of life-saving 
humanitarian assistance across the Middle East, Africa, Asia, and even 
parts of Europe. There are countries such as Afghanistan, Somalia, and 
the Democratic Republic of the Congo where the prolonged humanitarian 
response has stretched on for decades, while new conflicts continue to 
proliferate, such as those in Syria, Yemen, South Sudan and Nigeria. 
Current famine conditions across Nigeria, Somalia, South Sudan and 
Yemen mean that up to 1.4 million children are at immediate risk of 
death without continued engagement by the international community. Yet, 
the appeals for assistance to citizens in these countries remains 
grossly underfunded, on average only funded at 35 percent of the annual 
appeal.\16\ Each day without a humanitarian response at scale increases 
the likelihood of widespread starvation, destabilization, and mass 
displacement.
---------------------------------------------------------------------------
    \16\ OCHA. Financial Tracking Service.
---------------------------------------------------------------------------
    In Yemen, an outbreak of cholera has infected more than 100,000 
people. Due to the ongoing conflict, the health system and civil 
infrastructure, including water and sanitation facilities, have been 
seriously compromised with 14.5 million people lacking access to safe 
drinking water or sanitation, and 14.8 million lacking adequate 
healthcare.\17\ Uganda receives an average of 2,000 refugees each day, 
with a total of nearly one million refugees from South Sudan alone 
since 2014.\18\ In Nigeria, only 28 percent of the funding needs have 
been met to date, forcing humanitarian groups to scale back emergency 
plans--cutting food to 400,000 people in areas affected by Boko 
Haram.\19\
---------------------------------------------------------------------------
    \17\ UNICEF. 27 Million People Lack Safe Water in Countries Facing 
or at Fisk of Famine. New York, United States. 2017.
    \18\ UNHCR. 2017 South Sudan Regional Revised Refugee Response 
Plan. Geneva, Switzerland. May 2017.
    \19\ Cropley, Ed. ``Fund Shortage Forces UN to Cut Emergency Food 
Aid for 400,000 in Nigeria''. Reuters. June 2017.
---------------------------------------------------------------------------
    In the fiscal year 2017 omnibus bill, Congress answered the call of 
this unprecedented need by providing generous funding for humanitarian 
assistance, continuing the United States' traditional role as a global 
leader and exemplifying American values, such as compassion and service 
to those in need. CARE is grateful for Congressional leadership while 
the world faces these unprecedented humanitarian needs.
    Despite the current levels of need, the administration's proposed 
budget looks to cut overall humanitarian assistance by 45 percent at a 
time when needs are burgeoning.\20\ The International Disaster 
Assistance (IDA) account, which funds USAID's Office of Foreign 
Disaster Assistance (OFDA), provides lifesaving assistance to tens of 
millions of desperate people a year whose lives have been torn apart by 
conflicts and natural disasters. The administration's fiscal year 2018 
budget proposes a 40 percent cut to OFDA's non-food humanitarian 
responses, which include medicine, clean water and sanitation, and 
shelter, etc.\21\
---------------------------------------------------------------------------
    \20\ Calculated in comparison to total fiscal year 2017 funding. 
For the purposes of this calculation, overall humanitarian assistance 
is comprised of the following accounts: International Disaster 
Assistance, Migration and Refugee Assistance, Emergency Migration and 
Refugee Assistance, and Title II Food for Peace.
    \21\ In comparison to fiscal year 2016 funding levels.
---------------------------------------------------------------------------
    If enacted, USAID would not have the resources to provide 
assistance to tens of millions of vulnerable men, women and children in 
urgent need.\22\ In addition, the administration's proposal to 
eliminate Title II Food for Peace and only provide $1.5 billion for the 
Emergency Food Security Program (EFSP) within the International 
Disaster Assistance Account would result in an estimated 22.6 million 
people in crises losing access to lifesaving food assistance.\23\
---------------------------------------------------------------------------
    \22\ In fiscal year 2016, the IDA appropriation was $2.8 billion, 
of which approximately 40 percent ($1.12 billion) was provided through 
Food for Peace for emergency food and 60 percent ($1.68 billion) was 
provided for non-food assistance such as emergency kits, tents, 
medicine, etc. through OFDA. The fiscal year 2018 request for non-food 
items is $1 billion, a $680 million (40 percent) reduction from the 
fiscal year 2016 level.
    \23\ See addendum.
---------------------------------------------------------------------------
An Alternative Path: Ensuring U.S. Leadership and Saving Lives
    The U.S. currently leads globally by saving lives and by putting 
people on a path toward self-reliance around the world. This is a role 
that cannot be taken for granted. Recent gains in and efforts to 
continue to improve the effectiveness, accountability and transparency 
of U.S. foreign assistance means that the power to address poverty is 
within our grasp and that assistance can get to those that need it 
most.
    Critical to this continued leadership is the continued funding and 
support for the expertise of the U.S. Government and, particularly, 
USAID. USAID plays a valuable and indispensable role in our own 
national security, and their specific skills are critical in delivering 
effective development and humanitarian programs that save lives. The 
breadth of the State Department's reach in fostering strong 
relationships and goodwill with partners worldwide through diplomacy 
and engagement is well-known. This work is complemented by the 
comprehensive work of the USAID. The Agency's technical expertise in 
development and program design, as well as its reach into the most 
remote corners of our globe, make its impact and capabilities for 
poverty eradication unparalleled by other U.S. agencies.
    The partnerships USAID attracts, through bilateral engagement with 
the private sector, foreign governments, and local organizations and 
implementers, allows the U.S. to respond both comprehensively and 
insightfully to the challenges of poverty-reduction. The 
administration's budget would decimate this critical hub of expertise 
and jeopardize the gains the U.S. Government has made in discovering 
and achieving best practices for development. CARE fully supports 
efforts to make U.S. foreign assistance more effective and efficient. 
However, such efforts must be driven by policy and best practices, and 
not by budget cuts.
    U.S. foreign assistance truly serves as a beacon of hope in 
people's darkest time by providing life-saving relief. By addressing 
underlying factors and building the capacity of communities, foreign 
assistance provides those most vulnerable with options that poverty 
prevents. In times like these, the United States does not retreat--the 
United States leads. CARE calls on the members of this Committee to 
preserve American leadership in global development and humanitarian 
assistance and consider the impacts of human costs that the 
administration's proposed budget would bring to communities around the 
world.
                                 ______
                                 
             Prepared Statement of Catholic Relief Services
    Chairman Graham, Ranking Member Leahy, in the spirit and words of 
Pope Francis, CRS lifts our voice on behalf of ``the poorest peoples of 
the earth'' with the request that you robustly fund international 
poverty-reducing humanitarian and development assistance in fiscal year 
2018 as enumerated below. We thank you sincerely for protecting these 
accounts in the fiscal year 2017 Omnibus. We will continue to work with 
all of Congress to protect the nearly $60 billion in international 
affairs spending in order to respond to unprecedented humanitarian need 
and maintain progress to combat extreme poverty.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In The Joy of the Gospel, Pope Francis wrote, ``[T]he mere fact 
that some people are born in places with fewer resources or less 
development does not justify the fact that they are living with less 
dignity. We need to grow in a solidarity which `would allow all peoples 
to become the artisans of their destiny', since `every person is called 
to self-fulfillment'.'' The U.S. Conference of Catholic Bishops (USCCB) 
asserts, ``Every budget decision should be assessed by whether it 
protects or threatens human life and dignity.'' And ``a central moral 
measure of any budget proposal is how it affects `the least of these' 
'' (Matthew 25). ``The needs of those who are hungry and homeless, 
vulnerable and at risk, without work or in poverty should come first.''
    The Church does our best to fulfill this call. In 2015 alone, CRS 
partnered with the U.S. Government and religious communities to serve 
more than 120 million people in 112 countries. We are part of a network 
of Catholic agencies that form Caritas Internationalis. Very often, 
CRS's work in a given country is implemented by local Caritas partners 
with funding from several donor Caritas agencies, as well as the U.S. 
Government. Private funds enable us to be nimble and innovative while 
public funds enable us to scale up. Moreover, the U.S. Government's 
investment further legitimizes our work.
    Let there be no doubt: aid works. In Jordan and Lebanon, CRS has 
worked itself out of a job: the local Caritas agencies lead in the 
refugee response. When the United States stepped in to respond to the 
Ebola outbreak, it was halted. One key aspect of halting Ebola was 
working with local religious leaders to change local burial practices--
no small task given the religious meaning of such acts. South Korea 
once received aid from the U.S. Government and is now our 7th largest 
trading partner. More girls in Afghanistan attend school now, including 
in rural areas where they are the first literate generation. I have had 
the privilege to hear countless people thank the United States for its 
generosity. Below I offer the perspective of CRS on the growing needs 
for international assistance that saves lives and reduces poverty.
I. Funding for all Humanitarian Assistance accounts must remain robust.
    Thank you for the emergency funding provided in fiscal year 2017 to 
prevent, mitigate and respond to famine-like conditions in South Sudan, 
Somalia, Nigeria, and Yemen. According to recent estimates, more than 
20 million people across these four countries are at risk, including 
5.4 malnourished children, 1.4 million of whom are at severe risk of 
death. These funds will allow us to scale up our responses. The United 
Nations Office for the Coordination of Humanitarian Affairs (UNOCHA) 
currently estimates $6.3 billion is needed to respond to these four 
countries alone in 2017. And according to USAID, ``In early May, those 
in need of humanitarian assistance increased from 6.2 million to 6.7 
million in Somalia.'' An outbreak of cholera in three of the four 
countries demonstrates the urgency of the situation and the fact that 
an adequate response must extend beyond food to water and sanitation, 
shelter, life-saving health services, nutrition interventions and 
protection, among others.
    In addition to responding to famine-like conditions, CRS is 
responding to refugees around the globe, including in what has swelled 
to the world's largest refugee camp, Bidi Bidi. In the last 6 months, 
South Sudanese have fled into Uganda at a rate of about 2,000 per day 
due to the insecurity in their country. Despite its size, the 
Government of Uganda has created more freedom and integration in Bidi 
Bidi than would be afforded in most refugee camps. More importantly, 
the Government of Uganda considers these refugees resettled. 
International NGOs are a critical part of implementing this policy. 
Each household receives a 3030 meter plot and a home. CRS works to 
ensure that each household has a latrine and supports vulnerable 
households to transition to more permanent homes from temporary tarps. 
These plots include room to grow crops, though the already arid climate 
and recent climate shocks are doubly challenging for refugee 
households. Because local villages are present throughout the zones of 
the camp, refugees interact with the local community. CRS works hard to 
employ South Sudanese refugees in response efforts, as we do with 
Syrians throughout the Middle East. For example, many South Sudanese 
have been chosen by members of their community as hygiene promoters. I 
share these details about Bidi Bidi because it demonstrates the 
potential for longer-term planning in humanitarian responses and what 
can happen when refugees are seen as contributors to their host 
communities. These kinds of efforts will help refugees to truly 
integrate, and in many cases, reduce their reliance on international 
assistance.
    The critical needs of more than 20 million people facing famine-
like conditions are but a portion of the more than 70 million facing 
acute food insecurity. To cut food assistance now would abandon 
millions who have relied on the United States for their survival. 
Furthermore, widespread displacement continues, adding to the 
unprecedented 65 million already forcibly displaced, 87 percent of whom 
live in the developing world. More than 5 million Syrians are refugees, 
and they continue to make the treacherous journey to Europe. CRS alone 
has served more than 1.3 million Syrians. As you know, humanitarian 
needs span the globe: such as with the Congolese displacement and 
flight into Angola which UNOCHA recently declared an L2 emergency. To 
cut humanitarian assistance now would not only cost lives and make 
people more vulnerable to traffickers, but also could have security 
implications around the globe. The bottom line is that we must continue 
to do our share to maintain humanitarian assistance for people 
overseas, and we must help those countries welcoming refugees by the 
hundreds of thousands by resettling at least 75,000 refugees to the 
United States in fiscal year 2018. We also urge Congress to replenish 
the ERMA account, which has saved lives and stabilized countries, 
including most recently individuals from Sudan, Mali, and Syria. In 
fact, it is CRS' judgement that it would be valuable for the U.S. 
Government to support more such efforts to streamline action in urgent 
humanitarian situations.
    U.S. diplomacy is an absolute necessity for humanitarian access 
and, ultimately, a political solution to the conflicts and violence 
spurring so much flight. We urge you to maintain robust diplomacy as a 
critical aspect of the United States' foreign policy tool box. And we 
emphasize the important role poverty-reduction plays to manage latent 
tensions which often erupt into conflict.
II. The Development Assistance account is the bedrock of integral human 
        development assistance, including basic education, water and 
        sanitation, microfinance, and agricultural development. We urge 
        you to maintain the funding and the independence of this 
        account.
    The Church promotes international assistance to defend the life and 
dignity of the human person. Poverty focused international assistance 
promotes the common good of all peoples; fosters vibrant civic 
participation in strong democracies; and expresses the solidarity of 
the American people with all who are poor and oppressed. Along with 
humanitarian assistance and global health, the Development Assistance 
account demonstrates the best of America's values. We urge the United 
States to prioritize its development and humanitarian assistance based 
on need, not political nor short-term national security strategies. 
While Development Assistance does often explicitly yield a national 
security dividend, when used overtly as a tool for national security or 
political agendas, it often loses its impact.
    We also ask you to provide funding to help vulnerable communities 
mitigate and adapt to the impacts of climate shocks through the Green 
Climate Fund and Development Assistance. The impact of climate change 
on farmland and other livelihoods spurs conflict and migration. CRS 
partners with a variety of donors, including USAID, to build the 
resilience of small farmers to drought in Africa, Asia, and Latin 
America. Those investments helped many communities to cope with the 
2016 El Nino-led drought in southern Africa, which has been described 
as the worst in a generation. For instance, watershed restoration 
projects have helped farmers in Malawi maintain access to water, even 
while neighboring communities' wells and streams dried up. Also, in 
Central America, we are working with farmers to introduce new farming 
practices that guard against coffee leaf rust--a consequence of climate 
change--while boosting coffee production.
III. Global health investments save lives, reduce suffering, and 
        prevent disease outbreaks the world over.
    Investments in global health pay immense dividends for individuals 
and their communities year upon year. The United States has been a 
world-leader in saving the lives of children and mothers for the past 
30 years. According to USAID, since 1990, an estimated 100 million 
children have been saved, due in no small part to the U.S. investment 
in Maternal and Child Health, Nutrition, Malaria and childhood vaccines 
programs. CRS is concerned about the proposed cuts to these life-saving 
programs, as well as proposed cuts to Tuberculosis, Neglected Tropical 
Diseases and HIV and AIDS funding.
    CRS is also concerned about the administration's proposal to 
eliminate the Vulnerable Children account. This funding provides care 
and protection to vulnerable children, particularly those separated 
from their family or at risk of losing family care. The Church has long 
taught that the family is the core unit of society. Vulnerable children 
often end up on the street or in orphanages. Most children in 
orphanages are there due to poverty and a lack of access to services or 
discrimination. The vast majority--80-90 percent--of the 8 million 
children living in orphanages have at least one living parent. We 
believe that most children, living in a family-based system is far 
preferable to an institution-based system. Research shows that living 
in orphanages causes long-term impacts on children's physical, 
intellectual, and psychological development. CRS' Technical Advisor 
Kellie Bunkers points out, ``We need to focus on prevention. We know 
that a family environment that is safe, where you have caregivers who 
are dedicated to your wellbeing as a child, is the ideal.'' And it's 
more cost-effective. It costs 6 to 10 times more to care for a child in 
an orphanage than in a family setting.
    Stephen was sent to live in an orphanage at age 5 after his mother 
died. Though the young Kenyan had the basics of life in the orphanage, 
he says he often felt like he didn't have an identity or belong 
anywhere. ``You want a person in your life who you can depend on,'' he 
says. We urge you to maintain funding for the Vulnerable Children 
account as one way to keep children in their families. In Uganda, CRS 
is providing case management and a suite of services to 640 vulnerable 
children. Funded in part through USAID's Displaced Children and Orphans 
Fund and in part through PEPFAR, this program aims to reunify and 
reintegrate children from institutional care into family-based care 
through programs such as parenting instruction. The Ugandan program is 
part of a 5-year USAID-funded cooperative agreement we operate in 13 
countries in Africa, the Coordinating Comprehensive Care for Children 
grant.
IV. CRS welcomes opportunities to continue to build on improvements by 
        the previous two administrations to humanitarian and 
        development assistance.
    We support a thoughtful, deliberative process by the administration 
and Congress, in collaboration with implementers and other key 
stakeholders, to identify constructive proposals to improve poverty-
alleviation. Implementers offer on-the-ground expertise regarding how 
to cut red tape to get U.S. Government humanitarian funding to 
beneficiaries more quickly; how to better partner with local civil 
society organizations so that aid builds local capacity and democracy; 
how to create synergies between different programs and funding sources; 
and how to strengthen the U.N., to name just a few. Rapid and 
significant cuts to these programs, as proposed, may well reduce the 
overall quality of programs by abandoning hard-fought progress and 
reducing funding for monitoring and evaluations. CRS participated in 
the World Humanitarian Summit last May as part of a global effort to 
make aid more efficient and effective. We committed to redoubling our 
efforts, alongside the Caritas Internationalis federation and our more 
than 1,500 partners, not just to deliver aid, but to end the need and 
to invest in local capacities. CRS also joined 30 international 
humanitarian organizations in a 3-year pledge to collectively invest 
$1.2 billion in private resources to global humanitarian assistance 
efforts in advance of the September 20, 2016, Leaders' Summit on 
Refugees.
    The former President of the USCCB, Archbishop Joseph E. Kurtz, 
stated May 25th in the Courier-Journal: `` 'A preferential option for 
the poor' is a fundamental concept in Catholic social teaching. Though 
the phrase itself is only 50 years old, it derives from Jesus' Gospel 
message to pay special attention to poverty. Indeed, Jesus told us that 
on the Day of Judgment, God will ask us what we did for the poor, 
teaching, `Whatever you did for one of these least brothers of mine, 
you did for me.' '' American's generosity undergirds the moral 
leadership reflected in that teaching, and makes America the shining 
beacon on a hill.

    [This statement was submitted by Sean Callahan, President and CEO.]
                                 ______
                                 
    Prepared Statement of the Council of International Development 
  Companies--An Initiative of the Professional Services Council, The 
               Voice of the Government Services Industry

                                                      July 6, 2017.


 
 
 
Senator Lindsey Graham,               Senator Patrick J. Leahy,
 Chairman,                            Ranking Member,
Committee on Appropriations           Committee on Appropriations
Subcommittee on State, Foreign        Subcommittee on State, Foreign
 Operations, and Related Programs      Operations, and Related Programs
 


Dear Chairman Graham and Ranking Member Leahy:

    On behalf of the more than 400 member companies in the Professional 
Services Council (PSC), including our Council of International 
Development Companies (CIDC), I write to thank you for your leadership 
and recognize the Congress for including robust foreign assistance 
funding in the enacted fiscal year 2017 Consolidated Appropriations 
Act. The levels appropriated sent a strong and important signal that 
America intends to maintain our preeminent leadership position in the 
world.
    We were equally heartened by the nomination of Ambassador Mark 
Green as the next USAID Administrator. His prior experience in both the 
executive and legislative branches will serve him well, and PSC and 
CIDC urge your support for his speedy confirmation, once his nomination 
reaches the full Senate.
    As noted in your remarks at the June 13 hearing with Secretary of 
State Tillerson, the President's proposed fiscal year 2018 budget 
would, if approved, present serious challenges to our national security 
by dramatically cutting funding to the State Department and U.S. Agency 
for International Development by a third. PSC believes that budget 
levels should be based on American foreign policy priorities, 
commitments and goals, and that the proposed disproportionate reduction 
would be disastrous.
    We attach PSC's comments on the President's proposed budget (see 
attachment 1) and on the important role the contracting community plays 
in carrying out our Nation's foreign policy and development objectives. 
We respectfully request that, if possible, this statement be included 
in the record for the June 13 hearing.
    Our members and I stand ready to amplify our views at your 
convenience.

Respectfully yours,
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

David J. Berteau
President & CEO

                             (ATTACHMENT 1)

        Prepared Statement of the Professional Services Council
    The Professional Services Council's (PSC) members comprise over 400 
companies and their hundreds of thousands of employees across the 
Nation and throughout the world who provide services to virtually every 
agency in the Federal Government.\1\ PSC is the voice of the government 
technology and professional services industry, representing the full 
range and diversity of the government services sector. A significant 
portion of our members focus their work almost exclusively on the U.S. 
Agency for International Development (USAID) and form PSC's Council of 
International Development Companies (CIDC).\2\
---------------------------------------------------------------------------
    \1\ For over 45 years, PSC has been the leading national trade 
association of the government technology and professional services 
industry. PSC's over 400 member companies represent small, medium, and 
large businesses that provide Federal agencies with services of all 
kinds, including information technology, engineering, logistics, 
facilities management, operations and maintenance, consulting, 
international development, scientific, social, environmental services, 
and more. Together, the association's members employ hundreds of 
thousands of Americans in all 50 States and around the globe. See 
www.pscouncil.org.
    \2\ CIDC companies are reflective of the overall American economy 
ranging from large firms employing thousands here and overseas to one 
and two-person small businesses working in the fields of food, water, 
health, education, governance, and economic growth. Their efforts have 
been well-documented by PSC. See our From the Field accounts of their 
foreign assistance program implementation as well as CIDC's work in 
monitoring and evaluation.
---------------------------------------------------------------------------
    We first made our concerns known about President Trump's fiscal 
year 2018 budget after the release of the so-called initial ``skinny 
budget'' in March.\3\ As PSC noted then, disproportionate cuts to the 
State Department and USAID proposed in the draft budget were likely to 
cause unnecessary consternation with our allies, who would view it as 
American disengagement from the structures, institutions, and 
commitments that have formed the bedrock of bi-partisan foreign policy 
for the last 70 years. In addition, the cuts, which were maintained in 
the formal budget submission on May 23, would have immediate impact on 
nations around the world in the areas of security, health, nutrition, 
education, sanitation, and local government accountability. PSC has 
prepared a country-by-country analysis (see attachment 2) of what the 
proposed cuts would look like, with many countries completely zeroed 
out.\4\
---------------------------------------------------------------------------
    \3\ See http://www.pscouncil.org/News2/NewsReleases/2017/
PSC_Statement_on_the_Budget
_Blueprint.aspx.
    \4\ See: http://www.pscouncil.org/Downloads/documents/
FY18%20Country%20By%20Country%20
Cuts.pdf.
---------------------------------------------------------------------------
    We also note with alarm recent comments by administration officials 
in support of the fiscal year 2018 budget cuts that suggest they cannot 
foresee being able to spend their fiscal year 2016 or fiscal year 2017 
levels of appropriations.\5\ The implications of such comments create 
great uncertainty with USAID's implementing partners, recipient 
countries, and fellow donors. In addition, comments like these stray 
too close to the constitutional issues which were the genesis of the 
Congressional Budget and Impoundment Control Act of 1974.\6\ PSC urges 
this Committee and others with jurisdiction over these issues to 
monitor vigilantly those agencies covered by the 150 Account to ensure 
that the full amounts appropriated by Congress are spent in accordance 
with the Act.
---------------------------------------------------------------------------
    \5\ Many Foreign Assistance appropriation accounts have a 2-year 
period of availability for obligation.
    \6\ The full text of can be found at: http://legcounsel.house.gov/
Comps/BUDGET.pdf.
---------------------------------------------------------------------------
    Considerable room does exist for improvement and savings that could 
be achieved in our foreign assistance; however, any such reforms must 
be based on reasoned and documented analysis, which has not been 
provided for the proposed 32 percent cut in the President's fiscal year 
2018 budget. Absent such analysis, PSC does not support the proposed 
funding reduction.
    There is also little analysis to support the proposal to merge the 
Economic Support Fund (ESF) and Development Assistance (DA) accounts 
into a comingled ESDF account. Currently ESF funds are controlled 
primarily by the Department of State and DA funds by USAID. Such a 
merger would conflate the short-term goals of ESF with the long-term 
goals of DA. Each account has specific and very different targets and 
objectives, and the considerable transparency on the activities and 
obligations under each would be lost if they were merged, with no 
discernable benefit. Regardless of the funding levels, PSC therefore 
strongly urges that these two accounts remain separate.
    There is the larger issue of whether USAID should remain a stand-
alone agency. It is true that foreign assistance should be a tool of 
our foreign policy, on an equal footing with diplomacy and defense. 
Development professionals at USAID have the skills needed to help other 
nations create and sustain transparent governance structures, with 
literate and healthy citizens, secure borders, clean water, and access 
to capital and free markets. These skills do not reside in the 
diplomatic corps at the State Department.
    A similar idea was tried in 1999 with the merger of the U.S. 
Information Agency (USIA) into the State Department. Since then, 
experts on both the left and right have decried the sad state of 
American Public Diplomacy that resulted.\7\ A recent in-depth study 
makes an overt comparison between the USIA merger and the one now under 
discussion for USAID, strongly cautioning against such a ``folly.'' \8\ 
In addition to preserving needed capabilities, PSC believes an 
independent USAID, with a seat on the National Security Council, will 
complement the voices and views of officials from the Departments of 
Defense and State in future foreign policy discussions by presenting 
vital, independent development insights.
---------------------------------------------------------------------------
    \7\ See April 23, 2003, Heritage Foundation: ``How to Reinvigorate 
Public Diplomacy,''; November 25, 2008, Brookings ``Voices of America: 
U.S. Public Diplomacy for the 21st Century.'' More background on the 
USIA-State merger can be found in: December 18, 2009, Congressional 
Research Service: ``U.S. Public Diplomacy: Background and Current 
Issues.''
    \8\ https://www.csis.org/analysis/folly-merging-state-department-
and-usaid-lessons-usia.
---------------------------------------------------------------------------
    Other proposals for short-term savings have been reported in the 
news media, such as cutting the U.S. full-time Foreign Service Officers 
(FSOs) corps by some 2,300 positions.\9\ History also shows that this 
level of cuts would be very damaging. The results of the workforce 
Reductions In Force (RIFs) that took place during the 1990s are, 
according to the GAO, still negatively impacting our foreign policy 
infrastructure.\10\ We should learn from the mistakes of the past and 
retain the workforce needed to execute USAID programs.
---------------------------------------------------------------------------
    \9\ https://www.wsj.com/articles/tillerson-proposes-2-300-job-cuts-
from-state-department-1493415265.
    \10\ See June 14, 2012 GAO Report: ``Foreign Service Midlevel 
Staffing Gaps Persist Despite Significant Increases in Hiring.''; 
September 2009 GAO Report: ``Department of State: Additional Steps 
Needed to Address Continued Staffing and Experience Gaps at Hardship 
Posts.''
---------------------------------------------------------------------------
    PSC's position is that the government needs to be staffed fully 
with well-trained individuals to execute contracts properly, make 
timely staffing decisions, offer essential technical direction, and 
provide appropriate contract management and financial oversight of the 
programs and contract tasks. Sufficient, capable staff ensures that the 
government and the American taxpayer are getting the full value for 
money from contractors and that contracts are being run in accordance 
with U.S. objectives.\11\ Contracts with the Federal Government, by 
definition, afford the lead agency with high degrees of management and 
oversight that do not exist in other mechanisms.
---------------------------------------------------------------------------
    \11\ This has been a long-standing PSC position. As we wrote the 
subcommittee on April 7, 2016, regarding the Department and USAID's 
fiscal year 2017 budget: ``Our members know first-hand the impact our 
limited foreign assistance funding has on bringing peace and security 
to the many troubled regions of the world. Additionally, this funding 
covers the Operations and Expenses (O/E) accounts for the both the 
Department of State and USAID. CIDC members work on a daily basis with 
the Foreign Service Officer staffs in DC and in the field with both 
agencies. Given the need for more efficient grant and contract approval 
and management--and the value this oversight provides to the American 
taxpayer--we urge you to support the O/E account requests to at least 
maintain the personnel levels that support these, often unheralded, yet 
crucial, positions.''
---------------------------------------------------------------------------
    As one way to improve program execution, PSC has urged USAID to 
revise its regulations and internal review procedures to clarify and 
strengthen its procurement decisionmaking process for determining when 
the use of acquisition or assistance is the appropriate choice of 
instrument for each development project.\12\ The current regulations 
and procedures are too vague and not helpful to the Agency's 
Contracting Officers (COs) and Agreement Officers (AOs)--most of whom 
have less than 5 years' experience--or to its program staff. Clearer 
regulations and internal review procedures will strengthen USAID's 
focus on mission outcomes and project accountability, help reduce 
procurement lead time (the interval from announcing a project to making 
the award), assist the agency and its implementing partners in bringing 
their capabilities to the agency and to beneficiaries, and eliminate 
unnecessary and burdensome administrative requirements on the agency 
and its implementing partners. Ensuring that USAID has the full 
complement of COs and AOs, coupled with better training and mentoring 
of junior COs and AOs would also contribute significantly to improving 
USAID's program execution and results.\13\
---------------------------------------------------------------------------
    \12\ See PSC's August 22, 2016 Letter to then-Acting Administrator 
of USAID Amb. Alfonso Lenhardt: http://www.pscouncil.org/
CommitteesandTaskForces/InternationalDevelopmentTask
Force/IDTF_agency_and_cong._materials/USAID_Seeks_PSC_CIDC_Comments_on_
Draft_ADS_304_Implementing_Guidance.aspx.
    \13\ While USAID has made remarkable improvements to its Business 
Forecast (which truly should serve as a model for the Federal 
Government), PSC remains concerned that, even though PALT for 
acquisition has decreased commendably and substantially over the past 4 
years, dollars spent on acquisition continues to fall as a proportion 
of total agency spending. See USAID's Management Bureau Office of 
Acquisition and Assistance Progress Report--Fiscal Year 2016.
---------------------------------------------------------------------------
    PSC members who work with the Department of State and USAID are 
private sector international development companies who optimize 
efficiency and effectiveness in order to realize a modest return on 
their work. That is how they fund the ongoing investments that have 
made them reliable, capable, and innovative partners for USAID since 
the Agency's inception. Competing as enterprises on the basis of best 
value is what keeps their service offerings current, efficient, and 
cost effective. Competition among contractors is a hallmark of U.S. 
programs throughout the Federal Government--and should remain so--
whether at NASA or the departments of Energy, Agriculture, Commerce, 
Defense, or even State and USAID. In the field of international 
development, contractor motives are too often questioned and intentions 
impugned without due regard for the benefits of competition for 
efficiency and effective results.
    Contractors form an integral part of the U.S. foreign policy arena. 
Many employees risk their lives every day, working in locales deemed 
too dangerous for U.S. Government staff to operate, and running 
programs determined by Washington to be policy priorities--the very 
reason a contract was issued in the first place--because the work 
needed to get done. PSC and its members companies serve Americans by 
competitively bidding on work that has been deemed important and 
necessary to the safety and security of our citizens. We understand and 
recognize that much of this work is both time-sensitive, but also 
timebound: one of the great strengths and practical rationales for 
selecting a contract vehicle.
    Given the proper funding in conjunction with clear achievement 
benchmarks and guidance from our colleagues in the Federal Government, 
contractors provide significant value for money that the American 
taxpayer demands of us. PSC therefore, does not support the proposed 
fiscal year 2018 budget cuts to the 150 account, does support a 
separate USAID reporting to the Secretary of State, and urges 
optimizing the use of private sector contractors to deliver real 
results and the best value for development spending.
    I am happy to address any questions the subcommittee has at any 
time on the issues discussed above.

    [This statement was submitted by David J. Berteau, President & 
CEO.]

    [Attachment 2 follows:]

                                                                                                              ATTACHMENT 2
                                                                                    COUNTRY BY COUNTRY IMPACT OF THE PROPOSED FISCAL YEAR 2018 BUDGET
                                                                                                [Omits PL480, FMF, IMET, INL, and NADRP]
                             Legend: \a\ Zeroed out in budget (100% cut); \b\ Cut greater than 30%; \c\ Cut less than or equal to 30%; \d\ Increase less than 100%; \e\ Increase equal or greater than 100%
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                              Global
                                  6/21/2017            DA/ESF-    GH-State   Health-   Peace and  Governance  Education   Vulnerable  Agriculture   Trade and   PSD/Econ  Environment  Infrastructure   Disaster     All         All
                                                        Health    (PEPFAR)    USAID     Security                         Populations               Investment     Opp                                  Readiness    Health   Development
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                         Afghanistan................   \c\ -14%  .........  .........   \c\ -14%      \d\ 4%    \c\ -9%    \b\ -30%      \d\ 65%       \d\ 3%   \b\ -36%    \e\ 389%   ..............  .........   \c\ -14%      \d\ 6%
                         Asia.......................   \b\ -48%   \b\ -46%   \b\ -34%    \d\ 39%    \b\ -38%   \c\ -30%    \b\ -87%     \c\ -17%      \d\ 12%   \c\ -18%    \b\ -69%       \e\ 110%    \e\ 1319%   \b\ -41%    \b\ -31%
                         E&E........................  .........     \d\ 1%   \b\ -38%   \b\ -38%    \b\ -37%   \b\ -81%    \b\ -84%     \c\ -20%     \b\ -71%   \b\ -80%    \b\ -92%       \b\ -54%    \a\ -100%   \c\ -19%    \b\ -61%
RBU                      ESAF.......................   \b\ -78%     \d\ 7%   \b\ -45%  \e\ 2821%    \b\ -40%   \b\ -67%  ...........    \b\ -62%     \b\ -34%  .........    \b\ -85%       \b\ -49%    .........    \c\ -6%    \b\ -51%
                         LAC........................  \a\ -100%   \c\ -28%   \b\ -69%   \b\ -36%    \b\ -43%   \b\ -50%    \c\ -28%     \b\ -45%     \b\ -84%    \d\ 52%    \b\ -90%   ..............  .........   \b\ -46%    \b\ -46%
                         ME.........................    \c\ -4%  \a\ -100%  .........   \e\ 205%     \c\ -8%   \c\ -26%    \b\ -32%      \c\ -4%     \e\ 263%   \c\ -17%    \e\ 549%       \b\ -64%    \a\ -100%   \c\ -22%     \d\ -1%
                         WCAFH......................   \b\ -76%     \d\ 6%   \b\ -44%   \c\ -13%    \c\ -20%   \b\ -34%    \e\ 119%     \c\ -19%     \b\ -42%  \e\ 2970%    \b\ -80%       \b\ -71%    .........   \c\ -24%    \b\ -32%
                        ----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                         TOTAL......................   \b\ -34%     \d\ 3%   \b\ -43%    \d\ 40%    \c\ -21%   \b\ -39%    \b\ -35%     \b\ -35%     \c\ -26%   \b\ -33%    \b\ -74%       \b\ -37%     \b\ -85%   \c\ -13%    \c\ -29%
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
AFG                      Afghanistan................   \c\ -14%  .........  .........   \c\ -14%      \d\ 4%    \c\ -9%    \b\ -30%      \d\ 65%       \d\ 3%   \b\ -36%    \e\ 389%   ..............  .........   \c\ -14%      \d\ 6%
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                         Bangledesh.................   \b\ -54%  .........  .........   \e\ 655%    \e\ 134%   \b\ -46%  ...........    \c\ -20%   ..........   \b\ -72%  ...........  ..............  .........   \b\ -54%      \d\ 3%
                         Burma......................  .........   \b\ -38%   \b\ -34%   \e\ 256%    \d\ -91%  \a\ -100%   \a\ -100%     \c\ -25%   ..........   \e\ 182%  ...........  ..............  .........   \b\ -35%    \c\ -22%
                         Cambodia...................  \a\ -100%   \c\ -18%   \b\ -51%  \a\ -100%   \a\ -100%  \a\ -100%  ...........   \a\ -100%   ..........  .........   \a\ -100%   ..............  .........   \b\ -47%   \a\ -100%
                         East Timor.................  .........  .........  \a\ -100%  .........   \a\ -100%  .........  ...........  ...........  ..........  .........   \a\ -100%   ..............  .........  \a\ -100%   \a\ -100%
                         India......................  \a\ -100%   \b\ -46%   \b\ -45%  .........  ..........  .........   \a\ -100%    \a\ -100%   ..........  \a\ -100%   \a\ -100%   ..............  .........   \b\ -50%   \a\ -100%
                         Indonesia..................   \c\ -27%   \e\ 352%   \b\ -35%  .........    \c\ -10%   \b\ -51%  ...........  ...........  ..........  .........    \b\ -90%   ..............  .........   \c\ -21%    \b\ -31%
                         Laos.......................  .........  .........  \a\ -100%  \a\ -100%  ..........  \a\ -100%   \a\ -100%   ...........   \a\ -100%  .........  ...........  ..............  .........  \a\ -100%   \a\ -100%
                         Nepal......................  \a\ -100%  \a\ -100%  .........    \d\ 30%    \b\ -43%   \b\ -73%  ...........    \b\ -38%   ..........  .........   \a\ -100%   ..............  .........   \b\ -58%    \b\ -53%
Asia                     Pakistan...................  .........  \a\ -100%  .........     \d\ 9%    \c\ -13%    \c\ -1%   \a\ -100%       \d\ 4%       \d\ 4%     \d\ 4%  ...........       \d\ 83%    .........   \c\ -13%     \c\ -4%
                         Papua New Guinea...........  .........   \b\ -42%  .........  .........  ..........  .........  ...........  ...........  ..........  .........  ...........  ..............  .........   \b\ -42%  ...........
                         Philippines................  \a\ -100%  .........   \b\ -66%     \d\ 0%     \d\ 87%   \c\ -22%  ...........  ...........    \b\ -48%    \d\ 61%    \b\ -63%      \a\ -100%    .........   \b\ -69%    \c\ -20%
                         Sri Lanka..................  .........  .........  .........  \a\ -100%   \a\ -100%  .........  ...........  ...........   \a\ -100%  \a\ -100%  ...........  ..............  .........  .........   \a\ -100%
                         Thailand...................  .........  .........  .........  \a\ -100%  ..........  .........  ...........  ...........  ..........  .........  ...........  ..............  .........  .........   \a\ -100%
                         Vietnam....................  .........    \d\ 24%  .........  .........    \b\ -76%  \a\ -100%    \b\ -38%   ...........    \e\ 215%  \a\ -100%    \b\ -42%   ..............  .........    \d\ 24%    \b\ -42%
                         S Asia Regional............  .........  .........  .........    \d\ 83%     \d\ 76%  \a\ -100%  ...........  ...........     \d\ 61%  \e\ 3025%     \d\ 69%      \a\ -100%      \d\ 41%  .........     \d\ 44%
                         SAsia Regional.............  .........  .........  .........  .........  ..........  .........  ...........  ...........  ..........  .........  ...........      \e\ 270%    .........  .........    \e\ 824%
                         RDMA.......................  .........    \d\ 39%  \a\ -100%    \d\ 39%  ..........  .........  ...........   \a\ -100%    \a\ -100%  .........    \b\ -80%   ..............  .........   \b\ -42%    \b\ -72%
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                         Albania....................  .........  .........  .........   \e\ 107%   \a\ -100%  \a\ -100%  ...........  ...........  ..........  .........  ...........  ..............  .........  .........    \b\ -65%
                         Armenia....................  .........  .........  .........  \a\ -100%   \a\ -100%  .........   \a\ -100%   ...........   \a\ -100%   \b\ -71%  ...........       \d\ 73%    \a\ -100%  .........    \b\ -77%
                         Azerbaijan.................  .........  .........  .........  \a\ -100%   \a\ -100%  .........  ...........  ...........   \a\ -100%  \a\ -100%  ...........  ..............  .........  .........   \a\ -100%
                         Belarus....................  .........  .........  .........  \a\ -100%   \a\ -100%  .........  ...........  ...........  ..........  \a\ -100%  ...........  ..............  .........  .........   \a\ -100%
                         Bosnia.....................  .........  .........  .........    \d\ 30%    \d\ -47%    \c\ -9%  ...........  ...........    \b\ -40%   \c\ -13%  ...........      \b\ -38%    .........  .........    \c\ -27%
                         Georgia....................  .........  .........  .........   \b\ -38%    \b\ -40%  \a\ -100%     \c\ -6%     \b\ -37%     \c\ -21%   \c\ -13%    \b\ -80%   ..............  .........  .........    \b\ -41%
                         Kazakhstan.................  .........  .........  .........  \a\ -100%   \a\ -100%  \a\ -100%  ...........  ...........  ..........  .........   \a\ -100%   ..............  .........  .........   \a\ -100%
                         Kosovo.....................  .........  .........  .........    \d\ 40%    \b\ -48%   \b\ -76%  ...........  ...........    \c\ -25%   \c\ -21%  ...........     \a\ -100%    .........  .........    \b\ -32%
E&E                      Kyrgyz Republic............  .........  .........   \c\ -30%   \b\ -89%    \b\ -70%   \b\ -33%  ...........  ...........  ..........   \b\ -68%  ...........     \a\ -100%    .........   \c\ -30%    \b\ -68%
                         Macedonia..................  .........  .........  .........    \d\ 22%    \b\ -40%   \c\ -12%  ...........  ...........  ..........  .........  ...........  ..............  .........  .........    \b\ -31%
                         Moldova....................  .........  .........  .........  \a\ -100%    \b\ -46%  .........  ...........  ...........    \c\ -29%   \b\ -40%   \a\ -100%   ..............  .........  .........    \b\ -47%
                         Serbia.....................  .........  .........  .........    \d\ 11%    \b\ -40%  \a\ -100%  ...........  ...........  ..........   \c\ -21%  ...........  ..............  .........  .........    \b\ -33%
                         Tajikistan.................  .........  .........   \b\ -45%   \b\ -99%    \b\ -56%   \b\ -96%  ...........    \c\ -14%     \b\ -69%   \c\ -27%  ...........  ..............  .........   \b\ -45%    \b\ -53%
                         Turkmenistan...............  .........  .........  .........  \a\ -100%   \a\ -100%  \a\ -100%  ...........  ...........   \a\ -100%  \a\ -100%  ...........  ..............  .........  .........   \a\ -100%
                         Ukraine....................  .........     \d\ 1%   \b\ -53%   \b\ -45%    \c\ -14%  .........  ...........  ...........    \b\ -68%   \b\ -93%   \a\ -100%       \b\ -65%    .........    \c\ -9%    \b\ -73%
                         Uzbekistan.................  .........  .........   \c\ -30%    \d\ 27%     \d\ 41%  .........  ...........  ...........  ..........    \d\ 21%  ...........  ..............  .........   \c\ -30%     \d\ 30%
                         Ctr Asia Regional..........  .........  .........   \c\ -30%   \b\ -32%   \a\ -100%  \a\ -100%  ...........  ...........    \b\ -85%  \a\ -100%   \a\ -100%       \b\ -72%    .........   \c\ -30%    \b\ -70%
                         EE Regional................  .........  .........  .........    \d\ 23%     \c\ -1%  \a\ -100%  ...........  ...........  ..........    \d\ 79%    \b\ -80%        \d\ 61%    .........  .........      \d\ 5%
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                         Angola.....................  .........    \c\ -9%  \a\ -100%  .........  ..........  .........  ...........  ...........  ..........  .........  ...........  ..............  .........   \b\ -78%  ...........
                         Botswana...................  .........   \e\ 129%  .........  .........  ..........  .........  ...........  ...........  ..........  .........  ...........  ..............  .........   \e\ 129%  ...........
                         Burundi....................  .........   \c\ -27%   \b\ -82%  .........   \a\ -100%  .........  ...........  ...........  ..........  .........  ...........  ..............  .........   \b\ -57%   \a\ -100%
                         Djibouti...................  .........  .........  \a\ -100%  .........  ..........  \a\ -100%  ...........  ...........  ..........  .........  ...........  ..............  .........  \a\ -100%      \d\ 0%
                         Ethiopia...................   \b\ -62%   \b\ -35%   \b\ -45%  .........    \c\ -19%   \b\ -70%  ...........    \c\ -22%   ..........  .........   \a\ -100%   ..............  .........   \b\ -40%    \b\ -34%
                         Kenya......................   \b\ -73%     \d\ 4%   \b\ -41%  .........    \c\ -13%   \c\ -22%  ...........    \b\ -39%   ..........  .........    \c\ -30%   ..............  .........    \c\ -4%    \c\ -15%
                         Lesoto.....................  .........    \d\ 53%  \a\ -100%  .........  ..........  .........  ...........  ...........  ..........  .........  ...........  ..............  .........    \d\ 34%  ...........
                         Madasgar...................  \a\ -100%   \b\ -35%  .........  .........   \a\ -100%  .........  ...........  ...........  ..........  .........   \a\ -100%   ..............  .........   \b\ -40%   \a\ -100%
                         Malawi.....................  \a\ -100%    \d\ 69%  .........  .........   \a\ -100%  \a\ -100%  ...........   \a\ -100%   ..........  .........   \a\ -100%   ..............  .........   \e\ 114%   \a\ -100%
                         Mozambique.................  \a\ -100%   \c\ -27%   \c\ -22%  .........   \a\ -100%  \a\ -100%  ...........   \a\ -100%   ..........  .........   \a\ -100%   ..............  .........   \c\ -27%   \a\ -100%
                         Namibia....................  .........   \e\ 239%  .........  .........  ..........  .........  ...........  ...........  ..........  .........  ...........  ..............  .........   \e\ 239%  ...........
ESAF                     Rwanda.....................  \a\ -100%     \d\ 9%   \b\ -56%  .........   \a\ -100%  \a\ -100%  ...........    \b\ -88%   ..........  .........   \a\ -100%   ..............  .........   \c\ -20%    \b\ -67%
                         Somalia....................  .........  .........  .........  .........    \c\ -15%   \b\ -66%  ...........  ...........  ..........  .........     \d\ 43%   ..............  .........  .........    \e\ 113%
                         South Africa...............  .........     \d\ 5%   \b\ -37%  .........   \a\ -100%  \a\ -100%  ...........   \a\ -100%   ..........  .........   \a\ -100%   ..............  .........     \d\ 3%   \a\ -100%
                         South Sudan................   \b\ -33%     \d\ 6%   \b\ -74%  .........  ..........   \b\ -39%  ...........    \e\ 700%   ..........  .........   \a\ -100%   ..............  .........   \b\ -41%     \d\ 48%
                         Sudan......................  .........  .........  .........  .........    \b\ -64%  .........  ...........  ...........  ..........  .........  ...........  ..............  .........  .........    \b\ -38%
                         Swaziland..................  .........    \d\ 44%  \a\ -100%  .........  ..........  .........  ...........  ...........  ..........  .........  ...........  ..............  .........    \d\ 24%  ...........
                         Tanzania...................   \b\ -83%    \d\ 13%   \b\ -58%  .........    \c\ -25%   \b\ -59%  ...........    \b\ -81%   ..........  .........    \b\ -81%       \b\ -90%    .........    \c\ -2%    \b\ -75%
                         Uganda.....................  \a\ -100%     \d\ 1%   \b\ -49%  .........      \d\ 0%   \b\ -78%  ...........    \b\ -72%   ..........  .........   \a\ -100%   ..............  .........   \c\ -10%    \b\ -64%
                         Zambia.....................  \a\ -100%    \d\ 15%   \b\ -32%  .........   \a\ -100%  \a\ -100%  ...........   \a\ -100%   ..........  .........   \a\ -100%   ..............  .........     \d\ 6%   \a\ -100%
                         Zimbabwe...................  .........    \d\ 50%   \b\ -51%  .........   \a\ -100%  .........  ...........   \a\ -100%   ..........  .........  ...........  ..............  .........    \d\ 16%   \a\ -100%
                         E Afr Regional.............  .........  .........  \a\ -100%  .........  ..........  .........  ...........    \b\ -89%     \b\ -65%  .........    \b\ -78%   ..............  .........  \a\ -100%    \b\ -70%
                         Sth Afr Regional...........   \b\ -88%  \a\ -100%  .........  .........   \a\ -100%  .........  ...........   \a\ -100%     \b\ -60%  .........    \b\ -92%   ..............  .........   \b\ -93%    \b\ -84%
                         Africa Regional............   \b\ -91%  .........   \b\ -31%    \d\ 60%      \d\ 5%   \b\ -43%  ...........    \d\ 100%   ..........  .........    \b\ -77%       \b\ -51%    .........   \b\ -48%    \b\ -44%
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                         Barbados...................  .........     \d\ 5%  \a\ -100%  .........  ..........  \a\ -100%  ...........  ...........  ..........  .........   \a\ -100%   ..............  .........   \c\ -28%   \a\ -100%
                         Colombia...................  .........  .........  .........   \b\ -45%     \c\ -9%  .........    \c\ -28%   ...........  ..........  .........    \b\ -82%   ..............  .........  .........    \b\ -44%
                         Dominican Republic.........  .........    \d\ 10%  \a\ -100%  .........   \a\ -100%  \a\ -100%  ...........  ...........  ..........  .........   \a\ -100%   ..............  .........   \b\ -31%   \a\ -100%
                         Ecuador....................  .........  .........  .........  .........   \a\ -100%  .........  ...........  ...........  ..........  .........  ...........  ..............  .........  .........       -100%
                         El Salvador................  .........  .........  .........  .........    \b\ -48%   \b\ -47%  ...........   \a\ -100%     \b\ -79%  .........  ...........  ..............  .........  .........    \c\ -30%
                         Guatemala..................  \a\ -100%  \a\ -100%  .........   \b\ -50%    \b\ -38%   \b\ -31%  ...........    \c\ -29%   ..........    \d\ 28%    \b\ -78%   ..............  .........   \b\ -82%    \c\ -29%
                         Honduras...................  .........  .........  .........  .........    \c\ -26%   \b\ -31%  ...........      \d\ 0%   ..........   \b\ -43%    \b\ -50%   ..............  .........  .........    \c\ -28%
                         Jamaica....................  .........  .........  .........  .........  ..........  .........  ...........  ...........  ..........  .........   \a\ -100%   ..............  .........  .........   \a\ -100%
LAC                      Mexico.....................  .........  .........  .........  .........    \b\ -36%  .........  ...........  ...........  ..........  .........   \a\ -100%   ..............  .........  .........    \b\ -49%
                         Nicaragua..................  .........  .........  .........  .........   \a\ -100%  \a\ -100%  ...........  ...........  ..........  .........  ...........  ..............  .........  .........   \a\ -100%
                         Paraguay...................  .........  .........  .........  .........   \a\ -100%  .........  ...........  ...........  ..........  \a\ -100%  ...........  ..............  .........  .........   \a\ -100%
                         Peru.......................  .........  .........  .........    \d\ 37%   \a\ -100%  \a\ -100%  ...........  ...........  ..........  .........   \a\ -100%   ..............  .........  .........    \b\ -41%
                         USAID Carrib...............  .........  .........  .........  .........  ..........  .........  ...........  ...........  ..........  .........   \a\ -100%   ..............  .........  .........   \a\ -100%
                         Venezuela..................  .........  .........  .........  .........   \a\ -100%  .........  ...........  ...........  ..........  .........  ...........  ..............  .........  .........   \a\ -100%
                         CtrAmer Regional...........  .........   \c\ -16%  \a\ -100%  .........   \a\ -100%  .........  ...........   \a\ -100%    \a\ -100%  .........   \a\ -100%   ..............  .........   \b\ -51%   \a\ -100%
                         SthAmer Regional...........  .........  .........  .........  .........  ..........  .........  ...........  ...........  ..........  .........   \a\ -100%   ..............  .........  .........   \a\ -100%
                         LAC Regional...............  .........  .........   \c\ -26%  .........     \c\ -3%   \b\ -67%  ...........   \a\ -100%   ..........  .........   \a\ -100%   ..............  .........   \c\ -26%    \b\ -76%
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                         Egypt......................     \d\ 7%  \a\ -100%  .........  .........    \c\ -25%  .........  ...........      \d\ 0%   ..........   \b\ -65%  ...........  ..............  .........   \b\ -76%    \c\ -26%
                         Iraq.......................  .........  .........  .........  \e\ 1182%     \c\ -6%  .........      \d\ 0%   ...........      \d\ 0%  .........  ...........  ..............  \a\ -100%  .........    \e\ 145%
                         Jordan.....................   \b\ -31%  .........  .........  .........    \b\ -33%   \b\ -32%     \d\ 67%   ...........    \c\ -29%   \c\ -16%    \e\ 233%       \b\ -39%    .........   \b\ -31%    \c\ -19%
                         Lebanon....................   \c\ -12%  .........  .........  \a\ -100%      \d\ 8%   \b\ -45%  ...........  ...........  ..........  \e\ 1273%   \a\ -100%      \a\ -100%    .........   \c\ -12%    \c\ -26%
                         Libya......................  .........  .........  .........  .........     \d\ 43%  .........  ...........  ...........  ..........  .........  ...........  ..............  .........  .........    \e\ 130%
ME                       Morocco....................  .........  .........  .........  .........    \b\ -39%  \a\ -100%  ...........  ...........  ..........   \b\ -32%  ...........  ..............  .........  .........    \b\ -33%
                         Syria......................  .........  .........  .........    \d\ 36%     \d\ 53%  .........   \e\ 1500%   ...........  ..........  .........  ...........  ..............  .........  .........     \d\ 50%
                         Tunisia....................  .........  .........  .........  \a\ -100%  ..........  .........  ...........  ...........    \b\ -62%   \b\ -58%  ...........  ..............  .........  .........    \b\ -34%
                         West Bank/Gaza.............  .........  .........  .........  .........     \d\ 93%    \c\ -5%    \b\ -42%   ...........  ..........   \e\ 650%  ...........     \a\ -100%    .........  .........      \d\ 7%
                         Yemen......................  .........  .........  .........  .........    \b\ -50%    \d\ 20%  ...........      \d\ 0%   ..........  .........  ...........  ..............  .........  .........    \b\ -35%
                         MEPI.......................  .........  .........  .........  .........    \b\ -87%  \a\ -100%  ...........  ...........  ..........    \d\ 99%  ...........  ..............  .........  .........    \b\ -62%
                         ME Regional................  \a\ -100%  .........  .........   \b\ -90%      \d\ 0%   \b\ -36%  ...........   \a\ -100%      \d\ 88%    \d\ 88%  ...........  ..............  .........  \a\ -100%    \b\ -69%
                         Benin......................  .........  .........   \c\ -22%  .........  ..........  .........  ...........  ...........  ..........  .........  ...........  ..............  .........   \c\ -22%  ...........
                         Burkina Faso...............  .........  \a\ -100%     \d\ 0%  .........  ..........  .........  ...........  ...........  ..........  .........  ...........  ..............  .........   \c\ -10%  ...........
                         Cameroon...................  .........    \c\ -8%  \a\ -100%  .........  ..........  .........  ...........  ...........  ..........  .........  ...........  ..............  .........   \c\ -12%  ...........
                         Central Af Repub...........  .........  .........  .........  \a\ -100%  ..........  .........  ...........  ...........  ..........  .........  ...........  ..............  .........  .........   \a\ -100%
                         Chad.......................  .........  .........  .........  .........  ..........  .........  ...........  ...........  ..........  .........  ...........  ..............  .........  .........  ...........
                         Cote d'Ivoire..............  .........    \d\ 11%  .........  .........   \a\ -100%  .........  ...........  ...........  ..........  .........  ...........  ..............  .........    \d\ 11%   \a\ -100%
                         DRC........................  \a\ -100%     \d\ 3%   \b\ -42%    \d\ 77%      \d\ 0%   \c\ -22%    \e\ 618%     \e\ 400%   ..........  .........  ...........  ..............  .........   \b\ -33%     \d\ 28%
                         Ghana......................   \b\ -80%   \e\ 439%   \b\ -43%  .........    \c\ -30%   \b\ -67%  ...........    \b\ -61%   ..........  .........      \d\ 0%       \b\ -60%    .........   \c\ -28%    \b\ -59%
                         Guinea.....................  .........  .........   \b\ -85%  .........  ..........  .........  ...........   \a\ -100%   ..........  .........  ...........  ..............  .........   \b\ -85%   \a\ -100%
WCAFH                    Haiti......................   \b\ -44%    \c\ -3%   \b\ -36%  .........    \b\ -40%   \c\ -20%    \b\ -67%    \e\ 1150%   ..........  \e\ 1500%  ...........      \b\ -92%    .........   \c\ -13%     \c\ -6%
                         Liberia....................  \a\ -100%  \a\ -100%   \b\ -75%  .........   \a\ -100%  \a\ -100%  ...........   \a\ -100%   ..........  .........   \a\ -100%      \a\ -100%    .........   \b\ -81%   \a\ -100%
                         Mali.......................  \a\ -100%  \a\ -100%   \c\ -29%   \b\ -50%    \b\ -34%   \b\ -54%  ...........     \c\ -8%   ..........  .........   \a\ -100%   ..............  .........   \b\ -39%    \c\ -28%
                         Niger......................  .........  .........  .........  .........   \a\ -100%  .........  ...........  ...........  ..........  .........  ...........  ..............  .........  .........   \a\ -100%
                         Nigeria....................   \b\ -71%     \d\ 7%   \b\ -45%  .........     \d\ 59%    \d\ 60%  ...........     \c\ -5%   ..........  .........  ...........  ..............  .........   \c\ -16%     \d\ 47%
                         Senegal....................   \b\ -83%  \a\ -100%   \b\ -48%  .........    \c\ -20%   \b\ -55%  ...........    \b\ -64%   ..........  .........   \a\ -100%   ..............  .........   \b\ -52%    \b\ -60%
                         Sierra Leone...............  .........  \a\ -100%  .........  .........   \a\ -100%  .........  ...........   \a\ -100%   ..........  .........  ...........  ..............  .........  \a\ -100%   \a\ -100%
                         Ctr Afr Regional...........  .........  .........  .........  \a\ -100%  ..........  .........  ...........  ...........  ..........  .........    \b\ -83%   ..............  .........  .........    \b\ -86%
                         Sahel Regional.............    \c\ -9%  .........     \d\ 5%  .........    \e\ 800%  .........  ...........     \d\ 25%   ..........  .........  ...........  ..............  .........    \d\ -1%    \e\ 164%
                         W Afr Regional.............   \b\ -95%  .........  \a\ -100%    \d\ 14%      \d\ 0%  .........  ...........    \b\ -42%     \b\ -42%  .........    \b\ -80%   ..............  .........   \b\ -99%    \b\ -38%
 
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Legend:
 
\a\ Zeroed out in budget (100% cut)
\b\ Cut greater than 30%
\c\ Cut less than or equal to 30%
\d\ Increase less than 100%
\e\ Increase equal or greater than 100%

                      <greek-l>Diverse Group deg.
     Prepared Statement of a Diverse Group of National Faith-Based 
      Organizations in Support of the International Affairs Budget

                                                      June 7, 2017.

 
 
 
Hon. Thad Cochran,                    Hon. Rodney Frelinghuysen,
Chairman,                             Chairman,
Senate Appropriations Committee,      House Appropriations Committee,
Washington, DC 20510.                 Washington, DC 20515.
 
Hon. Patrick Leahy,                   Hon. Nita Lowey,
Ranking Member,                       Ranking Member,
Senate Appropriations Committee,      House Appropriations Committee,
Washington, DC 20510.                 Washington, DC 20515.
 


Dear Chairs and Ranking Members,

    We are a diverse group of national faith-based organizations 
committed to saving lives and advancing the dignity of vulnerable and 
marginalized persons and communities across the world. We support U.S. 
investment in international humanitarian and poverty-focused 
development assistance and peace-building programs that alleviate 
suffering from hunger, extreme poverty, forced displacement, 
debilitating illness, natural disasters and violent conflict.
    While representing various faith traditions, we all believe that 
people and nations are accountable for how we treat our brothers and 
sisters at home and abroad who are vulnerable and in need. The Federal 
budget is a moral document, which reflects the values of our nation. In 
the rich history of our country the American people have responded with 
a hand up to millions of people suffering from hunger, disease, 
displacement and violence.
    We believe that the international affairs budget proposed by the 
administration does not reflect this moral and compassionate 
commitment. Proposing to decrease funding for development assistance, 
disaster assistance, food aid, migration and refugee assistance, and 
the bureau of conflict and stabilization operations--compromises our 
foreign policy strategy, endangers our development and peacebuilding 
experts, and threatens our position in the world as a leader in global 
development. It also halts the progress that we have made over the last 
20 years eradicating extreme poverty and hunger.
    Fortunately, Congress has continued to provide bipartisan support 
for the international affairs budget, and we applaud concerns that have 
been expressed in response to the administration's proposal. We urge 
Congress to stand firm in its commitment to foreign assistance, and why 
we join the international advocacy community in support of $60 billion 
for the international affairs budget. The U.S. must remain the global 
leader, committed to reducing poverty and increasing opportunity--at 
home and abroad.
    Most of the 150 budget is within the jurisdiction of the State and 
Foreign Operations Subcommittee. As you allocate subcommittee funding 
we urge you to protect these programs by providing at or above the 
current fiscal year 17 levels of $53.1 billion for the SFOPS 
subcommittee. Investing in life-saving peace building, humanitarian, 
and poverty focused development assistance is critical for helping 
create a healthier world, and generating goodwill toward the United 
States.
    U.S. foreign assistance investments literally mean life or death 
for millions of people. Almost 800 million people still suffer from 
hunger, 767 million people still live in extreme poverty, and thousands 
of children die each day from preventable diseases. We are also facing 
the largest combined humanitarian crisis since WWII. Currently 60 
million persons have been displaced from their homes--the highest 
number in decades. Famine has been declared in South Sudan, and near 
famine conditions are in northeast Nigeria, Somalia, and Yemen-
threatening starvation for over 20 million people within the next 6 
months. Now, more than ever, we need to think about what our role is in 
the world.
    Again, thank you for considering our request. We look forward to 
working with you in building a world of hope and prosperity for the 
future of all God's children, including our own.

Thank you!

Sincerely,

 1. Adventist Development and Relief
    Agency
 2. American Jewish World Service
 3. Bread for the World
 4. Catholic Medical Mission Board, Inc.
 5. Children's Medical Ministries
 6. Christian Connections for Interna-
    tional Health
 7. Church World Service
 8. Conference of Major Superiors of
    Men
 9. Disabled Children's Fund
10. Evangelical Lutheran Church in
    America
11. Faiths for Safe Water
12. Food for the Hungry
13. IMA World Health
14. International Aid, Inc.
15. Islamic Relief USA
16. Jewish Council for Public Affairs
17. Lutheran World Relief
18. Mennonite Central Committee, U.S,
    Washington Office
19. Office of Social Justice, Christian
    Reformed Church in North America
20. Presbyterian Church (USA)
21. Union for Reform Judaism
22. United Church of Christ, Justice and
    Witness Ministries
23. United Methodist Church, General
    Board of Church and Society
24. World Renew
      
                                 ______
                                 
        Prepared Statement of Family and Friends of Anita Datar

                                                    March 20, 2017.

 
 
 
Hon. Mike Enzi, Chairman              Hon. Bernie Sanders, Ranking
U.S. Senate Budget Committee           Member
                                      U.S. Senate Budget Committee
 
Hon. Thad Cochran, Chairman           Hon. Patrick Leahy, Vice-Chairman
U.S. Senate Committee on              U.S. Senate Committee on
 Appropriations                       Appropriations
 
Hon. Lindsey Graham, Chairman         Hon. Patrick Leahy, Ranking Member
U.S. Senate Appropriations            U.S. Senate Appropriations
 Subcommittee on State, Foreign       Subcommittee on State, Foreign
 Operations, and Related Programs     Operations, and Related Programs
 


    Dear Chairman Enzi, Ranking Member Sanders, Chairman Cochran, Vice-
Chairman Leahy, and Chairman Graham:

    On November 20, 2015, armed terrorists killed Anita Datar, along 
with 19 other innocent people, in Bamako, Mali. Anita was the only 
American citizen killed in the attack. She was working in Mali at the 
time carrying out activities under the U.S. President's Emergency Plan 
for AIDS Relief (PEPFAR). Anita dedicated her career, and ultimately 
lost her life, to advancing global public health and development, 
particularly for women and children. As the family and friends of Anita 
Datar, we strongly urge you to provide full funding in fiscal year 2018 
for PEPFAR, the Global Fund, Maternal and Child Health, Family Planning 
and other critically important public health programs and that the 
United States continues to maintain it's leadership role when it comes 
to global development.
    Global public health and development programs make up less than 1 
percent of the Federal budget and they are critical to saving lives 
both here at home and abroad. These programs help stabilize other 
countries and prevent conflict reducing the need to put our men and 
women in uniform in harm's way. In our ever-interconnected world, when 
global pandemics such as the Ebola virus or the Zika virus are 
addressed before reaching our shores, Americans are safer.
    As leaders of your respective committees, you have seen firsthand 
the documented progress that has been made from America's leadership in 
global public health. Since its introduction in 2003, PEPFAR has 
supported nearly 11.5 million people with life-saving antiretroviral 
treatment (ART); nearly 2 million babies have been prevented from being 
born with HIV; and over 6 million orphans and vulnerable children have 
been given care and support to reduce the impact of HIV/AIDS. It has 
been reported that countries with PEPFAR programs become more stable 
and less violent compared to countries without these programs. It is 
because of these gains that Anita, along with thousands of other men 
and women who work to improve global public health, often leaving loved 
ones behind, took such great pride in her work.
    Shortly after her murder, the U.S. Agency for International 
Development (USAID) dedicated a plaque in its Washington D.C. 
headquarters to those like Anita who have lost their lives working with 
the agency. The plaque includes the inscription from the late General 
George Marshall, ``I have done my best, and I hope I have sown seeds 
which may bring forth good fruit.'' The Federal contributions to global 
public health and development programs are by no means sunk costs, but 
rather they are sound investments that not only save lives, but they 
advance America's national strategic interests.
    Americans are safer and better off with strong, robust funding of 
global public health and development programs. As you consider the 
fiscal year 2018 budget and related appropriations bills, we strongly 
urge you to fully fund PEPFAR, the Global Fund, Maternal and Child 
Health, Family Planning and other critically important global public 
health and development programs. As more than 120 retired three and 
four-star flag and general officers from all branches of the armed 
services recently stated in their letter to House and Senate 
leadership, ``Now is not the time to retreat.''

    Thank you for consideration.

Sincerely,

Family and Friends of Anita Datar

cc: U.S. Senator Bob Corker
 U.S. Senator Robert Menendez
 U.S. Senator Cory Booker
 U.S. Senator Benjamin Cardin
 U.S. Senator Chris Van Hollen

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                           www.anitadatar.org

                                 ______
                                 
 Prepared Statement of General Philip Breedlove, USAF (Ret.); General 
George Casey, USA (Ret.); General Carter Ham, USA (Ret.); General James 
Jones, USMC (Ret.); General George Joulwan, USA (Ret.); General Stanley 
 McChrystal, USA (Ret.); Admiral William McRaven, USNA (Ret.); Admiral 
  Michael Mullen, USN (Ret.); Admiral Eric Olson, USN (Ret.); General 
 John Paxton, USMC (Ret.); General David Petraeus, USA (Ret.); General 
 Joe Ralston, USAF (Ret.); Admiral Gary Roughead, USN (Ret.); General 
   Hugh Shelton USA (Ret.); Admiral James Stavridis, USN (Ret.); and 
                  Admiral Sandy Winnefeld, USN (Ret.)

   STABILITY-ENHANCEMENT INVESTMENTS AND THE FISCAL YEAR 2018 BUDGET

    Mr. Chairman and Members of the subcommittee, thank you for the 
opportunity for us to share our testimony on a matter of monumental 
importance to our country and the men and women in uniform we have been 
privileged to serve.
    Modern national security challenges require innovative national 
security thinking. Such thinking begins with recognizing one of the 
clear lessons of history: American security is advanced by the 
development of stable nations that are making progress on social 
development, economic growth, and good governance; by countries that 
enforce the rule of law and invest in the health and education of their 
own people. In short, America's interests are served by nations that 
give their people hope that tomorrow will be better than today.
    Conversely, American security is undermined by frail and failing 
nations where hope is non-existent, and where conditions foster 
radicalism, produce refugees, spark insurgency, and provide safe havens 
for terrorists, criminal gangs, and human traffickers. In this light, 
it is clear to us that strategic development assistance is not 
charity--it is an essential, modern tool of U.S. national security.
    U.S. development efforts should be respected--and budgeted--as 
investments in stability enhancement. The severe cuts to the State 
Department and USAID that the Administration has proposed will make 
America less safe, and Congress should reject them. Not only should we 
protect and properly fund the International Affairs budget, it is time 
for the United States and its allies to explore bold, dedicated funding 
for smart development efforts in fragile areas that build stability and 
prevent future threats from emerging.
    As you know, a host of international terrorist groups--al Qaeda, al 
Shabaab, Boko Haram, and ISIS, among others--have taken root in highly 
fragile regions and countries with shared characteristics such as 
corruption and poor governance, weak institutions, high poverty and 
inequality, indignity, and low quality of life for ordinary citizens. 
Local populations frustrated with poor governance and lacking 
meaningful opportunities to improve their lives or provide for their 
families are prone to tolerate, if not actively support, extremist 
groups that challenge government authority or assume the government's 
role as social-service provider. To combat these groups and prevent 
such areas from serving as fertile recruiting grounds, training areas, 
and transit routes for violent extremists, the United States and our 
allies should become much more proactive in helping address underlying 
conditions that, left unchecked, invite and foment instability.
    In our active duty days, we were honored to help lead the finest 
fighting force in the world. This experience helped inform our solid 
conviction that in the 21st century, weapons and warfighters alone are 
insufficient to keep America secure. We support DoD funding increases 
needed to maintain the readiness of our forces. These resources must be 
complemented and supported by a robust development budget to advance 
our national security objectives. Kinetic activities alone cannot 
prevent radicalization, nor can they, by themselves, prevent despair 
from turning to anger and increasing outbursts of violence and 
instability. This has been our national experience of the last 15 years 
in Afghanistan, Iraq, in the Middle East, and now in Africa.
    America has always relied on our men and women in uniform when 
called upon. Their faithful service, courage, and sacrifice deserves 
and demands that we address and develop the strongest possible strategy 
for conflict-prevention that our nation can muster. Cutting the 
International Affairs budget unilaterally will have the effect of 
disarming our country's capability to stop new conflicts from forming, 
and will place our interests, values, and the lives of our men and 
women in uniform at risk.
    Congress can, and should, make America safer with a robust and 
strategic Phase Zero initiative that engages the U.S. Government, non-
governmental organizations, and the private sector to synergistically 
prevent conflict and promote security, development, and governance 
rooted in the rule of law. Such an initiative will fill a dangerous 
vacuum that military intervention alone simply can't. Proactive 
conflict prevention strategies are far less expensive in terms of 
resources and lives expended than reactive use of our Armed Forces.
    Fighting extremist groups after they emerge as a well-trained and 
well-funded entity is costlier in lives and money than preventive 
efforts. It is also more difficult. Research suggests that investing in 
prevention is, on average, 60 times less costly than war and post-
conflict reconstruction costs. Preventing terrorist groups from 
expanding requires starving them of the oxygen on which they flourish: 
hopelessness and a belief that their radical agenda can provide purpose 
and meaning to the lives of their recruits.
    It is clear to us that development experts under the auspices of 
USAID, State Department, the Millennium Challenge Corporation, and 
other Federal agencies must be fully vested as part of a coherent 
whole-of-government stability-enhancement strategy that will protect 
America's interests in the modern security environment while minimizing 
the exposure of our young men and women to harm's way.
    We are part of a long history of U.S. military leaders who have 
noted how much more cost-effective it is to prevent a conflict than to 
end one.
    Former Chairman of the Joint Chiefs of Staff and retired Admiral 
Michael Mullen said, ``A fully-integrated foreign policy requires a 
fully-resourced approach. Our troops, Foreign Service officers and 
development experts work side-by-side in unprecedented and ever-
increasing cooperation as they execute our strategic programs.''
    Former Supreme Allied Commander and Commander of U.S. Southern 
Command, retired Admiral James Stavridis, said, ``In so many ways, the 
most important deployments we make are those supporting soft power via 
diplomacy and development: from our hospital ships to our humanitarian 
construction battalions, this are incredibly high 'bang for the buck'' 
efforts supporting State and AID.''
    Former SACEUR and Commandant of the United States Marine Corps, 
retired General James Jones, summed up the strategic premise with a 
simple but time-proven equation: stability equals development plus 
security.
    Helping to defeat the conditions that give rise to transboundary 
dangers such as radicalism, criminality, disease, and mass-migration at 
their place of origin will make America safer.
    We urge you to avoid a reduction in the 302(b) allocation for State 
and Foreign Operations, and to the poverty-fighting programs it funds. 
We also would welcome the opportunity to discuss the importance to our 
national security of non-military Phase Zero operations and 
investments, and ideas for dedicated funding for development efforts in 
fragile states to help build stability and to prevent future threats 
from emerging.

Thank you.

General Philip Breedlove, USAF (Ret.)--Former NATO Supreme Allied 
Commander Europe (SACEUR) and Commander, U.S. European Command

General George Casey, USA (Ret.)--Former Chief of Staff, United States 
Army

General Carter Ham, USA (Ret.)--Former Commander, U.S. Africa Command

General James Jones, USMC (Ret.)--Former Commandant, U.S. Marine Corps 
and former NATO Supreme Allied Commander Europe (SACEUR) and Commander, 
U.S. European Command

General George Joulwan, USA (Ret.)--Former NATO Supreme Allied 
Commander Europe (SACEUR) and Commander, U.S. European Command; Former 
Commander, U.S. Southern Command

General Stanley McChrystal, USA (Ret.)--Former Commander, U.S. Joint 
Special Operations Command

Admiral William McRaven, USN (Ret.)--Former Commander, U.S. Special 
Operations Command

Admiral Michael Mullen, USN (Ret.)--Former Chairman, Joint Chiefs of 
Staff; Former Chief of Naval Operations

Admiral Eric Olson, USN (Ret.)--Former Commander, U.S. Special 
Operations Command

General John Paxton, USMC (Ret.)--Former Assistant Commandant, U.S. 
Marine Corps

General David Petraeus, USA (Ret.)--Former Commander, U.S. Central 
Command

General Joseph Ralston, USAF (Ret.)--Former NATO Supreme Allied 
Commander Europe (SACEUR) and Commander, U.S. European Command; Vice 
Chairman, Joint Chiefs of Staff

Admiral Gary Roughead, USN (Ret.)--Former Chief of Naval Operations

General Hugh Shelton USA (Ret.)--Chairman, Joint Chiefs of Staff; 
Former Commander, U.S. Special Operations Command

Admiral James Stavridis, USN (Ret.)--Former NATO Supreme Allied 
Commander Europe (SACEUR) and Commander of U.S. European Command; 
Former Commander, U.S. Southern Command

Admiral James Winnefeld Jr., USN (Ret.)--Vice Chairman, Joint Chiefs of 
Staff; Former Commander, U.S. Northern Command
                                 ______
                                 
       Prepared Statement of the Government Accountability Office

                                                      June 5, 2017.

Hon. Rex W. Tillerson,
Secretary of State,
U.S. Department of State,
2201 C St., N.W.,
Washington, DC 20520.

Dear Mr. Secretary:

    The purpose of this letter is to provide an update on the overall 
status of the Department of State's (State) implementation of GAO's 
recommendations and to call your personal attention to areas where open 
recommendations should be given high priority. The government-wide 
average recommendation implementation rate for the past 4 years has 
been 77 percent. State's average implementation rate has been 80 
percent. As of May 4, 2017, State had 135 open recommendations. Fully 
implementing these open recommendations could yield significant 
improvements in your agency's operations.
    We would ask you to focus on 28 recommendations as being the 
highest priorities for implementation. (See enclosure for a list of 
these priority recommendations.) These priority recommendations fall 
into the five major areas listed below.

    Security of Overseas Personnel and Facilities.--Of the 28 priority 
recommendations, 23 are related to security issues. Fully implementing 
our 4 priority recommendations on personnel security would help ensure 
State personnel are prepared to operate in dangerous situations.\1\ In 
March 2014, we recommended that State take steps to ensure that U.S. 
civilian personnel are in compliance with the Foreign Affairs Counter 
Threat (FACT) training requirements. As of April 2017, State needs to 
complete plans to monitor and verify compliance with the FACT training 
requirement for permanent and temporary personnel.
---------------------------------------------------------------------------
    \1\ GAO, Countering Overseas Threats: Gaps in State Department 
Management of Security Training May Increase Risk to U.S. Personnel, 
GAO-14-360 (Washington, D.C.: Mar. 10, 2014).
---------------------------------------------------------------------------
    Fully implementing our 11 priority recommendations on physical 
security at overseas posts will improve the safety and security of 
personnel serving overseas, particularly in high-threat locations.\2\ 
For example, in June 2014, we recommended that State take steps to 
strengthen its risk management processes associated with physical 
security of diplomatic facilities. As of April 2017, State needs to 
take several actions to improve its ability to identify and mitigate 
risks, increase data reliability, and enhance security policies.
---------------------------------------------------------------------------
    \2\ GAO, Diplomatic Security: Overseas Facilities May Face Greater 
Risks Due to Gaps in Security-Related Activities, Standards, and 
Policies, GAO-14-655 (Washington, D.C.: June 25, 2014); and Diplomatic 
Security: State Department Should Better Manage Risks to Residences and 
Other Soft Targets Overseas, GAO-15-700 (Washington, D.C.: July 9, 
2015).
---------------------------------------------------------------------------
    Fully implementing 8 recommendations related to transportation 
security, such as those related to armored vehicles, would improve 
State's efforts to manage transportation-related security risks 
overseas.\3\ In October 2016, we recommended that State take steps to 
enhance its efforts to manage transportation-related security risks 
overseas, including improving guidance and developing monitoring 
procedures. As of April 2017, State needs to create consolidated 
guidance that specifies transportation security requirements and 
develop monitoring procedures to ensure posts comply with State's 
armored vehicle policy.
---------------------------------------------------------------------------
    \3\ GAO, Diplomatic Security: State Should Enhance Its Management 
of Transportation-Related Risks to Overseas U.S. Personnel, GAO-17-124 
(Washington, D.C.: Oct. 4, 2016).

    Security Assistance.--Every year the United States provides 
billions of dollars in assistance to other nations in the form of 
security equipment, technical assistance, and humanitarian supplies. We 
want to draw your attention to 2 recommendations to strengthen State's 
human rights vetting process related to Egypt.\4\ Until State 
implements these recommendations, it lacks complete vetting policies 
and procedures, which puts U.S. agencies at risk of providing security 
assistance to Egyptian security forces that have committed gross 
violations of human rights.
---------------------------------------------------------------------------
    \4\ GAO, Security Assistance: U.S. Government Should Strengthen 
End-Use Monitoring and Human Rights Vetting for Egypt, GAO-16-435 
(Washington, D.C.: Apr. 12, 2016).

    Cost Savings.--The U.S. Government is close to fully realizing the 
cost savings from our recommendation related to foreign assistance to 
Egypt. We recommended in 2015 that State and the U.S. Agency for 
International Development (USAID) plan for the use of $260 million 
earmarked for a cash transfer that the U.S. Government decided would 
not occur.\5\ State, working with the USAID, has taken steps to 
repurpose most of these funds, but as of April 2017, $30 million 
remains available. Given U.S. Government resource constraints, it is 
important that State plan for using these existing resources, including 
to potentially reduce future budget requests.
---------------------------------------------------------------------------
    \5\ GAO, Egypt: U.S. Government Should Examine Options for Using 
Unobligated Funds and Evaluating Security Assistance Programs, GAO-15-
259 (Washington, D.C.: Feb. 11, 2015).

    Humanitarian Assistance.--Based on our review of humanitarian 
assistance delivered to people in Syria, we recommended in 2016 that 
State require implementing partners to conduct risk assessments 
addressing the risk of fraud.\6\ State has included related language in 
a March 2017 funding agreement, but as of April 2017, two additional 
agreements had not yet been completed.
---------------------------------------------------------------------------
    \6\ GAO, Syria Humanitarian Assistance: Some Risks of Providing Aid 
inside Syria Assessed, but U.S. Agencies Could Improve Fraud Oversight, 
GAO-16-629 (Washington, D.C.: July 14, 2016).

    Information Technology.--In May 2016, we found that State spent 
approximately 80 percent of its information technology budget on 
operating and maintaining older systems. For example, 3 of State's visa 
systems were more than 20 years old. The software for one of these 
systems was no longer supported by the vendor, creating challenges 
related to information security. State was planning to upgrade the 
software to a newer version that also was not supported. As a result, 
we recommended that State identify and plan to modernize or replace 
legacy systems, consistent with Office of Management and Budget 
guidance.\7\ We especially encourage you to give attention to any 
recommendations that your Inspector General may have related to 
implementing a comprehensive information security program. To assist 
agencies in their efforts, we have issued work on actions needed to 
improve cybersecurity and agency information security programs.\8\
---------------------------------------------------------------------------
    \7\ GAO, Information Technology: Federal Agencies Need to Address 
Aging Legacy Systems, GAO-16-468 (Washington, D.C.: May 25, 2016).
    \8\ See, for example, GAO, Cybersecurity: Actions Needed to 
Strengthen U.S. Capabilities, GAO-17-440T (Washington, D.C.: Feb. 14, 
2017) and Federal Information Security: Agencies Need to Correct 
Weaknesses and Fully Implement Security Programs, GAO-15-714 
(Washington, D.C.: Sept. 29, 2015).
---------------------------------------------------------------------------
    In addition to these priority recommendations, since 1990, we have 
maintained a High Risk List to call attention to government operations 
that are high risk due to their vulnerabilities to fraud, waste, abuse, 
and mismanagement, or that are in need of transformation.\9\ Our High 
Risk program has served to identify and help resolve serious weaknesses 
in areas that involve substantial resources and provide critical 
services to the public. Progress has been possible through the 
concerted actions and efforts of the Congress and agencies, including 
within State.
---------------------------------------------------------------------------
    \9\ GAO, High Risk Series: Progress on Many High-Risk Areas, While 
Substantial Efforts Needed on Others, GAO-17-317 (Washington, D.C.: 
Feb. 15, 2017).
---------------------------------------------------------------------------
    In particular, we would like to call your attention to three 
government-wide High Risk areas: (1) strategic human capital 
management, (2) ensuring the security of Federal information systems 
and cyber critical infrastructure and protecting the privacy of 
personally identifiable information--1 of the 28 priority 
recommendations is related to this High Risk area--and (3) improving 
management of IT acquisitions and operations. Continuing management 
attention in these three areas is needed at all Federal agencies. 
Regarding IT acquisitions, we have identified the need for Federal 
agencies to continue to expeditiously implement the requirements of 
December 2014 IT acquisition reform legislation, known as the Federal 
Information Technology Acquisition Reform Act (FITARA), and to report 
all data center consolidation cost savings to OMB and address 
weaknesses in their management of software licenses.\10\
---------------------------------------------------------------------------
    \10\ FITARA was enacted into law as a part of the Carl Levin and 
Howard P. ``Buck'' McKeon National Defense Authorization Act for Fiscal 
Year 2015, Public Law No. 113-291, div. A, title VIII, subtitle D, 
Sec. Sec. 831-837, 128 Stat. 3292, 3438-3450 (2014). See, for example, 
GAO, Data Center Optimization: Agencies Need to Complete Plans to 
Address Inconsistencies in Reported Savings, GAO-17-388 (Washington, 
D.C.: May 18, 2017) and Federal Software Licenses: Better Management 
Needed to Achieve Significant Savings Government-Wide, GAO-14-413 
(Washington, D.C.: May 22, 2014).
---------------------------------------------------------------------------
    I appreciate your department's continued commitment to these 
important issues. If you have any questions or would like to discuss 
any of the issues outlined in this letter, please do not hesitate to 
contact me or Charles Michael Johnson, Jr., Managing Director, 
International Affairs and Trade at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="59333631372a36373a34193e3836773e362f">[email&#160;protected]</a> or 202-512-7331. 
Of course, we will continue to coordinate with State's GAO Liaison, 
Julianne Shinnick, and her team on all of the 135 open recommendations 
to determine which of our recommendations should be closed.

Sincerely yours,
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Gene L. Dodaro
Comptroller General of the United States

Enclosure

cc: The Honorable Mick Mulvaney, Director, OMB
 Julianne Shinnick, State

                               ENCLOSURE

           Department of State Open Priority Recommendations

             security of overseas personnel and facilities
Countering Overseas Threats: Gaps in State Department Management of 
        Security Training May Increase Risk to U.S. Personnel. GAO-14-
        360. Washington, D.C.: March 10, 2014.
Open Priority Recommendations:
  --To strengthen State's ability to ensure that U.S. civilian 
        personnel are in compliance with the Foreign Affairs Counter 
        Threat (FACT) training requirement, the Secretary of State 
        should monitor or evaluate overall levels of compliance with 
        the FACT training requirement among U.S. civilian personnel 
        under chief-of-mission authority who are subject to the 
        requirement.
  --To strengthen State's ability to ensure that U.S. civilian 
        personnel are in compliance with the FACT training requirement, 
        the Secretary of State should identify a mechanism to readily 
        determine the universe of assigned U.S. civilian personnel 
        under chief-of-mission authority who are required to complete 
        FACT training.
  --To strengthen State's ability to ensure that U.S. civilian 
        personnel are in compliance with the FACT training requirement, 
        the Secretary of State should take steps to ensure that 
        management personnel responsible for assigning personnel to 
        designated high-threat countries consistently verify that all 
        assigned U.S. civilian personnel under chief-of-mission 
        authority who are required to complete FACT training have 
        completed it before arrival in the designated high-threat 
        countries.
  --To strengthen State's ability to ensure that U.S. civilian 
        personnel are in compliance with the FACT training requirement, 
        the Secretary of State should take steps to ensure that 
        management personnel responsible for granting country clearance 
        consistently verify that all short-term temporary duty U.S. 
        civilian personnel under chief-of-mission authority who are 
        required to complete FACT training have completed it before 
        arrival in the designated high-threat countries.

Actions Needed: State concurred with these recommendations. State needs 
to take several actions to strengthen its ability to ensure that U.S. 
civilian personnel are in compliance with the FACT training 
requirement. For example, State officials said that they are developing 
a plan to utilize various electronic systems to monitor overall levels 
of compliance for assigned and short-term temporary duty personnel. 
State officials also said that they are developing a plan to achieve 
real-time verification of FACT training for assigned personnel using 
data from its Student Training Management System. As of April 2017, 
State had not completed either plan.

Managing Director: Charles Michael Johnson, Jr.
Contact: 202-512-7331 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="501a3f383e233f3e131d1037313f7e373f267e">[email&#160;protected]</a>
Diplomatic Security: Overseas Facilities May Face Greater Risks Due to 
        Gaps in Security- Related Activities, Standards, and Policies. 
        GAO-14-655. Washington, D.C.: June 25, 2014.
Open Priority Recommendations:
  --To strengthen the effectiveness of State's ability to identify 
        risks and mitigate vulnerabilities, the Secretary of State 
        should direct the Bureau of Diplomatic Security (DS) to 
        routinely ensure that necessary waivers and exceptions are in 
        place for all work facilities at posts overseas.
  --To strengthen the effectiveness of State's ability to identify 
        risks and mitigate vulnerabilities, the Secretary of State 
        should direct DS to develop a process to ensure that mitigating 
        steps agreed to in granting waivers and exceptions have been 
        implemented.
  --To strengthen the effectiveness of State's risk management 
        policies, the Secretary of State should develop a risk 
        management policy and procedures for ensuring the physical 
        security of diplomatic facilities, including roles and 
        responsibilities of all stakeholders and a routine feedback 
        process that continually incorporates new information.
  --To improve the consistency and data reliability of State risk 
        management data, the Secretary of State should direct the Under 
        Secretary for Management to identify and eliminate 
        inconsistencies between and within the Foreign Affairs Manual 
        (FAM), Foreign Affairs Handbook (FAH), and other guidance 
        concerning physical security.
  --To strengthen the applicability and effectiveness of State's 
        physical security standards, the Secretary of State should work 
        through DS or, in his capacity as chair, through the Overseas 
        Security Policy Board (OSPB) to develop physical security 
        standards for facilities not currently covered by existing 
        standards.
  --To strengthen the applicability and effectiveness of the State's 
        physical security standards, the Secretary of State should work 
        through DS or, in his capacity as chair, through the OSPB to 
        clarify existing flexibilities in the FAH to ensure that 
        security and life-safety updates to the OSPB standards and 
        Physical Security Handbook are updated through an expedited 
        review process.
  --To strengthen the applicability and effectiveness of State's 
        physical security standards, the Secretary of State should work 
        through DS or, in his capacity as chair, through the OSPB to 
        develop a process to routinely review all OSPB standards and 
        the Physical Security Handbook to determine if the standards 
        adequately address evolving threats and risks.
  --To strengthen the applicability and effectiveness of State's 
        physical security standards, the Secretary of State should work 
        through DS or, in his capacity as chair, through the OSPB to 
        develop a policy for the use of interim and temporary 
        facilities that includes definitions for such facilities, 
        timeframes for use, and a routine process for reassessing the 
        interim or temporary designation.

Actions Needed: State generally agreed with these recommendations, but, 
as of April 2017, State had not completed all of the actions it has 
planned to address them. State needs to take several actions to improve 
its ability to identify and mitigate risks, increase data reliability, 
and enhance security policies. For example, State needs to complete its 
efforts to track implementation of waiver and exception mitigation 
strategies through the deficiencies database. State also needs to take 
actions to improve the consistency and data reliability of its risk 
management data. For example, State needs to complete its revision of 
sections in the FAM and FAH related to physical security to ensure that 
guidance concerning physical security is consistent. Lastly, State 
needs to take actions to strengthen the applicability and effectiveness 
of its physical security standards, including completing an update to 
the FAH that specifically defines the physical security requirements 
for all facilities.

Director: Michael J. Courts
Contact: 202-512-8980 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b5f6dac0c7c1c6f8f5d2d4da9bd2dac39b">[email&#160;protected]</a>
Diplomatic Security: State Department Should Better Manage Risks to 
        Residences and Other Soft Targets Overseas. GAO-15-700. 
        Washington, D.C.: July 9, 2015.
Open Priority Recommendations:
  --To enhance State's efforts to manage risks to residences, schools, 
        and other soft targets overseas, the Secretary of State should 
        direct DS to institute procedures to improve posts' compliance 
        with requirements for conducting residential security surveys.
  --To enhance State's efforts to manage risks to residences, schools, 
        and other soft targets overseas, the Secretary of State should 
        direct DS to take steps to clarify existing standards and 
        security-related guidance for residences. For example, DS could 
        conduct a comprehensive review of its various standards and 
        security-related guidance for residences and take steps to 
        identify and eliminate gaps and inconsistencies.
  --To enhance State's efforts to manage risks to residences, schools, 
        and other soft targets overseas, the Secretary of State should 
        direct DS to develop procedures for ensuring that all 
        residences at posts overseas either meet applicable standards 
        or have required exceptions on file.

Actions Needed: State concurred with these recommendations and 
described its plans to address the recommendations in a July 2015 
letter to the Chairman of the U.S. Senate Committee on Foreign 
Relations. As of April 2017, State needs to take actions to enhance its 
efforts to manage risks to residences, schools, and other soft targets 
overseas. For example, State needs to incorporate the residential 
security program reporting requirement into the FAM. Furthermore, State 
needs to complete its comprehensive review of security standards and 
guidance for residences and take steps to identify and eliminate gaps 
and inconsistencies, steps that it reported initiating in July 2015.

Director: Michael J. Courts
Contact: 202-512-8980 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d390bca6a1a7a09e93b4b2bcfdb4bca5fd">[email&#160;protected]</a>
Diplomatic Security: State Should Enhance Its Management of 
        Transportation-Related Risks to Overseas U.S. Personnel. GAO-
        17-124. Washington, D.C.: October 4, 2016.
Open Priority Recommendations:
  --To enhance State's efforts to manage transportation-related 
        security risks overseas, the Secretary of State should direct 
        DS to create consolidated guidance for Regional Security 
        Officers that specifies required elements to include in post 
        travel notification and transportation security policies. For 
        example, as part of its current effort to develop standard 
        templates for certain security directives, DS could develop 
        templates for transportation security and travel notification 
        policies that specify the elements required in all security 
        directives as recommended by the February 2005 Iraq 
        Accountability Review Board as well as the standard 
        transportation-related elements that DS requires in such 
        policies.
  --To enhance State's efforts to manage transportation-related 
        security risks overseas, the Secretary of State should direct 
        DS to create more comprehensive guidance for DS reviewers to 
        use when evaluating posts' transportation security and travel 
        notification policies. For example, the checklist DS reviewers 
        currently use could be modified to stipulate that reviewers 
        should check all security directives for DS-required elements 
        recommended by the February 2005 Iraq Accountability Review 
        Board. The checklist could also provide guidance on how to take 
        the presence or absence of these required elements into account 
        when assigning a score to a given policy.
  --To enhance State's efforts to manage transportation-related 
        security risks overseas, the Secretary of State should direct 
        DS to clarify whether or not the FAH's armored vehicle policy 
        for overseas posts is that every post must have sufficient 
        armored vehicles, and if DS determines that the policy does not 
        apply to all posts, articulate the conditions under which it 
        does not apply.
  --To enhance State's efforts to manage transportation-related 
        security risks overseas, the Secretary of State should direct 
        DS to develop monitoring procedures to ensure that all posts 
        comply with the FAH's armored vehicle policy for overseas posts 
        once the policy is clarified.
  --To enhance State's efforts to manage transportation-related 
        security risks overseas, the Secretary of State should direct 
        DS to implement a mechanism, in coordination with other 
        relevant State offices, to ensure that Emergency Action 
        Committees discuss their posts' armored vehicle needs at least 
        once each year.
  --To enhance State's efforts to manage transportation-related 
        security risks overseas, the Secretary of State should direct 
        DS to clarify existing guidance on refresher training, such as 
        by delineating how often refresher training should be provided 
        at posts facing different types and levels of threats, which 
        personnel should receive refresher training, and how the 
        completion of refresher training should be documented.
  --To enhance State's efforts to manage transportation-related 
        security risks overseas, the Secretary of State should direct 
        DS to improve guidance for Regional Security Officers, in 
        coordination with other relevant State offices and non-State 
        agencies as appropriate, on how to promote timely communication 
        of threat information to post personnel and timely receipt of 
        such information by post personnel.
  --To enhance State's efforts to manage transportation-related 
        security risks overseas, the Secretary of State should direct 
        DS to take steps, in coordination with other relevant State 
        offices and non-State agencies as appropriate, to make travel 
        notification systems easily accessible to post personnel who 
        are required to submit such notifications, including both State 
        and non-State personnel.

Actions Needed: State concurred with these recommendations and provided 
updates in October 2016 and April 2017 describing its plans to address 
them, steps it had taken to date, and expected timeframes for 
completing these actions. As of April 2017, State needs to take steps 
to improve guidance for security officials and the monitoring of 
implementation of transportation security policies at overseas posts. 
For example, State needs to create consolidated guidance that specifies 
transportation security requirements and to clarify which posts are 
required to have armored vehicle policies. State also needs to develop 
monitoring procedures to ensure posts comply with State's armored 
vehicle policy and ensure that posts discuss armored vehicle needs.

Director: Michael J. Courts
Contact: 202-512-8980 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="53103c262127201e1334323c7d343c257d">[email&#160;protected]</a>
                          security assistance
Security Assistance: U.S. Government Should Strengthen End-Use 
        Monitoring and Human Rights Vetting for Egypt. GAO-16-435. 
        Washington, D.C.: April 12, 2016.
Open Priority Recommendations:
  --To strengthen compliance with the Leahy laws and implementation of 
        State's human rights vetting process and to help ensure that 
        U.S.-funded assistance is not provided to Egyptian security 
        forces that have committed gross violations of human rights, 
        the Secretary of State should determine, in consultation with 
        the Secretary of Defense, the factors that resulted in some 
        Egyptian security forces not being vetted before receiving U.S. 
        training, and take steps to address these factors, to ensure 
        full compliance with human rights vetting requirements for 
        future training.
  --To strengthen compliance with the Leahy laws and implementation of 
        State's human rights vetting process and to help ensure that 
        U.S.-funded assistance is not provided to Egyptian security 
        forces that have committed gross violations of human rights, as 
        State works to implement a revised version of the International 
        Vetting and Security Tracking system (INVEST) that is expected 
        to help facilitate equipment vetting, the Secretary of State 
        should develop timeframes for establishing corresponding 
        policies and procedures to implement a vetting process to help 
        enable the U.S. Government to provide a more reasonable level 
        of assurance that equipment is not transferred to foreign 
        security forces, including those in Egypt, when there is 
        credible information that a unit has committed a gross 
        violation of human rights.

Actions Needed: State concurred with these recommendations. State needs 
to take additional actions to help ensure compliance with the Leahy 
laws and implementation of State's human rights vetting process and to 
help ensure that U.S. funded assistance is not provided to Egyptian 
security forces that have committed gross violations of human rights. 
As of April 2017, State had provided revised guidance for equipment 
vetting in Egypt; however, it had not developed plans for implementing 
these procedures more broadly.

Managing Director: Charles Michael Johnson, Jr.
Contact: 202-512-7331 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="09436661677a66674a44496e6866276e667f27">[email&#160;protected]</a>
                              cost savings
Egypt: U.S. Government Should Examine Options for Using Unobligated 
        Funds and Evaluating Security Assistance Programs. GAO-15-259. 
        Washington, D.C.: February 11, 2015.
Open Priority Recommendation:
  --Given the significant unobligated balances of about $260 million in 
        the Economic Support Funds account for Egypt previously 
        allocated for a cash transfer that the administration has 
        stated it no longer intends to carry out, the Secretary of 
        State and the U.S. Agency for International Development (USAID) 
        Administrator should work to develop plans for an alternate use 
        of these funds, in consultation with the appropriate committees 
        of Congress. As part of planning for these funds, State should 
        also consider ways that this funding could potentially be used 
        to offset future budget requests.

Actions Needed: State concurred with this recommendation. As of April 
2017, State, working with USAID, needs to develop plans for an 
alternative use for the remaining $30 million of $260 million 
unobligated Economic Support Funds.

Managing Director: Charles Michael Johnson, Jr.
Contact: 202-512-7331 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d59fbabdbba6babb969895b2b4bafbb2baa3fb">[email&#160;protected]</a>
                        humanitarian assistance
Syria Humanitarian Assistance: Some Risks of Providing Aid inside Syria 
        Assessed, but U.S. Agencies Could Improve Fraud Oversight. GAO-
        16-629. Washington, D.C.: July 14, 2016.
Open Priority Recommendation:
  --To ensure that State has a comprehensive understanding of the risks 
        facing its implementing partners providing humanitarian 
        assistance to people inside Syria, the Secretary of State 
        should include in its voluntary contribution agreements with 
        implementing partners a requirement that the partner conduct 
        risk assessments addressing the risk of fraud.

Actions Needed: State concurred with this recommendation and has taken 
steps to implement it since our report. According to Bureau of 
Population, Refugees, and Migration officials, the Bureau has not yet 
completed voluntary contributions for the other two public 
international organizations conducting activities inside Syria, as of 
March 2017. We will continue to track relevant Bureau funding 
agreements to determine that future awards to fund activities inside 
Syria contain similar language on fraud risk assessments.

Director: Thomas Melito
Contact Information: 202-512-9601 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1c517970756873485c7b7d73327b736a32">[email&#160;protected]</a>
                          information systems
Information Technology: Federal Agencies Need to Address Aging Legacy 
        Systems. GAO-16-468. Washington, D.C.: May 25, 2016.
Open Priority Recommendation:
  --To address obsolete information technology investments in need of 
        modernization or replacement, the Secretary of State should 
        direct the Chief Information Officer to identify and plan to 
        modernize or replace legacy systems as needed and consistent 
        with Office of Management and Budget's draft guidance, 
        including timeframes, activities to be performed, and functions 
        to be replaced or enhanced.

Actions Needed: State concurred with this recommendation. As of April 
2017, State needs to plan to replace legacy information technology 
systems.

High Risk Area: Ensuring the security of Federal information systems 
and cyber critical infrastructure and protecting the privacy of 
personally identifiable information

Director: David A. Powner
Contact: 202-512-9286 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a5d5cad2cbc0d7c1e5c2c4ca8bc2cad38b">[email&#160;protected]</a>
                                 ______
                                 
     Prepared Statement of the Institute of International Education
    On behalf of the Institute of International Education, I am honored 
to submit testimony in support of the Fulbright international exchange 
program, which is funded by the Department of State and implemented by 
the Institute of International Education. Fulbright is the flagship 
U.S. Government sponsored international exchange program--supporting 
Americans to study and teach English overseas, and foreign students and 
scholars who contribute to U.S. universities and communities, while 
furthering their scholarship. No program reaches as many corners of the 
world or the United States for over 70 years.
    The latest publicly available Fulbright Foreign Scholarship Board 
report, notes that foreign governments contributed $93 million. This 
represents 20.8 percent of the total $448.45 million Fulbright program 
in fiscal year 2014. An additional $16.8 million was contributed by 
foreign private sources. Foreign contributions of $109.9 million 
represent 24.5 percent of the total program.
    We are concerned that foreign governments will reduce their 
contributions if the U.S. Government cuts funding. There is no 
realistic scenario where foreign and private contributions can make up 
the difference of U.S. cuts so that the program is maintained at 
current levels. In addition, the administration's proposed cuts to 
Economic Support Fund would likely result in USAID missions in 
Pakistan, Afghanistan and Egypt cutting back how much they allocate to 
Fulbright.
    As our Nation's flagship public diplomacy program, the Fulbright 
Program projects American strength, shores up allies, and advances 
American values of liberty, free markets and open exchange of ideas. It 
is a long-term investment in building communities and collaboration by 
advancing individuals' relationships, knowledge, and leadership skills. 
This is an important role for our government to invest in, as private 
international exchange programs do not have the reach and bilateral 
leveraging value of Fulbright.
    The Fulbright Program advances U.S. national security as one of the 
most effective foreign policy tools available to the U.S. Government. 
Fulbright alumni have become leaders and contributed greatly to 
society--including 37 current or former heads of state or government, 
57 Nobel Laureates, 82 Pulitzer Prize winners, 29 MacArthur Foundation 
Fellows, 16 Presidential Medal of Freedom recipients, and thousands of 
leaders across the private, public and nonprofit sectors. The Fulbright 
Program creates an unparalleled sphere of influence--future leaders who 
benefited from U.S. higher education and gained understanding of 
American communities and our people. The Fulbright Program operates in 
countries that are key trading partners, strengthening economic ties 
and building U.S. competitiveness. The Program provides U.S. Embassies 
with a platform for positive engagement with government and civil 
leaders and acts as a catalyst to attract foreign students to study at 
colleges and universities in every State in the Union.
    From its inception, the Fulbright Program has fostered bilateral 
relationships in which other countries and governments work with the 
U.S. to set joint priorities and shape the program to meet shared 
needs. It has benefited from bipartisan congressional support for 
decades. During the last several years of pressure on the Federal 
budget, Fulbright has proven its value both to the U.S. and our 
relationships internationally. While there are many competing demands 
and worthwhile investments for the Federal Government, the Fulbright 
program should be maintained in order to connect with the next 
generation of leaders from around the world, and continue to cement 
America's role as the preeminent higher education destination.

    [This statement was submitted by Allan E. Goodman, President and 
CEO.]
                                 ______
                                 
                   Prepared Statement of InterAction
    Chairman Graham, Ranking Member Leahy, and Members of the 
subcommittee, thank you for the opportunity to offer written testimony 
on the President's budget for fiscal year 2018. At a time when the role 
of foreign assistance in U.S. policy is being questioned, we 
particularly appreciate the opportunity the subcommittee created to 
better document the impacts of proposed budget cuts and policies 
included in the President's budget. It is not an exaggeration to say 
that the budget decisions before Congress have life-and-death 
consequences for the world's poorest people.
    As an alliance of nearly 190 member organizations working in nearly 
every developing country in the world, InterAction reflects a diversity 
of actors working across multiple development and humanitarian sectors. 
We have large and small members; faith-based and secular members; 
members who receive the bulk of their funding from the Federal 
Government, and members who are fully funded from private sources. As 
American humanitarian and development nonprofits, our members are 
committed to alleviating human suffering to make the world a more 
peaceful, just, and prosperous place. Therefore, InterAction's focus, 
and the primary focus of this testimony, is the impact of proposed cuts 
or reforms on the people whose lives are most directly affected.\1\
---------------------------------------------------------------------------
    \1\ This testimony includes the many insights we have learned from 
our members, but the INGO sector is not monolithic. This document 
reflects InterAction's perspective on the views of our community. 
InterAction is not a spokesperson for any individual member 
organization.
---------------------------------------------------------------------------
    Our community is united in its grave concerns about the cuts and 
proposals included in the President's budget. Examined one at a time, 
the proposed cuts are painful. Taken together, they fundamentally erode 
our country's ability to deploy development and humanitarian assistance 
in ways that not only advance human dignity and freedom, but support 
our national interests. As detailed below, the proposals in the 
President's budget would reduce the transformative economic impacts 
that our organizations see every day, cost lives, potentially 
exacerbate instability in already troubled regions of the world, and 
diminish the United States' standing and influence in the international 
community.
    What is especially concerning is that this proposal was made in 
direct contrast to strong, sustained, and bipartisan congressional 
support for international development and humanitarian assistance in 
last month's fiscal year 2017 omnibus appropriations legislation. The 
United States cannot step back from this longstanding leadership and 
support without causing irreparable damage. InterAction intends to 
illustrate the forms this damage would take across and in key sectors 
where our members work saving and improving lives around the world.
    To show the strength of support for this position, attached is a 
statement from InterAction and 82 INGOs responding to the proposals 
included in the President's budget, and requesting that Congress 
appropriate no less than $60 billion for the international assistance 
budget. This statement marks our topline concerns about the dramatic 
cuts to life-saving accounts. We have also attached a letter our 
community sent to Congress from 103 INGOs, endorsing robust funding for 
critical poverty fighting and humanitarian accounts for the 
subcommittee's consideration.
Cuts are not Synonymous with Reform
    The fiscal year 2018 President's budget frequently cited reform as 
the rationale for proposing substantial cuts to foreign assistance. In 
several diverse sectors, accounts were consolidated, cut, and/or zeroed 
out. Offices with different missions, ways of operation, and approaches 
to their work were merged. Of particular note, Development Assistance 
(DA) funding, which supports development programming in some of the 
poorest countries so that they can provide for their citizens, was 
eliminated and merged with the Economic Support Fund (ESF), which is 
more often used as a tool for supporting allies and advancing specific 
U.S. political interests, while simultaneously supporting individual 
development programs.
    U.S. foreign assistance programs can and should be made more 
efficient and effective, but the scale, scope, and extent of cuts 
proposed to the foreign assistance budget far outstrip any possible 
efficiencies that may be found. These and other reform proposals should 
be explored with a clear vision of what the U.S. is trying to achieve 
in the world and made after a careful exploration and weighing of the 
pros and cons of proposed changes.
    Over the last 50 years, the development and humanitarian community 
have learned a tremendous amount about what works and what does not in 
programming and management. American diplomats, development officials, 
international health workers, and humanitarians are trained 
professionals with different, meaningful skills. Combining offices or 
accounts with potentially competing goals and staff requirements will 
reduce effectiveness more than it reduces costs. Such cuts may also 
lead to costlier interventions down the road if the U.S. reduces the 
priority of core investments like development assistance. InterAction 
and many of our members recently signed onto the Modernizing Foreign 
Assistance Network's series of guiding principles \2\ that address many 
of these issues and warrant meaningful consideration by the 
administration and Congress when considering steps toward reform.
---------------------------------------------------------------------------
    \2\ http://modernizeaid.net/wp-content/uploads/2017/06/MFAN-goals-
principles-2017.pdf.
---------------------------------------------------------------------------
    Specifically, the U.S. depends on a robust and independent lead 
foreign assistance agency to achieve sustainable impact over the long 
term. The need for holistic foreign policy based on development, 
diplomacy, and defense is not in tension with an independent 
development agency. It is only strengthened when development is 
prioritized alongside of diplomacy and defense, rather than subsumed 
underneath them. Successful development and humanitarian programs 
support U.S. foreign policy interests, but they operate through 
different modalities and on different timelines than diplomacy and 
defense. A lead aid agency that is independent from the State 
Department preserves the United States' ability to address a range of 
challenges. To be effective, such an agency needs the authority to 
conduct its own policy, planning, and field-based analysis to support 
long-lasting economic growth and development. It should also include a 
dedicated funding stream for programming, like Development Assistance.
    We have seen substantive reforms achieved through strong, 
bipartisan congressional effort, such as the Global Food Security Act 
and Foreign Assistance Transparency and Accountability Act. It is 
encouraging to see this subcommittee and Congress engage key experts 
and partners implementing assistance to think through and design 
reforms given their knowledge and deep involvement in programming U.S. 
foreign assistance.
Basic Education
    Basic education has been a bedrock of U.S. development assistance, 
with strong allocations this subcommittee has made to basic education 
complementing authorization proposals, such as the bipartisan 
Reinforcing Education Accountability in Development (READ) Act. Each 
dollar invested in an additional year of schooling generates 10 dollars 
in benefits to low-income countries. Primary school enrollment rates 
have tripled and global literacy rates are up 33 percent in the last 25 
years.\3\ Ignoring these gains and congressional support, the 
President's budget cuts basic education programming in half.
---------------------------------------------------------------------------
    \3\ U.S. Agency for International Development, 2016.
---------------------------------------------------------------------------
    In tangible terms, this type of reduction translates to taking away 
literacy support from some 3 million elementary age children. An 
additional half million young learners may not even be enrolled in 
primary school.
Democracy, Rights, and Governance
    This subcommittee has also indicated its clear support for 
increased assistance for democracy, rights, and governance--
foundational American values. In fiscal year 2016 and 2017, Congress 
specified that the administration spend no less than $2.3 billion on 
democracy programs and provide $170 million for the National Endowment 
for Democracy. By providing a funding floor for democracy programming, 
Congress protected programming necessary to address democratic 
backsliding, to consolidate gains from economic development efforts, 
and to contribute to a more stable and prosperous world. Cuts to this 
account would not only reduce support to like-minded reformers around 
the world who are committed to freedom, equality, and individual 
rights, but could undermine faith in the United States commitment to 
promoting basic American values.
    Account consolidations proposed in the President's budget, could 
adversely affect U.S. support for Democracy, Rights, and Government 
(DRG) assistance, as it has equally important diplomatic and 
development contexts. The benefits of DRG assistance through USAID are 
realized through reinforcing the political and social stability 
afforded by good, responsive governments. This type of work is separate 
from diplomatic assistance administered by DOS that tends to focus on 
more specific outcomes or concerns through established, tailored 
relationships. Each serves a necessary, complimentary role--with proven 
results.
Environmental Concerns
    InterAction is also concerned by environmental and climate 
proposals in the President's budget, particularly in light of other 
policy changes. Developing countries are especially vulnerable to the 
effects of environmental change. Widespread impacts such as drought and 
flooding events, more severe and frequent weather-related disasters, 
coastal flooding, increased incidence of pests and diseases, and 
political and economic instability will compromise the livelihoods of 
communities across the globe. World Bank research suggests that without 
action to address these issues, more than 100 million people could be 
pushed into poverty by 2030.\4\
---------------------------------------------------------------------------
    \4\ http://www.worldbank.org/en/news/feature/2015/11/08/rapid-
climate-informed-development-needed-to-keep-climate-change-from-
pushing-more-than-100-million-people-into-poverty-by-2030.
---------------------------------------------------------------------------
    The effects of this change imperil generations of development gains 
and are already driving humanitarian crises, despite Congress 
rightfully pushing USAID and our member organizations to achieve 
greater results. Despite this, the President's budget zeroes out both 
bilateral programs and U.S. contributions to the Green Climate Fund, 
making development assistance in other sectors less effective.
Food Security and Agriculture
    Since the establishment of Food for Peace more than 60 years ago, 
the United States has been the world leader in the fight against global 
hunger. InterAction thanks this subcommittee for its ongoing efforts 
that have allowed the U.S. Government to further build food security 
and agricultural development programs which combat global hunger and 
malnutrition. Congress as a whole has shown strong bipartisan support 
for these programs, including with the recent passage of the Global 
Food Security Act into law in the 114th Congress.
    Despite the impressive gains made over the years, more work 
remains. Seven hundred ninety-five million men, women, and children 
around the world struggle every day to secure the nutritious food they 
need to live.\5\ The President's budget is a step back in the fight 
against hunger. The President's budget would cut agricultural 
development funding in half to less than $500 million, zero out Food 
for Peace Title II, the McGovern Dole International Food For Education 
and Child Nutrition account, and the Global Agriculture and Food 
Security Program, and cut the nutrition programs in the Global Health 
Program account and the Emergency Food Security Program in the 
International Disaster Assistance account. These proposals would 
severely hamstring efforts to help people feed their own families and 
build resilience to shocks--making it more likely that the need for 
emergency responses will grow. To put it simply, this budget proposal 
means more men, women and children will go hungry. Specifically, based 
on prior year calculations by leading international organizations, we 
believe: \6\
---------------------------------------------------------------------------
    \5\ http://www.fao.org/3/a-i4646e.pdf.
    \6\ Based on the research and calculations by a group of leading 
international organizations including Bread for the World, CARE, 
Catholic Relief Services, the International Rescue Committee, Mercy 
Corps, ONE Campaign, PATH, Save the Children, and World Vision.
---------------------------------------------------------------------------
  --Proposed cuts to McGovern Dole could lead to some 2.9 million 
        individuals being cut off from nutrition, education and hygiene 
        programs;
  --Proposed cuts to emergency food assistance could eliminate access 
        to lifesaving food assistance for some 22.6 million people in 
        crisis; and
  --Proposed cuts to Agricultural development could translate to 
        approximately 4.4 million farmers loosing access to programs 
        designed to support their own growth out of poverty.
    U.S. international food assistance made an enormous difference in 
the lives of 48.8 million people in 2014. The Feed the Future 
Initiative is implementing the Global Food Security Strategy, 
partnering with a number of developing countries to lay the groundwork 
for further advances in achieving food and nutrition security. Progress 
in agricultural development creates resilience in the face of future 
security threats while opening new markets and trading partners for our 
private sector. This subcommittee's ongoing commitment to combating 
global hunger is laudable, and needs to be continued rather than 
diminished.
Global Health
    Great strides have been made in global health. We responded to the 
threat of Ebola. Transmission rates of HIV have plummeted. Maternal and 
child survival rates are climbing. We are more effectively combatting 
malaria, tuberculosis, and neglected tropical diseases. Polio is on the 
verge of eradication. Yet in the face of this progress, the 
administration has proposed cuts of 26 percent across global health 
accounts in the Department of State and USAID--including a cut of over 
51 percent to USAID programming. Additional global health funding at 
the Centers for Disease Control, which comes before the Labor-HHS 
Subcommittee is also in line for a cut of 29 percent.
    Reducing investments in global health programs would roll back 
progress made in reaching the finish line on bold global health 
initiatives to which countries around the world have committed 
resources and initiatives, making it that much harder for us to reach 
these levels again and ultimately achieve our global health goals. 
Specifically, based on prior year calculations by leading international 
organizations,\7\ we believe that proposed cuts to global health 
medicine could result in some 12 million fewer bed nets and 8.8 million 
fewer malaria treatments reaching vulnerable populations. Proposed cuts 
to the Global Fund could translate to some 299,000 fewer lives saved, 
and a missed opportunity to mobilize some $675 million in other 
country's own domestic investments in the health of their population.
---------------------------------------------------------------------------
    \7\ Based on the research and calculation of a group of leading 
international organizations including Bread for the World, CARE, 
Catholic Relief Services, the International Rescue Committee, Mercy 
Corps, ONE Campaign, PATH, Save the Children, and World Vision.
---------------------------------------------------------------------------
    In order to maximize the impact of U.S. investments and increase 
the efficiency and effectiveness of initiatives worldwide, health 
practitioners and U.S. health agencies have worked to integrate global 
health programs and services. Therefore, unexamined reductions in 
funding for individual programs would also have ripple effects for 
overall global health investments.
Humanitarian Assistance
    Congress has recognized the unprecedented scope of global crises. 
One hundred twenty-eight million people worldwide are in need of 
humanitarian assistance, including 20 million people living in danger 
of famine conditions, and 65 million people who have been forcibly 
displaced. Congress responded to this need for life-saving assistance 
by appropriating nearly $9.5 billion dollars across accounts that 
provide the bulk of U.S. humanitarian assistance in fiscal year 2017: 
International Disaster Assistance (IDA), Migration and Refugee 
Assistance (MRA), Emergency Refugee and Migration Assistance (ERMA), 
and Food for Peace Title II (Food for Peace)--the last of which falls 
before the Agriculture Subcommittee. This assistance saves lives, helps 
mitigate global crises, and generous funding from the United States has 
been leveraged to increase commitments from other nations to do their 
part.
    The President's budget for fiscal year 2018 cumulatively cuts the 
humanitarian accounts by 44 percent. Each one receives a cut--with Food 
for Peace and ERMA being completely zeroed out--with consolidated 
accounts being planned to perform more functions in the face of growing 
needs, but with fewer resources. A 44 percent cut will not lead to 
remarkable new efficiencies. It will lead to fewer people receiving 
assistance and inevitably, lives lost. Specific impacts include: an 
estimated 39 million vulnerable people not receiving humanitarian 
assistance through IDA (on top of the emergency food assistance cuts in 
IDA mentioned previously); and 710,000 refugees in the Near East and 
Africa in danger of not receiving assistance through MRA, with further 
impacts due to reduced contributions to the International Committee of 
the Red Cross, the U.N. High Commissioner for Refugees, and the 
International Organization for Migration.\8\
---------------------------------------------------------------------------
    \8\ Based on the research and calculations by a group of leading 
international organizations including Bread for the World, CARE, 
Catholic Relief Services, the International Rescue Committee, Mercy 
Corps, ONE Campaign, PATH, Save the Children, and World Vision.
---------------------------------------------------------------------------
    Perhaps as alarming, the President's budget defies Congressional 
intent by stating it will expand use of carryover funds from these 
accounts to maintain obligation levels through fiscal year 2018. One of 
the core principles of humanitarian assistance is that we respond 
rapidly and adequately to people in need. Our members work around and 
through extraordinary budgetary and political pressures to reach the 
most vulnerable populations in the world in order to save lives. This 
subcommittee has shown time and again that it understands this and has 
provided funding to match the significant and pressing humanitarian 
needs around the world. However, Congress has not increased funding in 
these accounts to be drawn down at a later time, this funding was 
increased to save lives that hang in the balance now. Some carry-over 
as a hedge to meet unanticipated needs in these accounts is normal and 
necessary. Deliberately withholding funding from people in need of 
life-saving assistance to cover budget cuts is not. The weeks and 
months that funds are withheld to more evenly spread out cuts will be 
measured in lives lost waiting for assistance to arrive.
    While the fiscal year 2017 omnibus included language directing OMB, 
the State Department, and USAID to report on the proposed use of $990 
million of humanitarian assistance to prevent, relieve, and mitigate 
famine conditions across Nigeria, Somalia, South Sudan, and Yemen, that 
leaves $8.5 billion in humanitarian assistance without the same 
transparency. InterAction applauds efforts to increase transparency and 
feels that the Appropriations Committee should provide similar 
requirements across humanitarian accounts for fiscal year 2018. Such 
efforts would help ensure adequate responses across humanitarian 
crises, wherever they may take place.
Multilateral Accounts
    Support for multilateral accounts has historically been a bulwark 
of American global leadership. While these accounts support 
institutions that provide important foreign assistance, they also 
ensure the United States a seat at the table in international fora and 
lend us credibility on the global stage. The President's budget would 
damage this standing by zeroing out numerous multilateral accounts like 
Contributions to International Organizations and the previously 
mentioned Green Climate Fund, as well as making substantial cuts to the 
Contributions to International Peacekeeping Activities account.
    These cuts include contributions to the United Nations Children's 
Fund (UNICEF), compounding cuts to assistance children and mothers 
receive in bilateral development and humanitarian accounts. Ninety-two 
percent of UNICEF's funding goes directly to programming, providing for 
vaccines, antiretroviral medicines for children and mothers with HIV, 
nutritional supplements, emergency shelters, family reunification, and 
educational supplies.
    There can and should be important discussions about reforms that 
should be made to the U.N. and its operations. However, cuts to U.N. 
agencies that directly support programming and peacekeeping activities 
that support U.S. foreign assistance and foreign policy priorities--
often made at the behest of the United States at the U.N. Security 
Council--would only undermine our own foreign policy and diminish U.S. 
influence in key international processes.
Water, Sanitation, and Hygiene (WASH)
    Congress has long recognized the importance of safe water, 
sanitation and hygiene (WASH) inmeeting our shared poverty reduction 
and global health priorities. This assistance helps improve the dignity 
of women and girls worldwide, helps communities stave off life-
threatening diseases, helps children spend more time attending school 
instead of fetching water, helps women and girls have safe places to 
tend to their menstrual hygiene needs, and enables people to lead 
healthy productive lives that allow them to invest in their local 
economies. Yet one in three people worldwide still live without a 
decent toilet and one in ten lack safe drinking water.\9\
---------------------------------------------------------------------------
    \9\ https://thewaterproject.org/water-scarcity/water_stats.
---------------------------------------------------------------------------
    Despite widespread support, the President's budget proposes a cut 
of over 40 percent to water in all accounts from fiscal year 2017 
levels. The funding requested simply does not reflect the need as 
outlined above, nor ongoing Congressional support for WASH policy and 
programs. In fact, the proposed cuts could result in an estimated 2.2 
million people losing access to safe drinking water and sanitation 
facilities.\10\
---------------------------------------------------------------------------
    \10\ Based on research from field data collected from WASHCost-IRC 
International Water and Sanitation Centre, WASH Advocates, Millennium 
Water Alliance, CARE, WaterAid America, Water.org, Wine to Water, Water 
For People, World Vision, Plan International USA, Catholic Relief 
Services, USAID, The World Bank, The Bill and Melinda Gates Foundation, 
and other organizations, and compiled by the previously mentioned group 
of international organizations.
---------------------------------------------------------------------------
    InterAction remains grateful to Congress for its longstanding 
bipartisan support and looks forward to continuing to work together on 
WASH issues. In 2014, the U.S. Congress unanimously passed the Senator 
Paul Simon Water for the World Act, which reaffirmed our commitment to 
providing WASH to the poorest and most marginalized communities. A key 
provision of the bill ensured that funding is based on need, rather 
than political significance. However, the proposal to eliminate the 
Development Assistance account and consolidate it with the Economic 
Support Fund, threatens the intent of this law. Eliminating Development 
Assistance will reduce available funds for WASH programs, and will 
negatively impact how WASH projects will be carried out in the poorest 
regions of the world by displacing USAID's technical expertise in the 
area.
Administration of Foreign Assistance
    Finally, large-scale budget cuts would have impacts on the 
effectiveness and accountability critical to how foreign aid is spent. 
For example, USAID has increasingly usedlarge acquisition mechanisms--
Indefinite Duration Indefinite Quantity Contracts (IDIQs)--worth 
hundreds of millions and, at times, billions of dollars for assistance 
programming. IDIQs are most often implemented by for profit 
contractors. The use of this mechanism diverts resources from those we 
seek to help into corporate profits.
    On the surface, these contracts may seem to be an efficient way to 
implement similar programming to multiple recipient countries. However, 
these contracts sever historic ties with local nonprofits and create 
transactional relationships instead of those based on values. 
Importantly, the benefits from small programs designed for specific 
recipients are lost in favor of a broadly applied approach. For 
example, the recent Rule of Law Technical Services Indefinite Quantity 
Contract launched in 2013 ended many long-standing and effective 
nonprofit implemented programs in favor of corporate-led programming. 
In these countries, relationships were lost as contractors entered to 
provide transactional services in place of nonprofits fostering 
historic relationships.
    Congress and the administration can take steps to reverse the 
negative impacts IDIQs by recognizing the importance of nonprofits and 
the important role of an independent and engaged civil society. By 
fully funding staffing requirements at USAID and the Department of 
State, Congress can prevent aggressive staff cuts, which often result 
in fewer officers to oversee smaller grants with implementing partners 
who possess deep knowledge of the communities and contexts in which 
they work. Reducing staff capacity at U.S. foreign assistance agencies 
may result in the use of more contractors implementing U.S. foreign 
assistance, which may prove less effective. Cuts proposed in the 
President's budget will only further cement the commercialization of 
development and humanitarian assistance.
Conclusion
    Thank you, again, for the opportunity to submit testimony. Congress 
has historically acted as the validator of worthwhile presidential 
initiatives--such as PEPFAR and Feed the Future--and a check on ill-
considered cuts--for example, Congress has appropriated humanitarian 
assistance above the requests of both Republican and Democratic 
administrations in recent years. Our community has expressed alarm over 
the President's budget and we are encouraged by the shared, bipartisan 
concerns expressed throughout Congress--including by Chairman Graham 
and Ranking Member Leahy. InterAction looks forward to working with 
this subcommittee, Congress more broadly, and the Trump administration 
to ensure that the United States continues to be a leader in 
cultivating a better and more prosperous world through its provision of 
foreign assistance.

    [This statement was submitted by Lindsay Coates, President.]
                                 ______
                                 
  Prepared Statement of the International Rescue Committee--Voluntary 
                               Testimony
    The world is facing a daunting set of simultaneous and significant 
global challenges. Protracted conflict, violence against civilians, and 
total disregard for the humanitarian laws of war have driven 65 million 
people from their homes; famine threatens four countries and puts 30 
million at risk of starvation; and United States military forces are 
engaged in countering terrorism in a dozen countries from Syria to 
Somalia. These challenges threaten to deepen current crises and foment 
further instability if not appropriately addressed. Our response must 
be strong, efficient, effective, and commensurate with the global 
challenges we face, which will require continued leadership of the 
United States through the foreign aid budget and its programs and 
activities.
    The international response to these crises is already grossly 
underfunded, and the reductions included in the fiscal year 2018 
foreign aid budget request would unquestionably serve to widen the gulf 
between needs and available assistance. United Nations appeals 
outlining the needs for the largest seven crises around the world, 
which affect over 78 million people and overlap with conflicts in which 
U.S. forces are engaged, have an over $10 billion funding gap so far in 
2017. In the face of these challenges, cutting the U.S. foreign aid 
budget as the administration has proposed--a nearly one third reduction 
overall, with a 46 percent cut to development assistance, a 26 percent 
cut to global health programs, and a stunning 45 percent cut to life-
saving humanitarian assistance--would shirk America's moral obligations 
and be self-defeating to its strategic interests. These cuts would 
translate into excruciating choices for aid organizations like the 
International Rescue Committee (IRC) and for the people we serve. They 
would also significantly set back U.S. strategic leadership.
    The U.S. is often called upon to mitigate the threats to human 
lives and U.S. security and economic concerns from unchecked conflicts, 
poorly managed and chaotic migration flows, pandemics, and famines. 
Resolving these crises and preventing future ones requires fully 
funding the U.S. humanitarian assistance budget and addressing the 
structural problems of fragile states in smarter and more robust ways, 
with sustained development assistance and aligned diplomatic efforts. 
It also requires living up to the United States' commitment to offer 
safe haven for a portion of the world's most vulnerable refugees 
through resettlement. And while we should expect other nations to do 
more, it is U.S. leadership that leverages commitments from other 
countries. The U.S. fiscal year 2018 foreign aid budget should match 
the scale and nature of current global challenges and reflect the U.S. 
Government's longstanding bipartisan commitment to shared 
responsibility and the safeguarding of its own vital interests.
    The IRC has a unique vantage point, serving clients across the full 
arc of these crises in conflict/disaster zones, in countries of first 
refuge, on transit routes in Europe, and resettling the most vulnerable 
few (who are admitted via the most stringent security vetting in the 
world) to start new lives in the U.S. Many of the humanitarian crises 
roiling globally threaten U.S. interests in key strategic locations. 
IRC and organizations like ours serve wherever there is need, including 
in many locations where U.S. national security interests are at stake, 
including NE Syria, Iraq, Yemen, Somalia, and Afghanistan. In many 
cases, given the grave security concerns and risks on the frontlines, 
we and our partners are the first responders those in crisis meet 
coming out of direct conflict. We therefore understand all too well 
what is at stake in cutting foreign assistance funding, and offer the 
following evidence and argument against it.
    Aid saves lives.--Foreign aid has clearly demonstrated 
effectiveness in saving and improving the lives of people in crisis and 
poverty around the world. For example, USAID's Office of Foreign 
Disaster Assistance (OFDA) responds to 60 humanitarian crises per year 
affecting tens of millions of people, and the State Department Bureau 
of Population, Refugees, and Migration (PRM) leads on refugee 
assistance including through support to the United Nations High 
Commissioner for Refugees (UNHCR). U.S. foreign assistance has helped 
ensure that in 2015, 6.4 million fewer children died before their fifth 
birthday than in 1990. Because of programs like Feed the Future, nearly 
500 million fewer people go hungry every day. Over the last two 
decades, the number of people living in extreme poverty worldwide has 
been cut in half, even while the global population has increased by 2 
billion people, thanks in part to U.S. assistance to promote economic 
growth, stability, and opportunity.
    The impact of these cuts will be swift and devastating, and will be 
felt for years to come. It is difficult to estimate the full extent of 
such a retreat from U.S. engagement, but at least with regard to 
humanitarian needs, this budget proposal would undoubtedly cost many 
human lives. According to analysis from the former head of U.S. 
disaster response, under the proposed budget food aid funding would 
drop from $3.5 billion in 2017 to $1.5 billion in 2018, feeding 38 
million fewer people. International disaster assistance, which cover 
non-food relief, would decrease from $2.5 billion to $1 billion. As a 
result, USAID could lose the resources they need to reach, among 
others, up to 3.3 million Yemenis, 1.8 million Syrians, 1.2 million 
Somalis, 945,000 South Sudanese, and 640,000 Nigerians. Refugee 
assistance through the Migration and Refugee Assistance (MRA) and 
Emergency Refugee and Migration Assistance Fund (ERMA) accounts would 
be cut by 18 percent, meaning that an estimated 3.5 million refugees 
and Internally Displaced Persons (IDPs) would not receive assistance 
globally, including about 1 million in the Middle East and 1.1 million 
in Africa. Cutting off funding to immediate life-saving healthcare, 
water/sanitation services, shelter assistance, gender-based violence 
treatment and psychosocial support at a time of multiple famines and 
raging conflict around the world would lead to increased levels of 
refugees and IDPs and greater instability.
    Aid is critical to U.S. strategic interests.--There can be no 
effective foreign policy without effective humanitarian policy. 
Humanitarian assistance is a moral choice and a strategic necessity. 
President Trump's director of the Office of Management and Budget, Mick 
Mulvaney, has stated that this budget request is a ``hard power budget 
. . . not a soft power budget.'' But over 120 retired three and four-
star generals publicly affirmed that a one-sided defense strategy that 
under-resources humanitarian and development aid is costly and 
ineffective. While Commander of U.S. Central Command, Defense Secretary 
James Mattis himself stated, ``If you don't fully fund the State 
Department, then I need to buy more ammunition.'' Here's why:
    The experience of civilians caught in conflict--whether their 
safety, security, and basic needs are met--determines the trajectory 
for the aftermath of crisis and whether the sacrifice of American lives 
and resources leads to successful stability or future resurgence of 
extremism. As U.S. forces drive ISIS from Mosul and Raqqa, and support 
local forces fighting Boko Haram in the Lake Chad Basin, al-Shabaab in 
Somalia, and AQAP in Yemen, humanitarian organizations like the IRC 
provide immediate life-saving assistance to civilians in caught in 
these conflict zones and lay the groundwork for longer-term 
stabilization. Sustained support to multilateral and USAID initiatives 
in delivering emergency assistance and planting the seeds of good 
governance is a critical ingredient for sustained conflict resolution. 
The proposed cuts to USAID and the Department of State undercut whole-
of-government efforts that senior diplomatic, development, and defense 
officials have long stressed are necessary to bring stability to 
conflict zones.
    Humanitarian aid also supports the low and middle income countries 
that collectively host 88 percent of the world's 21 million refugees. 
These countries, like U.S. allies Jordan and Turkey as well as long-
term hosts like Pakistan, Kenya, and Uganda are shouldering the 
responsibility of millions of refugees at cost to their own political 
and economic development as well as to regional stability. Both 
refugees and these countries are pushed to desperate measures: 
according to an IRC survey, 65 percent of Syrian children are at least 
4 years behind in math and reading skills, and many schools stretched 
beyond capacity have implemented double shifts each school day. With 
widespread poverty among refugees (90 percent in Jordan and 70 percent 
in Lebanon), it is troubling but unsurprising that reports of child 
labor have risen by 73 percent in Jordan since before the influx of 
refugees. The U.S. commitment to provide humanitarian, development, 
economic, and security assistance to support the protection of 
civilians in countries of first refuge is also a function of 
enlightened self-interest--the forced and premature return of Syrian 
refugees to an unstable Syria, of Afghan refugees to an unstable 
Afghanistan, or of Somalis to an unstable Somalia foments new currents 
of conflict and crisis that, given U.S. interests and commitments in 
these regions, draw U.S. funds and U.S. troops into further quagmires.
    We are already seeing the cost of inadequate crisis response and 
prevention in many areas where the IRC works. The toll is evident in 
the flows of Syrian refugees to Europe, triggered in part by a halving 
of humanitarian assistance to Syrian refugees in 2015, which pose great 
risk to refugees' lives and have had profound political consequences 
for Europe. It is evident in the drastic choices Syria's overwhelmed 
neighbors have made to close borders, which have created humanitarian 
and security challenges like the situation at the Berm, where tens of 
thousands are trapped in a no-man's land between Syrian and Jordan with 
little humanitarian assistance and preyed upon by violent groups. And 
it is evident in the involuntary return of over 600,000 refugees from 
Pakistan to an unstable Afghanistan last year--the most since 2005 and 
a six-fold increase from 2015. Reducing our emergency and refugee 
assistance support for frontline states will heighten these high 
pressure situations.
    It is also demonstrated by the fact that U.S. troops in Iraq are 
working to clear some areas of terrorist groups for the third time, in 
part because insufficient investment in humanitarian response, 
development progress, and political reform has each time allowed 
extremists (first AQI, then ISIS) to take hold. Cuts to humanitarian 
budgets or development assistance will only exacerbate the situation. 
Reducing funds to the IDA and MRA accounts will curtail emergency 
responders' ability to respond to immediate needs for shelter, water 
and sanitation, medical assistance, and psychosocial support to those 
who have been living under ISIS rule. Moreover, the 83 percent cut to 
Iraq's development and economic assistance funding will inhibit 
essential investments to rebuild institutions and strengthen governance 
systems--the kind of long-term planning for stability that needs to 
happen today in order to prevent another round of fighting and mass 
displacement tomorrow.
    Development assistance is key to stemming global threats.--Fragile 
states--the source of many threats to U.S. security like large-scale 
displacement, pandemics, terrorism, arms and drug trafficking--are 
characterized by weak governance, corruption, and limited growth. High-
profile arenas like Syria and Afghanistan are certainly fragile, but 
the list also includes more overlooked crises like South Sudan (which 
has produced over one million refugees in the last 3 months) and Niger 
(one of the poorest countries on earth and a major transit point for 
West African migrants headed to Europe). Resolving fragility requires 
helping these states build and sustain effective institutions, 
inclusive governance structures, and economies that can respond to the 
needs of their people.
    In past years, only 30 percent of USAID spending has been in 
fragile states, half of that to just four countries. And the assistance 
they do receive is often through singular interventions that do little 
to build resiliency (e.g., a siloed HIV program that does not 
strengthen health systems and is thus of limited use in stopping an 
Ebola outbreak; or overinvestments in service delivery while ignoring 
economic development and institutional reforms to support 
sustainability and paths to aid independence). The administration's 
ESDF request results in the elimination of traditional development and 
economic bilateral assistance for 8 fragile states (Burundi, Central 
African Republic, Chad, Cote d'Ivoire, Niger, Sierra Leone, Zimbabwe, 
and Thailand) and reductions of over 20 percent to 8 others (Ethiopia, 
Liberia, Mali, Tanzania, Uganda, Burma, Iraq, and Jordan).
    U.S. assistance helps counter unique vulnerabilities for neglected 
populations, including for women and girls.--The risks women and girls 
face in crisis situations are striking: 1 in 3 women worldwide 
experiences some form of gender-based violence in her lifetime, 
including at least 1 in 5 displaced women. Girls are 2.5 times more 
likely to drop out of school during conflicts than boys, and child 
marriage rates among Syrian girls have quadrupled since the onset of 
the crisis, as families cope with poverty and insecurity. Already 
facing economic and gender inequality, displaced women are often forced 
for reasons of survival into taking low-paid, low-skilled jobs with 
higher risks of exploitation.
    Funding for programs with a gender component would be cut by 55 
percent from 2016 to 2018. The direct decrease in gender-specific 
funding would have serious consequences (e.g., 1.8 million fewer girls 
would receive an education). However, the cuts to refugee and 
humanitarian assistance will also disproportionately impact these 
neglected populations, as, for example, 75 percent of Syrian refugees 
in neighboring countries and 86 percent of South Sudanese refugees in 
Uganda are women and children. The U.S. foreign assistance budget 
should deepen integration of gender programming across foreign aid 
accounts, shore up dedicated gender equality programs, and mandate best 
practices by implementers (e.g. lighting and locks on latrine doors) to 
help ensure women and girls can overcome barriers and receive the 
specialized protection and programming they need.
    A strong resettlement program is a critical strategic element of 
U.S. foreign policy.--The proposed cuts to the foreign assistance 
budget impact not only our ability to help vulnerable populations and 
diminish risks abroad, but also here in the United States. The 
President's fiscal year 2018 budget request for MRA proposes $410 
million for the refugee admissions program, roughly $100 million less 
than the estimated amount spent on refugee admissions in fiscal year 
2016--another indication of the administration's intentions to 
dramatically reduce and alter refugee resettlement in the coming months 
and years. In addition to the lives that will be lost as a result of 
this abdication of U.S. global leadership, this move sends the wrong 
signal to critical U.S. national security and foreign policy allies who 
are hosting vastly greater numbers of refugees. It emboldens terrorist 
groups who seek to sow fear by targeting the very people they have 
victimized. It deprives American communities of the talents and 
contributions of these new Americans, and also keeps American families 
indefinitely separated. IRC recommends the United States admit at least 
75,000 refugees in fiscal year 2018.
    U.S. leadership generates more commitments from the international 
community.--We have seen that U.S. global leadership leverages 
commitments from other countries, such as the 30 percent increase in 
humanitarian funds pledged at last year's UN General Assembly, with 11 
countries doubling their contributions. Additionally, 18 countries 
committed to start or expand resettlement programs, roughly doubling 
the number of refugees they would collectively admit. Among major 
refugee-hosting nations, 17 countries committed to increase refugees' 
school enrollment, and 15 host countries committed to change their laws 
and policies to make it easier for refugees to work lawfully and 
support themselves. Many of these changes come with significant 
political tradeoffs for host nations; following through on them will 
take continued global encouragement and accountability. It will be 
difficult to ensure other countries uphold their commitments and shared 
responsibility if the United States retracts its leadership.
    Moreover, U.S. leadership and contributions through multilateral 
institutions allow for greater leverage per dollar and greater global 
reach than we can accomplish alone. The U.N. system has overseen 
decades of unparalleled international peace. Every year, the U.N. 
provides food to 80 million people in 80 countries. It vaccinates 40 
percent of the world's children, coordinates responses to epidemics 
like Zika and Ebola, and has virtually eradicated the crippling polio 
virus. It provides life-saving assistance to the 65 million people 
displaced by conflict and instability. U.N. peacekeeping efforts, too, 
have been shown to shorten conflicts, prevent them from recurring, and 
reduce harm to civilians. Yet the administration's request would cut 
U.S. contributions to the U.N. peacekeeping and regular budget by 37 
percent and 27 percent, respectively. There are undoubtedly 
improvements that can and should be made to improve the efficiency, 
effectiveness, accountability and transparency of these critical 
partners, but the consequences of these drastic cuts will fall first 
and foremost on civilian lives and U.S. interests.
    The World Bank and other multilateral development banks (MDBs) 
likewise have leading expertise in development programming, and also 
have the advantage of borrowing against capital contributions on the 
private market, enabling them to extend 2-5 dollars of financing every 
year per each dollar invested (in a one-time contribution) by donor 
countries. The MDBs have stepped up in humanitarian response as well, 
mobilizing over $17 billion to support refugee-hosting countries and 
fragile states while partnering with U.N. agencies to deliver emergency 
famine relief in Yemen and the Horn of Africa. However, the MDBs' 
effectiveness depends on continued donor support and partnership in 
delivering committed contributions and aligning development strategies. 
The President's budget request would cut contributions to the MDBs by 
$426 million, effectively reducing our leveraged impact by up to $2.13 
billion.
    U.S. foreign assistance is needed now more than ever.--It is a 
critical lifeline for the world's most vulnerable and the visible 
expression of America's interests and values. The drastic cuts proposed 
in President Trump's fiscal year 2018 budget do nothing to further 
either those interests or those values. Cutting foreign aid could 
further set back an entire generation of people in crisis, and give 
rise to additional threats against our strategic concerns. The current 
global challenges we face as a nation argue for more, not less, foreign 
aid, and strong U.S. leadership. The President's budget represents a 
retreat from that leadership and the global actions that support 
America's security and prosperity. It is a budget without strategy, 
disconnected from the threats and challenges that must be contained, 
and the opportunities that could be seized, to make the world safer and 
more prosperous for all. The IRC calls on the U.S. Congress to 
ultimately fund a robust foreign assistance budget that supports these 
critical goals.

For more information, please see:
  --Letters of support for U.S. foreign assistance compiled by USGLC 
        from over 225 business leaders, 100 Christian faith leaders, 
        and 120 U.S. military generals.
  --Testimony by IRC President and CEO David Miliband for the Senate 
        Foreign Relations Committee Hearing on March 15, 2017: ``Six 
        Years of War in Syria: The Human Toll.''
  --IRC statement on the administration's fiscal year 2018 budget 
        request from May 23, 2017.
                                 ______
                                 
Prepared Statement of the Modernizing Foreign Assistance Network (MFAN)
    Chairman Graham, Ranking Member Leahy, and Members of the 
Committee: On behalf of the Modernizing Foreign Assistance Network, 
thank you for the chance to submit written testimony regarding the 
fiscal year 2018 appropriations and the importance of effective foreign 
assistance. The MFAN coalition was built on the principle that foreign 
assistance is an invaluable tool of foreign policy that saves lives, 
promotes American values, ensures our national security, and advances 
our economic interests. Fifteen years of reforms have made U.S. 
assistance more effective, and to continue this trajectory MFAN urges 
Congress to reject the deep and disproportionate cuts to foreign 
assistance proposed by this administration and to support the following 
in fiscal year 2018:
  --Strengthened text requiring congressional review and consultation 
        throughout any reform or reorganization of foreign assistance 
        (bill text)
  --USAID, USAID Operating Expenses, $1,362,000,000 (fiscal year 2017 
        total enacted level)
  --USAID, USAID Capital Investment Fund, $200,000,000 (fiscal year 
        2017 total enacted level)
  --State Department/USAID, Identifying domestic resource mobilization 
        partners (report language)
  --State Department, Funding ForeignAssistance.gov (bill text)
  --USAID, Measuring sustained results at USAID (report language)
A Strong Foreign Affairs Budget
    United States leadership is critical to confronting the full range 
of challenges we face around the world, making effective foreign 
assistance more important than ever, even in a challenging budget 
environment. We at MFAN urge you to defend American leadership by 
resisting disproportionate and unprecedented cuts to poverty-fighting 
foreign assistance. The Trump administration's proposed cuts to the 
State Department and USAID not only threaten national security by 
increasing defense spending at the expense of diplomacy and 
development, it also threatens all the effectiveness gains that ensure 
American taxpayers dollars are used effectively.
    MFAN strongly urges Congress to reject these cuts as they would 
diminish America's standing in the world, and put millions of lives at 
risk. Your past leadership encourages us that you will seize 
opportunities to defend these programs and make them work harder for 
the American taxpayer and for people around the world.
    In large part due to the leadership of this Committee and Congress, 
there has been tremendous progress made in ensuring our aid dollars are 
used in the most effective way possible to save lives, prevent disease, 
and unlock opportunities for citizens in partner countries. Critical to 
recent successes in global human development is the expertise and 
resources that our development agencies--such as USAID and MCC--bring 
to the table.
A Modern USAID
    USAID, our lead development agency, has been transformed and 
modernized over the past decade and a half. USAID specializes in the 
longer-term and vitally important task of helping countries to govern 
themselves well and create inclusive economic opportunity. These 
development investments help minimize threats to the United States 
while fostering open markets and security and trade partnerships. 
Passage of recent legislation like the Foreign Aid Transparency and 
Accountability Act and the Global Food Security Act have codified 
reforms that improve the way USAID operates.
    Given its specialized development mandate, USAID is most effective 
as an independent agency focusing on development results. USAID's 
independence gives appropriate visibility to the unique development 
voice within U.S. foreign policy, and it enables appropriate 
specialization and focus on the longer-term and fundamentally important 
goals of development. Finally, USAID should continue to strengthen its 
culture of accountability for results and transparency to the U.S. 
public and development stakeholders. For example, a 2017 GAO study 
found that USAID and the MCC's evaluations far exceeded the quality of 
those conducted by other foreign assistance agencies.
A Legislative-Executive Branch Partnership to Reform Foreign Aid
    MFAN applauds the Committee for including language in the fiscal 
year 2017 Omnibus that requires the administration to report to 
Congress on any efforts to reorganize the State Department and USAID. 
MFAN urged the administration to engage Congress and the development 
community on the issue of reorganization following the recent memo from 
the Office of Management and Budget that calls for the submission of 
draft Agency Reform Plans by June 30, 2017. We applaud the Committee 
for this timely provision and for exercising its oversight role, 
ensuring that no restructuring can occur without congressional 
involvement.
    The legislation specifically states that ``prior to implementing 
any reorganization of the Department of State or the United States 
Agency for International Development . . . the Secretary of State shall 
submit a report to the Committees on Appropriations.'' The bill also 
requires that the report include several detailed analyses of any such 
reorganization, including the potential impact on ``the ability to 
conduct adequate monitoring and oversight of foreign assistance.''
    MFAN urges the Committee to strengthen this language in fiscal year 
2018 and to require, in addition to consultation with Congress and the 
development community, that the administration ensure that any 
reorganization effort is guided by sound principles--MFAN's Guiding 
Principles for Effective U.S. Assistance--a Global Development 
Strategy, and a systematic program review.
Reforms to Expand U.S. Impact
    As you know, aid effectiveness depends on two powerful and mutually 
reinforcing pillars of reform--accountability through transparency, 
evaluation, and learning; and country ownership of the priorities and 
resources for, and implementation of, development. Together, these 
pillars are vital to building the capacity in developing countries that 
will help enable citizens to take responsibility for their own 
development. In turn, this builds new trading and security partners for 
the United States.
    As you prepare your fiscal year 2018 appropriations bill, we at 
MFAN urge you to include the following:
    1.  Strengthen Congressional oversight of reforms and 
reorganization. MFAN commends the Committee for enacting provisions 
asserting Congress's prerogative to engage as a partner with the 
Executive Branch in any reform and reorganization of foreign 
assistance. MFAN urges Committee to strengthen these instructions in 
fiscal year 2018 by requiring reforms to be based on: consultation with 
Congress and the development community, adherence to guiding principles 
of aid effectiveness, a review of U.S. assistance, and a coherent 
Global Development Strategy.
    2.  Maintain fiscal year 2017 funding for USAID Operating Expenses 
at $1.362 billion. In July 2016, the Foreign Aid Transparency and 
Accountability Act was enacted (Public Law 114-191) with the unanimous 
support of Congress, and requires detailed reporting on foreign 
assistance spending, as well as improved systems for monitoring and 
evaluation. Full funding for USAID Operating Expenses at the fiscal 
year 2017 final enacted level is essential for aid effectiveness and 
supports USAID's efforts to drive innovation and retain talent, oversee 
program implementation, improve transparency, and evaluate results.
    3.  Maintain fiscal year 2017 funding for the USAID Capital 
Investment Fund at $200 million. Full funding for the USAID Capital 
Investment Fund at the fiscal year 2017 final enacted level is 
essential for the effectiveness of U.S. foreign assistance. The Capital 
Investment Fund (CIF) is critical to strengthening the information 
technology (IT) systems of the Agency necessary to enhance the quality 
and comprehensiveness of aid data and the accountability of U.S. 
foreign assistance. The CIF supports the establishment of USAID's 
Development Information Solution, a modernized system to manage and 
report on the agency's global portfolio.
    4.  Report language identifying partners for domestic resource 
mobilization assistance. MFAN appreciates fiscal year 2017 and fiscal 
year 2016 language in both the House and Senate reports encouraging the 
U.S. Government to help countries increase domestic revenues. We 
request the Committee build on these efforts by requesting that USAID, 
Treasury, and PEPFAR specifically identify countries where such 
assistance could better help mobilize their own financial resources and 
lay a long-term path toward fiscal sustainability.
          Partner countries ultimately need to raise and invest more of 
their own domestic resources to address their needs in a sustainable 
way. To help achieve this aim, the U.S. Government should invest in the 
capacity of partner governments to enhance domestic resource 
mobilization and to identify new and/or alternative sources of funding 
to gradually increase their financial contribution to their own 
development priorities. MFAN's ``Principles for Public Sector Domestic 
Resource Mobilization'' provides guidelines to ensure that this 
assistance is catalytic for broad-based economic growth and poverty 
reduction.
          This approach has been successful in a number of countries, 
including El Salvador, where a $5.8 million USAID partnership with the 
government resulted in policy reforms and capacity-building that 
allowed the country to increase its revenues by $350 million per year, 
with a $160 million increase in annual spending on programs for health 
and education.
    5.  Consistent funding for the ForeignAssistance.gov website. In 
2016, Congress unanimously passed the Foreign Aid Transparency and 
Accountability Act (Public Law 114-191), which codifies and builds upon 
the ForeignAssistance.gov website, and we thank the House and Senate 
Committees' efforts to provide funding for this important resource. The 
database is a critical tool for collecting and publishing aid 
information for the American people and the International Aid 
Transparency Initiative Registry. To ensure implementation of the 
``Foreign Aid Transparency and Accountability Act'' and improvement in 
the quality and comprehensiveness of data on ForeignAssistance.gov, we 
recommend that the State Department consistently fund this resource by 
being permitted to use all bilateral economic assistance under title 
III of the bill.
    6.  Report language to measure sustained results. USAID revised its 
program cycle guidance in 2016 to elevate the importance of utilizing 
local priorities, implementers, and resources to achieve development 
gains. Although these factors are important for the long-term 
sustainability of development gains, the Agency does not have a 
systematic means of measuring its performance in these areas. We 
request report language that supports USAID's policy and directs the 
Agency to establish a method for systematically measuring its 
performance achieving locally owned sustainable development.
    In addition, we at MFAN applaud both the House and Senate's fiscal 
year 2017 emphasis on foreign assistance transparency and 
accountability. In particular, we endorse the Senate's language in the 
``Monitoring and Evaluation'' section of its fiscal year 2017 report 
calling for the State Department to review and publish a Report on 
Monitoring and Evaluation of fiscal year 2015 Programs because ``there 
are inadequate processes in place to ensure that the findings and 
recommendations of evaluations inform program design, policy decisions, 
and budget allocations.'' We hope that such a review will be adopted 
and focus on the most current year possible.
    Finally, MFAN remains concerned about U.S. foreign assistance 
directed to countries via sector set-asides and presidential 
initiatives that are not linked to country priorities and strategies. A 
2015 USAID Inspector General audit of regional and country development 
cooperation strategies (CDCSs) reported that ``Employees said the 
budget often trumped local priorities, and nondiscretionary funding-- 
such as presidential initiatives and earmarks--drove the selection of 
development objectives. In addition, budget allocations did not always 
align with the CDCSs, and some objectives were not funded.'' \1\ MFAN 
urges greater alignment of U.S. foreign assistance with country and 
citizen-identified priorities to better ensure that development 
resources catalyze durable poverty reduction and economic growth.
---------------------------------------------------------------------------
    \1\ USAID Office of Inspector General, Audit Report No. 9-000-15-
001-P, ``Audit of USAID Country and Regional Development Cooperation 
Strategies,'' February 20, 2015.
---------------------------------------------------------------------------
    Thank you for your work on the State and Foreign Operations 
Appropriation bill and for considering these requests. Our coalition 
looks forward to working with you further to advance U.S. values and 
economic and national security interests by supporting a more just, 
prosperous, and secure world.
                                 ______
                                 
                  Prepared Statement of Oxfam America
    The fight against global poverty is one of America's proudest and 
smartest investments. The Trump administration's proposal to cut 
development and humanitarian aid by over 30 percent would have a 
devastating impact on the world's most vulnerable people and threaten 
the global progress that U.S. foreign aid investments have helped 
create. Moreover, slashing development and humanitarian aid as proposed 
in the administration's budget would severely undermine the capacity of 
U.S. foreign assistance agencies to use aid effectively and with proper 
accountability for results.
    Oxfam is an international development and relief organization 
working to create lasting solutions to poverty, hunger and injustice. 
Oxfam does not take U.S. Government funding but believes that aid can 
empower people in developing countries to create inclusive economic 
growth, strengthen essential public services, and build just, self-
reliant societies. Oxfam has long worked to understand the conditions 
and approaches to development that make foreign aid most effective. 
Over the last decade, we have seen great progress--both in the 
reduction of global poverty and in the way U.S. foreign assistance is 
carried out. USAID has made key reforms that are helping to make U.S. 
foreign aid programs more transparent, accountable, and effective in 
meeting U.S. and partner country goals. Turning our backs on this 
progress would be a grave mistake.
    The President has proposed an overall 32 percent cut to the 
International Affairs Budget, which funds two of the three key pillars 
of U.S. foreign policy: diplomacy and development. These cuts would 
disproportionately affect development programs, and would hit the 
poorest countries hardest. President Trump has proposed deep cuts to, 
and in some cases total elimination of, foreign assistance accounts 
that are critical for poverty reduction including: Development 
Assistance, Economic Support Funds, Migration and Refugee Assistance, 
Global Health, International Development Assistance, and the Millennium 
Challenge Corporation. These accounts are by no means the only ones 
providing development assistance, but represent a large proportion of 
the funds that go to low and lower-middle income countries where 
assistance is needed most. By cutting these accounts the budget 
undermines the United States' ability to promote the development of 
stable, prosperous partners that share the ideals of the United States. 
Additionally, the programs funded by these accounts are essential for 
millions of people around the world, and make significant contributions 
to ending extreme poverty--a goal which should be paramount in U.S. 
foreign assistance.
    These cuts will affect countries and communities in real and 
significant ways. For example, in Ethiopia, where the average person 
lives on less than $620 per year, and 20 percent of the population 
lives in extreme poverty, the Trump administration's budget would cut 
foreign assistance by 74 percent.\1\ Under this proposal 3.5 million 
children would lose education support in a country where 60 percent of 
adults are illiterate. Hundreds of thousands of farmers would lose 
access to new technologies and American expertise through the Feed the 
Future program. Millions of undernourished children would be left 
without access to nutrition programs.\2\
---------------------------------------------------------------------------
    \1\ Congressional Budget Justification Department of State, Foreign 
Operations, and Related Programs FISCAL YEAR 2018. p 225-230. https://
www.state.gov/documents/organization/271013.pdf. Accessed June 12, 
2017. GDP per capita (current US$) <rm-bond> Data. http://
data.worldbank.org/indicator/NY.GDP.PCAP.CD. Accessed June 12, 2017. 
Team WBD. The 2017 Atlas of Sustainable Development Goals: a new visual 
guide to data and development. The Data Blog. http://
blogs.worldbank.org/opendata/2017-atlas-sustainable-development-goals-
new-visual-guide-data-and-development. Published April 17, 2017. 
Accessed June 12, 2017.
    \2\ ForeignAssistance.gov. Special Data Sets Performance and 
Results 2015 Actual Results. http://beta.foreignassistance.gov/. 
Accessed January 27, 2017.
---------------------------------------------------------------------------
    The Trump administration's budget envisions a foreign aid portfolio 
that is focused on reducing assistance and is directed by short-term 
U.S. foreign policy interests. Such a restructuring of U.S. foreign 
assistance programs would undermine and politicize development programs 
in a way that ignores where the needs are greatest, abandons countries 
who are strong U.S. partners, and shows a lack of understanding of the 
economic and national security dividends that investing in development 
pays back to the United States. This strategy also completely 
disregards the financial cost of cutting assistance programs, the 
investments that would be wasted if ongoing projects are left 
unfinished, and the long-term harm that would be done both to people 
and to U.S. relationships abroad.
    The administration's foreign aid budget proposal also indicates a 
belief that U.S. development programs can be easily transferred under 
the management of the State Department. This is not the case. While 
USAID and State work closely together in countries around the world, 
the State Department is not a development agency, nor should it be. 
Development is a discipline that requires technical expertise and 
experience in a wide variety of sectors that diplomats and other State 
Department employees simply do not have. Such a restructure would 
severely damage the U.S.'s ability to design, manage, and evaluate 
development programs to ensure their success.
    If the U.S. wants to win hearts and minds in the developing world, 
doing development well is a good place to start. This means approaching 
relationships from a place mutual respect--understanding and 
incorporating partner country development priorities, making 
investments in local institutions and structures rather than creating 
parallel ones, and working in a way that ensures people at all levels 
have a say in their own development. This cannot be done with a focus 
only on the nations the U.S. wants to influence now, but must be done 
comprehensively and with foresight. We cannot predict where the next 
ISIS will emerge, which developing economy will become a major economic 
player, or where the next pandemic threat will occur, but we can 
minimize risk and nurture strong partnerships by supporting holistic 
development in the Global South.
    Development is a complex and long-term endeavor. This means that 
not all gains happen over the course of a budget cycle, but require 
sustained investment in effective programs to see sustainable results. 
Sudden cuts to ongoing programs could erase years of progress, 
essentially throwing all the money the United States has already spent 
out the window. In nations that lack basic infrastructure, governance, 
and strong institutions, the problem of poverty must be worked on from 
multiple angles. If we invest in global health without ensuring there 
is investment for education or electricity we are investing in a health 
system that does not have a workforce or power to run equipment. We 
can't invest in education or agriculture without investing in roads to 
access schools or markets. There is not one silver bullet, and thus we 
must take a holistic approach working with developing countries and 
other partners to create self-sufficient futures for all.
    Finally, for U.S. assistance to achieve its goals, USAID must have 
the Operating Expenses necessary to use development funds 
transparently, accountably, and effectively. Strong core operational 
resourcing enables USAID to make sure it adapts to changing 
circumstances, learns from experience, applies learning to program 
design and implementation, and identifies and addresses the root causes 
of poverty.
    The President's budget proposal is a narrow-minded and small-
hearted reimagining of America's role in the world. Since the Second 
World War, presidents of both parties have advanced U.S. interests by 
working to strengthen international security, end global poverty, and 
deepen diplomatic and cultural ties with people around the world. That 
tradition has bolstered American leadership and helped strengthen human 
rights and international cooperation to fight poverty and save lives. 
It would come to an abrupt end if Congress follows the Trump 
administration's callous blueprint.
    Our country has a long legacy of being a leader on human rights, 
humanitarian assistance, and the fight against global poverty. The 
administration's budget proposal would relegate the United States to a 
new legacy--one of harsh self-interest at the expense of others. That 
is not what the United States stands for.
    Even when we put a premium on taking care of needs at home the 
United States can't opt out of the world. Our action or inaction will 
inevitably have an impact on the rest of the world--the question is how 
and whether the United States will rise to the challenge of leading a 
global effort to confront problems that are bigger than any one nation 
or society.
                                 <greek-l>
                                 ______
                                 
                       Politico MullenJones deg.
Politico Article by Adm. Mike Mullen (Ret.) and Gen. James Jones (Ret.)

                     [From POLITICO, June 12, 2017]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                 U.S. Secretary of State Rex Tillerson

OPINION

         WHY FOREIGN AID IS CRITICAL TO U.S. NATIONAL SECURITY

 We can't solve every foreign crisis through military action, say two 
                      former military commanders.

       (By Adm. Mike Mullen (Ret.) and Gen. James Jones (Ret.) )

    In our active duty days, we were honored to help lead the finest 
fighting force in the world and we strongly support an increase in 
military spending to maintain the readiness of those forces. But our 
experiences also taught us that not all foreign crises are solved on 
the battlefield; in the 21st century, weapons and warfighters alone are 
insufficient to keep America secure.
    That's why we support a robust development budget to advance our 
national security objectives--and we are not alone in this belief. This 
week, we will join 14 other experienced former four-star generals and 
admirals in submitting testimony to Congress that military power alone 
cannot prevent radicalization, nor can it, by itself, prevent despair 
from turning to anger and increasing outbursts of violence and 
instability. Over the last 15 years, our national experience in 
Afghanistan, Iraq, in the Middle East, and now in Africa has shown 
clearly that development aid is critical to America's national 
security.
    Unfortunately, the administration's budget would cut 32 percent 
from the budgets of the U.S. Agency for International Development and 
State Department--including a cut of nearly half to development 
assistance. This is exactly the wrong decision at a time when 
development efforts in the world's poorest and most fragile countries 
are needed more than ever. In turn, these severe cuts to USAID would 
only increase the risk to Americans and to our brave military service 
members. Congress should reject this dangerous path.
    Strategic development assistance is not charity; it is an 
essential, modern tool of U.S. national security. Foreign assistance 
should be respected--and budgeted--as an investment in the enhancement 
of stability in the world's most vulnerable places, not as a no-
strings-attached giveaway to poorer nations.
_______________________________________________________________________

        `` Strategic development assistance is not charity; it is an 
        essential, modern tool of U.S. national security.
_______________________________________________________________________

    American security is advanced by the development of stable nations 
that are making progress on social development, economic growth, and 
good governance; by countries that enforce the rule of law and invest 
in the health and education of their own people. In short, America's 
interests are served by nations that give their people hope for a more 
prosperous and safe future.
    Conversely, American security is undermined by frail and failing 
nations where hope is non-existent, and where conditions foster 
radicalism, produce refugees, spark insurgency, and provide safe havens 
for terrorists, criminal gangs, and human traffickers with global 
reach.
    Fighting extremist groups after they emerge as well-trained and 
well-funded entities is costlier in lives and money than efforts to 
prevent such groups from forming in the first place. Research suggests 
that investing in prevention is, on average, 60 times less costly than 
war and post-conflict reconstruction costs. It is also more difficult. 
To prevent the expansion of terrorist groups, states must deprive them 
of ungoverned territory and the oxygen on which they flourish--the 
belief that the terrorists' radical agenda can provide purpose and 
meaning to the lives of their recruits. That can be a challenge for 
Western nations, much less for developing ones with weak governance 
structures.
    A host of international terrorist groups--al Qaeda, al Shabaab, 
Boko Haram, and ISIS, among others--have taken root in highly fragile 
regions and countries with shared characteristics, such as corruption 
and poor governance, weak institutions, high poverty and inequality, 
widespread indignity, and low quality of life for ordinary citizens. 
Local populations frustrated with poor governance and lacking 
meaningful opportunities to improve their lives or provide for their 
families are prone to tolerate, if not actively support, extremist 
groups that challenge government authority or assume the government's 
role as social-service provider. To combat these groups and prevent 
such areas from serving as fertile recruiting grounds, training areas, 
and transit routes for violent extremists, the United States and its 
allies should become much more proactive in helping address underlying 
conditions that, left unchecked, invite and foment instability.
    Congress can, and should, make America safer with a robust and 
strategic Phase Zero initiative that engages the U.S. Government, non-
governmental organizations, and the private sector to synergistically 
prevent conflict and promote security, development, and governance 
rooted in the rule of law. Such an initiative--accompanied by other 
targeted reforms to our foreign assistance programs--would fill a 
dangerous vacuum that military intervention alone simply cannot 
address. Proactive conflict-prevention strategies are far less 
expensive in terms of resources and lives expended than reactive use of 
our Armed Forces.
_______________________________________________________________________

        `` Proactive conflict-prevention strategies are far less 
        expensive in terms of resources and lives expended than 
        reactive use of our Armed Forces.
_______________________________________________________________________

    Development experts under the auspices of USAID, State Department, 
the Millennium Challenge Corporation, and other Federal agencies must 
be fully committed to a coherent whole-of-government stability-
enhancement strategy that will protect America's interests in the 
modern security environment while minimizing the exposure of our young 
men and women to harm's way.
    The faithful service, courage, and sacrifice of our service members 
deserves and demands that we address and develop the strongest possible 
strategy for conflict-prevention that our nation can muster. Cutting 
the International Affairs budget will hurt our country's ability to 
stop new conflicts from forming, and will place our interests, values, 
and the lives of our men and women in uniform at risk. Congress should 
reject the administration's proposed cuts and instead fully fund the 
international affairs budget. Our military is counting on it.

Admiral (Ret.) Michael Mullen served as Chairman of the Joint Chiefs of 
Staff from 2007 to 2011. General (Ret.) James Jones was the commandant 
of the Marine Corps and served as Supreme Allied Commander-Europe from 
2003 to 2006.
                                 ______
                                 
       Prepared Statement of the U.S. Global Leadership Coalition
    Chairman Graham, Ranking Member Leahy: On behalf of the U.S. Global 
Leadership Coalition--a network of over 500 businesses and NGOs; 
national security and foreign policy experts; and business, military, 
and civic leaders from across the country--thank you for the 
opportunity to testify about the critical resources included in the 
State, Foreign Operations, and Related Programs Appropriations bill, 
which help keep our Nation safe, advance our economic interests, 
project our values, and uphold America's leadership role in the world. 
To meet these responsibilities fully and to set the course for American 
security and prosperity, I strongly urge you to support $60 billion for 
the International Affairs Budget, including a strong 302(b) allocation 
for the fiscal year 2018 State and Foreign Operations Appropriations 
bill that maintains fiscal year 2017 enacted levels.
    At a time of extreme global challenges--famines of historic 
proportions, a refugee crisis not seen since World War II, and the 
growing threat of terrorism--we must use all the tools of our national 
power to confront these complex 21st century threats.
    Strategic investments in America's national security toolbox--
diplomacy and development, alongside defense--have been championed by 
both Republican and Democratic administrations and Members of Congress, 
military leaders, foreign policy and national security experts, 
business leaders, and humanitarian and faith-based organizations.
    That is why I am deeply concerned that the administration's fiscal 
year 2018 budget proposes to cut funding for the International Affairs 
Budget by 32 percent. A draconian and disproportionate cut of this 
magnitude would take funding levels for development and diplomacy 
programs back to levels not seen since 9/11 (when adjusted for 
inflation), and would reduce spending on these programs as a percentage 
of GDP to its lowest level since World War II.
    Given today's global complexities, it is no surprise that America's 
military leaders are the first to say that hard power alone is not 
enough to keep our Nation safe. In February, over 120 retired three- 
and four-star generals and admirals wrote to Congress urging that 
resources for the International Affairs Budget keep pace with the 
growing global threats and opportunities we face, arguing that ``[n]ow 
is not the time to retreat.''
    But it's not just our retired military heroes who are speaking out. 
Over the past 3 months, we have also seen testimony on Capitol Hill 
from the Commanders of CENTCOM, AFRICOM, PACOM, SOUTHCOM, EUCOM, and 
SOCOM, the Chairman of the Joint Chiefs of Staff, and the Secretary of 
Defense calling the State Department and USAID ``indescribably 
critical'' and expressing ``unqualified support'' for resourcing our 
diplomats and development experts. General Thomas Waldhauser, Commander 
of Africa Command, testified during a Senate Armed Services Committee 
hearing that, ``To protect and promote U.S. national security interests 
in Africa, diplomacy and development are key efforts, and our 
partnership with the Department of State and the U.S. Agency for 
International Development (USAID) is key to achieve enduring success.''
    These senior military leaders understand that the State Department 
and USAID are some of the military's most critical partners. They know 
from their experience on the battlefield that when we prevent conflict 
and promote stability we reduce the need for military intervention, 
helping keep our servicemen and women out of harm's way.
    Other civilian development agencies and programs slated for 
significant cuts--such as the U.S. Institute of Peace (USIP), 
multilateral institutions, and international peacekeeping activities --
have been consistently highlighted by our military leaders as critical 
to decreasing the need for U.S. military engagement around the world.
    In addition to advancing our national security interests, for just 
1 percent of the total Federal budget, the programs funded through the 
International Affairs Budget are a proven return on investment for 
America. Eleven out of America's top 15 export markets were once 
recipients of U.S. foreign assistance. Today, we export more goods to 
South Korea--our sixth largest trading partner--than the entire sum of 
aid to that country over five decades. With 95 percent of consumers 
outside the United States, we cannot cede America's role in the world 
to others who will take advantage of our retreat. For example, China's 
official development assistance in Africa alone has grown by more than 
780 percent since 2003. And just last month, China pledged $124 billion 
for its new One Belt One Road initiative to modernize transportation 
and infrastructure, further strengthen economic ties across Asia, and 
build new markets for Chinese companies across 65 countries that 
account for 60 percent of the world's population.
    Proposals such as those to eliminate the Overseas Private 
Investment Corporation (OPIC) and the U.S. Trade and Development Agency 
(USTDA) would severely undermine America's economic competitiveness. 
That is why 225 business leaders from across the U.S.--from Fortune 500 
companies to local Chambers of Commerce--recently wrote to Secretary of 
State Tillerson to voice their support for strong resources for the 
State Department and USAID as critical to our economy and American 
jobs. In the letter, they reminded the Secretary that, ``America's 
diplomats and development experts help build and open new markets for 
U.S. exports by doing what only government can do: fight corruption, 
strengthen the rule of law, and promote host country leadership to 
create the enabling environment for private investment.''
    The proposed closure of nine USAID missions and the elimination of 
economic and development assistance to 37 countries would effectively 
lower our flag around the world and provide an opening for other 
countries like China and Russia to step in, not to mention its impact 
on our diplomatic corps around the world.
    While these investments pay enormous dividends to the American 
taxpayer, we should never forget our pride in America as the ``shining 
city upon a hill.'' U.S. development and humanitarian programs save 
lives, cure disease, and foster democratic values. In March, more than 
100 Christian leaders from across America wrote to Congress urging them 
to protect and support the International Affairs Budget and prevent 
disproportionate cuts to these vital programs that bring ``hope to 
poor, hungry, vulnerable and displaced'' people around the world--
calling it their ``moral responsibility.''
    Today, thanks to the leadership of President George W. Bush, 
bipartisan support in Congress, and the American people, over 11 
million lives have been saved through the President's Emergency Plan 
for AIDS Relief (PEPFAR) and the goal of an AIDS-free generation is 
within reach.
    But the story of PEPFAR and President Bush's contributions goes far 
beyond budgets and resources. It is a story of game-changing reform 
that has continued and grown for over a decade. After 9/11, President 
Bush initiated transformational changes to our foreign assistance 
programs, making them more accountable, results driven, and a force 
multiplier for the American people with a focus on outcomes--lives 
saved--not just inputs, or resources spent. The creation of the 
Millennium Challenge Corporation (MCC) put a laser focus on the 
promotion of economic growth as the key to fighting poverty by setting 
up partnerships with countries that demonstrate they are willing to 
reform and commit to rigorous monitoring and evaluation of results.
    With critical bipartisan support and leadership from Capitol Hill, 
this reform effort has continued. The Obama administration built upon 
this framework, taking the MCC's principles of transparency, 
monitoring, and evaluation and incorporating them into USAID. Today, 
the Foreign Assistance Dashboard allows Americans to see where foreign 
assistance dollars are being spent. The private sector is also more 
involved than ever before with America's foreign assistance programs--
serving as a catalyst, bringing expertise to the table and leveraging 
private sector resources to create impactful and scalable solutions. 
For example, Feed the Future partners with the private sector on 
agriculture and food security, and has empowered more than 9 million 
farmers and provided nutrition support to more than 18 million 
children. Similarly, Power Africa, which seeks to increase electricity 
in Sub-Saharan Africa, leveraged an additional $40 billion in private 
sector commitments from its initial $7 billion commitment.
    In March, President Trump signed an Executive order calling for a 
comprehensive plan to reorganize the executive branch to improve its 
``efficiency, effectiveness, and accountability.'' While there is 
always a need for greater reform and a drive for enhanced 
effectiveness, consultation with Congress and the expertise of the 
stakeholder community will be critical to ensure that new reforms build 
on the progress that has been made to date and garner broad and 
bipartisan support, which will be critical for such reforms to be 
sustained in the future. Concerns, for example, have been raised about 
proposals to merge the State Department and USAID--which would almost 
certainly make our foreign assistance less rather than more effective, 
as we learned years ago from the collapse of U.S. Information Agency 
(USIA).
    Republicans and Democrats can be proud of the legacy of strong 
bipartisan support for the International Affairs Budget and the 
programs it funds. In recent years, Congress has passed eight pieces of 
bipartisan legislation that strengthen programs on food security, 
energy, water, rights for women and girls, ending modern day slavery 
and wildlife trafficking, trade, and aid transparency. Through your 
leadership and with the support of colleagues across the political 
spectrum, lawmakers have worked to strengthen these programs so that 
they are more transparent, more accountable, and provide a greater 
return on our investment than ever before.
    This legacy continues in the 115th Congress, with Republican and 
Democratic Members warning of the dire consequences of deep and 
disproportionate cuts to the State Department and USAID. Lawmakers on 
both sides of the aisle understand that investing in the International 
Affairs Budget is not just the right thing to do, it is also the smart 
thing to do for our national security, economic interests, and values. 
In April, 43 bipartisan Senators--led by Senators Durbin and Young--
wrote to Senate Budget and Appropriations Committee leadership urging 
``robust funding'' for the International Affairs Budget and calling 
proposed cuts ``shortsighted, counterproductive, and even dangerous.''
    I share this conviction and believe that at this critical moment, 
when we face complex national security threats and devastating 
humanitarian emergencies, more American leadership--not less--is 
needed. Let me put this in perspective with three simple numbers that 
illustrate the consequences of America pulling back.

  --20 million. That is the number of people facing famine this year. 
        We know the horrific humanitarian impact, but there is also a 
        frightening national security risk. The countries affected--
        Yemen, South Sudan, Nigeria, and Somalia--are some of the most 
        unstable in the world and harbor terrorist groups like ISIS, Al 
        Shabaab, and Boko Haram. Food insecurity is one of the main 
        drivers of instability--making the moral and national security 
        implications of this famine urgent.
  --65 million. That is the number of displaced people around the 
        world--the highest since World War II--most of whom are women 
        and children. Not only could millions of refugees go without 
        food, water, and shelter, but these cuts could cripple the 
        economies of our frontline allies, like Jordan, creating 
        powerful national security concerns.
  --320 million. That is the number of Americans vulnerable to the next 
        ``Ebola'' if major cuts to global development and health 
        programs are approved. We know that when we invest in global 
        health systems around the world it makes a measurable 
        difference in our ability to respond to infectious disease and 
        prevent pandemics--just compare the response to the Ebola 
        outbreaks in Nigeria and Sierra Leone. While we can't always 
        predict what the next pandemic will be, we can bet that there 
        will be one.

    I am grateful for your longstanding support of the International 
Affairs Budget and your work to provide nearly $60 billion for these 
critical programs in the fiscal year 2017 Omnibus Appropriations bill. 
I urge your continued support for international affairs programs in 
fiscal year 2018 by supporting $60 billion for the International 
Affairs Budget, including a strong 302(b) allocation for the fiscal 
year 2018 State and Foreign Operations Appropriations bill that 
maintains fiscal year 2017 enacted levels.
    On behalf of our diverse coalition of business, faith, military, 
NGO, and development experts from across the country, I thank you for 
your leadership. We all look forward to continuing to work with you to 
advance America's global leadership through a strong and effective 
International Affairs Budget--an essential ingredient to advancing 
America's national interests.

    [This statement was submitted by Liz Schrayer, President and CEO.]
                                 ______
                                 
                   Prepared Statement of World Vision
    Mr. Chairman, Ranking Member Leahy, and Members of the 
subcommittee, I am submitting this testimony for your consideration on 
behalf of World Vision, one of the largest faith-based organizations 
working in humanitarian relief and development. But I also submit this 
testimony as the former Regional Vice President for World Vision in 
East Africa, a position that afforded me the opportunity to see 
firsthand the impact that the State Department and USAID are having on 
alleviation of poverty, injustice and suffering.
    World Vision U.S. has more than one million private donors in every 
State and Congressional district, partners with over 16,000 churches in 
the United States, and works with a wide variety of corporations and 
foundations. We are motivated by our Christian faith to serve every 
child in need and their family; those of any faith, or none. We partner 
with faith leaders throughout the world, equipping them to meet the 
needs of their communities.
    We are part of a global World Vision Partnership, which last year 
implemented more than $2.6 billion in programming to help children, 
families and communities through international relief, development, and 
advocacy assistance. Although private donors support the foundation of 
our work, the U.S. Government is an invaluable partner as we work to 
achieve our broad goals for children. We leverage this partnership to 
reach vulnerable children and families in nearly 100 countries around 
the world, ensuring that the precious resources of the American 
taxpayer are prudently used to promote and protect the well-being of 
children and communities abroad.
    We also use this partnership with the U.S. Government to leverage 
private funding. We've successfully used grant funded programs to spur 
private fundraising from both corporations and individuals and to 
leverage and integrate resources in a way that ensures taxpayer dollars 
go further. For example, through a partnership with MasterCard, World 
Vision is working to improve humanitarian aid delivery via digital 
identity and electronic payment technology, including World Vision's 
Last Mile Mobile Solutions (LMMS) and the MasterCard Aid Network. 
MasterCard partnered with World Vision to test both systems in the 
Philippines to help micro-entrepreneurs rebuild businesses after 
Typhoon Haiyan. World Vision also began using LMMS and MasterCard Aid 
Network in Nepal following the earthquake to deliver a wide range of 
services, food assistance and equipment. The massive cuts proposed to 
the foreign assistance budget would put our ability to create these 
kinds of innovative public-private partnerships at risk, even further 
reducing investments in vulnerable communities.
    But the biggest impact these cuts would have are on real lives and 
real people. I have been on the ground in places like South Sudan, 
where millions of vulnerable people--mostly women and children impacted 
by the violence and crisis in that country, have fled their homes and 
often have a day-to-day fight for survival. People whose lives were 
turned upside-down by the violence and who fled searching for safety. 
In many cases, families watched their children die along the way, but 
once they reached their destination, it was often generous assistance 
from the U.S. Government that allowed their remaining children to 
survive. I've seen the impact the provision of health services such as 
vaccinations and newborn health initiatives can have and how brave and 
committed community health volunteers work tirelessly to save the lives 
of mothers and children. I've seen the difference education--especially 
literacy programs--can make in a child's future, and how proud and 
empowered families feel when their children can read. I've seen how 
peacebuilding and youth empowerment programs supported by the U.S. 
Government prevent conflict and disillusionment, particularly among 
young men. All of these investments serve a purpose and are in the best 
interests of the United States and the American taxpayer.
    Because I have witnessed positive change in the lives of people 
around the world due to U.S. Government investments in relief and 
development programs for over 20 years, I was extraordinarily 
disappointed to see the massive cuts that the administration has 
proposed for both the State Department and USAID. A 32 percent 
reduction in the International Affairs Budget is misguided and short-
sighted. These are programs that foster safe, healthy and stable 
societies, governments and economies around the world. There are very 
few taxpayer investments that have such a long-term impact and such a 
positive return.
    One area of particular concern in the President's budget is the 
elimination of the Development Assistance (DA) account, which becomes 
part of the new Economic Support and Development Fund, but is solely 
administered by the State Department. More and more we are seeing 
poverty being driven to fragile states--places that face conflict, 
inadequate governance, frequent disasters, and other issues that lead 
to instability and a lack of resilience. The Development Assistance 
account is critical in these contexts to move countries from fragility 
to resilience, addressing the drivers of conflict and seeking long-
term, sustainable solutions. The administration also proposes 
eliminating the Complex Crises Fund, which is flexible funding that 
similarly focuses on fragile states and contexts. Both the 
``consolidation'' of DA and the proposed elimination of the Complex 
Crisis Fund are very troubling based on what we know the drivers of 
poverty are and how fragile states and contexts can pose security risks 
to the United States.
    The severe cuts proposed by the administration in global health 
programs is also of grave concern. Not only is funding for infectious 
diseases--that have the ability to reach our own shores--cut 
significantly, including funding for tuberculosis and Global Health 
Security, but basic life-saving interventions to address malaria and 
nutrition are also massively cut. These are investments that we know 
are saving the lives of mothers and children and are supporting more 
families to ensure their children are healthy enough to attend school, 
enabling them to gain an education that leads to a good job in 
adulthood, and allows women to be more productive in the household and 
earn a livelihood as well. These programs are not handouts; they are 
investments in the long term economic growth of countries that can 
become U.S. trading partners and develop economies that allow them to 
better provide for their own people.
    Related to both maternal and child health and fragile states, the 
administration also proposes to eliminate funding to quite a few 
countries that are current recipients of U.S. foreign assistance. Some, 
like Central Africa Republic (CAR), Sierra Leone and Niger have the 
highest child mortality rates in the world. Others like Burundi, India, 
Malawi, and Madagascar have extremely high rates of stunting, which has 
irreversible impact on a child's ability to learn and develop. Others 
are very fragile states where U.S. interests would not be served by 
eliminating our country footprint. Rather than simply ``pulling out'' 
of our development role in these countries, we must look at how we best 
leverage the work of other donors and work in partnership with them to 
achieve our objectives.
    We are also deeply disappointed in the administration's proposed 
cuts to the humanitarian accounts. We are currently in the midst of a 
significant, protracted humanitarian crisis, with the highest number of 
refugees and internally displaced people around the world than we have 
seen since World War II. The administration proposes cutting 
humanitarian assistance by 44 percent. This would stop us in our tracks 
as we respond to these crises, impacting an estimated 39 million people 
who we wouldn't be able to reach with basic, life-saving assistance.
    And while this subcommittee does not appropriate for many of the 
food assistance accounts, they are administered by USAID and I would be 
remiss if I didn't mention them in my testimony. The administration's 
fiscal year 2018 budget request included a series of problematic 
proposals, including: a zeroing out of both Title II, Food for Peace 
(with any funding for emergency food aid shifted into the International 
Disaster Assistance Account (IDA), and the McGovern-Dole International 
Food for Education and Child Nutrition program.
    World Vision joins with our partners and strongly opposes these 
recommendations, which propose eliminating and/or severely cutting 
effective, life-saving funding that helps to create a safer and more 
secure world. Furthermore, the fiscal year 2018 request from the 
administration includes funding for emergency food needs within the 
International Disaster Assistance (IDA) account, yet the administration 
also proposes to reduce IDA from $3.2 billion to $1.65 billion. When 
comparing the fiscal year 2018 request to fiscal year 2016, the cut to 
IDA is 10 percent. Factoring in the elimination of Title II Food for 
Peace (although the Food for Peace office appears to remain and 
emergency food aid assumed to be now funded from IDA), the cut to IDA 
when comparing fiscal year 2016 to the fiscal year 2018 request is 
about 48 percent.
    At a time of historic and unprecedented need, when close to 1.4 
million children could die this year from famine-like conditions 
according to UNICEF, we urge Congress to continue to robustly fund the 
Food for Peace program (both emergency and development programs) and 
McGovern-Dole International Food for Education and Child Nutrition 
program in fiscal year 2018. The International Disaster Assistance 
account must also be funded at fiscal year 2017 levels or above which 
includes the Emergency Food Security Program.
    The administration's budget proposal reframes the purpose of the 
International Affairs Budget, noting that ``international programs help 
to advance the national security interests of the United States by 
building a more democratic, secure, and prosperous world.'' The goal of 
the budget appears to focus more assistance on national security-
aligned interests, as opposed to long-term development or antipoverty 
initiatives, but in the view of World Vision, these are not mutually 
exclusive priorities.
    Lastly, as World Vision seeks to ensure greater efficiency and 
effectiveness in the U.S. international development and humanitarian 
assistance programs, we stand as ready partners willing to improve 
foreign assistance so it saves more lives, builds resilience, and 
continues to reduce levels of poverty and support global efforts to 
reach the Sustainable Development Goals (SDGs) by 2030. around the 
world. It is important as Americans that we continue to be a part of 
this global effort and remain a leader in providing support to some of 
the most vulnerable populations in the world.

    [This statement was submitted by Margaret Schuler, Senior Vice 
President for International Programs World Vision.]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
